<html>
<title> - CLONING: A RISK TO WOMEN?</title>
<body><pre>[Senate Hearing 108-844]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-844

                       CLONING: A RISK TO WOMEN?

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

96-697 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel

                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK LAUTENBERG, New Jersey



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2003...................................     1
Statement of Senator Brownback...................................     1

                               Witnesses

Bruchalski, Dr. John T., Obstetrician and Gynecologist, Fairfax, 
  Virginia.......................................................     3
    Prepared statement...........................................     7
Bustillo, Dr. Maria, Director, Assisted Reproductive 
  Technologies, South Florida Institute for Reproductive Medicine     9
    Prepared statement...........................................    12
Charo, R. Alta, J.D., Associate Dean, Professor of Law and 
  Bioethics, University of Wisconsin Law and Medical Schools.....    25
    Prepared statement...........................................    27
Doerflinger, Richard M., Deputy Director, Secretariat for Pro-
  Life Activities, U.S. Conference of Catholic Bishops...........    36
    Prepared statement...........................................    40
Kimbrell, Andrew, Executive Director, International Center for 
  Technology Assessment..........................................    29
    Prepared statement...........................................    33
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............    18
Millican, Lynne, R.N., B.S.N., Paralegal, Boston, Massachusetts..    48
    Prepared statement...........................................    50

                                Appendix

Wyden, Hon. Ron, U.S. Senator from Oregon, prepared statement....    99
Response to written questions submitted by Hon. Frank Lautenberg 
  to Richard M. Doerflinger......................................    99
Prepared statements on the risks of Lupron usage:
    Kimberly Bradford............................................   100
    Melody Hampton...............................................   106
    Susan Hayward................................................   106
    Lisa A. Plante...............................................   110
    Melanie Waldman..............................................   110
    J. Wolf......................................................   111

 
                       CLONING: A RISK TO WOMEN?

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                                       U.S. Senate,
            Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:35 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Good morning. The hearing will come to 
order. Today, we will conduct our second hearing in this 
Subcommittee on the issue of human cloning. We particularly 
want to try and better understand whether or not human cloning 
for so-called ``therapeutic purposes'' poses a risk to women's 
health. That will be the question we will examine today.
    Many of the proponents of human cloning claim that a cure 
to many of the diseases that plague humanity lies just around 
the corner. In this hearing, we will examine some of these 
claims and also what would have to happen in order for these 
claims to be realized.
    First, we should start with a few definitions. The 
bipartisan Human Cloning Prohibition Act of 2003, S. 245, 
sponsored by myself and Senator Landrieu, defines ``human 
cloning'' as human asexual reproduction that is accomplished by 
introducing nuclear material from one or more human somatic 
cells into a fertilized or unfertilized oocyte, or human egg, 
whose nuclear material has been removed or inactivated so as to 
produce a living organism at any stage of development that is 
genetically virtually identical to an existing or previously 
existing human organism.
    The definition is very important. The fusion of the somatic 
cell and the oocyte creates a human embryo that is genetically 
identical to the somatic cell donor. This genetic match is what 
proponents of human cloning claim will solve the immune-
response rejection problem and will provide treatment to 
millions of people.
    This hearing will examine what would be necessary in order 
to realize the promise held out to those suffering by those who 
are advocating human cloning as a means to cure the diseases 
that plague humanity. And clearly, we all want to see a cure 
for these horrible diseases.
    However, it is clear that in order to be effective, 
``therapeutic'' cloning must rely on the collection of a vast 
number of human eggs. In order to conduct so-called 
``therapeutic cloning'' on the scale that would yield just a 
portion of the benefit that the advocates promise, one would 
need to harvest a vast number of human eggs from women of 
childbearing age. Dr. David Stevens estimates that--and this is 
a quote from him--``To get enough eggs to seek clone cures for 
these four diseases''--just four diseases--``ALS, Parkinson's, 
Alzheimer's, and diabetes, every woman in the U.S. aged 18 to 
44--that is approximately 55 million--would have to endure two 
cycles of ovarian hormone hyperstimulation and then undergo 
surgery.''
    The ``egg dearth'' is a mathematical certainty. It is one 
reason why some researchers say that therapeutic cloning will 
not be generally available as a medical treatment.
    Recently, biotech researchers, John Odorico, Dan Kaufman, 
and James Thompson, admitted the following in the research 
journal, Stem Cells, and stated this, ``The poor availability 
of human oocytes, or eggs, the low efficiency of the nuclear 
cell procedure, and the long population doubling time of human 
ES cells make it difficult to envision this--therapeutic 
cloning--becoming a routine clinical procedure, even if ethical 
considerations were not a significant point of contention.''
    Perhaps this is what led Dr. Thomas Okarma, Chief Executive 
of Geron Corporation, to state that it would take, quote, 
``thousands of human eggs on an assembly line'' to produce a 
custom therapy for a single person. He then goes on, ``This 
process is a nonstarter, commercially.''
    Concerns such as these, as well as others, have led a group 
of progressive activists, many of whom support abortion rights, 
to state in their letter of support for a ban on all human 
cloning that, ``Although we may differ in our views regarding 
reproductive issues, we agree that a human embryo should not be 
cloned for the specific intention of using it as a resource for 
medical experimentation or for producing a baby. Moreover, we 
believe that the market for eggs, women's eggs, that would be 
created by this research will provide unethical incentives for 
women to undergo health-threatening hormone treatment and 
surgery. We are also concerned about the increasing bio-
industrialization of life by the scientific community and life 
science companies, and shocked and dismayed that clonal human 
embryos have been patented and declared to be human, 
`inventions.' ''
    As I am sure many of our witnesses are already aware, and 
as many in this audience already know, the typical in vitro 
fertilization procedure involves the collection of eggs from 
women who seek to become pregnant in this manner. The market 
for these eggs is already developing. In fact, it is now known 
that Advanced Cell Technology of Massachusetts, the pioneers in 
human cloning, paid women up to $4,000 per egg donation. Such a 
market for women's eggs will clearly be a threat to the health 
of many women. That women undergo the health risks associated 
with egg donation for the purpose of having children is one 
thing; but that they would be induced by some to undergo this 
health risk for money is another matter.
    I am hopeful that we can use this hearing to better 
understand the threats posed to women and whether or not this 
is a route we should even consider. But more importantly, I am 
growing increasingly concerned that some of the proponents of 
human cloning are holding out the hope for a cure as a tool to 
build support for a morally dubious enterprise.
    In the past, we have heard that fetal tissue research held 
the cure to the whole host of dread diseases that plague 
humanity. To date, we have met only with failure upon failure 
from fetal tissue research. Almost five years ago, we heard 
that human embryonic stem cell research held the cure. In fact, 
at one hearing Senator Specter asked Dr. James Thompson, 
``Illustrative for Parkinson's now, for Parkinson's, how long 
for a cure?'' And Dr. Thompson's response, ``Parkinson's? I am 
going to say five to ten years more. It will be one of the 
first ones.'' This December marks five years since he made that 
statement, and, to date, there is no cure for Parkinson's from 
human embryonic stem cells in sight.
    I want to fight for a cure to Parkinson's disease. I want 
to see cures. I want to see us going routes and ways that we 
can get there. I want to get to the bottom of this, but we 
cannot continue to play with people's hopes.
    Finally, I would like to note, with some satisfaction, that 
we are making some clear progress on the issue of human 
cloning. The Governor of Arkansas signed a bill very similar to 
S. 245, the bipartisan Human Cloning Prohibition Act of 2003, 
into law earlier this week. The State Senate of North Dakota 
voted, 46 to zero, yesterday to approve similar legislation, 
the State House in North Dakota having already voted, 90 to 
one, to approve the same legislation. There is a movement 
taking place across the board in a number of states.
    We want to examine this, in particular, regarding women's 
health. And with that, I want to call up the first panel to 
testify here today. And if you would come forward. I think 
Senator Landrieu may be coming up later on. But the first panel 
of Dr. John Bruchalski, from Fairfax, Virginia, Dr. Maria del 
Carmen Bustillo, from Miami, Florida, and I think Lynne 
Millican called in earlier, sick, so I do not know if she has 
been able to arrive yet or not, apparently not. So we'll 
proceed with the two of you as the first panel.
    I very much appreciate your attendance and your 
presentations. I will be happy to take your full written 
statement into the record and allow you to summarize, if you 
would like to; or if you would like to present that full 
statement, that would be fine, as well.
    Dr. Bruchalski, I am sure I butchered your name. Would you 
give me the correct pronunciation?
    Dr. Bruchalski. Bruchalski.
    Senator Brownback. Bruchalski. I was making too much of it. 
I apologize for that.
    Dr. Bruchalski, the floor is yours. Thank you very much for 
joining us here today.

     STATEMENT OF DR. JOHN T. BRUCHALSKI, OBSTETRICIAN AND 
                GYNECOLOGIST, FAIRFAX, VIRGINIA

    Dr. Bruchalski. Thank you, Senator, and good morning.
    The tragic human backdrop to this Senate hearing is the 
very real and painful reality that one in six women of 
reproductive age will seek professional help during their 
lifetimes because of infertility.
    I come before you today because of my personal experience 
as an obstetrical and gynecologic resident from 1987 to 1991 at 
the Norfolk Medical Program, the home of the Jones Institute 
for Reproductive Medicine. It is the American infertility 
center that not only successfully produced America's first in 
vitro child, but was also the center that coined the term 
``pre-embryo'' while I was there.
    And because of what I have learned in the last dozen years 
as a practicing obstetrician and gynecologist, I want to focus 
my remarks to the very real issues of egg donation in the 
cloning process, otherwise termed ``human somatic cell nuclear 
transfer,'' and their detrimental impact on women.
    To appreciate this deleterious effect and the massive scope 
of this risk to women, I would just like to briefly review the 
cloning process. An egg is surgically, usually transvaginally, 
taken from the hormonally treated woman's ovary. The nucleus is 
removed from that egg, and a somatic nucleus from the 
individual to be cloned is transferred into an empty egg and 
fused with electric current. Then development occurs through 
the morula stage when the pre-embryo is screened for gene 
expression and imprinting defects. This is done until the 
blastocyst stage, when it is implanted into the woman's uterus.
    However, this process is quite fragile, that despite having 
cloned five animal species, we hypothesize the need for 
hundreds, if not thousands, of eggs to be obtained for each 
clone to be used to treat the mentioned diseases of 
Parkinson's, Alzheimer's, and diabetes, to name a few.
    Where and how and from whom are these eggs to be obtained? 
We need look no further than our present IVF data. If IVF 
donors average 10 to 15 eggs retrieved per hyper-stimulated 
cycle and each patient with Parkinson's disease needs 50 to a 
hundred eggs to clone to obtain stem cells, for the 1 million 
people with Parkinson's disease, 50 million eggs would be 
required to be retrieved from possibly 5 million egg donors. 
For the 17 million people with diabetes, 850 million eggs would 
be required, and, subsequently, 85 million egg donors needed.
    To obtain these eggs, we must turn to drugs and/or to 
donors. But remember, the success of cloning in the IVF process 
used rests literally on the bodies of the women experimented 
on. IVF was successful in humans before it was successful in 
animals. ICSI, intracytoplasmic sperm injection, an assisted 
reproductive technology used in up to 40 percent of all cycles 
now was successful in humans before it was successful in 
animals. There appears to be a fuzzy boundary between research 
and treatment when it comes to those women undergoing these 
processes.
    Our reproductive industry is not enveloped by a coherent, 
whole, regulatory framework. The drugs are regulated by the FDA 
without long-term data, and the process of mixing sperm and egg 
together in any way in combination is not regulated at all. The 
natural progression of research is to do experiments in cell 
cultures in animal models to look at safety issues first and 
whether these experiments are effective. Then, after you have 
this data, you move on to humans, specifically women in the 
case of this reproductive technology. This has not happened 
with the reproductive technologies up until now, and this is my 
concern.
    Institution review boards that are found in hospitals are 
only required for research in federally backed institutions or 
for FDA-regulated products. And ART has been largely privately 
funded.
    The Genetics and Public Policy Center at Johns Hopkins 
Hospital University is beginning to look into this travesty. 
Women have borne the positive and negative effects of being 
experimented on through the years of IVF, and now it appears 
the same with cloning.
    Kathy Hudson, who is the director of the above-mentioned 
institute at Hopkins said, ``Scientifically, there are some 
unanswered questions about the long-term consequences those 
drugs might have on women. There are questions about whether 
they lead to the production of unhealthy eggs and whether they 
pose a cancer risk to the mother. That is an area that we, at 
the center, hope to examine.''
    Drugs such as Fertinex, Gonal-F, Pergonal, Cetrotide, and 
Lupron are all to be under review. Significant headaches, 
abdominal swelling, abdominal pain are some of the more common 
side effects. And since we have now had a plateau in the 
success of IVF procedures, we are now beginning to look into 
other user-friendly protocols that have fewer side effects.
    In 2002, alone, at least 12 studies in articles in peer-
review journals suggest a potential link between these 
reproductive technologies and birth defects, like heart defects 
and genetic diseases, childhood cancers, decreased cognition, 
and others. We truly do not know whether it is due to the 
nature of the problems of infertility or due to the drugs and 
the procedures of assisted reproduction.
    The fertility drug-cancer link refers to ovarian 
stimulation in ovarian cancer. The initial Whittemore study, a 
meta-analysis of 12 case-controlled studies on ovulation 
induction seemed to show a 27-fold increased odds ratio for 
developing ovarian cancer, even though some of the analysis was 
determined to be flawed. Later, the Rossing study reported a 
similar association between the drugs of ovulation and ovarian 
cancer.
    This alleged increased risk of ovarian cancer in patients 
using ovulation-inducing agents is very disturbing, and a 
consensus among our American Fertility Society recommends that 
women who are considering the use of fertility drugs should be 
told that there is a possibility of increased risk and should 
be given alternatives. But at this point, there is no data 
overall to support discontinuing or changing these ovulation-
induction procedures. Two small numbers, detection bias and 
recall bias, were all used to statistically support their 
conclusions.
    These drugs also have spurred the profound rise in multiple 
births--twins, triplets, and above. In the year 2000, 35 
percent of ART births were multiples, and their higher risks 
for birth defects and low birth weight and added healthcare 
costs are a significant psychological burden for women, not to 
mention the process of selection reduction where the infertile 
woman is faced with the decision to terminate one of her 
fetuses to improve outcome.
    Now, the other approach to obtain eggs is to seek a donor, 
a woman who is willing to donate her eggs for the cloning 
process. Again, we can look to in vitro experience for what to 
expect in the cloning scenario. Last month, experts in the 
United Kingdom publicly questioned whether such selfless acts 
are justified given the health risks they may face in later 
life. These women are paid between 1,500 to 3,500 American 
dollars, or 4,000 to 5,000 British pounds, oftentimes going to 
the highest bidder over the Internet.
    A prominent physician at a London IVF clinic, citing the 
unknown long-term effects and the possible cancer risks, says 
that they cannot duck this issue any longer for their donor egg 
patients. However, the British Human Fertilization and 
Embryology Authority says it has no plans to review the system 
for egg donation.
    On this side of the Atlantic, it is illegal to buy or sell 
human body parts, except eggs. In 1999, we transferred more 
than 8,000 embryos produced from fresh or frozen donated eggs 
into the uteri of women, according to the American Society for 
Reproductive Medicine. Ads placed in campus newspapers dangling 
tens of thousands of dollars before women with the right 
pedigree of looks, talent, and SAT scores is the method for 
attracting these precise donors. For a month, the woman turns 
over her body to the process of superovulation with the above-
mentioned agents and the harvesting procedure of transvaginal 
aspiration. One out of a hundred will develop the 
hyperstimulation syndrome, which includes ascites, pulmonary 
overload, and sometimes hospitalization. One Stanford woman 
recently even had a stroke while being treated for egg 
donation.
    The psychological component of this process is being 
questioned. ``Are we leading them to make a decision that later 
in life they may regret? The money will be spent, and, in the 
end, she will have given up her genetic child forever. We have 
to really care about these women.''
    So, in conclusion, I agree that the problem of infertility 
is quite enormous and that we have made great strides since the 
late 1970s and early 1980s. However, my profession has recently 
seen the data on the benefits of menopausal hormonal therapy 
crumble in less than a year while listening to all the angst 
and betrayal spoken of by my older patients who have taken 
these hormonal therapies.
    After considerable pressure, my alma mater, despite private 
funding, decided to stop creating human embryos specifically 
for stem cell research this past January. That is the Jones 
Institute. They were the first institute in the world to make 
human embryos for research and then to destroy them after 
harvesting the stem cells. We perfected ART in humans before we 
did it in animals, using women as research subjects and 
treatment end points. There was no animal data before IVF and 
ICSI were done in humans.
    In 1993, the award-winning prized paper at the conjoined 
meeting of the American and Canadian Fertility Societies came 
out of George Washington University and Dr. Hall. Seventeen 
abnormal human embryos were taken and multiplied to obtain 48 
embryos. Two embryo clones developed to the 32-cell stage 
before the procedure was stopped. This was done in 1993 and 
presented at that conference and received the top prize.
    I come before this Committee, and I urge this Subcommittee 
to see cloning as another risk to women.
    Thank you very much.
    [The prepared statement of Dr. Bruchalski follows:]

    Prepared Statement of Dr. John T. Bruchalski, Obstetrician and 
                    Gynecologist, Fairfax, Virginia
Introduction
    Good morning. The tragic human backdrop to this Senate hearing is 
the very real and painful reality that one in six women of reproductive 
age will seek professional help during their lifetimes because of 
infertility. \1\ I come before you today because of my personal 
experiences as an obstetrical and gynecologic resident from 1987 to 
1991 at the Norfolk medical program that houses the Jones Institute for 
Reproductive Medicine, the preeminent, American infertility Center that 
not only successfully produced America's first in vitro child, but also 
the Center that coined the term ``pre-embryo'' while I was there; and 
because of what I have learned in the last dozen years as a practicing 
obstetrician and gynecologist I want to focus my remarks to the very 
real issues of egg donation in the cloning process, (human somatic cell 
nuclear transfer), and their detrimental impact on women.
Cloning's Abuse of Women: Issues With Egg Donation
    To appreciate the deleterious effects and the massive scope of this 
risk to women, let's briefly review the cloning process. An egg is 
surgically, usually transvaginally, taken from the hormonally treated 
woman's ovary. The nucleus is removed from the egg, and a somatic 
nucleus from the individual to be cloned is transferred into the empty 
egg and fused with electric current. Then development occurs through 
the morula stage when the pre-embryo is screened for gene expression 
and imprinting defects, until the blastocyst stage (64 to 200 cell 
stage) when it is implanted into the woman's uterus. \2\
    However, this process is so fragile that despite having already 
cloned five animal species, we hypothesize the need for hundreds, if 
not thousands of eggs to be obtained for each clone to be used to treat 
the mentioned diseases of ALS, Parkinson's, Alzheimer's and diabetes. 
Where and how and from whom are these eggs to be obtained? We need look 
no further than our present IVF data. If IVF donors average 10 to 15 
eggs retrieved per hyper-stimulated cycle presently, and each patient 
with Parkinson's Disease need 50 to 100 eggs to clone, to obtain stem 
cells; for the one million Parkinson patients, 50 million eggs would be 
required to be retrieved, from possibly 5 million egg donors. For the 
17 million with diabetes, 850 million eggs would be required, and 
subsequently, 85 million egg donors needed. \3\
    To obtain these eggs we must turn to drugs and/or to donors, but 
remember, the success of cloning and the IVF processes used rests 
literally on the bodies of the women experimented on. IVF was 
successful in humans before it was successful in animals. ICSI, an 
assisted reproductive technology, used in up to 40 percent of all 
cycles, was successful in humans before it was successful in animals. 
There is a fuzzy boundary between research and treatment when it comes 
to those women undergoing these processes. \4\ Our reproductive 
industry is not enveloped by a coherent, whole regulatory framework. 
The drugs are regulated by the Food and Drug Administration without 
long term data, and the process of mixing sperm and egg together in any 
way and combination is not regulated at all. The natural progression of 
research is to do experiments in cell culture or animal models, to look 
at safety issues first, and whether these experiments are effective. 
Then after you have a lot of animal data, you move into humans, 
specifically women in the case of reproduction. This hasn't happened 
with ART and this is my concern. Institutional Review Boards are only 
required for research if federally backed institutions, or for FDA 
regulated products, and ART has been largely privately funded. The 
Genetics and Public Policy Center at Johns Hopkins University is 
beginning to look into this travesty. Women have born the positive and 
negative effects of being experimented on through the years of IVF and 
now it appears the same with cloning.
Drugs
    Kathy Hudson, the director of the above mentioned new institute at 
Hopkins said, ``Scientifically, there are some unanswered questions 
about the long term consequences those drugs might have on women. There 
are questions about whether they lead to the production of unhealthy 
eggs, and whether they pose a cancer risk to the mother. That's an area 
that we at the Center hope to examine''. \5\ Fertinex, purified FSH 
from urine; Gonal F, FSH engineered from recombinant DNA; Pergonal, a 
mixture of FSH and LH collected from postmenopausal women; Cetrotide, a 
GnRH antagonist; and Lupron, the initial GnRH agonist mainstay are all 
to be under review. Significant headaches, abdominal bloating changing 
clothes size, and abdominal pain are some of the more common side 
effects. \6\
    In 2002 alone, at least 12 studies and articles in peer-reviewed 
journals suggest a potential link between ART and birth defects like 
heart defects and genetic diseases; childhood cancer; decreased 
cognition and more. We do not know whether it is due to the nature of 
the problems of infertility or due to the drugs and the procedures of 
assisted reproduction. \7\<SUP>,}</SUP>\8\
    The fertility drug/cancer link refers to ovarian stimulation and 
ovarian cancer. The initial Whittemore study, a metaanalysis of 12 case 
controlled studies on ovulation induction seemed to show a 27 fold 
increased odds ratio for developing ovarian cancer even though some of 
the analysis was determined to be flawed. \9\ Later, the Rossing study 
reported a similar association between the drugs of ovulation and 
ovarian cancer. \10\ This alleged increased risk of ovarian cancer in 
patients using ovulation inducing drugs is very disturbing, and a 
consensus among our American Fertility Society recommends that women 
who are considering the use of fertility drugs should be told that 
there is a possibility of increased risk and should be given 
alternatives, but there is no data to support discontinuing or changing 
ovulation induction, follicular stimulation, or in-vitro fertilization. 
\11\ Too small numbers, detection bias, and recall bias were used to 
support their conclusion.
    These drugs also have spurred the profound rise in multiple births; 
twins, triplets, and above. In 2000, 35 percent of all ART births were 
multiples, and their higher risk for birth defects and low birth weight 
and added health care costs are a significant psychological burden for 
women, not to mention the process of selective reduction where the 
infertile woman is faced with the decision to terminate one of her 
fetuses to improve outcome. \12\
Egg Donors
    The other approach to obtain eggs is to seek a donor, a woman who 
is willing to donate her eggs for the cloning process. Again, we can 
look to the in-vitro experience for what to expect in the cloning 
cases.
    Last month, experts in the United Kingdom publicly questioned 
whether such selfless acts are justified given the health risks they 
may face in later life. These women are paid from $1,500 to $3,500 in 
America to 4,000 to 5,000 pounds in the UK, oftentimes going to the 
highest bidder over the internet. \13\ A prominent physician at a 
London IVF clinic citing the unknown long term effects, and the 
possible cancer risks says they can not duck this issue any longer for 
their donor egg patients. However, the British Human Fertilization and 
Embryology Authority says it has no plans to review the system for egg 
donation. \13\
    On this side of the Atlantic it is illegal to buy or sell human 
body parts, except for eggs. In 1999, we transferred more than 8,000 
embryos produced from fresh or frozen donated eggs into the wombs of 
women according to the American Society for Reproductive Medicine. \14\ 
Ads placed in campus newspapers, dangling tens of thousands of dollars 
before women with the right pedigree of looks, talent and SAT scores is 
the method for attracting the precise donor. \15\ For a month, the 
woman turns over her body to the process of superovulation with the 
above mentioned drugs and the harvesting procedure of transvaginal 
aspiration. One out of hundred will develop the ``hyperstimulation'' 
condition that includes: fluid shifts, ascites, pulmonary overload and 
sometimes hospitalization. One Stanford woman even had a stroke while 
being treated for egg donation. The American Society for Reproductive 
Medicine developed guidelines that place a $5,000 limit on donor 
compensation, and calling for independent medical and psychological 
evaluations of the donors. The guidelines seem to be on target but not 
all centers adhere to them. \15\
    The psychological component of this process is being questioned, 
``Are we leading them to make a decision that later in life they may 
regret? The money will be spent and, in the end, she has given up her 
genetic child forever. We have to really care about these women.'' \16\
Conclusion
    We have to really care about these women. My profession has seen 
the data on the benefits of menopausal hormonal therapy crumble in less 
than a year, while listening to all the angst and betrayal spoken by my 
elder patients.
    After considerable pressure, my alma mater, despite private 
funding, decided to stop creating human embryos specifically for stem 
cell research this past January. They were the first institute in the 
world to make human embryos for research and then to destroy them after 
harvesting the stem cells. \17\
    We perfected ART in humans before we did it in animals, using women 
as research subjects and treatment endpoints. There was no animal data 
before IVF and ICSI were done in humans. With this as background and 
fact, I urge this Subcommittee to see cloning as another risk to women.
                              Bibliography
    \1\ Abma, JC et.al. Centers for Disease Control and Prevention, 
National Center for Health Statistics. Fertility, family planning and 
women's health: new data from the 1995 National Survey of Family 
Growth, Report No. 19; Series 23, 1997.
    \2\ Geron Inc. Advanced Cell Technology.
    \3\ David Stevens, MD, private communication, 7 May 2002.
    \4\ www.popsci.com/popsci/medicine/article/0,12543,419326-2,00.html
    \5\ www.popsci.com/popsci/medicine/article/0,12543,419326,00.html
    \6\ Physicians' Desk Reference 2003, Thompson, 3119-3136.
    \7\ www.popsci.com/popsci/medicine/article/0,12543,411770-2,00.html
    \8\ www.popsci.com/popsci/medicine/article/0,12543,411770-3,00.html
    \9\ Am. J. Epidemiol. 136:1175-1220, 1992.
    \10\ N. Engl. J. Med. 331:771-6, 1994.
    \11\ Ob.Gyn. News October 15, 1993, 12, 13.
    \12\ Blickenstein I, Keith LG, eds. Iatrogenic Multiple Pregnancy: 
Clinical Implications. London: Parthenon Publishing; 2000.
    \13\ //society.guardian.co.uk/publichealth/story/
0,11098,892559,00.html
    \14\ //seattletimes.nwsource.com/cgi-bin/
PrintStory.pl?document_id=134568946&zsection 
_id=268448406&slug=egg04m&date=20021104
    \15\ www.usnews.com/usnews/issue/030113/health/13donor.b.htm
    \16\ Martha Frase-Blunt, Ova-Compensating? Women Who Donate Eggs To 
Infertile Couples Earn a Reward--But Pay A Price, Washington Post, 
Tuesday, December 4, 2001; page HE01.
    \17\ Carol Morello, Center Shifts Stem Cell Approach, Washington 
Post, Friday, January 18, 2002, page A14.

    Senator Brownback. Thank you, Dr. Bruchalski. I appreciate 
that.
    Dr. Bustillo, thank you very much for joining us here 
today. We look forward to your testimony.

      STATEMENT OF DR. MARIA BUSTILLO, DIRECTOR, ASSISTED 
           REPRODUCTIVE TECHNOLOGIES, SOUTH FLORIDA 
              INSTITUTE FOR REPRODUCTIVE MEDICINE

    Dr. Bustillo. Thank you very much. Good morning, Mr. 
Chairman.
    I am Dr. Maria Bustillo. I am the director of Assisted 
Reproductive Technologies, or ART, at the South Florida 
Institute for Reproductive Medicine in Miami, Florida. However, 
today I am representing the Coalition for the Advancement of 
Medical Research. It is a group of more than 75 patient 
advocacy, scientific, and research organizations dedicated to 
stem cell research.
    Since 1981, I have been involved in ART working to assist 
women and their families to bring children into this world. I 
have worked in human reproduction since the earliest days of in 
vitro fertilization and its related technologies. The field, 
which, like embryonic stem cell research and somatic cell 
nuclear transfer today, was filled with controversy.
    Over the last 20 years, the science and clinical practice 
of ART has improved dramatically. To date, more than 150,000 
children have been born in the United States thanks to these 
treatments.
    Over the past two decades, I have advocated for the 
adequate inclusion of women in clinical trials. Early on in 
this debate, some individuals were concerned about the 
exploitation of women, but the Institute of Medicine of the 
National Academy of Sciences, in its landmark 1994 report, 
concluded that both justice and science were best served by the 
adequate inclusion of women in well designed scientific 
research.
    Similarly, today, as we view this new area of science, 
regenerative medicine, individuals again have expressed 
concerns about the exploitation of women. I believe that this 
relatively new area of science, properly regulated, potentially 
holds more hope for treatments and cures for diseases for which 
women and men suffer than it poses risks to their health. In 
this belief about therapeutic cloning I am in agreement with 40 
Nobel Prize winners and the former First Lady, Nancy Reagan.
    Today's discussion relates to research to improve the 
health of millions of patients, many of whom are women, while 
preventing the specter of human reproductive cloning in an area 
which I believe is unethical and unsafe. Categorically, I am 
against the cloning of a new human being, and I believe that 
most Americans, including scientists and physicians, would 
agree.
    Opponents of therapeutic cloning protest that women will 
become egg-producing factories endangering themselves and 
deepening the divide between socioeconomic classes, because 
poor women will be more willing to sell their eggs. Donating 
eggs is far more complicated than contributing sperm, but women 
are smart enough to make informed choices about their bodies, 
including what they want to do with their eggs.
    It is important that we deal with facts, not speculation 
and not rhetoric. We have a great deal of experience with egg 
donation. It is a vital therapeutic option which has been used 
to help more than 15,000 American families to have children.
    I was a member of the American team that performed the 
first egg donation in 1983, and I have personally treated many 
egg donors over the last 20 years. I can assure you that I 
would not do that if it were not safe. All potential egg donors 
first undergo extensive medical and psychological screening. 
Ordinarily, a woman matures and releases only one egg in a 
menstrual cycle. In our techniques, including egg donation, 
medications are given to achieve the development of multiple 
eggs. Over that time period, the woman is monitored. And after 
the development is deemed appropriate, the eggs are retrieved 
transvaginally using ultrasound guidance.
    The American Society for Reproductive Medicine and the 
Society for Assisted Reproductive Technology have guidelines 
which they have promulgated extensively that are both clinical 
and ethical guidelines for gamete donation. And all its member 
clinics, 370 member clinics of SART, are required to adhere to 
these guidelines.
    I would like to ask that these reports and statement be 
entered into the record.
    Senator Brownback. Without objection, they will be in the 
record. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Dr. Bustillo. Many of the standards the profession has had 
in place for a number of years will now be enforced by the FDA 
as they make final the regulations of reproductive tissues 
within the next year.
    In sum, there is a long history of egg donations for 
reproductive uses. Protections and safeguards for both the 
donor and the recipient are in place and, I think, could be 
easily modified to accommodate egg donation for research or 
clinical applications of embryonic stem cells.
    As a scientist and long-time women's health advocate, I 
also find a complete ban on research troubling. About 25 years 
ago, because of similar religious and ethical considerations, 
there was a call for a ban on research involving recombinant 
DNA. Today, hundreds of thousands of people are healthier or 
alive because of the use of recombinant DNA to produce insulin, 
interferons, and other therapeutic recombinant molecules.
    This leads me to discuss why I believe women, as well as 
men, have tremendous potential to benefit from therapeutic 
cloning. Regenerative medicine, including using cloning 
techniques to create new cells more like a patient's own cells 
holds the promise to treat and cure numerous debilitating and 
deadly diseases like cancer, autoimmune diseases like lupus, 
multiple sclerosis, and early-onset diabetes, cardiovascular 
disease, and neurological diseases like Alzheimer's and 
Parkinson's. Annually, these diseases strike more than a 
hundred million individuals, a large proportion of whom are 
women. This field of research holds the potential to restore 
normal, healthy functions to cells and replace those that no 
longer function.
    Therapeutic cloning using somatic cell nuclear transfer 
holds great promise to develop new and innovative treatments 
for numerous diseases. For instance, let us discuss breast 
cancer. Using somatic cell nuclear transfer, scientists could 
take a cell from a patient with breast cancer and reprogram the 
cell to its earliest stage of development. Then they can 
compare the diseased cell's development to the healthy cell's 
development. In so doing, scientists could learn about the 
trigger mechanisms that lead to that disease. These fundamental 
insights offer tremendous potential for the development of 
interventions to treat or prevent disease. This is an example 
of why extracting stem cells from in vitro fertilized embryos 
is inadequate in tackling certain research.
    Women are affected not only by the diseases that attack 
them, but also by the diseases contracted by other family 
members, as they, women, are routinely their families' 
predominant caretakers. Women's, wives', mothers', daughters' 
lives quickly become subsumed by the illnesses within their 
families.
    I realize that embryonic stem cell research is in its 
infancy and an enormous amount of research must be performed 
before it can be translated into medical treatments, but we 
must carefully weigh the implications of any roadblocks that 
might halt this research. As with any technology, procedures 
become more efficient in time, so fewer eggs will be required. 
Researchers in therapeutic cloning also are hopeful that in the 
future they will know how to generate stem cells without 
needing eggs.
    Senate bill 303, the Hatch-Feinstein bill, strictly 
punishes unlawful conduct by providing criminal and civil 
penalties for violating the law while at the same time allowing 
physician and patient access to potential life-saving therapies 
without the fear of reprisal.
    I thank you for your time.
    [The prepared statement of Dr. Bustillo follows:]

     Prepared Statement of Dr. Maria Bustillo, Director, Assisted 
  Reproductive Technologies, South Florida Institute for Reproductive 
                                Medicine
    Good morning, Mr. Chairman and Members of the Subcommittee. I am 
Dr. Maria Bustillo, Director of the ART at the South Florida Institute 
for Reproductive Medicine in Miami, Florida. I also am a founding 
member and former board member and vice president of the Society for 
Women's Health Research; past President of the Society for Assisted 
Reproductive Technology and former board member of the American Society 
of Reproductive Medicine. Today I am representing the Coalition for the 
Advancement of Medical Research, a group of more than 75 patient 
advocacy, scientific and research organizations dedicated to stem cell 
research.
    Since 1981, 1 have been involved in assisted reproductive 
technology, working to assist women and their families to bring 
children into this world. I have worked since the earliest days of In-
Vitro Fertilization and related Assisted Reproductive Technologies, a 
field which like embryonic stem cell research and somatic cell nuclear 
transfer today, was filled with controversy. Over the last twenty 
years, the science and clinical practice of ART has improved 
dramatically. To date, more than 150,000 children have been born in the 
United States thanks to these treatments.
    Throughout my career I also have worked to advance research on 
women's health and supported work to alleviate their suffering and 
improve the quality and longevity of their lives. With the Society, 
over the past decade, I have advocated for the adequate inclusion of 
women in clinical trials and the subsequent analysis of resultant data 
so that scientific conclusions take into account any differences 
between women and men. Early on, in this debate, some individuals were 
concerned about the exploitation of women. But, the Institute of 
Medicine (of the National Academy of Sciences) in its landmark 1994 
report concluded that both justice and science were best served by the 
adequate inclusion of women in well-designed scientific research.
    Similarly, today as we view this new area of science, regenerative 
medicine, individuals again have expressed concerns about the 
exploitation of women. Once again, I am in agreement with the National 
Academy of Sciences. Two of its recently published reports support the 
exploration of the potential of regenerative medicine and therapeutic 
cloning. I believe that this relatively new area of science, properly 
regulated, potentially holds more hope for treatments and cures for 
diseases from which women and men suffer than it poses risks to their 
health.
    Today's discussion relates to research to improve the health of 
millions of patients, many of whom are women, while preventing the 
specter of human reproductive cloning--an area which I believe is 
unethical and unsafe. Categorically, I am against the cloning of a new 
human being, and I believe that most Americans, including scientists 
and physicians, would agree. Just this month, in a poll commissioned by 
the Coalition for the Advancement of Medical Research, more than two 
thirds of Americans support therapeutic cloning research to produce 
stem cells for treating life-threatening diseases and conditions and 
want the government to allow it to proceed. I agree with them and the 
National Academy of Sciences, 40 Nobel Prize winners, and former First 
Lady Nancy Reagan in my support for therapeutic cloning.
    Initially, I would like to counter opposition to therapeutic 
cloning as it relates to women. First, opponents of cloning protest 
that women will become egg-producing factories, endangering themselves 
and deepening the divide between socioeconomic classes because poor 
women will be more willing to sell their eggs.
    It is true that donating eggs is far more complicated than 
contributing sperm. But women are smart enough to make informed choices 
about their bodies, including what they want to do with their eggs. 
Women who believe that they can help an ailing family member or even 
help women like themselves who have a history of, say, Alzheimer's 
disease, should be allowed to make these choices.
    It is important that we deal with facts, not speculation and not 
rhetoric. We have a great deal of experience with egg donation. It is a 
vital therapeutic option which has been used to help more than 15,000 
American families have children. Twenty years ago, I was on the team 
that performed the first egg donation and I have personally treated 
many egg donors over the past 20 years. I can assure you I would not do 
that if it were not safe.
    All potential egg donors first undergo extensive medical and 
psychological screening. Women who are deemed as suitable donors enter 
a pool of potential donors who are then matched with recipient couples. 
The donor undergoes what is known as controlled superovulation. 
Ordinarily a woman matures and releases only one egg in each menstrual 
cycle. In ART techniques, including egg donating, the physician 
administers a combination of hormonal medications for about two to 
three weeks to trigger the development of many eggs. Over that time 
period, the patient is monitored using ultra sound technology and 
diagnostic blood tests. Finally the eggs are retrieved using 
transvaginal aspiration, using an ultrasound guided needle and 
intravenous sedation.
    As with any medical procedure, there are some potential risks to 
the patient/donor. There is a slight risk (less than 1 percent) of 
ovarian hyper stimulation, though even this risk is thought to be lower 
in donors than in normal ART patients. There have also been some 
studies reporting a link between some of the medicines used in ART 
procedures and ovarian cancer, which caused some initial concern. 
However further research has led us to conclude that there may well be 
an underlying medical problem which may be associated with both 
infertility and ovarian cancer. That is, it is not the medicines which 
lead to a higher cancer rate.
    The American Society for Reproductive Medicine and the Society for 
Assisted Reproductive Technology have promulgated extensive clinical 
and ethical guidelines on gamete donation, and all 370 member clinics 
of SART are required to adhere to these standards. I would like to ask 
that these reports and statement be entered into the record.
    These standards include the extensive screening I described early, 
a limitation on the number of times any one woman can donate, and a cap 
on compensation to the donor. The ASRM ethics committee has determined 
that sperm and egg donors can be compensated for the time and trouble 
associated with the donation, but that compensation should not vary 
according to the traits of the donor.
    Many of the standards the profession has had in place for a number 
of years will now be enforced by the FDA as they make final their 
regulations of reproductive tissues next year.
    In sum, there is a long history of egg donation for reproductive 
uses. Protections and safeguards for both donor and recipient are in 
place and could easily be modified to accommodate egg donation for 
research or clinical applications of embryonic stem cells.
    As a scientist and longtime women's health advocate, I also find a 
complete ban on research troubling. I am aware that the word 
``moratorium'' is used in Senator Brownback's legislation, but I view a 
``moratorium'' the same as a ban because after a hiatus in an area of 
scientific research, trained scientists are no longer available, the 
field diminishes, and the United States would have to play catch-up 
with other nation's research achievements. About 25 years ago, because 
of similar religious and ethical considerations, there was a call for a 
ban on research involving recombinant DNA. Today hundreds of thousands 
of people are healthier or alive because of the use of recombinant DNA 
to produce insulin, interferons, and other therapeutic recombinant 
molecules.
    This leads me to discuss why I believe women, as well as men, have 
tremendous potential to benefit from therapeutic cloning. Regenerative 
medicine, including using cloning techniques to create new cells more 
like a patient's own cells, holds the promise to treat and cure 
numerous debilitating and deadly diseases, like cancer, autoimmune 
diseases like lupus erythematosus (lupus), multiple sclerosis, and 
early onset diabetes, cardiovascular disease and neurological diseases 
like Alzheimer's and Parkinson's disease. Annually, these diseases 
strike more than 100 million individuals, a large proportion of whom 
are women. This field of research holds the potential to restore normal 
healthy functions to cells and replace those that no longer function.
    Therapeutic cloning, using Somatic Cell Nuclear Transplantation 
(SCNT) holds great promise to develop new and innovative treatments for 
numerous diseases. For instance, let us discuss breast cancer. Using 
SCNT, scientists can take the cell of a patient with breast cancer and 
reprogram the cell to its earliest stage of development. Then, they can 
compare the diseased cell's development to the healthy cell's 
development. In so doing, scientists can learn about the trigger 
mechanisms that lead to disease. These fundamental insights offer 
tremendous potential for the development of interventions to treat or 
prevent disease. This is an example of why extracting stem cells from 
In-Vitro Fertilization (IVF) embryos is inadequate for tackling certain 
research.
    Cardiovascular disease, including heart attacks and congestive 
heart failure, is the nation's number one killer of both women and men. 
Annually, approximately one-half million more women than men die of 
this dreaded disease. Restoring the function of damaged heart cells is 
a daunting challenge. The National Institutes of Health reports that 
recent research provides early evidence that adult and embryonic stem 
cells may be able to replace damaged heart muscle cells and establish 
new blood vessels to supply them. Scientists believe that embryonic 
stem cells in contrast to adult stem cells hold greater potential 
because they have the ability to be come any type of cell in the human 
body and hold virtually unlimited ability to replicate.
    Many autoimmune diseases like lupus, multiple sclerosis, rheumatoid 
arthritis, and Sjogren's disease, strike women disproportionately. 
Lupus and Sjogren's are nine times more frequent in women; rheumatoid 
arthritis is four times more frequent in women; and multiple sclerosis 
strikes women twice as frequently as men. (Other autoimmune diseases 
like early onset diabetes are more evenly distributed among the 
population.) For all autoimmune diseases, complex biological questions 
remain unanswered about why the body's immune system fails to protect 
the body against disease and allows it to turn against itself. Research 
on stem cells is providing new ways to remove errant immune cells and 
restore normal immune cells to the body. However, obstacles to some 
type of adult stem cells are the limited number that can be harvested 
and the difficulties in propagating them in the laboratories.
    Women also are affected not only by the diseases that attack them 
but also by the diseases contracted by other members of their family, 
as they routinely are their family's predominant caretakers. Wives', 
mothers', and daughters' lives quickly become subsumed by the illnesses 
within their families.
    I realize that embryonic stem cell research is in its infancy, and 
an enormous amount of research must he performed before it can be 
translated into medical treatments. But we must carefully weigh the 
implications of any roadblocks that might halt this scientific 
research.
    S. 245, the Human Cloning Prohibition Act, legislation introduced 
by Senator Brownback, to my knowledge, for the first time in U.S. 
history, dead ends a promising new avenue of research, perhaps sending 
it underground, or at the least, sending it overseas along with our 
most promising scientists. It outlaws research that scientists believe 
could play a critical role in curing and alleviating the suffering of 
millions of patients, including women. This bill also makes criminals 
of anyone who would bring into this country the potential products of 
this research.
    The Coalition for the Advancement for Medical Research believes 
that S. 303, the Human Cloning Ban and Stem Cell Research Protection 
Act, the legislation introduced by Senators Hatch, Feinstein, Specter, 
Kennedy, Harkin, and Miller strikes the appropriate balance between 
preventing unsafe and unethical research on human reproductive cloning 
and permitting scientific research endorsed by the National Academy of 
Sciences, 40 Nobel laureates, former First Lady Nancy Reagan, and 
former Presidents Gerald Ford and Jimmy Carter.
    S. 303 applies the Common Rule, the law governing federal ethical 
standards, to SCNT research so that institutional review boards already 
in place at universities and hospitals would ensure that women 
participating in research are fully informed about the procedures and 
risks involved in donating eggs. As in all areas of research, stringent 
safeguards must be in place to protect people against coersion. 
Otherwise informed consent is not truly informed consent. As I already 
discussed, egg donation in all circumstances must be conducted with 
rigorous informed-consent procedures. (As with any technology, 
procedures become more efficient in time, so fewer eggs will be 
required. Researchers in therapeutic cloning also are hopeful that in 
the future they will know how to generate stem cells without needing 
eggs.) S. 303 also strictly penalizes unlawful conduct by providing for 
criminal and civil penalties for violating the law while allowing 
physician and patient access to potentially life-saving therapies 
without fear of reprisal.
    Thank you.

    Senator Brownback. Thank you. Thank you for your testimony. 
Dr. Bustillo? Am I----
    Dr. Bustillo. Bustillo, uh-huh.
    Senator Brownback. Bustillo. There a number of diabetes 
cases in the country, how many people suffer from diabetes in 
the U.S.?
    Dr. Bustillo. Well, there are two different kinds of 
diabetes, but the majority of patients with diabetes have 
adult-onset diabetes. But juvenile-onset diabetes affects 
millions of young people, as well.
    Senator Brownback. Just walk me through the numbers of what 
it would take if human cloning were allowed for treatment just 
in diabetes, of how many----
    Dr. Bustillo. I think what we----
    Senator Brownback.--eggs it would take to provide this as a 
broad-scale treatment across the country.
    Dr. Bustillo. I think what we need to remember is that 
those numbers seem huge, but the issue is that I think we need 
to do some very basic research that would allow us to generate, 
for instance, stem cell lines that would divide themselves and 
that would need, as the technology gets more efficient, fewer 
and fewer eggs to treat the patients. But we are at the stage 
where we really are just beginning to learn about this.
    So, yes, it will take hundreds and thousands of eggs to do 
this.
    Senator Brownback. Where will we come up with those eggs?
    Dr. Bustillo. Well, I think there are a number of ways to 
come up with those eggs. The one is what the folks at Norfolk 
did, which is actually to recruit women, under review, 
institutional review board, screened, paid to do this as they 
would otherwise do it, as most women who do egg donation do get 
paid in the United States and are often anonymous to the 
recipient couple, and would provide these eggs for the purpose 
of research either because they have a family member that might 
in the future benefit from this research or because they are 
interested in helping humanity.
    Senator Brownback. Should we be paying women for eggs?
    Dr. Bustillo. I think the position of the Fertility Society 
or the Society of Reproductive Medicine is that we should pay 
women for their time and trouble. This is a procedure not as 
easy as just giving a sperm sample. And as my colleague here 
stated, it does take several weeks, several medications, so we 
are really paying them for time off, babysitting, the things 
that they need. So we have determined what a reasonable cost is 
to them.
    Senator Brownback. So you would put a cap on how much we 
could pay women for eggs?
    Dr. Bustillo. Yes.
    Senator Brownback. Have you come up with a----
    Dr. Bustillo. I think----
    Senator Brownback.--position of what that----
    Dr. Bustillo.--as he mentioned it----
    Senator Brownback.--price----
    Dr. Bustillo.--in the United States, it is somewhere 
between 1,500, and in states like New Jersey and New York it is 
a lot higher. So it varies, depending on the part of the 
country that you are with. But I think, no, not more than 
5,000, 6,000 would be a very reasonable amount.
    Senator Brownback. To put a national upper price tag on 
women's eggs?
    Dr. Bustillo. I think it would be dangerous to do that, 
because--again, hopefully, as we get more efficient with new 
medications, new protocols, it may involve less trouble, less 
time, et cetera, so to put a national cap which may actually be 
higher than you might need in the future would not be wise.
    Senator Brownback. But you agree that now some women are 
being recruited and paid very high prices based upon their 
mental capacity, their physical nature, is that correct?
    Dr. Bustillo. Well, they are being recruited. I do not know 
how widespread that is. And again, the American Society for 
Reproductive Medicine, the Fertility Society, is definitely 
opposed to that and encourages its members not to proceed in 
that fashion.
    Senator Brownback. But you would encourage women to be 
recruited for egg donation for human cloning.
    Dr. Bustillo. For therapeutic cloning, yes.
    Senator Brownback. And you would----
    Dr. Bustillo. For the generation of stem cells, yes, sir.
    Senator Brownback. Okay, so you would. And you do agree 
that that--if we were to go with this on a broad-scale effort 
to try to cure a number of these diseases, we are talking of, 
you said, hundreds of thousands of eggs.
    Dr. Bustillo. Yes, sir.
    Senator Brownback. And that is going to involve at least 
hundreds of thousands of women, is that correct, or millions?
    Dr. Bustillo. Well, also another source of eggs would be 
infertility patients. We cannot forget them. And especially as 
infertility patients, if we get the younger infertility 
patient--if we should provide insurance coverage, for instance, 
for in vitro and make it amenable to the younger patient, they 
generally would produce more eggs than they require to generate 
their own, to solve their own fertility problem.
    Senator Brownback. But how many women are you envisioning? 
Let us say we just said therapeutic cloning is fabulous, we are 
going to go full scale with therapeutic cloning, start 
recruiting women. We have got a hundred million people, in your 
testimony, that suffer from these debilitating diseases. Are we 
not talking about millions of women donating----
    Dr. Bustillo. No, because----
    Senator Brownback.--their eggs?
    Dr. Bustillo.--again, I think as the research gets better, 
hopefully we will not even need eggs at some point once--I 
mean, we will still need some eggs for some of the cell-
development studies that I mentioned, with breast cancer and 
other diseases, but as we get more efficient and we learn how 
to replicate and keep stem cell lines going, et cetera, I think 
we are going to need fewer and fewer fresh donated eggs.
    Senator Brownback. Well, let us say we really get good at 
this and you only need five eggs per patient. I mean, that is a 
fabulous number relative to--I think Dolly was 300 tries, 
something like that, to get----
    Dr. Bustillo. Two hundred and almost forty experiments, 
yes.
    Senator Brownback. So let us say we get it to a five to one 
ratio, that you only need five eggs for the try, which would be 
a--that would be a great technological move forward.
    Dr. Bustillo. Uh-huh.
    Senator Brownback. Are you not truly still talking about 
millions of women who are going to have to sell their eggs for 
this process----
    Dr. Bustillo. Again----
    Senator Brownback.--to really be engaged?
    Dr. Bustillo. Again, it would be--you know, there are 
probably close to 50,000 women undergoing in vitro for 
therapeutic reasons for their own infertility, so that would 
also add to the pool of the donation.
    Senator Brownback. Okay. All right, 50,000, and we get 
five--let us say--how many eggs do we get per those----
    Dr. Bustillo. It is----
    Senator Brownback.--50,000?
    Dr. Bustillo.--age related, and you can--in donors, in 
general, we get 15 to 20, 25 eggs. In----
    Senator Brownback. Say we get 20.
    Dr. Bustillo.--patients, we get fewer.
    Senator Brownback. What if we--can we get 20 eggs from 
those 50,000 women? Twenty eggs----
    Dr. Bustillo. We could----
    Senator Brownback.--each?
    Dr. Bustillo.--we could get 15 eggs from each, right. But I 
think what we have to do to make it much more efficient is not 
each time get the egg, but obtain stem cells from the initial 
few women who would donate eggs for research purposes, obtain 
these stem cells, do the research, do the work, keep them 
going, and then this would be much more effective than having 
to do the therapeutic cloning each time you want to treat a 
patient.
    Senator Brownback. Okay, so you are saying you just do not 
think we are going to be needing therapeutic cloning in the 
future. You think we need it now, but we are not going to need 
it in the future. Is that----
    Dr. Bustillo. That's very----
    Senator Brownback.--correct?
    Dr. Bustillo.--possible.
    Senator Brownback. But, now, you base that on----
    Dr. Bustillo. Just----
    Senator Brownback.--nothing but hope at this point----
    Dr. Bustillo. No, I think----
    Senator Brownback.--in time.
    Dr. Bustillo.--I base that on some of the things we are 
learning about what to do, how to treat these cells to make 
them go in certain tissues, like, you know, pancreatic tissue, 
et cetera; and if we can learn the mechanisms of how these 
cells go from undifferentiated cells to these specific cells, 
then I think we will be able to reproduce those and need them 
less and less.
    Senator Brownback. Okay, then why do we not do that in 
animals first and than take that to humans? Why do we not 
perfect what you are saying first in animals before we go to--
--
    Dr. Bustillo. Well----
    Senator Brownback.--humans?
    Dr. Bustillo.--always, animals are wonderful, but they are 
not necessarily humans.
    Senator Brownback. But do we not normally, in this country, 
start with animal----
    Dr. Bustillo. And we----
    Senator Brownback.--models and----
    Dr. Bustillo.--do, and we have, and there are some 
wonderful animal models and some recent data on the model for 
Parkinson's disease in the mouse. And work has been done in 
that area which shows very promising results in the mouse now 
being mobile after transferring of cells generated from stem 
cells from mouse embryos.
    Senator Brownback. No, I understand, but why would you not 
perfect your technique that you are hoping we get to so we do 
not need the millions of women's eggs? Why do we not perfect 
that first in animals and then take it to humans?
    Dr. Bustillo. No, I think we have been doing that. However, 
the animal is never a perfect model for the human.
    Senator Brownback. Well, have we developed what you have 
said in animals yet and perfected it and the technique so we do 
not have to do the cloning, which you are saying we----
    Dr. Bustillo. I think----
    Senator Brownback.--should need to in the future?
    Dr. Bustillo. I think we are in the process of doing that, 
yes, sir.
    Senator Brownback. But it has not been done yet.
    Dr. Bustillo. Not perfected for every cell type.
    Senator Brownback. It is not even close, is it?
    Dr. Bustillo. I do not think so.
    Senator Brownback. So you are basing this, that we are 
going to do this in humans, off of what you hope will take 
place but what we have not produced in animal models even yet, 
is that correct?
    Dr. Bustillo. I think so. You have to remember that the 
isolation of stem cells in animals has only been around for 
about 10, 15 years, so the work is just beginning. Things in 
science often take a long time. So we are at a very early stage 
of this kind of research.
    Senator Brownback. Do we normally, then, in early stages of 
research, do that on humans?
    Dr. Bustillo. In this country, we have done that--for 
instance, as my colleague mentioned, in vitro fertilization--
because often there is absolutely no financing for this kind of 
work, particularly from the Federal Government. So, oftentimes, 
this research is advocated and driven by the patients affected 
by the disease, such as----
    Senator Brownback. But is it not normally true we develop 
our animal models first; and then, when we perfect it, we take 
it to humans?
    Dr. Bustillo. Again, that was not done in in vitro 
fertilization.
    Senator Brownback. I understand, but do we not normally----
    Dr. Bustillo. Yes, and I----
    Senator Brownback. We are talking about therapeutic cloning 
here, correct?
    Dr. Bustillo. Right.
    Senator Brownback. Okay.
    Senator Landrieu has arrived and is limited on her time. 
Would you mind if we have her testify now, and you can stay 
seated there, and we will receive her testimony?
    Senator Landrieu, thank you very much for joining us. I 
appreciate you being here, a cosponsor of the bill, and I am 
happy to receive your testimony.

              STATEMENT OF HON. MARY L. LANDRIEU, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. I am going to 
submit a more detailed statement for the record. * I would like 
to thank our witnesses for being a part of this very important 
hearing. I also wanted to thank you, Mr. Chairman, and to show 
my support for your efforts to try to help the public better 
understand that the alternative to a ban on human cloning is 
actually the licensing of a brand-new industry. I think this 
hearing is very important in trying to communicate to the 
public what that industry would look like.
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    What the witnesses have just described, I think, would be 
very upsetting to many, many people in this country. The level 
of experimentation that would have to go on, the numbers of 
women that would be needed for these types of experiments, and 
the lack of fine-tuning of the procedures is concerning. I 
think that your point about the normal course of scientific 
work in this country is to perfect some of these techniques on 
animals before we move to the human population is a good one.
    I applaud your efforts this morning to help focus on the 
shortcomings of this Feinstein-Kennedy proposal, and force us 
to consider how licensing a brand-new industry, crosses the 
ethical line, as well as the line of common sense.
    I also want to note for the record that as the weeks and 
months go on with many legislatures in session around the 
country, two legislatures have recently passed a ban in North 
Dakota and Arkansas. Many people in my State of Louisiana, are 
very concerned about this issue, not because they are against 
research, or because they oppose science or finding cures for 
the terrible diseases that our children and our grandchildren 
suffer from, but because we have grave concerns about opening 
up an industry where the marketplace dictates or moves women to 
donate hundreds and thousands of the--what is to prevent the 
situation arising where the smarter you are, ``prettier'' you 
are, the ``more attractive'' you are, you get paid more for 
your egg than someone else, who is ``less attractive'' or 
``less smart,'' to have an industry that virtually is, in many 
ways, unregulated. Even if it were regulated with our best 
attempts here, I am not sure that we could eliminate some of 
the more gruesome aspects of what is being discussed here 
today.
    I thank the scientists here for their work and their 
efforts. I appreciate we have different views. But again, it is 
important to be clear what Congress is debating. The issue is 
whether to license a new industry that would use women as 
manufacturers and eggs as commodities. Do we want to be setting 
prices on eggs and injecting hormones into women to produce 
eggs for the benefit of experimentation? I think this is too 
far for where the American people want to go at this time.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you for submitting the statement 
for the record, and thank you for coming by, Senator Landrieu.
    Dr. Bruchalski, what would happen if you took just a 
hundred thousand women and collected their eggs for therapeutic 
cloning? What is the likely impact on that hundred-thousand 
women? Do we have any notion of studies of how many would be 
impacted negatively, physically, by just that many going 
through? Not a million, but just a hundred thousand.
    Dr. Bruchalski. At a hundred thousand people undergoing 
this process----
    Senator Brownback. Pull that microphone a little closer.
    Dr. Bruchalski. For a hundred thousand women undergoing 
this process, there would be the effects of hyperstimulation on 
all these women, including abdominal bloating, tenderness so 
significant that we are now trying to perform or have newer 
protocols to decrease these side effects that are so pervasive. 
We believe that it is close to 1 percent of these women would 
undergo the hyperstimulation syndrome, so whatever 1 percent of 
a hundred thousand--it is in this small subset where you have a 
fluid overload situation, where the abdomen is filled with 
fluid, and it is called ascites. You can develop pulmonary 
edema, and you have to hospitalize this group of patients to 
prevent further decompensation. And so that occurs in 1 percent 
of the present--almost 1 percent of the present-day cycles. So 
you are looking at a sizeable number of women who would undergo 
serious side effects in order to obtain the outcomes desired. 
And at a hundred thousand, that is, relatively, a very, very, 
very conservative estimate for any of the diseases mentioned.
    Senator Brownback. Well, what if we extend that to a 
million women? I would gather we are going to get a broader 
cross-section of women to donate--or sell eggs, rather--at that 
point in time, a broader cross-section of health potential 
difficulties if you are going at a million women. What 
potential health side-effects could we have with that large of 
a pool?
    Dr. Bruchalski. Well, you would still be looking at the 
numbers that I suggested, but it would be, you know, multiplied 
by a factor of ten. You would have still that 1 percent of a 
million having to be hospitalized, and the vast majority of 
those other women having to often take time off through that 
month's therapy to deal with not only the procedures itself, 
but many of the side effects, which I just mentioned, which 
include headache, abdominal tenderness, abdominal pain, pelvic 
pain.
    Senator Brownback. Do we have any idea of the price we 
would have to pay to get women to do this, where it is not for 
a child for themselves, which I would think--you know, a number 
of women, if this is for a child, their child, they are willing 
to go through a lot of things to do that, and I am so grateful, 
but if this is to sell eggs, do we have any notion of price 
that you are going to have to bid to to be able to get a 
million women to donate eggs and go through this process?
    Dr. Bruchalski. No, we do not know exactly the amount. The 
guidelines that are given are--how can I say? They are 
encouraged. They are not really required; they are encouraged 
for the various centers to follow. And I appreciate my 
colleague's hopeful optimism in regard to this, how possibly we 
can try to decrease that number over time so we do not have 
this impact.
    But I still keep coming back to the reality that in in-
vitro fertilization cycles today, we still are able to get 10 
to 15 eggs per cycle. We have not improved on our efficiency in 
20-plus years of in vitro fertilization work in this country. 
We have made incredible strides. We have helped many centers, 
instead of placing six, seven, eight, nine, ten embryos back 
into uteri, we are now recommending only three to four, in many 
cases, because of the horrors and the difficulties with 
multiple births. We have made many strides.
    But I do not know the exact top-dollar amount that would 
have to be placed, because right now, as you mentioned, that 
number is quite high, in some cases.
    Senator Brownback. Dr. Bustillo, do we have any idea of how 
many women now sell their eggs, not for their own childbearing 
for themselves, but for somebody else? Do we have any notion of 
what that market is now?
    Dr. Bustillo. Well, we have----
    Senator Brownback. The total number?
    Dr. Bustillo. Right. We have data, the American Society of 
Reproductive Medicine, actually under the--the CDC collects 
that data from these member clinics of the American Society for 
Reproductive Medicine, and the last--we collect the data after 
birth, so we have numbers, and I believe the 2000 data, which 
he mentioned was the last data, and I believe it was around 8-, 
9,000 cycles of egg donation. Now, those women do not 
necessarily all sell their eggs, because some women who donate 
their eggs are actually relatives--i.e., sisters, friends--of 
the women who need the eggs.
    Senator Brownback. Okay.
    Dr. Bustillo. So we do not have a hard number on how many 
are actually paid. But I would suspect that the majority of egg 
donation is done with paying the donors. And again, just for 
the----
    Senator Brownback. Somewhere 8- to 9,000?
    Dr. Bustillo. No, sir.
    Senator Brownback. 8- to 9,000 that----
    Dr. Bustillo. Yes.
    Senator Brownback.--did not----
    Dr. Bustillo. That----
    Senator Brownback.--this is not for their own child.
    Dr. Bustillo. Right, that is correct.
    Senator Brownback. Okay. So let us say we have got to 
increase that number up to a hundred thousand, which I think is 
dreadfully low. I mean, for what we have of current technology, 
you are really looking at the millions to make this broadly 
available for people. But let us say it is just a hundred 
thousand women that we want to pay to give eggs so that we 
could go on some scale of therapeutic cloning across the United 
States, just a hundred thousand women. So these are not going 
to be for a baby for themselves; this is going to be for 
research purposes, this is going to be for trying to develop 
health cures. How much of a market bid-up are we going to have 
to do to get a hundred thousand women to donate eggs?
    Dr. Bustillo. Again, you are assuming that those eggs will 
only come from women who are volunteering for the research, 
because I still think that some women who are going through in 
vitro fertilization for their own benefit, again, as we--and I 
disagree with my colleague; we have made great strides in the 
success rate of IVF.
    Senator Brownback. How much would we have to pay to get a 
hundred thousand women to donate eggs?
    Dr. Bustillo. How much do we have to pay them? Again, it 
depends on what they have to go through, and----
    Senator Brownback. Well, you know what they have to go 
through.
    Dr. Bustillo. Well, I know what they have to go through 
today. I know what they had to go through 20 years ago, which 
is much more than they have to go----
    Senator Brownback. Well, how much----
    Dr. Bustillo.--through today.
    Senator Brownback.--what they'll have to go through next 
year.
    Dr. Bustillo. Next year? They----
    Senator Brownback. Are we just going to open it up----
    Dr. Bustillo. Yes.
    Senator Brownback. So the technology is basically----
    Dr. Bustillo. I would say----
    Senator Brownback.--what you have today.
    Dr. Bustillo.--you'd have to pay about $3,000.
    Senator Brownback. You think we can get a hundred thousand 
women for $3,000 each to donate eggs, go through the process 
that we're involved in.
    Dr. Bustillo. I mean, it's not going to be easy. They need 
to be motivated, you know, for the betterment of humanity, for 
the relative with diabetes.
    Senator Brownback. Well----
    Dr. Bustillo. It's going to be----
    Senator Brownback.--if you were asked to do this, could do 
this, or had a daughter that wanted to do this, would you do 
this for $3,000?
    Dr. Bustillo. Yes, sir.
    Senator Brownback. And you would recommend your daughter to 
do it for----
    Dr. Bustillo. I would----
    Senator Brownback.--3,000.
    Dr. Bustillo.--if she was comfortable with it. She would 
have to be screened medically, psychologically, all the 
implications of that, yes.
    Senator Brownback. What all is the screening that's going 
to need to take place?
    Dr. Bustillo. Well, we have been doing this for a number of 
years, but you would have to screen them for--and the screening 
may be different, because the screening we do now is because 
they're going to hopefully produce babies, so we screen them 
genetically, a number of tests, routine tests, that we do for 
cystic fibrosis, et cetera. We screen them to make sure they 
have no other medical illnesses. We screen them for their 
family history. They meet with psychologists. They have a 
number of visits to make sure they understand the implication 
of their eggs going either to someone else or to research, so 
they have to be very comfortable with it.
    Senator Brownback. So----
    Dr. Bustillo. I would say, in my practice, we screen ten 
women to have one accepted, just--and this is for----
    Senator Brownback. So we're talking about a million women 
needing to come forward to get a hundred thousand to----
    Dr. Bustillo. It's very possible.
    Senator Brownback. Wow.
    Dr. Bustillo. But, again, you are assuming that you're 
going to need this sort of generation of fresh eggs on a 
continuing basis.
    Senator Brownback. Well, if we start this right now, we 
obviously are going to need that.
    Dr. Bustillo. No, because you're talking about treating 
everyone at once. All research, you know, doesn't start by 
application to a hundred million people that are affected by 
these diseases. We're talking about beginning slowly and 
hopefully perfecting it so we need fewer eggs, you know, 
because we're going to create stem cell lines, et cetera.
    Senator Brownback. We are going to perfect it amongst 
people as we go along.
    Dr. Bustillo. Because, again, animal models are being 
worked on, but I think they are not perfect. And eventually you 
will have to jump from animals to people.
    Senator Brownback. It would be nice if we knew it worked in 
animals first before we tried it in people, do you not think?
    Dr. Bustillo. I think it would, and I think we have some 
very encouraging new data coming out that it does for certain 
diseases, like Parkinson's.
    Senator Brownback. With therapeutic cloning, we are--
talking about therapeutic cloning at this point. Do you think 
we are----
    Dr. Bustillo. We are talking----
    Senator Brownback.--perfected enough on the----
    Dr. Bustillo. We are talking----
    Senator Brownback.--cloning process to take that from 
animals to humans and move this on forward?
    Dr. Bustillo. I am talking about the generation of stem 
cells that then can be directed to make tissues that would 
treat diseases like Parkinson's, diabetes, et cetera.
    Senator Brownback. Now, have you studied the cloning 
research in animals and whether or not we have any health 
problems in those animals. If we have----
    Dr. Bustillo. Not----
    Senator Brownback.--perfected the cloning process in 
animals.
    Dr. Bustillo. You are now talking, sir, about reproductive 
cloning, and I am adamantly opposed to that.
    Senator Brownback. But would you agree that there are 
health problems in reproductive clones?
    Dr. Bustillo. In reproductive cloning, yes, sir.
    Senator Brownback. Where would they carry those health 
problems from? Do they get them from the very first genetic 
pool that they are in or not?
    Dr. Bustillo. We do not know what the problems are--I mean, 
how the problems start. And as you said, there were over 200 
experiments to generate Dolly. But----
    Senator Brownback. Dolly----
    Dr. Bustillo.--we are confusing the issue a little bit 
that----
    Senator Brownback. Well----
    Dr. Bustillo.--we are talking now about----
    Senator Brownback.--but let me ask you----
    Dr. Bustillo.--reproductive cloning.
    Senator Brownback. Then correct me as I go through this. 
Dolly was just put to sleep.
    Dr. Bustillo. Yes.
    Senator Brownback. Aged prematurely, I believe. Did she 
have lung and liver problems?
    Dr. Bustillo. Yes.
    Senator Brownback. Okay.
    Dr. Bustillo. Lung problems, I believe.
    Senator Brownback. Do we think any of these, or do we know, 
if these were genetic problems that she had?
    Dr. Bustillo. We do not know for sure.
    Senator Brownback. Is it a good chance they were----
    Dr. Bustillo. But again, sir----
    Senator Brownback.--genetic problems?
    Dr. Bustillo.--we are talking about reproductive cloning. I 
am not in----
    Senator Brownback. I understand.
    Dr. Bustillo.--favor of----
    Senator Brownback. I understand.
    Dr. Bustillo.--reproductive cloning.
    Senator Brownback. I understand we are talking about 
reproductive cloning. But when does gene imprinting occur?
    Dr. Bustillo. It depends on the gene, but I think usually 
very early.
    Senator Brownback. Are you not given the very first gene 
pool as what you start with? And does it change----
    Dr. Bustillo. That is----
    Senator Brownback.--at a very----
    Dr. Bustillo.--correct. But again, when we are talking 
about stem cells, we are talking about a cell that is 
undifferentiated----
    Senator Brownback. I understand, but----
    Dr. Bustillo.--not imprinted----
    Senator Brownback. Well, then maybe I just need to be much 
more clear with you on my question. If Dolly has genetic 
problems--she is given a genetic pool from the very outset that 
does not change, so if she has genetic problems, she has them 
as a therapeutic clone or as a reproductive clone if she has a 
genetic defect in this system. Is that correct?
    Dr. Bustillo. No, sir, because it is a----
    Senator Brownback. Okay, but----
    Dr. Bustillo.--different----
    Senator Brownback.--when does the gene change?
    Dr. Bustillo. It is one cell versus an organism, so it is a 
very different situation.
    Senator Brownback. Is the gene pool any different?
    Dr. Bustillo. Well, yes, it is different in that it does 
not--in some cases, it does not have, you know, the immunologic 
signals, et cetera, so it depends on the cell. Yes, it is very 
different.
    Senator Brownback. So the gene pool that Dolly had as a 
one-cell embryo is different from what she has as an adult.
    Dr. Bustillo. No, but the gene pool of Dolly as an organism 
and the interaction between the genes and the different cells 
between the different organ systems is a whole different 
situation from taking a few cells from a five day old embryo 
and generating stem cells that are undifferentiated.
    Senator Brownback. Is it possible that Dolly had genetic 
defects as a one-cell embryo?
    Dr. Bustillo. Yes, it is very possible.
    Senator Brownback. Isn't it even likely?
    Dr. Bustillo. It is likely, because, again, Dolly, again, 
was generated from an adult somatic cell, and we are not 
talking about doing that with therapeutic cloning utilizing 
stem cell generation from normally in vitro fertilized embryos. 
It is a different experiment.
    Senator Brownback. Are you comfortable with the level of 
knowledge we have of therapeutic cloning amongst animals 
today----
    Dr. Bustillo. I think----
    Senator Brownback.--that this is a technology to be 
transferred to humans?
    Dr. Bustillo. I think, in certain areas, I think it is very 
promising and probably ready for some early human experiments, 
like Parkinson's disease.
    Senator Brownback. And you are comfortable with what we 
know in the animal to transfer it into the human model today?
    Dr. Bustillo. I am not an expert on Parkinson's disease or 
in this area, but I think it is, again, promising, and I think 
what we need is more research utilizing human tissues. I know 
we are not ready to institute medical therapy utilizing 
therapeutic cloning today.
    Senator Brownback. Okay.
    Thank you, panelists, very much for your interest and your 
information, and we appreciate very much your coming here and 
testifying today.
    I would call up our next panel, Ms. Alta Charo, Associate 
Dean for Research and Faculty Development, University of 
Wisconsin Law School, Mr. Andrew Kimbrell, International Center 
for Technology Assessment, and Mr. Richard Doerflinger, 
Associate Director for Policy Development, U.S. Conference of 
Catholic Bishops.
    I was just informed that a witness in that first panel, 
Lynne Millican, is in at Union Station, so we may add her to 
you as a panel when she comes on forward.
    Ms. Charo, thank you very much for joining us today, and 
the floor is yours.

       STATEMENT OF R. ALTA CHARO, J.D., ASSOCIATE DEAN, 
         PROFESSOR OF LAW AND BIOETHICS, UNIVERSITY OF 
               WISCONSIN LAW AND MEDICAL SCHOOLS

    Ms. Charo. Thank you very much, Senator Brownback, and 
thank you for the opportunity to discuss with you a shared goal 
of preventing irresponsible efforts to use cloning to produce 
children.
    As you know, Congress has repeatedly tried to bolster the 
FDA's already successful efforts to prohibit reproductive 
cloning, but each effort has become bogged down in a related, 
but distinctly separate, debate concerning the use of cloning 
for nonreproductive research or therapeutic purposes, and I 
urge you today to separate those two debates.
    S. 303 bans reproductive cloning with stiff penalties for 
those scientists and doctors who might dare to make such an 
attempt by transferring a cloned embryo into a woman's body, 
and it builds on the extensive existing regulation of cloning 
research by adding even further regulatory safeguards.
    Now, if and when cloning research is done in humans for 
therapeutic ends--that is, to produce embryos whose stem cells 
will be transplanted back into the donor to repair damaged 
organs--it is clearly and indisputably covered by the FDA 
regulations on cell-based therapy and transplantation, 
regulations that already apply to privately funded activity and 
that, by virtue of the congressional delegation of power to 
FDA, answers some of the very questions raised earlier today 
about the appropriate transition from animal to human research 
and the scaling of human research under close monitoring.
    FDA's regulations cover myriad aspects of the work, from 
the labs where it is done to the collection of the eggs, the 
nuclear transfer procedure, the derivation of stem cells, and, 
finally, the transplant back to the donor. The regulations also 
require that every aspect of the work be carried out under the 
strict oversight of an institutional review board. Those IRBs 
ensure that reimbursement to egg donors is reasonable and poses 
no risk of donors being tempted to abandon their own good 
judgment. The IRBs also review the scientific basis for 
determining the risks and benefits that will be described to 
these women and the actual documents that will embody the 
information for their use when they give their informed 
consent. IRBs also monitor the research while it goes on, with 
periodic updates to guard against unexpected side effects. This 
is the same comprehensive scheme of protections used generally 
for human subjects research in the United States.
    Now, S. 303 would build on this very extensive set of 
current regulations that governs all publicly or privately 
transplant-related work by extending the common rule to even 
privately funded work that does not involve transplantation as 
an end point. Under S. 303, even basic research that involves 
only developing stem cell lines for work in the laboratory 
would still require informed consent from egg donors and 
oversight by IRBs so that no aspect of cloning work, whether 
for therapeutic or purely research purposes, could proceed 
unmonitored.
    Now, given the extensive existing and proposed regulation, 
I believe that prohibiting all cloning research is unduly 
burdensome and, in addition, subject to constitutional 
challenge. For 30 years, courts and scholars have discussed the 
scope of the First Amendment and its protection of scientific 
research as part of the freedom of thought, inquiry, and 
dissemination of knowledge that is at the core of that aspect 
of the Bill of Rights. Thought and the testing of thoughts 
through science facilitates the dissemination of ideas just as 
much as monetary contributions to political campaigns 
facilitates the expression of political ideas. And indeed, in 
many cases, research is, in and of itself, a form of political 
expression.
    In other places and other times, governments have sought to 
ban the dissection of the human body because it would interfere 
with deeply felt notions of the body as a reflection of the 
divine order; or sought to ban investigation of the orbits of 
the planets, as it would interfere with essential views about 
the place of humankind in the universe. So, too, does 
investigation of the origins of life, of the secrets of 
conception and development, threaten our deepest views 
concerning the sources of life. But the First Amendment exists 
precisely to protect the development and dissemination of 
knowledge and truth and opinion so that it may be tested and 
retested over time in the marketplace of ideas.
    Certainly, of course, protected activities are still 
subject to reasonable regulation; but where prohibitions are 
designed merely to guard against the development of knowledge 
for fear it might someday be used in controversial ways, it 
runs afoul of the very basis of the First Amendment protection 
of inquiry.
    And where prohibitions are designed to guard against 
violating the rights of embryos, they run athwart of the legal 
reality that federal law does not grant embryos the same rights 
as live born children. Indeed, the Supreme Court has repeatedly 
reiterated its view that even while science and theology and 
philosophy continue to debate the biological and moral status 
of the embryo, the Constitution does not grant them the rights 
of persons under the law. Any federal law that goes beyond 
reasonable regulation and instead entirely bans nonreproductive 
research and therapeutic cloning applications, therefore, is 
vulnerable to challenges in interference in the First Amendment 
rights of patients, doctors, and scientists, a challenge that 
might well result in an injunction on the enforcement of the 
entire federal law during the many years that judicial review 
runs its course.
    I, therefore, urge the Congress to focus on legislation 
that prevents the unsafe practice of reproductive cloning. I 
also urge it to adopt the additional regulatory protections for 
nonreproductive research uses of cloning, as proposed in S. 
303, so the public is reassured that every measure has been 
taken to guide the research in a responsible way.
    A debate on embryo research, generally, or on 
nonreproductive cloning research, in particular, can always 
proceed separately, to be debated on its own merits and 
ultimately to be tested on its own terms before the 
constitutional authorities of the Nation.
    Thank you very much, Senator Brownback.
    [The prepared statement of Ms. Charo follows:]

Prepared Statement of R. Alta Charo, J.D., Associate Dean, Professor of 
   Law and Bioethics, University of Wisconsin Law and Medical Schools
    Mr. Chairman and Members of the Committee,
    My name is Alta Charo, and I am a professor of law and bioethics at 
the University of Wisconsin. Thank you for this opportunity to discuss 
with you a shared goal, the goal of preventing irresponsible 
experimentation that involves the use of somatic cell nuclear transfer 
(that is, cloning) to produce a live-born child.
    Because cloning is not, and may well never be, a safe method for 
conceiving children, there is virtually perfect consensus that such 
attempts ought to be discouraged. The Federal Food and Drug 
Administration has already taken a first and definitive step toward 
this goal, by announcing that it views attempts to use somatic cell 
nuclear transfer to create a child to fall within the scope of its 
regulatory authority, and by further announcing that this technique may 
not legally be used in the United States for this purpose.
    While scholars may argue about the precise statutory language 
behind this action, it is a fact that FDA has already enforced its 
authority, by investigating alleged attempts to use cloning to produce 
a live-born child, and by issuing warning letters to those suspected of 
being most likely to try this unsafe experiment. The small number of 
eccentric scientists who claim an interest in pursuing this effort have 
reacted by moving their activities to other countries, and by 
acknowledging in the press that they understand that cloning to produce 
a live-born child is illegal in the United States, thus confirming the 
effectiveness of FDA's enforcement efforts.
    The Congress has repeatedly demonstrated its interest in bolstering 
FDA's already successful efforts, whether by re-affirming and 
particularizing its jurisdiction over this activity or by banning the 
practice directly by legislative action. In each effort, however, 
Congress has become bogged down in a related but distinctly separate 
debate concerning the use of cloning for research or therapeutic 
purposes.
    I urge you today to separate these two debates, both to protect the 
valuable scientific and medical advances that may emerge from non-
reproductive cloning research, and to pave the way to effective action 
to discourage attempts to use this technique to produce children.
    S. 303, introduced and co-sponsored in the Senate by Members such 
as Senators Hatch, Feinstein, Kennedy, and Specter would prohibit all 
efforts to use cloning to produce children. Stiff penalties are applied 
to those who would dare to make such an attempt. The simple act of 
transferring a cloned embryo into a woman's womb becomes definitive 
proof of the attempt and triggers criminal penalties for those doctors 
or scientists who make the attempt.
    Critics of this approach express concern that such legislation 
would be difficult to enforce, and urge Congress to ban basic research 
lest it lead to the prohibited act of transferring a cloned embryo into 
a womb for development. But criminal law is almost always grounded in a 
theory of deterrence. We do not prohibit the manufacture of guns in 
order to guard against the possibility of their future misuse in 
homicide. Rather, we criminalize misuse of guns and prosecute the 
offenders accordingly.
    Critics of this approach also worry that this leaves other, non-
reproductive forms of research unregulated, and fear it may lead to 
exploitation of egg donors or the diversion of this research toward 
eugenic ends. But these critics overlook both the extensive existing 
regulation of cloning research and the additional regulatory safeguards 
that have been proposed in new legislation before the Senate.
    If and when cloning research is done for therapeutic ends, that is, 
when it is done to produce embryos whose stem cells will be 
transplanted back into the donor in an effort to repair or regrow 
damaged tissues of the brain, the heart and other organs, it is clearly 
and indisputably covered by the FDA regulations on cell-based therapy 
and transplantation. These regulations cover all such research, even 
when it is done with private funding.
    FDA's regulations cover myriad aspects of the research, from the 
laboratories where it may be done, to the collection of eggs, to the 
nuclear transfer procedure, to the derivation of stem cells, to the 
final transplant back to the donor. And FDA regulation also requires 
that every aspect of the work be carried out under the strict oversight 
of an Institutional Review Board (IRB), whose job is to guarantee that 
eggs are donated only after voluntary and fully informed consent.
    IRBs ensure that reimbursement to egg donors for their time and 
inconvenience is reasonable and poses no risk of donors being tempted 
to abandon their own good judgement. And IRBs review the scientific 
basis for the information given to egg donors about the risks 
associated with egg donation, as well as the actual documents they will 
be given to ensure that their consent is genuinely informed. IRBs also 
monitor research, with periodic updates to guard against unexpected 
side-effects in donors or unexpected problems in the laboratory 
management of the cloned materials and stem cells. This is the same, 
comprehensive scheme of protections used generally for human subjects 
research, and our experience in the United States demonstrates that 
research with human subjects, is not only extremely safe, it is far 
safer than the ordinary practice of medicine.
    This system of protections is supplemented with an extra layer of 
safeguards whenever genetic engineering is introduced into research. If 
and when cloning research comes to involve genetic manipulation of any 
sort involving the embryo or its stem cells, it will also be screened 
by the Federal Recombinant DNA Advisory Committee, which has long 
functioned as the gatekeeper to gene therapy. This Committee's charge 
is broad, and it is empowered to examine every aspect of research to 
ensure its safety for all participants.
    S. 303 would extend this comprehensive system of protections to all 
cloning research, by extending the Common Rule for human research 
protections even to privately funded research that does not involve 
transplanting the resulting stem cells back into the donor. Unique to 
cloning research is the possibility of cloning tissue from women who 
suffer from breast cancer or autoimmune diseases, so that specialized 
stem cell lines that exhibit these diseases can be grown in the 
laboratory for further research and testing. No other source of stem 
cells, neither those from surplus IVF embryos at infertility clinics 
nor those from bone marrow or other sources of adult stem cells can be 
used for this crucial research. Here, S. 303 would require informed 
consent from egg donors and oversight by IRBs, so that no aspect of 
cloning work, whether for therapeutic or purely research purposes, 
would proceed unmonitored.
    Given the extensive regulation that already exists, and the 
proposals for extending that regulation even further, outright 
prohibitions or moratoria on cloning research are unduly burdensome and 
subject to constitutional challenge.
    For thirty years, federal courts and nationally recognized scholars 
have discussed the scope of the First Amendment and its protection of 
scientific research as part of the freedom of thought, inquiry, and 
dissemination of knowledge that is at the core of that aspect of the 
Bill of Rights. Research is an integral part of the scientific method, 
a form of inquiry that fits uniquely within the purposes, histories, 
and structures of the First Amendment. Thought and the testing of 
thoughts through science facilitates the dissemination of ideas just as 
much as monetary contributions to political candidates facilitates the 
expression of political ideas.
    Indeed, in many cases, research is in and of itself a form of 
challenging political ideas. In other places and other times, 
governments have sought to ban the dissection of human bodies, because 
it would interfere with deeply felt notions of the body as a reflection 
of the divine order, or have sought to ban investigation of the orbits 
of the planets, as it would interfere with essential views about the 
place of humankind in the universe. So, too, does investigation of the 
origins of life, of the secrets of conception and development, threaten 
our deepest views concerning the sources of life. But the First 
Amendment exists precisely to protect the development and dissemination 
of knowledge and truth and opinion, so that they may be tested and re-
tested over time in the marketplace of ideas.
    Certainly, even protected activities are subject to reasonable 
regulation to avoid interfering with the rights of others. But where 
prohibitions are designed merely to guard against the development of 
knowledge, for fear it might someday lead to new and controversial ways 
to manipulate cells and genes, they run afoul of the very basis of the 
First Amendment protection of inquiry, association, and dissemination.
    And where prohibitions are designed to guard against violating the 
rights of embryos, they run athwart of the legal reality that federal 
law does not grant embryos the same rights as live-born children. 
Indeed, the Supreme Court has repeatedly reiterated its view that even 
while science, theology and philosophy continue to debate the 
biological and moral status of the embryo, the Constitution does not 
grant them the rights of other persons under the law.
    Any federal law that goes beyond reasonable regulation of cloning 
research and enacts a temporary or permanent ban on this form of 
scientific inquiry is thus vulnerable to challenge in court as an 
interference with the First Amendment rights of patients and 
researchers. Such challenges might well result in an injunction to 
forbid enforcement of the federal law until judicial review has been 
completed, a process that can take years. During such a hiatus, the 
federal law is inoperative, thus thwarting Congressional efforts to use 
legislation to prevent reproductive uses of cloning.
    If the Congress wishes to take action with regard to reproductive 
cloning, I urge it to focus on legislation that prevents that unsafe 
practice.
    I also urge it to adopt the additional regulatory protections 
proposed in S. 303 for research and therapeutic applications of 
cloning, so that the public can be reassured that every measure has 
been taken to guide this research along a responsible path.
    A separate debate, on embryo research generally or non-reproductive 
cloning research in particular, can always proceed separately, to be 
debated on its own merits, and ultimately to be tested on its own terms 
before the constitutional authorities of the nation.

    Senator Brownback. Thank you very much.
    Mr. Kimbrell.

       STATEMENT OF ANDREW KIMBRELL, EXECUTIVE DIRECTOR, 
         INTERNATIONAL CENTER FOR TECHNOLOGY ASSESSMENT

    Mr. Kimbrell. Thank you very much, Mr. Chairman, for the 
opportunity to speak today, and I also thank you for having a 
hearing on this very important subject that I think too often 
has been ignored in the multiyear debate now that we have had 
in Congress on cloning, the very crucial issue of the women's 
health implications of both research and reproductive cloning.
    I am an attorney and the executive director of the 
International Center for Technology Assessment. But also, for 
ten years I served as the chairman of the National Coalition 
Against Surrogacy, where I, firsthand, litigated on behalf of 
dozens of women across the country who were victimized by 
commercialized childbearing. And so I saw firsthand what these 
fertility drugs can do and what this process can do, both 
physically and psychologically, to women around the country.
    Now, I have submitted a more detailed statement for the 
record, Mr. Chairman. I would like to just summarize and 
perhaps focus on a couple of the points that have been made and 
see if I can be of some help on this.
    Senator Brownback. Your statement will be in the record.
    Mr. Kimbrell. Thank you.
    Perhaps, first, in that there seems to be, sort of, a cost-
benefit analysis going on here, I wonder how many Senators 
would answer a certain pop quiz correctly, Mr. Chairman, and 
that would be, ``How many stem cells have been garnered from 
cloned human embryos as we sit here today?'' And this is by 
peer-reviewed studies, which show how many. And the answer, Mr. 
Chairman, is zero. Zero. With all the testimony I have heard in 
five years, and I've testified myself, about all these cures--I 
have heard scientists come here for five years--the number of 
stem cells that have been garnered from cloned human embryos is 
zero.
    And I think this is essential for a couple of reasons as we 
look toward this, because I think that we are seeing recent 
science that suggests that--exactly as you were suggesting, Mr. 
Chairman, in that Dolly was the 277th try and the horrible 
birth defects that were testified in the Senate about--that 
research is showing that something happens during the cloning 
process.
    Dr. Yenich has a recent study, peer reviewed, that says 
there is silencing of certain genes once a cell, an embryo, is 
cloned. And I think we may be looking, in the future, at a 
scenario where it is understood that cloning harms embryos in a 
way that will never allow them--never allow them--to be a 
consistent source of stem cells.
    So at the outset, I would suggest that we separate these 
two debates. I am here representing a coalition of 
environmentalists and feminists and over a hundred others who 
have signed on for a ban on reproductive cloning and a 
moratorium on research cloning. Many of them support expanded 
stem cell research. But to confuse the stem cell debate with 
the cloning debate, when right now we have zero stem cells 
coming from embryo cloning, to me is disingenuous at best, and 
it has been done time and time again.
    There are a couple of other points that I think are very, 
very important to make here, and one has to do with the 
enforcement. The Hatch bill, S. 303, seeks to both halt 
reproductive cloning and encourage research cloning. And if you 
look at that bill and the definitions of that bill, there is a 
definition of a ``cloned embryo'' as an unfertilized 
blastocyst.
    And let us consider this term for a moment, an 
``unfertilized blastocyst.'' This appears to me to be 
intentionally misleading. ``Unfertilized'' seems to me that it 
would be unviable, or could never become a child. We know that 
is not true. If that ``unfertilized blastocyst'' were 
transplanted into a woman's womb, it, indeed, would grow into a 
child--perhaps not a healthy child, as we have learned from the 
Dolly experience, but it would become a child. And second of 
all, there seems to be the idea that because it is a 
blastocyst, it is not an embryo, and that is not correct. Of 
course it is an embryo.
    As a matter of fact, and this is absolutely critical--and 
before the Senate, the Department of Justice testified last 
year that once a cloned embryo has been created, it is 
indistinguishable, biologically, from a normal fertilized 
embryo. All right? Once the cloned embryo is created, it is 
indistinguishable from a fertilized embryo.
    Now, think about the enforcement issues this raises once, 
as in the Hatch bill, thousands, perhaps millions, of these 
cloned embryos are created, once they are out there, once they 
are in an IVF clinic, once they are transported, shipped, 
frozen, which this bill allows, 303. They will be 
indistinguishable from other embryos, biologically. That is an 
enforcement nightmare. Imagine trying to enforce firearms or 
drugs if once they were created, they became literally 
invisible and were allowed to be shipped, transported, frozen.
    So the question is, in S. 303, where they try and enforce 
their ban on reproductive cloning by basically saying that the 
illegal act is the transferring of this embryo into a woman, 
how are we going to know which kind of embryos are being 
transferred into a woman? At that late stage, how do you even 
know whether it is a cloned embryo or a conventional fertilized 
embryo? There is no way to know.
    Additionally, the idea of having a police force that is 
going into doctors' offices around the country to try and find 
out whether the transfer to a woman was from a cloned or a 
fertilized embryo is not only a huge invasion of privacy, but 
is obviously, from an enforcement standpoint, ridiculous. But 
even if you had that police force, they would not be able to 
tell, right? Because they would not be able to distinguish that 
embryo from a normal embryo.
    So this term ``unfertilized blastocyst'' hides the fact 
that these embryos, indeed, are identical, and that the only 
way--the only way--you can have responsible legislation in this 
area is at the supply level. In that once they are created, 
they are indistinguishable from other embryos, clearly the only 
way to stop this is at the supply level; in other words, to 
either ban the process of creating cloned embryos or to have it 
so restricted and so monitored that we have custody of each and 
every embryo created. Otherwise, no one--you, me, no one in 
this room, no scientist--can tell us which embryos are out 
there and what is being done with them. As such, the 
enforcement scheme, as laid out in 303, is legally incoherent, 
scientifically incoherent, and will do nothing to halt 
reproductive cloning.
    Now, adding insult to injury, 303 then has a provision that 
seems to admit that there are some enforcement problems here 
and says one year after the bill has been passed, they want a 
report on exactly what enforcement is happening or not 
happening.
    Mr. Chairman, I would suggest that the time to do studies 
on enforcement is not after a harmful practice has been allowed 
to be disseminated and perhaps creating its harm in this 
invisible way throughout the country, but before we allow a 
harmful practice to ever be sanctioned by law. The idea of 
having a bill that says, ``Let's look at enforcement a year 
after we allow this process,'' again, is legally incoherent, 
and I cannot understand it.
    Now, Ms. Charo mentioned that the--correctly, I think--that 
303 relies on these institutional review boards for a case by 
case study and approval of research cloning. Let me read you a 
1998 report by the HHS office, the Inspector General's report 
to the HHS, on the efficacy of institutional review boards in 
monitoring and reviewing these kinds of human subject 
experiments. In this report, the Inspector General found, 
``that the IRBs reviewed too much, too quickly, with too little 
expertise, that they conducted minimal continuing review of 
approval research, that they faced conflicts of interest that 
threatened their independence, provided far too little training 
for investigators and board members.'' A 2000 report looking at 
how these reforms were possibly carried out, they basically 
said, ``minor changes, but these problems still exist, are 
endemic to these IRBs and have not been cured.''
    Well, I find it very troubling, Mr. Chairman, that the 
core, the backbone, of regulations, S. 303, is these IRBs that 
HHS, for the last five years, has been saying are not working.
    A couple of final points. One of the first opportunities I 
had in Washington many, many years ago, was working with then-
Representative Al Gore to help create and then pass the Organ 
Transplant Act. This, as you know, is the act that prohibits 
the sale of organs in the United States. And as such, we faced 
a very difficult question about what kind of reasonable 
compensation people should be given for organ donation. One of 
the considerations we had at that time was whether ``time and 
inconvenience,'' those terms, should be used for something that 
you could recompense people who had donated their organs. We 
rejected it at that time, because we viewed it as I think it 
is, a loophole for virtually any kind of payments you want to 
give.
    Now, a couple of years ago, a spokesman for the infertility 
industry admitted that time and inconvenience was simply, 
``semantics.'' It means ``payment.''
    So the fact that we are talking about--in S. 303, the fact 
that they are saying you cannot have valuable consideration to 
these egg donors, but you can pay them for their time and 
inconvenience, according to the infertility industry, itself, 
is semantics. ``Payment'' and ``time and inconvenience'' are 
the same thing.
    And let me read you from the marvelous legal scholar, 
George Annas on this, on the term ``inconvenience'' as used in 
this valuable consideration for paying for women's eggs. This 
is George Annas now, ``Of course, you're not really buying a 
woman's inconvenience. It's a bogus argument that you're not 
actually selling these eggs. Clearly, donors are selling their 
reproductive capacity. And if you can sell your egg, then 
shouldn't you sell your child, too?''
    Again, in contrast to this, I urge the Committee to look at 
the Organ Transplant Act, where we do not allow this huge 
loophole that has been allowed in this bill.
    A couple of final points, if I could. One is this idea that 
we are restricting science and that that is a possible offense 
to the First Amendment. One of my privileges as an attorney has 
been to do numerous litigations under the Animal Welfare Act. 
In order to protect animals from cruel experiments, experiments 
that offend both their dignity and their physical and 
psychological wellbeing, we have numerous restrictions on 
experiments that can be conducted in virtually every area of 
medicine. Numerous. None of those has ever been subjected, to 
my knowledge, to any kind of constitutional attack, and I think 
anybody who thought that they could do that would not be taken 
seriously, legally. If, to protect animals, we can have 
significant restrictions on research, I do not know why we 
cannot do the same thing for women's health.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kimbrell follows:]

      Prepared Statement of Andrew Kimbrell, Executive Director, 
             International Center for Technology Assessment
    Mr. Chairman and Members of the Committee:
    My name is Andrew Kimbrell. I am the Executive Director of the 
international Center for Technology Assessment, an attorney and author 
of The Human Body Shop: the engineering and marketing of life (Harper 
Collins 1991, 3rd Edition 1998). I am here today as part of a broad 
coalition of progressive environmental, consumer and women's health 
groups who agree that responsible policy on the matter of human cloning 
requires a ban on reproductive cloning and a moratorium on human 
cloning for research. The potential impacts to women of human 
reproductive cloning, but especially, human research cloning have 
received insufficient attention in the cloning debate, and I'm grateful 
to the Committee both for recognizing the importance of this issue and 
providing me the opportunity to testify today. I'd like to begin by 
summarizing the physical and psychological risks to women posed by 
human reproductive and research cloning. I will then provide a brief 
analysis of S. 303, introduced by Senators Hatch and Feinstein and 
explain why, as currently written, this bill would neither effectively 
ban human reproductive cloning nor provide adequate protection to 
women.
The Impacts of Human Cloning to Women
    Human cloning is a process in which a nucleus from a human somatic 
cell is fused with an enucleated human egg cell to produce a cloned 
embryo. The technical term for this process is ``somatic cell nuclear 
transfer.'' There are two potential uses of cloned embryos produced by 
nuclear transfer, each of which pose significant risks to women. In the 
case of human reproductive cloning, cloned embryos would be transferred 
into a woman's uterus, and, if brought to term, would result in a child 
that would be a genetic duplicate of the nuclear donor. In the case of 
human cloning for research purposes, these cloned embryos would be used 
to develop stem cell lines for regenerative tissue research. The 
following describes the risks to women posed by each of these two types 
of human cloning.
Human Reproductive Cloning
    Human reproductive cloning is widely condemned and has been 
outlawed by more than 30 countries. Many scientists agree that 
reproductive cloning is an inherently unsafe procedure that could only 
he made ``safe'' by carrying out extensive, unethical experimentation 
on women. The physical risks associated with this procedure cannot be 
overstated. Almost all cloning experiments in mammals have resulted in 
miscarriages, stillbirths, and deformities. Many efforts to clone 
mammals have resulted in abnormally large fetuses, often up to twice 
the average size. In humans, ``large offspring syndrome'' of this 
magnitude could be fatal to a surrogate mother as well as to the fetus. 
Finally, experiments in mammals have been highly inconsistent and 
unpredictable. As such, endless experimentation with mice, sheep, cats, 
even monkeys may never provide us the level of confidence required to 
attempt this procedure in humans.
    As many scientists, health professionals, ethicists and others have 
noted, these insurmountable risks, alone, warrant a permanent ban on 
human reproductive cloning. In addition, reproductive cloning poses 
significant psychological and social risks to women. Surrogate mothers 
who would have to undergo the stillbirths and miscarriages and witness 
the deformities involved in attempting to create a successful clone 
would suffer an enormous emotional and psychological toll. In addition, 
if reproductive cloning were allowed, an increase in demand for 
surrogate mothers would exacerbate an already coercive market in the 
buying and selling of women's wombs. That demand would likely be met by 
low-income women, pressured into selling their bodies as ``mother 
machines'' to those who can afford the price.
Human Embryo Cloning for Research
    The impacts to women (and social consequences, generally) posed by 
human research cloning have been less widely discussed, but are 
nonetheless compelling. They include the following:

  <bullet> Research cloning is a highly inefficient process, which 
        would require an unlimited supply of human eggs. It has been 
        estimated that research cloning might be able to provide up to 
        1.7 million therapies per year. Assuming a highly optimistic 
        success rate of 1 stem cell culture per 5 cloned embryos, and 
        one cloned embryo per 10 eggs, these therapies would require 85 
        million eggs, or 8.5 million egg donors.

  <bullet> Egg donation is a burdensome, risky, and painful procedure. 
        Egg donation is not a simple process; it lasts several weeks, 
        and includes repeated injections of fertility hormones and 
        super-ovulatory drugs and finally, surgery. Risks associated 
        with egg extraction include a potential link to ovarian cysts 
        and cancers, severe pelvic pain, abdominal bleeding, and 
        ovarian hyperstimulation syndrome, a potentially life-
        threatening condition.

  <bullet> An explosion in demand for human eggs would exacerbate the 
        coercive nature of the lucrative egg donation industry. 
        Currently, compensation to women for egg ``donation'' is 
        uncapped, and ranges from an average payment of $5,000-$6,000 
        to as high as $80,000. The increase in egg demand created by 
        research cloning is likely to increase the price of eggs and 
        coercive potential of the egg market.

  <bullet> The burden of egg supply will likely fall on underprivileged 
        women. There are no federal standards concerning limitations on 
        the number of times a woman can donate eggs. Low-income women 
        may feel obliged to choose repeated egg donation as a source of 
        income.

  <bullet> Research cloning will result in a loss of choice for women. 
        Researchers can clone embryos from any number of body cells. A 
        woman's cells could be removed for the creation of any number 
        of cloned embryos without her knowledge or choice.

  <bullet> The perfection of techniques to create cloned human embryos 
        through research cloning would make it far more likely that 
        reproductive cloning will occur. The major barrier to 
        successful reproductive cloning lies not in implantation, but 
        in the development of the ability to clone embryos free of 
        reprogramming errors. Allowing the creation of cloned embryos 
        would encourage the perfection of this technical barrier, after 
        which uterine implantation would be a trivial step. As such, 
        research cloning is the gateway for eventual reproductive 
        cloning and its profound impacts on women's health described 
        above.

  <bullet> Perfection of research cloning techniques will also open the 
        door to creating ``designer babies.'' Inheritable genetic 
        modification, or germline engineering, is a process that 
        involves changing genes that are passed on to future children. 
        This technique has been used to create ``transgenic'' animals 
        for commercial and research purposes, and some scientists and 
        others are advocating its acceptance and use in humans. 
        Perfection of research cloning techniques is necessary for 
        ``designer babies'' to become commercially practicable. 
        Allowing genetic ``enhancements'' in humans would unleash a 
        powerful new eugenics, and could lead to unacceptable forms of 
        genetic discrimination and inequality, not unlike those that 
        many advocates for women's health and rights have worked so 
        hard to overcome.

A Misguided Legislative Approach: S. 303
    On February 5, 2003, Senators Hatch (R-UT), Feinstein (D-CA), 
Specter (R-PA), Kennedy (D-MA), Harkin (D-IA), and Miller (D-GA) 
announced the introduction of S. 303, a new bill to address the issue 
of human cloning. At a hearing held by the Senate Committee on the 
Judiciary on March 19, Senator Hatch stated that the purpose of the 
bill is twofold: (1) To stop any attempts to facilitate the birth of a 
cloned baby; and (2) to allow a promising form of stem cell research to 
go forward under ``strict ethical guidelines.'' A closer examination of 
S. 303 reveals that neither of these goals will be accomplished by this 
bill. In particular, the bill, as currently written, will not 
effectively prevent human reproductive cloning, nor will it adequately 
protect women. CTA is preparing a thorough, in-depth analysis of this 
deeply flawed and misguided legislation, which it will provide the 
Committee in the near future. However, today I would like to focus on 
just a few of the more egregious failings of S. 303.
S. 303 Fails To Effectively Prevent Human Reproductive Cloning:
    Among the changes from last year's incarnation of this bill is its 
use of the term ``unfertilized blastocyst'' to describe a cloned human 
embryo. The use of this term appears to be intentionally misleading. It 
suggests that, once created, clonal embryos (i.e., ``unfertilized 
blastocysts'') could he distinguished from ``fertilized'' embryos, 
namely those created from the union of an egg and a sperm. Additionally 
it seems to suggest that the ``unfertilized blastocyst'' is in some way 
not viable, that if it were transferred to a woman's womb it would not 
result in a child. It is true that a cloned embryo is not fertilized in 
the traditional sense, by way of the union of an egg and sperm. However 
a cloned embryo is potentially as viable as a conventional embryo and 
if implanted in a womb could result in a cloned child. Moreover, and 
very importantly, once created a cloned embryo (``unfertilized 
blastocyst'') cannot be distinguished from a ``fertilized'' embryo. To 
repeat once an embryo is cloned it is biologically identical to a 
fertilized embryo and cannot be distinguished from a fertilized embryo 
nor identified as a cloned embryo.
    This important fact, purposely obscured by S. 303, underscores the 
enormous challenge in enforcing any restriction on the sale or use of 
cloned embryos after they have been created. The bill allows for the 
production of an endless supply of cloned human embryos without 
acknowledging that once they are produced they are biologically 
identical to conventional embryos and will be virtually impossible to 
find. This simple fact demonstrates that any attempt to regulate the 
use of cloned embryos after they have been created is legislating the 
impossible. Imagine trying to regulate the use of drugs or firearms if 
they became invisible once they were created and you get the scope of 
the difficulty in enforcing the ban on reproductive cloning attempted 
by S. 303.
    Clearly the only coherent approach to halting reproductive cloning 
is at the supply level, that is to either ban or significantly restrict 
the creation of cloned embryos. S. 303 does the reverse. it encourages 
the creation of cloned embryos but does not in any way provide direct 
oversight of the number of facilities creating human cloned embryos, 
limit the number of clonal embryos created, or create a strict chain of 
custody requirement for each individual cloned human embryo produced 
for research purposes. As such, there is no way to ensure that cloned 
embryos purportedly produced for research purposes are not subsequently 
transferred to a woman's uterus. This potential that these embryos will 
be used for reproductive cloning is exponentially increased because the 
bill explicitly allows for: (1) Freezing; (2) transport; and (3) export 
of cloned human embryos. Without either a ban on the production of 
cloned embryos or a highly restricted production of cloned embryos that 
is subject to a rigorously enforced system of monitoring that tracks 
the chain of custody of each and every cloned human embryo produced, 
there can be no way to ensure that attempts to clone human beings are 
not being undertaken. S. 303 provides for neither of these alternatives 
and therefore will completely fail in its stated purpose of halting 
human reproductive cloning and will also fail in preventing the serious 
impacts on women's health which reproductive cloning will bring.
    Rather than addressing this enforcement issue directly, S. 303 
calls for a series of reports on enforcement mechanisms found in state 
or international laws to be completed one year after the bill has been 
passed. This is incomprehensible. Allowing human cloning to proceed for 
a year, or potentially several years, while various enforcement schemes 
are reviewed and studied in order to arrive at adequate enforcement is 
legally incoherent. The whole point of regulatory legislation is to 
develop an effective enforcement regime before allowing a certain 
potentially harmful activity to proceed, not after it has been 
disseminated and creates the harm the legislation was intended to 
avoid.
S. 303 Fails to Provide Adequate Protection to Women Egg Donors:
    The bill assigns the primary load of protecting women in research 
cloning to existing human subject protection regulations. Yet it is 
probable that these regulations would not even apply to egg donors or 
somatic cell donors. This is because these donors would not be 
``research subjects'' as contemplated under the regulations; instead, 
they are ``donors'' of biological material, not a class currently 
covered under the regulations. Even if these regulations did apply, 
companies involved in cloning embryos could avoid these requirements by 
obtaining human eggs and cells from outside sources and not directly 
from the donors. In addition, standards of Investigational Review Board 
(IRB) review are not the most efficient or practical way to provide 
consistent protection to these participants. Decisions about the 
appropriate process for extracting and using human eggs and somatic 
cells in research should not be made on an individual, case-by-case 
basis, or left to the whim of a given IRB. Instead, federal standards 
should be developed that are specific to women's health concerns.
    I would add that the bill's reliance on IRBs as the primary means 
to monitor and control human cloning activity also ignores serious 
issues that have been raised about these Boards. A number of recent 
major failures in human research protection have led me, and many in 
the scientific community, to believe that most of the important issues 
raised in the 1998 HHS Office of Inspector General Report 
``Institutional Review Boards: A Time for Reform'' have yet to be 
effectively addressed.
    In this 1998 report the Inspector General found that IRBs:

  <bullet> reviewed too much, too quickly, with too little expertise;
  <bullet> conducted minimal continuing review of approved research;
  <bullet> faced conflicts that threatened their independence; and
  <bullet> provided too little training for investigators and board 
        members.

    They also found that neither IRBs nor HHS devoted much attention to 
evaluating IRB effectiveness.
    In a follow up investigation in 2000, the OIG found that while 
several promising steps had been taken by NIH and FDA, few of the 
recommended reforms had been enacted. Of particular continuing concern 
to the IG were the areas of:

  <bullet> flexibility and accountability;
  <bullet> oversight and human protections;
  <bullet> board and investigator education;
  <bullet> conflicts of interest;
  <bullet> workload; and
  <bullet> federal oversight.

    Virtually the same list as in 1998. Given these findings, if we are 
serious about ensuring that reproductive cloning cannot occur, and that 
women's health be protected IRBs are not any kind of answer for at 
least the foreseeable future.
    Let me conclude with S. 303's handling of the exploitation of women 
in the egg donation process. There can be no doubt that the endorsement 
of research cloning in S. 303 would stimulate a major expansion in the 
market for women's eggs. At the same time, the bill does not adequately 
address the coercive aspects of the egg donation industry, which would 
be exacerbated by a massive increase in the demand for women's eggs. 
While the bill prohibits the purchase or sale of human eggs for use in 
embryo cloning research ``for valuable consideration'', it does so with 
a large loophole. While ``valuable consideration'' is prohibited the 
bill does allow for payment to egg donors for the ``time or 
inconvenience'' associated with the donation. This vague provision has 
been used for years by institutions around the country to allow them to 
pay tens of thousands of dollars to egg donors. Ultimately, there is 
little real difference between paying for eggs or for the ``time and 
inconvenience'' of their removal. ``It's almost a matter of 
semantics,'' admits Joyce Zeitz, former public relations coordinator 
for the American Fertility Society. Legal scholar George Annas sees the 
term ``inconvenience'' as nothing more than a ruse: ``Of course, you're 
not really buying a woman's inconvenience. It's a bogus argument that 
your not actually selling these eggs. Clearly, donors are selling their 
reproductive capacity. And if you can sell your egg, then why shouldn't 
you sell your child too?'' In contrast to S. 303 language, I would 
point out that the U.S. Organ Transplant Act prohibiting sale of organs 
does not have the ``time and inconvenience'' loophole. I would further 
note that S. 303 contains no caps on the number of times a woman can 
donate/sell eggs. As such, economically disenfranchised women are 
likely to become repeat donors.
    In sum, if passed S. 303, will encourage unlimited production of 
unidentifiable cloned embryos. This will not halt but rather facilitate 
human reproductive cloning and thus will completely fail to adequately 
protect women's health from the dangers of all forms of human cloning. 
The bill is deeply flawed both in concept and in its specifics. It is 
simply irresponsible legislation.
    Thank you.

    Senator Brownback. Thank you, Mr. Kimbrell.
    Mr. Doerflinger?

          STATEMENT OF RICHARD M. DOERFLINGER, DEPUTY 
      DIRECTOR, SECRETARIAT FOR PRO-LIFE ACTIVITIES, U.S. 
                 CONFERENCE OF CATHOLIC BISHOPS

    Mr. Doerflinger. Thank you, Mr. Chairman.
    Human cloning is an unethical and dehumanizing procedure; 
and, ironically, the most startling evidence of its 
dehumanizing aspects can be found in some proposals ostensibly 
aimed at preventing human cloning. A case in point, in my view, 
is the Hatch-Feinstein Human Cloning Ban and Stem Cell Research 
Protection Act, S. 303. The bill is gravely deficient in at 
least eight ways. I say ``at least,'' because I had one day to 
write the testimony. I will find 20 more tomorrow.
    Very briefly, first, the bill is offered under false 
pretenses. In fact, it does not ban human cloning at all, for 
any purpose. ``Human cloning'' is defined by the National 
Academy of Sciences as the production of an organism that has 
the same nuclear genome as another organism. And contrary to 
the fertility doctor who testified earlier, there is a 
virtually unanimous consensus among Congress, the NIH, the 
National Bioethics Advisory Commission, and many others that 
the embryo, even at the earliest stage, is an organism of the 
human species. That is not a moral or political statement; it 
is simply basic science. In fact, there is a great deal of law 
on stem cell research right now that is based on the legal 
opinion that a stem cell is not an organism, but an embryo is. 
When you produce that embryo, you have done human cloning. S. 
303 does nothing whatever to place any limits on cloning, for 
any purpose or no purpose.
    Two, what it does ban is embryo transfer, which is a 
distinct procedure also defined by the National Academy of 
Sciences. And that creates a great many problems, some of which 
Mr. Kimbrell has just gone over. The bill's penalties are 
directed not at irresponsible cloning researchers, but at 
anyone engaged in trying to implant such an embryo in a woman's 
womb--presumably, by the language of the bill, including the 
woman herself. In fact, everyone else could simply evade 
penalties under the law by training the woman to transfer the 
embryos to her own womb. If the woman is exempt from penalties, 
then the law simply evaporates. It is simply a regulation on 
who can do human cloning, rather than on whether you can do it 
at all, even reproductive cloning.
    S. 303 recognizes the enforcement problem here that, as Mr. 
Kimbrell said, you simply cannot tell, even if you were 
standing right over the shoulder of the fertility physician, 
whether any given embryo about to be transferred to a woman is 
from cloning or fertilization. You cannot even do it with all 
the prenatal diagnostic tests that we have now--because we do 
not have a test, for example, for the disorderly gene 
imprinting and gene expression that are found in cloned 
embryos. And so the Act tries to resolve this by forbidding 
researchers to conduct human cloning research in the same place 
where IVF is done in assisted reproduction.
    That only confirms what the Justice Department has said in 
its House testimony some time ago. You cannot enforce this bill 
without placing new and unprecedented restrictions on assisted 
reproduction techniques that are widely accepted. Whether you 
are banning the location of an IVF clinic, or banning the 
location of a cloning research facility, is simply going to 
depend on which one got there first. You cannot operate the 
second one in the same place as the first one. This would be 
the first federal law in history that bans the location of IVF 
clinics in certain places.
    Third, the bill allows research that will facilitate what 
its sponsors claim to oppose--that is, cloning to produce 
children. My longer statement has quotes from people who favor 
research cloning, confirming that, of course, if you allow 
cloning for research it will facilitate and bring closer the 
day when this procedure is refined and people can conduct it 
for reproductive purposes. In fact, some of the organizations 
supporting S. 303 have exactly that view themselves--that when 
research cloning is allowed to make the procedure, ``safer,'' 
they might then support reproductive cloning as well.
    Fourth, the bill allows--and this is a very odd clause--it 
allows exporting of cloned embryos to other countries, but only 
if they do not--I have to read this, because the double 
negatives are a little odd--it forbids exporting of cloned 
embryos, called unfertilized blastocysts, to a foreign country 
only if such country does not prohibit human cloning. So the 
only circumstance in which you can export cloned embryos to 
another country is where they will be used for illegal 
activity. We are pretending to ban even reproductive cloning, 
and then facilitating it in violation of other countries' laws 
elsewhere. I do not think that will increase our standing 
abroad.
    Fifth, the bill has a number of careless and incoherent 
passages that end up potentially restricting activities that 
are not human cloning at all. One I would like to mention 
briefly is this ``unfertilized blastocyst'' term which is 
defined in such a way that it fails even to make the 
distinction between an embryo and a stem cell. ``Any intact 
cellular structure,'' made by nuclear transfer is covered. And 
so the very sort of things that some people have talked about 
to bypass the moral problem of cloning, ways of adapting the 
procedure so that, from the outset, it only makes stem cells 
instead of an organism, an embryo, that then has to be killed 
for its stem cells, would be as restricted by this bill as 
actually making an embryo is. This is not a defect in the 
Brownback bill.
    Sixth, regarding protection of women, this bill is really a 
Potemkin Village. It is very carefully crafted so that it takes 
the whole body of current law and regulation on human subjects 
research, finds the areas that would actually have some 
relevance to cloning research, and then makes sure they are not 
applied. The only regulations it does apply are rather vague 
and general provisions that, in fact, do not have much of 
anything to do with cloning, for reproduction or research. It 
does not apply, for example, the protections for unborn 
children in pregnant women. It does not apply the current 
federal law that has been in place for six years on embryo 
research. It only applies these vague informed consent 
standards, and these provisions on compensation for time or 
inconvenience. I have a hard time with the idea of the 
``inconvenience'' of getting ovarian cancer.
    Here is something that the National Bioethics Advisory 
Commission said about the IRB system. Professor Charo was a 
member of the commission at the time. ``In our view, IRBs 
should appreciate that, for some components of a study, 
participants might incur risks with no personal potential 
benefit. For these elements''--and that is what happens with 
egg donation for cloning research--``For these elements, there 
should be some limitation on the amount of social and physical 
risk that can be imposed, regardless of the participant's 
willingness to participate or the monetary or other enticement 
being offered.'' That is the advice that this bill ignores. It 
thinks that if you throw in some compensation and have people 
sign a form, then this inherently ethically questionable 
practice of having women undergo the risks of these egg 
donation practices for no possible benefit to themselves is 
perfectly all right.
    The bill's reference to FDA oversight is even more 
unpersuasive, because it requires you to treat the cloned 
embryo as a biological product, as a commodity to be regulated, 
presumably in order to prevent harm to others. So it has 
nothing to do with the ostensible purpose of the bill in terms 
of its stance against reproductive cloning, which was to 
protect the safety of the child who is going to be receiving 
birth defects and miscarrying from being cloned. You cannot 
call the child a dangerous biological product, and say it is 
the person to be protected from risk at the same time.
    There are many other defects here, but I want to end with 
just this one, because it is not widely known here. This bill 
is already obsolete. The biotechnology movement has moved on. 
There are eight states now where state biotechnology alliances 
are supporting bills that have language like the following. 
``It is the public policy of this state to promote research 
involving the derivation and use of human embryonic stem cells, 
human embryonic germ cells''--those can only be obtained from 
fetuses eight weeks old--``and human adult stem cells from any 
source, including somatic cell nuclear transplantation.'' Now, 
that language is no accident. It has been simultaneously 
introduced in eight states in the last couple of months.
    The researchers have looked at the field, and they have 
found what anyone can find by looking at the medical 
literature. There are only two studies in all the vast sea of 
medical literature that showed any therapeutic benefit from 
cloning in animals; and one of them required taking the clone 
to the fetal stage, and the other required taking it to the 
newborn stage.
    They are already moving on past this bill, the 14-day limit 
on maintaining embryos--morally reprehensible though that is 
because, for the first time in history, the Federal Government 
would actually define a class of humanity it is a crime not to 
destroy at a certain stage. That limit is going to be 
infinitely flexible, because tomorrow the researchers will come 
back and say, ``We need 20 days, we need 30, we need a 
hundred.'' They are already saying it in the laboratory of the 
states, and we should beware of something that is far too much 
of a free fall even to be called a ``slippery slope.'' We are 
already there. They are already taking these animal studies, 
and saying that the human model for therapeutic cloning may 
have to exploit human beings into much later stages than the 
embryonic.
    Embryonic stem cells have been found to have many serious 
problems in terms of integrating with tissues, in terms of 
tumor formation and overproliferation. And the logical way, 
unfortunately, for the researchers to get more usable cells is 
to grow those cells to a later stage in the original organism, 
and then destroy that organism.
    Mr. Chairman, we should ban human cloning, but we should do 
it by banning human cloning. Legislation which allows the 
practice, and then seeks to destroy the humans thus produced so 
that we can pretend we have banned cloning, is worse than doing 
nothing.
    I urge Congress to oppose S. 303 and to approve the 
Brownback-Landrieu bill, S. 245. Thank you.
    [The prepared statement of Mr. Doerflinger follows:]

    Prepared Statement of Richard M. Doerflinger, Deputy Director, 
   Secretariat for Pro-Life Activities, U.S. Conference of Catholic 
                                Bishops
    I am Richard M. Doerflinger, Deputy Director of the Secretariat for 
Pro-Life Activities at the U.S. Conference of Catholic Bishops. I also 
serve as Adjunct Fellow in Bioethics and Public Policy at the National 
Catholic Bioethics Center. It is on behalf of the bishops' conference 
that I wish to speak to you today about the moral challenge presented 
by radically different congressional proposals on human cloning.
    The sanctity and dignity of human life is a cornerstone of Catholic 
moral reflection and social teaching. We believe a society can be 
judged by the respect it shows for human life, especially in its most 
vulnerable stages and conditions.
    Human cloning is sometimes presented as a means for creating life, 
not destroying it. Yet it shows disrespect toward human life in the 
very act of generating it. Cloning completely divorces human 
reproduction from the context of a loving union between man and woman, 
producing children with no ``parents'' in the ordinary sense. Here 
human life does not arise from an act of love, but is manufactured to 
predetermined specifications. A developing human being is treated as an 
object, not as an individual with his or her own identity and rights. 
As one group of scientific and other experts advising the Holy See has 
written:

        In the cloning process the basic relationships of the human 
        person are perverted: filiation, consanguinity, kinship, 
        parenthood. A woman can be the twin sister of her mother, lack 
        a biological father and be the daughter of her grandmother. In 
        vitro fertilization has already led to the confusion of 
        parentage, but cloning will mean the radical rupture of these 
        bonds. \1\
---------------------------------------------------------------------------
    \1\ Reflections from the Pontifical Academy for Life, ``Human 
Cloning Is Immoral'' (July 9, 1997), in The Pope Speaks, vol. 43, no. 1 
(January/February 1998), p. 29. Also see: Congregation for the Doctrine 
of the Faith, Donum Vitae (Instruction on Respect for Human Life in its 
Origin and on the Dignity of Procreation) (March 10, 1987), I.6 and 
II.B.

    Such moral concern transcends denominational bounds and has been 
eloquently expressed by some of our country's most respected 
philosophers and ethicists. Writes Professor Leon Kass of the 
University of Chicago, now chairman of the President's Council on 
---------------------------------------------------------------------------
Bioethics:

        Human cloning would . . . represent a giant step toward turning 
        begetting into making, procreation into manufacture (literally, 
        something ``handmade'') . . . [W]e here would be taking a major 
        step into making man himself simply another one of the man-made 
        things. \2\
---------------------------------------------------------------------------
    \2\ Leon R. Kass, ``The Wisdom on Repugnance,'' in The New 
Republic, June 2, 1997, p. 23.

    From the dehumanizing nature of this technique flow many disturbing 
consequences. Because cloned humans are produced by a means more suited 
to more primitive forms of life--a means which involves no loving 
relationship, no personal investment or responsibility for a new life, 
but only laboratory technique--they would be uniquely at risk of being 
treated as ``second-class'' human beings.
    The very scenarios often cited as justifications for human cloning 
are actually symptoms of the moral problem it creates. It has been said 
that cloning could be used to create ``copies'' of illustrious people, 
to replace a deceased loved one, or even to provide a source of spare 
tissues or organs for the person whose genetic material was used for 
the procedure. In each proposal we see a utilitarian view of human 
life, in which a human being is treated as a means to someone else's 
ends instead of as a person with his or her own inherent dignity. This 
same attitude lies at the root of human slavery.
    Let me be perfectly clear. In reality a cloned human being would 
not be, in any sense, an ``object'' or a substandard human being. 
Whatever the circumstances of his or her origin, he or she deserves to 
be treated as a human person with an individual identity. But the 
depersonalized technique of manufacture known as cloning disregards 
this dignity and sets the stage for further exploitation. Cloning is 
not wrong because cloned human beings lack human dignity--it is wrong 
because they have human dignity, and deserve to come into the world in 
ways that respect this dignity. Each child has a right to be conceived 
and born as the fruit of a loving union between husband and wife, to be 
loved and accepted as a new and distinct individual.
    Ironically, the most startling evidence of the dehumanizing aspects 
of cloning is found in some proposals ostensibly aimed at preventing 
human cloning. Some Members of Congress favor legislation that would 
not ban human cloning at all--but would simply ban any effort to allow 
cloned human beings to survive. In these proposals, researchers are 
allowed to use cloning for the unlimited mass production of human 
embryos for experimentation--after which they are required to destroy 
them. Enactment of such a proposal would mark the first time in history 
that the U.S. government defined a class of human beings that it is a 
crime not to destroy.
    Specifically I have been asked to comment on the two pending 
federal bills now offered as a response to human cloning: the Hatch/
Feinstein ``Human Cloning Ban and Stem Cell Research Protection Act'' 
(S. 303), and the Brownback/Landrieu ``Human Cloning Prohibition Act'' 
(S. 245).
    Let me begin with the bill that is, in my view, offered under false 
pretenses--the bill that, despite its title, is not a ban on human 
cloning at all.
S. 303 (Hatch/Feinstein)
    This bill is gravely deficient in at least eight ways.
    1. It does not, in fact, ban human cloning at all. The National 
Academy of Sciences (NAS) has defined ``cloning'' as the production of 
``an organism that has the same nuclear genome as another organism.'' 
\3\ As Congress has formally acknowledged since 1996, the early embryo 
produced by fertilization or cloning is an organism of the human 
species.\4\ The National Institutes of Health (NIH), and President 
Clinton's National Bioethics Advisory Commission (NBAC), have 
acknowledged the same fact.\5\ To produce that embryo--using, for 
example, the somatic cell nuclear transfer procedure used to make Dolly 
the sheep--is to conduct human cloning, whatever else one may plan to 
do with that embryo afterwards. This is scientific fact, not ethics or 
politics. It was, in fact, a unanimous point of agreement in the recent 
report on cloning by the President's Council on Bioethics, whose 
Members otherwise disagreed sharply on moral and policy issues.\6\ S. 
303 does nothing whatever to ban the use of the cloning procedure to 
create human embryos, for any purpose (or even to restrict someone's 
ability to create them for no discernible purpose at all).
---------------------------------------------------------------------------
    \3\ National Academy of Sciences, Scientific and Medical Aspects of 
Human Reproductive Cloning (National Academy Press 2002), p. E-4.
    \4\ See the Dickey amendment enacted as part of the annual Labor/
HHS appropriations bills since 1996: `` `human embryo or embryos' 
includes any organism, not protected as a human subject under 45 CFR 46 
as of the date of the enactment of this Act, that is derived by 
fertilization, parthenogenesis, cloning, or any other means from one or 
more human gametes or human diploid cells.'' The current version of 
this amendment is Sec. 510 of Pub. L. 108-7, the Omnibus Appropriations 
Act of 2003 (enacted Feb. 20, 2003).
    \5\ NBAC defined ``embryo'' as ``the developing organism from the 
time of fertilization until significant differentiation has occurred . 
. .'' NBAC, Cloning Human Beings (Rockville, MD: June 1997), Vol. I, p. 
A-2. This term encompasses the cloned embryo: ``The Commission began 
its discussions fully recognizing that any effort in humans to transfer 
a somatic cell nucleus into an enucleated egg involves the creation of 
an embryo, with the apparent potential to be implanted in utero and 
developed to term.'' Id., p. 3. Similarly, the NIH defines ``embryo'' 
as follows: ``In humans, the developing organism from the time of 
fertilization until the end of the eighth week of gestation.'' NIH, 
Stem Cells: Scientific Progress and Future Research Directions (U.S. 
Department of Health and Human Services: June 2001), p. F-3.
    \6\ The President's Council on Bioethics, Human Cloning and Human 
Dignity (Washington, DC: July 2002), pp. 54-55.
---------------------------------------------------------------------------
    2. What it does ban is ``embryo transfer,'' a distinct procedure 
already in use by fertility clinics across the world for many years; 
and this creates serious legal and enforcement problems. The NAS 
defines ``embryo transfer'' as ``the introduction of a preimplantation 
embryo into the uterus for growth and development.'' \7\ S. 303 bans 
this procedure, if it involves an embryo produced earlier by cloning 
(page 2 lines 10-13). This has certain consequences:
---------------------------------------------------------------------------
    \7\NAS, note 3 supra, p. A-2.
---------------------------------------------------------------------------
    (A) The bill's penalties are directed not against irresponsible 
researchers engaged in human cloning, but against those engaged in 
implanting or attempting to implant the cloned embryo in a womb--
presumably including the woman herself. (If the penalty did not apply 
to the woman, of course, this would create an enormous loophole--the 
law could be completely evaded by having the woman herself conduct the 
embryo transfer, a realistic possibility if she has any training as a 
fertility doctor or technician.)

    (B) Such a law is inherently almost impossible to enforce, because 
at this stage of embryonic development there is no reliable way for law 
enforcement to distinguish cloned embryos from fertilized embryos.\8\ 
Even to initiate such scrutiny would require delaying embryo transfer 
until the results of all relevant tests were obtained, at which time 
the embryo in question (whether cloned or fertilized) would most likely 
be dead. In this context it is important to note that while cloned 
animal embryos seem much more likely to suffer from serious problems of 
disorderly gene expression than embryos created by union of sperm and 
egg, these problems are not detectable by any prenatal diagnostic test 
in current use.\9\
---------------------------------------------------------------------------
    \8\ See Written Statement of Daniel J. Bryant, Assistant Attorney 
General, before the Subcommittee on Criminal Justice, Drug Policy and 
Human Resources of the House Committee on Government Reform, May 15, 
2002 (www.house.gov/weldon/issues/doj.htm).
    \9\ For example, see: Testimony of Dr. Mark E. Westhusin before the 
House Energy and Commerce Subcommittee on Oversight and Investigations, 
March 28, 2001; R. Jaenisch and I. Wilmut, ``Don't Clone Humans!'', 291 
Science (30 March 2001), p. 2552.

    (C) The bill recognizes this problem, and tries to resolve it by 
forbidding researchers to conduct human cloning research at the same 
laboratory where ``assisted reproduction'' occurs (page 10 lines 19-
24). But of course this begs the question, which is: How do you tell 
which of the two is being done at any given time? And how would you 
create a closed system to prevent cloned embryos from being brought 
from one laboratory to the one next door? \10\
---------------------------------------------------------------------------
    \10\ This provision illustrates the truth of the Justice 
Department's testimony: One cannot enforce this ban without imposing 
new and unprecedented restrictions on fertility procedures already 
widely practiced in this country. For the provision is double-edged: 
Its text says that one may not conduct cloning research in a laboratory 
where eggs are subjected to assisted reproduction procedures (page 10 
lines 21-24); but its heading calls for ``separation of in vitro 
fertilization laboratories'' from locations where cloning research is 
conducted (page 10 lines 19-21). If a laboratory started conducting 
cloning research first, in vitro fertilization is banned there. This 
would be the first federal law to restrict where one may establish a 
private fertility clinic.
---------------------------------------------------------------------------
    3. This bill allows cloning research that will facilitate what its 
sponsors claim to oppose--that is, cloning to produce born children. 
Again, this is widely acknowledged by experts who support cloning for 
research in general and S. 303 in particular. For example, researchers 
and ethicists who support cloning for research purposes (which they 
call CRNT for ``cell replacement through nuclear transfer'') admit that 
``the techniques developed in CRNT research can prepare the way 
scientifically and technically for efforts at reproductive cloning.'' 
\11\ Similarly, the ethics committee of the American Society for 
Reproductive Medicine (ASRM), which supports S. 303, has stated 
regarding human cloning for research purposes:
---------------------------------------------------------------------------
    \11\ Lanza et al., ``The ethical validity of using nuclear transfer 
in human transplantation,'' 284 (24) Journal of the American Medical 
Association (Dec. 27, 2000), pp. 3175-9 at p. 3178.

        If undertaken, the development of SCNT [somatic cell nuclear 
        transfer] for such therapeutic purposes, in which embryos are 
        not transferred for pregnancy, is likely to produce knowledge 
        that could be used to achieve reproductive SCNT.\12\
---------------------------------------------------------------------------
    \12\ Ethics Committee of the American Society for Reproductive 
Medicine, ``Human somatic cell nuclear transfer (cloning),'' 74 (5) 
Fertility and Sterility (Nov. 2000), pp. 873-6 at p. 873.

    To be sure, this does not create an intractable conflict for ASRM 
itself in terms of supporting S. 303, because ASRM does not support a 
permanent ban on (even) ``reproductive'' cloning.\13\ The conflict is 
between the public statements of the bill's supporters in Congress, and 
the real-world impact of the legislation they support.
---------------------------------------------------------------------------
    \13\ ``There is not yet clear consensus that reproductive SCNT in 
cases of infertility serves a compelling need . . . Nor is there clear 
consensus on a compelling need to bar the technique.'' Id., p. 875. 
ASRM can support S. 303, consistent with its own policy, because the 
bill's authorization for research cloning will help make its ban on 
``reproductive cloning'' a temporary one.
---------------------------------------------------------------------------
    4. The bill allows exporting of cloned embryos to facilitate 
violations of other countries' laws. Incredibly, the bill forbids 
exporting of cloned embryos (``unfertilized blastocysts'') to a foreign 
country only ``if such country does not prohibit human cloning'' (page 
3 lines 19-21). Under S. 303, cloned embryos can be exported to foreign 
countries that do prohibit ``human cloning'' as defined by the bill, 
where they will be used in illegal efforts to initiate pregnancies with 
cloned embryos. Thus the bill would facilitate abroad what it purports 
to make illegal here.
    5. Through careless and incoherent drafting, the bill potentially 
restricts activities that are not human cloning. To mention only a few:
    (A) ``human somatic cell''--defined to include ``any human cell 
other than a haploid germ cell'' (page 2 lines 14-16), so that it 
includes even the one-celled embryo. It will be a crime to implant in a 
uterus any embryo produced by transferring the nucleus from one single-
celled embryo into another embryo or an unfertilized egg. By most 
definitions this is not cloning; it is a nuclear transfer technique 
used in some fertility clinics in an effort to circumvent mitochondrial 
disease (by replacing the defective mitochondrial DNA found in the 
protoplasm of the woman's own egg), to allow women with this disease to 
have healthy children. S. 303 bans this nuclear transfer procedure 
itself (page 9 line 23 to page 10 line 2), and also bans transferring 
any of these repaired embryos to a woman's womb (page 3 lines 13-14, in 
light of the definitions on page 2).
    (B) ``unfertilized blastocyst'' (page 3 lines 3-9)--This is 
apparently intended as a demeaning reference to cloned embryos, but the 
word ``blastocyst'' is inaccurately used here to refer to the one-
celled embryo initially produced by cloning, and even to the 14-day-old 
cloned embryo (whose further survival is made illegal by S. 303).\14\ 
More broadly, ``unfertilized blastocyst'' is defined as any ``intact 
cellular structure'' produced by somatic cell nuclear transfer, so the 
bill bans transferring this product to a woman's womb whether it is an 
embryo or not. For example, if researchers develop a way to modify the 
egg or the somatic cell in advance, so that the initial product of this 
technique is not a living organism but a culture of stem cells (as some 
researchers say they may be able to do), this would be covered by the 
ban. Placing, say, endothelial stem cells produced by this hypothetical 
technique into a woman's womb to help heal her endometrial tissue would 
not be forbidden by any moral principle of which I am aware--but under 
a literal reading of this bill, it could provoke a ten-year prison 
sentence.
---------------------------------------------------------------------------
    \14\ In embryology the ``blastocyst'' is the embryo from four to 
around seven days old.
---------------------------------------------------------------------------
    (C) ``the functional equivalent of a uterus'' (page 2 line 13)--
This odd phrase is not defined, leaving room for much confusion. For 
example, S. 303's prime sponsor has repeatedly said there is no such 
thing as the functional equivalent of a uterus, because the function of 
a uterus is to turn the new embryo into a ``human life'' and no 
artificial environment can fulfill this task:

        After many conversations with scientists, ethicists, patient 
        advocates, and religious leaders and many hours of thought, 
        reflection, and prayer, I reached the conclusion that human 
        life does not begin in the petri dish. I believe that human 
        life requires and begins in a mother's nurturing womb.\15\
---------------------------------------------------------------------------
    \15\ Statement of Senator Orrin Hatch before the Senate Commerce 
Subcommittee on Science, Technology and Space, January 29, 2003.

    If, on the other hand, the phrase ``functional equivalent'' is to 
have any application, one can only guess how effective an artificial 
environment must be to qualify as a ``functional equivalent'' of a 
uterus. Certainly a Petri dish itself does not qualify, for then even 
cloning for research (which requires developing the cloned embryo to 
the blastocyst stage in that dish) would be banned. Perhaps a 
``functional equivalent'' is an environment that could sustain the 
cloned embryo to live birth, because any womb that fails to do so would 
not fulfill the usual ``function'' of a womb. In that case, one may 
transfer the embryo to any artificial environment that would fall short 
of this function to any extent--in other words, at present one may 
transfer the embryo to any and all artificial environments. This will 
be important in the likely event (discussed below) that the bill's 
``14-day rule'' for maintaining a cloned embryo is later changed.
    6. The bill erects a Potemkin village, a mere facade, of protection 
against research risks for human subjects involved in cloning research. 
Title II of the bill (page 8 ff.) claims to expand current regulations 
on federally funded research involving human subjects (Subpart A of 45 
CFR Part 46), so they will now apply to all ``research involving 
nuclear transplantation'' (even if privately funded). This one-sentence 
expansion of federal regulations into the private sphere raises a 
number of serious legal and jurisdictional issues that cannot be 
explored in depth here.\16\
---------------------------------------------------------------------------
    \16\ One threshold question would be: What activities involving 
nuclear transplantation will count as ``research''? The question is now 
easily answered operationally in the case of federally funded research, 
because each research proposal must be submitted to the Federal 
Government in the form of a grant request. Potential grantees have an 
interest in arguing that what they wish to do is research. Is any 
current federal definition of ``research'' clear and specific enough to 
be applied to those conducting privately funded activities, even when 
the researchers will have an interest in denying that they are 
conducting ``research'' (so they can exempt themselves from this Title 
of the bill)? Does this bill really intend to say that if a project is 
not research--if cloning is used to produce human embryos simply for 
sport, or in order to ``farm'' them for strictly commercial purposes, 
such activity is exempt from these restrictions?
---------------------------------------------------------------------------
    However, assuming that the goal here is to place real ethical 
limits on human cloning for biomedical research, that goal is not met 
at all. Three distinct classes of humans may be involved in cloning 
research--the embryos created by cloning, the women solicited for their 
eggs, and the patients who donate body cells in the hope of receiving a 
genetically compatible stem cell treatment--and this Title lets them 
all down:
    (A) There is no ethical limit on what one may do to cloned embryos 
outside the womb, because there are no such limits in federal human 
subjects regulations. To be sure, there are limits--in fact, there is 
an absolute ban--on federally funded research that harms or destroys 
human embryos, specifically including cloned embryos.\17\ However, that 
is statutory language, not part of the Code of Federal Regulations, so 
it will not apply. This is, of course, by design--if S. 303 did extend 
Congress's policy on federally funded human embryo research to the 
private sector, the research favored by supporters of S. 303 would be 
illegal. This raises a very odd contradiction: Congress will enshrine 
as permanent law whatever regulatory language happens to have been 
written by the staff of the Executive branch up to the moment when this 
bill is enacted (page 9 lines 15-22)--but Congress will ignore its own 
statutory language that has been duly enacted and signed into law by 
Democratic and Republican presidents every year for the past six years, 
although it is the only federal policy that directly relates to the 
issue at hand. The only relevant provision that S. 303 itself provides 
on this point is in direct contradiction to current federal policy on 
embryo research--that is, the provision requiring all cloned embryos to 
be destroyed at the age of 14 days (page 10 lines 3-7). In federally 
funded projects, of course, Congress forbids researchers to destroy or 
harm cloned human embryos.
---------------------------------------------------------------------------
    \17\ See the Dickey amendment, note 4 supra.
---------------------------------------------------------------------------
    (B) Title II places no ethical limits on what may be done to human 
subjects who may be the recipients of stem cells from cloned embryos. 
The bill's expansion of federal human subjects regulations into the 
private sector applies only to ``research involving nuclear 
transplantation'' (that is, the act of creating cloned embryos). Since 
1999, the law on federally funded research involving human embryos has 
been construed not to apply to activities using stem cells derived from 
those embryos.\18\ The sponsors of S. 303 certainly agree with this 
legal opinion, which allows the Federal Government to fund embryonic 
stem cell research even when it cannot fund the research in which the 
embryos are created or destroyed. S. 303 actually reinforces this 
distinction, by explicitly defining the ``unfertilized blastocyst'' 
produced by nuclear transplantation to exclude any stem cells derived 
from this blastocyst (page 3 lines 6-9). So the considerable risks 
involved in placing embryonic stem cells from cloned embryos into 
patients--an activity that in animals can produce tissue rejection, 
overproliferation, and tumor formation--are completely unaddressed by 
this bill.\19\
---------------------------------------------------------------------------
    \18\ HHS General Counsel Harriet S. Rabb, Memorandum to NIH 
Director Harold Varmus on ``Federal Funding for Research Involving 
Human Pluripotent Stem Cells,'' Jan. 15, 1999.
    \19\ The NIH notes: ``The potential disadvantages of the use of 
human ES cells for transplant therapy include the propensity of 
undifferentiated ES cells to induce the formation of tumors 
(teratomas).'' NIH, note 5 supra, p. 17. In short, ``undifferentiated 
embryonic stem cells are not considered as suitable for transplantation 
due to the risk of unregulated growth.'' Id., p. 97. Also see S. 
Wakitani et al., ``Embryonic stem cells injected into the mouse knee 
joint form teratomas and subsequently destroy the joint,'' 42 
Rheumatology (2003), pp. 162-5. And recent studies indicate that even 
stem cells from cloned embryos, supposedly a genetic match, may be 
rejected by recipients' bodies. See Y.L. Tsai et al., ``Plasticity, 
Niches, and the Use of Stem Cells,'' 2 Developmental Cell (June 2002), 
pp. 707-712 at p. 710.
---------------------------------------------------------------------------
    (C) Title II places only the vaguest and most inadequate limits on 
what can be done to women selected as ``donors'' of eggs. Again, 
current federal regulations contain no specific guidance on the 
standards for donating eggs to make embryos, for the obvious reason 
that it has been a de facto federal policy for 23 years not to fund 
human in vitro fertilization research. The regulations contain some 
vague and general guidelines regarding risks, informed consent, and 
approval by institutional review boards (IRBs). But egg donation for 
the purpose of creating embryos for research is one of those practices 
that the entire IRB system is supposedly designed to discourage--that 
is, the practice of involving human subjects in research that imposes 
significant risks upon them but can be of no benefit to them as 
individuals. S. 303 wrongly seems to assume that a signature on a 
consent form (page 10 lines 9-13) and compensation for ``time or 
inconvenience'' (page 9 lines 12-14) will justify researchers in 
subjecting women to serious risks, including a potentially increased 
risk of ovarian cancer, in the name of progress. This approach ignores 
what Professor Alta Charo and the other members of the National 
Bioethics Advisory Commission warned in 2001, when they issued a report 
on the inadequacy of current safeguards against such exploitation of 
human subjects:

        No matter what potential benefit is offered to individual 
        participants or society at large, the possibility of benefit 
        from one element of a study should not be used to justify 
        otherwise unacceptable elements . . . In our view, IRBs should 
        appreciate that for some components of a study, participants 
        might incur risks with no personal potential benefit . . . For 
        these elements, there should be some limitation on the amount 
        of social and physical risk that can be imposed, regardless of 
        the participants' willingness to participate or the monetary 
        (or other) enticement being offered.\20\
---------------------------------------------------------------------------
    \20\ NBAC, Ethical and Policy Issues in Research Involving Human 
Participants (Bethesda, Maryland: August 2001), p. iii (emphasis 
added).
---------------------------------------------------------------------------
    This NBAC report also called attention to serious deficiencies in 
the IRB system itself as it currently exists, including the conflicts 
of interest that often allow IRBs to represent the interests of their 
own research institution rather than those of vulnerable human 
subjects:

        In recent years, increasing strains on the system have 
        undermined the practice of independent review. IRBs are 
        overburdened by the volume of research coming before them, a 
        strain that is compounded by concerns about training of IRB 
        members and possible conflicts of interest. In addition, the 
        constantly changing nature of research challenges existing 
        notions about what constitutes risks and potential benefits . . 
        . Today, investigators and IRBs are rightly confused over 
        issues as basic as which areas of inquiry should be reviewed 
        and who constitutes a human participant.\21\
---------------------------------------------------------------------------
    \21\ Id. p. iii, vii (emphasis added). For an extreme recent case 
of ``conflict of interest,'' see the findings of Maryland's highest 
court in Grimes v. Kennedy Krieger Institute, 782 A.2d 807 (Md. 2001). 
The court found that the IRB at Johns Hopkins University had 
``abdicated'' its responsibility to protect children from research 
risks, and had shown itself ``willing to aid researchers in getting 
around federal regulations designed to protect children used as 
subjects in nontherapeutic research'' (that is, research that would not 
benefit those particular children). No one who has read this decision 
will want to entrust all ethically controversial research decisions 
solely to IRBs.

    The Commission even noted with concern that ``there are no clear 
criteria for IRBs to use in judging whether the risks of research are 
reasonable in terms of what might be gained by the individual or 
society.'' \22\
---------------------------------------------------------------------------
    \22\ Id., p. xvi (emphasis added).
---------------------------------------------------------------------------
    It is difficult to reconcile this pointed and well-deserved 
critique of the current system with the enthusiastic endorsement given 
to it by Professor Charo in her testimony before this Subcommittee 
today. How can this new, complex and ethically controversial field of 
human cloning research--research that may endanger women and 
desperately sick patients as well as embryonic humans--be adequately 
addressed by a system so often found incapable even of meeting its 
current obligations to protect human subjects in traditional medical 
research?
    (D) Title II's reference to FDA oversight is confusing, 
unpersuasive and incoherent. At an earlier hearing before the House of 
Representatives, Members of Congress of both parties found the claim of 
FDA jurisdiction over human cloning to be unpersuasive.\23\ At the very 
least, any such claim must address a very basic threshold question. In 
order to claim that FDA regulations can be applied to research 
involving ``nuclear transplantation'' (page 9 lines 19-20), what kind 
of entity does the cloned embryo have to be? These regulations do not 
cover medical techniques or procedures as such, but relate to 
``products'' such as ``foods, including dietary supplements, that bear 
a nutrient content claim or a health claim, infant formulas, food and 
color additives, drugs for human use, medical devices for human use, 
biological products for human use, and electronic products'' (21 CFR 
Sec. 56.101(a)). Assuming that the cloned embryo is not a food additive 
or a drug, he or she must be a ``biological product''--a commodity to 
be tested for its dangers to others. Not only is this a false, 
demeaning and dehumanizing label for a fellow member of the human 
species, but it directly contradicts the sponsors' alleged rationale 
for banning ``reproductive'' cloning--that is, the risks to the child, 
including the massive risk of miscarriage and birth defects. One and 
the same entity cannot be the innocent victim of the experiment, and at 
the same time be the dangerous ``biological product'' from whom others 
must be protected by the Food and Drug Administration.
---------------------------------------------------------------------------
    \23\ Hearing before the House Energy and Commerce Subcommittee on 
Oversight and Investigations, March 28, 2001. The opening remarks by 
Committee Chairman Rep. Billy Tauzin were characteristic of Members' 
reactions: ``The FDA argues these old federal laws regulating new drugs 
cover a human cell or a human fetus. I frankly do not find it obvious 
that a human fetus is a drug.''
---------------------------------------------------------------------------
    (E) The bill's policy on research involving the cloned child in the 
womb raises especially disturbing moral and legal issues. While current 
federal regulations on protection of human subjects do not cover the 
embryo outside the womb, they do protect the embryo and fetus implanted 
in the womb as well as the pregnant woman (45 CFR Sec. Sec. 46.201 to 
46.207). However, S. 303 refuses to expand to the private sector these 
specific protections for the cloned unborn child or the woman who may 
bear him or her--for these are found in Subpart B of Part 46, and Title 
II expands the reach only of Subpart A (see page 9 line 18).\24\ 
Researchers who were not themselves involved in the illegal act of 
transferring the cloned embryo to a uterus would surely be interested 
in observing any special risks or other developments arising from the 
first human clonal pregnancy. Apparently S. 303 refuses to expand 
protections for pregnant women and their cloned unborn children in 
order to avoid a direct contradiction: The existing federal regulations 
forbid federally funded researchers to impose significant risks of harm 
and death on the unborn human subject (see 45 CFR Sec. 46.204), but 
sponsors of S. 303 want to ban ``maintaining'' the cloned unborn child 
for more than 14 days in any environment except a deep freezer (page 10 
lines 3-7). It seems this latter requirement can only be obeyed by 
forcing an abortion about one week after implantation (which usually 
occurs about six days after the embryo is formed). This raises a moral 
and perhaps even constitutional nightmare, and directly contradicts 
federal policies that have sought to protect fetuses and pregnant women 
from harmful research since 1975.
---------------------------------------------------------------------------
    \24\ Transferring such an embryo to the womb is of course illegal 
under S. 303, and those who perform this activity would be prosecuted 
and imprisoned. If the woman is not herself punished, she will still be 
potentially available as a subject for observational research on human 
clonal pregnancies (research conducted by researchers other than the 
original felons). If she, too, is imprisoned, however, she might be 
protected by the federal regulations providing additional protections 
for prisoners subjected to research (Subpart C, 45 CFR Sec. Sec. 46.301 
to 306)--if not for the fact that S. 303 excludes Subpart C as well.
---------------------------------------------------------------------------
    7. Most generally, this bill's policy on the human embryo ratifies 
one gravely demeaning view that lies at an extreme end of the spectrum 
in our divided and pluralistic society: The embryo as commodity, as 
nothing more than disposable property to be manufactured and discarded 
to suit the desires of others. It is important to note this, because 
supporters of cloning for research have wrongly applied this 
``pluralistic society'' argument against the Brownback bill.\25\ The 
fact is that a complete ban on cloning, already approved by a number of 
states as well as foreign countries, can be supported and is supported 
by Americans with a wide array of views on the moral status of the 
embryo--those who, like myself, hold that each and every member of the 
human species deserves to be protected as a human person; those who, 
like some ethicists, columnists and others, hold that the embryo (if 
not a ``full'' person) is at least a developing human life that 
deserves respect and should not be created solely to be destroyed; \26\ 
and those who are agnostic on the status of the embryo but recognize 
that a complete ban on cloning is the only effective and enforceable 
way to prevent cloning for babymaking as well as further assaults on 
human dignity.\27\ By contrast, the enactment of S. 303 would assume, 
and seek to promote, a national consensus that the cloned embryo has no 
moral status whatever, or has the status of a being whose survival is 
an active threat to the public good. No other view is consistent with a 
policy that this embryo may be created at will, but that government can 
mandate its destruction at a certain stage.
---------------------------------------------------------------------------
    \25\ See Testimony by Dr. Paul Berg (``We take considerable pride 
in being a pluralistic society''), Dr. Harold Varmus (``(W)ho has such 
moral standing that they [sic] would impose on our multi-ethnic, 
pluralistic society an ethical standard that only a minority would 
endorse?''); and Dr. Thomas Murray (``Respecting the diversity of 
beliefs about families, about women, men, children--and embryos--honors 
our most noble traditions'') before the Senate Judiciary Committee, 
March 19, 2003.
    \26\ ``We can debate all day whether an embryo is or isn't a 
person. But it is unquestionably human life, complete with its own 
unique set of human genes that inform and drive its own development. 
The idea of the manufacture of such a magnificent thing as a human life 
purely for the purpose of conducting research is grotesque, at best.'' 
Editorial, ``Embryo Research Is Inhuman,'' Chicago Sun-Times, October 
10, 1994, p. 25.
    \27\ See ``Statement of Dr. Krauthammer,'' in The President's 
Council on Bioethics, note 6 supra, pp. 277-285.
---------------------------------------------------------------------------
    Under S. 303 it would be a federal offense to let such an embryo 
survive, or to show this fellow human being any degree of respect. Dr. 
Charles Krauthammer has observed:

        Creating a human embryo just so it can be used and then 
        destroyed undermines the very foundation of the moral prudence 
        that informs the entire enterprise of genetic research: the 
        idea that, while a human embryo may not be a person, it is not 
        nothing. Because if it is nothing, then everything is 
        permitted. And if everything is permitted, then there are no 
        fences, no safeguards, no bottom.\28\
---------------------------------------------------------------------------
    \28\ Id., p. 285.

    I am confident that Congress will not enact such a gravely immoral 
policy and that President Bush would refuse to sign it.
    8. Finally, this bill as written cannot achieve its stated 
objective of advancing therapies, and the biotechnology lobby has 
already moved on to broader policies for exploiting cloned humans at 
the fetal and newborn stages. The sponsors of this bill have apparently 
failed to notice that only two animal studies have claimed to show any 
``therapeutic'' benefits from cloning for research. One study, seeking 
to provide kidney tissue for cows, found it necessary to develop the 
cloned cow embryos to the fetal stage so they could be aborted for 
their partly formed kidney tissue.\29\ The other, seeking to remedy an 
immune deficiency in mice, found it necessary to produce a newborn 
mouse whose adult stem cells could be transplanted into the original 
mouse.\30\ These and other studies have found embryonic stem cells to 
be enormously difficult to culture, to control, and to develop into 
usable cells that will integrate with the host animals' cells; they 
have found these cells to have a disturbing tendency to form lethal 
tumors in recipients' bodies; and they have found that even embryonic 
cells from cloning can be rejected by the recipients' bodies, perhaps 
because of inherent differences between embryonic and adult cells.\31\ 
Reading the handwriting on the wall, state biotechnology alliances have 
conducted simultaneous campaigns in several states to pass legislation 
authorizing
---------------------------------------------------------------------------
    \29\ R. Lanza et al., ``Generation of histocompatible tissues using 
nuclear transplantation,'' 20 Nature Biotechnology (July 2002), pp. 
689-96. The authors wrote: ``Because the cloned cells were derived from 
early-stage fetuses, this approach is not an example of therapeutic 
cloning and would not be undertaken in humans.'' Id, p. 689. Now lead 
researcher Robert Lanza has reversed his stand, insisting that this 
study is indeed a model for ``therapeutic cloning.'' See Do No Harm: 
The Coalition for Research Ethics, ``Reality Check: Proof of 
`Therapeutic' Cloning?'', March 10, 2003 (www.stemcellresearch.org/pr/
pr20030310.htm).
    \30\ W. Rideout et al., ``Correction of a Genetic Defect by Nuclear 
Transplantation and Combined Cell and Gene Therapy,'' 109 Cell (April 
15, 2002), pp. 17-27. For a critique of this study see Americans to Ban 
Cloning, ``Why the `Successful' Mouse `Therapeutic' Cloning Really 
Didn't Work,'' April 2002 (http://cloninginformation.org/info/
unsuccessful_mouse_therapy.htm).
    \31\ See note 19 supra.

        research involving the derivation and use of human embryonic 
        stem cells, human embryonic germ cells, and human adult stem 
        cells from any source, including somatic cell nuclear 
        transplantation.\32\
---------------------------------------------------------------------------
    \32\ Such language was enacted into law in California in September 
2002. Virtually identical language has been proposed in: Illinois (HB 
3589, introduced February 2003), Maryland (HB 482, introduced February 
2003), New Jersey (S. 1909, introduced September 2002), New York (A. 
1819, introduced January 2003), Pennsylvania (HB 422, introduced 
February 2003), Texas (SB 1034, introduced March 2003), Vermont (H. 
326, introduced in 2003), and Washington (SB 5466, approved by 
Committee March 2003).

    Embryonic germ cells, of course, are harvested at the fetal stage 
(at around 8 weeks' gestation), while adult stem cells are harvested 
from infants and children. In this new generation of cloning 
legislation, the old distinction between ``therapeutic'' cloning and 
``reproductive'' cloning has been obliterated: Researchers will conduct 
``reproductive'' cloning (developing cloned embryos to at least the 
fetal stage) to achieve ``therapeutic'' cloning (producing usable stem 
cells for supposed therapies).
    At present S. 303 punishes efforts to maintain the cloned embryo 
past the 14th day. But this is an arbitrary limit, and Congress will be 
hard pressed to find a principled reason not to extend this to 20 days, 
or 30, or 100, if (as now seems more than likely) researchers report 
that such an extension is necessary to fulfill the ``promise'' of 
``therapeutic cloning.'' In the laboratory of the states, this broader 
agenda has already been launched.
    S. 245 (Brownback/Landrieu)
    By contrast, S. 245 has none of the serious problems outlined 
above. Very briefly, this bill:

        1. Does ban human cloning, as that is accurately and 
        scientifically defined.

        2. Imposes its penalties on irresponsible researchers, not on 
        vulnerable women, and avoids the moral, legal and 
        constitutional problems raised by efforts to ``ban'' pregnancy 
        and birth.

        3. Effectively attacks the threat of ``reproductive cloning'' 
        at its root, by preventing the production of cloned human 
        embryos.

        4. Bans shipping, receiving or importing of cloned human 
        embryos for any purpose, preventing any collusion by the U.S. 
        Government with those who wish to violate other countries' laws 
        against cloning.

        5. Is carefully crafted to avoid interference with any activity 
        other than human cloning.

        6. Directly protects all humans who would be harmed by the 
        practice of human cloning (embryos, patients, and women who 
        might be exploited for their eggs), by banning the practice for 
        any purpose.

        7. Respects the diversity of American views on the human 
        embryo, by enacting only those provisions necessary to ban 
        human cloning and leaving other research (including embryonic 
        stem cell research that does not involve cloning) to be 
        addressed by other proposals.

        8. Prevents future ``slippery slopes'' that would require us to 
        demean and exploit ever wider classes of our fellow humans as 
        sources of body parts.

    This is a case in which how we achieve an important goal is at 
least as important as whether we achieve it. We should ban human 
cloning--by banning the use of the cloning procedure to create new 
developing humans in the first place, as in the Brownback/Landrieu 
cloning ban (S. 245). Legislation which allows the practice, and then 
seeks to dehumanize and destroy the humans thus produced so we can 
pretend we have banned cloning, is worse than doing nothing. I urge 
Congress to oppose S. 303, and to approve the genuine ban on human 
cloning offered by S. 245.

    Senator Brownback. Thank you very much, Mr. Doerflinger.
    We have now been joined by Ms. Lynne Millican. She is a 
patient/advocate, had difficulty getting in this morning, and, 
I think, was not feeling quite the best, and we are very 
appreciative of your willingness to come and testify this 
morning in spite of how you have been feeling. Thank you for 
joining us, and the floor is yours.

 STATEMENT OF LYNNE MILLICAN, R.N., B.S.N., PARALEGAL, BOSTON, 
                         MASSACHUSETTS

    Ms. Millican. Well, I am honored to be here, and I did have 
great difficulty in getting here.
    I actually should not have to be here. I underwent 
fertility treatment to have a baby. However, I think I am more 
like egg donors than anybody else, because the extent of my 
disease was such that I needed a hysterectomy. I never expected 
to have children. I just wanted to make sure that I would not 
be 40 years old and look back and think, ``What if I had 
tried?''
    So that is the context that I underwent this treatment, and 
I was given the drugs Lupron and Pergonal. Before I took these 
drugs, I had endometriosis, misdiagnosed which resulted in 
infertility, a knee injury, colds, flus, and usual childhood 
illnesses. Since Lupron, it has been a nightmare. Everybody 
wants to promote research, but who is looking out for the harm 
that is being caused by this? I am just one--there are 
thousands of Lupron victims, and they are one of the reasons 
why I am here today, because when I was vomiting at 5 o'clock 
this morning, all I could think of is if I do not come here and 
tell you people about all of these sick women out there, I 
would never be able to live with myself.
    I am a registered nurse, but I cannot help these people. I 
have had difficulty getting help myself. In 1995, after six 
years of going through this, I testified at the Massachusetts 
Health Care Committee, because when I realized, in 1990, that 
there were no regulations, no laws, no protections, no nothing, 
no consumer advocacy, no governmental assistance, no state 
assistance, no consumer agency assistance, I wound up getting 
involved in drafting a piece of legislation, a first-in-the-
Nation bill in Massachusetts that would require fertility 
clinics to have a license to operate. I provided written and 
oral testimony every year.
    In 1995, at that time, I sat down at my computer and I 
typed in single space on continuous computer paper every 
doctor's office visit, surgery test, lab, procedure that I had, 
and this is just to 1995. This paper is seven and a half feet 
tall. And I am just one victim.
    If you go on the National Lupron Victims Network, yesterday 
morning there were over 2 million hits, and the counter just 
started January 1st, 2000. Lupron is not FDA approved for 
fertility treatment. It is a pregnancy category-X drug, 
according to the FDA. It is a hazardous drug according to NIH 
and OSHA. It is a reproductive and developmental teratogen. It 
has been referred to as a toxicant. I was told it was safe and 
effective and used successfully throughout the world. I run 
into women who never heard this risk information. This is 
unacceptable.
    The Boston Globe, in August of 1996, quoted the Nation's 
largest volume fertility clinic, a physician, as stating, 
``Women do not need to know that Lupron is not FDA-approved for 
fertility treatment.'' I disagree.
    I have had adenoma, breast cysts, cardiac arrhythmias, 
dizziness, edema, fatigue, gastritis, gastroesophageal reflux 
disease, hyperlipidemia, immune system abnormalities, joint 
pain, knee pain, lymphadenopathy, myalgia, neuralgia, 
osteopenia, now I have severe osteoporosis. My dentist said my 
jaw is dissolving. I have lost one tooth, and the rest of them 
are loosened.
    I am not alone. Initially, I did think I was alone. I would 
ask all the doctors, ``I just took Lupron. Is this related to 
Lupron?'' They'd say: ``No, nothing to do with it. Just 
coincidence. It is just your time.'' Well, it is not my time.
    Candice Hedin, of Marlboro, Mass., seven years ago took 
Lupron for fertility treatment, with Clomid. She suffered 
multiple unexplained serious illnesses. She has been 
hospitalized for unexplained chest pain, inability to breathe, 
about 15 times. She has hives inside her mouth and throat, open 
sores. She cannot eat or drink anything. She gets hospitalized.
    Wendy Camacho, Cherry Hill, New Jersey, took Lupron for IVF 
years ago. As she puts it, ``my IVF baby is now nine and my 
health is a mess. It has been downhill since. I have seen 
neurologists, rheumatologists, orthopedists. None of them have 
any answers for me. I have severe fatigue, fibromyalgia, 
trouble sleeping, nightmares, gross motor skills are 
disintegrating fast.'' I could go on and on, and these are just 
a few people----
    Senator Brownback. Would you----
    Ms. Millican.--that I put in.
    Senator Brownback.--would you submit those for the record?
    Ms. Millican. I have.
    Senator Brownback. Okay, I just want to make sure that we 
have those in the record, those of other people, other 
statements from individuals.
    Ms. Millican. I included them within my own statement.
    Senator Brownback. Good.
    Ms. Millican. There is much more that I could have put in 
my statement. Time did not permit.
    I do not feel that any victim should ever have to do what I 
have had to do. I brought this just simply as a display.
    I had to file my own lawsuit without a lawyer. I am not a 
lawyer. There is nobody to help these people. Although I do 
have to say now--you know, I started this in 1989--now there 
are lawsuits that are being filed.
    TAP has been sued for product liability. They are being 
settled. I do know that cases are being consolidated, and I do 
foresee a class action looming large. TAP has been declared a 
criminal enterprise based upon its scheme with physicians and 
billing fraud and kickbacks and--they just paid the largest 
fine in history at the time, $875 million. They allegedly have 
been maintaining a registry of babies exposed, inadvertently 
exposed, to Lupron, and they have a registry of over a hundred 
babies. That data is as of 1992. Somebody needs to find out how 
these babies are. TAP Pharmaceuticals maintains that there are 
no birth defects attributable to the drug.
    I know women myself with adverse pregnancy: birth outcomes 
after Lupron, and there are women on the Internet who report 
similar problems. There are problems with all of these drugs. I 
am especially concerned about Lupron, because I do believe that 
it is an especially toxic drug. But I have concerns about other 
drugs, as well. There has been no long-term epidemiologically 
sound research looking into the long-term health effects of any 
of these drugs.
    And where are you going to get these eggs from? You are 
going to get them from women who think they are doing a good 
thing, maybe who need some money. I have seen egg donor ads in 
Boston, ``We're on the T.'' Poor women who do not have cars, 
who need money, who are going to be going for this, and they 
need to know about the risks. And where are they going to hear 
it from? Only from somebody like me or other victims. And I do 
not get an opportunity to do this, because I am sick a lot of 
the time. But where are these women going to hear about this? 
The fertility industry is not telling them. I call them a bunch 
of ``reproductive endo-criminologists.''
    There is a lot more that I have to say, but----
    [The prepared statement of Ms. Millican follows:]

Prepared Statement of Lynne Millican, R.N., B.S.N., Paralegal, Boston, 
                             Massachusetts
    Mr. Chairman, and Members of the Committee:
    I am honored for the invitation to speak to you today on this very 
important issue. And although I am a registered nurse, I am here before 
you because of personal experiences as a patient undergoing 
superovulation during in vitro fertilization (IVF) attempts at several 
Boston fertility clinics over a decade ago--and because of what I've 
learned in the interim. My focus will be upon the adverse effects to 
the eggs, embryos, fetuses and women from one particular and commonly 
used drug, Lupron (leuprolide acetate), which is not FDA approved for 
fertility treatment; as well as addressing the risks from other 
fertility drugs and the assisted reproductive technology (ART) 
procedures in general.
    For ease of reading and reference, this paper will be arranged 
under the following 13 headings:

        1. Preliminary Comments
        2. Dead Women Don't Talk--p.4
        3. On The Count Of Eggs And Money--p. 5
        4. A Brief Overview of the ``Hazardous'', ``Commonly 
        Prescribed'' Agent Lupron--p.12
        5. Impact of Lupron Upon Women's Brains, Bodies, and Bones--
        p.14
        6. Known Effects Of Lupron On Eggs, Embryos, and Babies--p.16
        7. Examples of Iatrogenic Illnesses Induced By Exposure--p.19
        8. Rita Abend, D.D.S.--Her Story & The Inception Of The NLVN--
        p.29
        9. The State of the ART, And The ART of Stating--p.32
        10. The Check is in the Fe/male--p.33
        11. Considering Cloning? Consider the Myths of Hype, and The 
        Realities of Scientific Misconduct--p.36
        12. The Marginalization Of Victims And Lack Of Medico-legal 
        Advocacy--p.39
        13. A Request To Congress Asking For An Investigation Into 
        Lupron and ART--p.44

1. Preliminary Comments
    The drugs and fertility agents and the processes used in 
superovulation regimes for fertility treatments are exactly the same as 
that used to obtain women's eggs for cloning research (although 
numerous variations of the protocols exist within the core group of 
`fertility drugs'). Cloning cannot take place without women's eggs, and 
therefore the information I have to offer concerning the risks of 
fertility treatment have direct application to the process of 
therapeutic cloning. It has been estimated that some 8 million eggs per 
year may be necessary to sustain therapeutic cloning research--how many 
women would that entail? My research into the medical literature 
revealed the maximum top three reports of numbers of eggs retrieved at 
one time as being: 91 eggs from one woman at one time (Source, 1995), 
71 eggs from one woman at one time (Lewit, 1995), and 56 eggs from one 
woman at one time (Lim, 1995). Since this research will require 
millions of eggs, this demand translates into the need to obtain as 
many eggs as possible from each woman per attempt. To quote from the 
consent form for egg donation for purposes of stem cell research at 
Advanced Cell Technology: ``The idea is that the greater number of 
fully mature eggs, the greater the chance of successfully utilizing 
them in this research.'' (ACT)
    A dozen years ago, an article examined ``[t]he risks associated 
with ovulation induction'', identifying that ``epidemiologic studies 
are needed to determine the true risks associated with exposure'' to 
the older, `traditional' fertility drugs (St. Clair Stephenson, 1991). 
More than a decade later, the question is still being asked: `Are we 
ignoring potential dangers of in vitro fertilization and related 
treatments?' (Winston, 2002). Costly complications from ART were, in 
part: a high incidence of first and second trimester bleeding, 
spontaneous abortion, toxemia, fetal growth restriction, anemia, 
anesthetic complications, ovarian hyperstimulation syndrome, culture 
medium infections (hepatitis and AIDS), visceral and vascular injuries, 
pathogenic infections, and breast and ovarian cancer. (Schenker, 1994). 
I believe it was Mirabella's August 1993 issue which carried `A 
Doctor's Story', about a physician who took Clomid and was diagnosed 
with breast cancer. Large scale, epidemiological sound studies remain 
lacking on these earlier drugs, and yet in the interim years, the newer 
fertility `agents' have been added and have themselves become 
`traditional', standard, chemicals used in ovulation induction--but 
again, this standard has developed without any epidemiologically sound, 
long-term, safety data. It is noteworthy that while Lupron has become 
`standard' within superovulation regimes, it is administered at various 
doses for various times, varying even within the various patients, and 
has varying effects.
    There have been a number of past, as well as a flurry of recent, 
published reports of birth defects in babies born from superovulation, 
IVF and other variants of ART, and it is widely acknowledged that 
critical long-term studies of the risks of ART are lacking (i.e., among 
others: Kola, 1988; Fischel, 1989; Saunders, 1989; Tanbo, 1995; Silver, 
1999; Aboulghar, 2001; Mitchell, 2002; BBC, 2002; Sutcliffe, 2002; 
Skloot, 2003). Titles often tell the story: ``Ocular Manifestations in 
Children Born After In Vitro Fertilization' (Anteby, 2001), `Congenital 
malformations in infants born after IVF: a population-based study' 
(Ericson, 2001), `Hormone and Fertility Drug Use and the Risk of 
Neuroblastoma: A Report from the Children's Cancer Group and the 
Pediatric Oncology Group' (Olshan, 1999), `Congenital malformations in 
infants born after IVF: a population-based study' (Ericson, 2001), 
`Brain worry over IVF children' (Health, 2002), `Low and very low birth 
weight in infants conceived with use of assisted reproductive 
technology' (Schieve, 2002), `The Risk of Major Birth Defects after 
Intracytoplasmic Sperm Injection and in Vitro Fertilization' (Hansen, 
2002), `In Vitro Fertilization May Be Linked To Bladder Defects' 
(Trock, 2003), `Some Studies Sees Ills for In Vitro Children' (Mestel, 
2003), `Incidence of retinoblastoma in children born after in-vitro 
fertilisation' (Moll, 2003). March 2002 brought headline news that the 
highly promoted and touted low incidence of birth defects from IVF 
(always stated as ``similar to the general population, about 2-3 
percent'') was now being reported as 9 percent--much higher than the 
general population. And now March 2003 brings news that IVF babies are 
at increased risk for urologic birth defects (Wood, 2003).
    The American Society for Reproductive Medicine, in its Annual 
Meeting in 2002, released the following statement on October 14, 2002: 
``Studies Show Children of ART Develop Normally'' (ASRM, 2002--note 
link of `kidsareallright'). Figures don't lie, but liars figure. (In 
1990, the Federal Trade Commission brought complaints against 4 
fertility providers for false claims in fertility treatment success 
rates [FTC, 1990]). To quote the New York Times: ``Since the 1970's, 
fertility clinics have created almost a million children through 
experimental technologies. They've used untested and unregulated 
procedures . . . Where is Washington in all of this?'' (Skloot, 2003).
    Online transcripts from the FDA's Reproductive Health Drugs 
Advisory Committee Public Meeting, held October 18, 1999, identified 
``the need for pregnancy registries of babies born resulting from such 
[ART] treatment. These drugs include GnRH agonists and antagonists, 
human menopausal gonadotropins, purified urofillitropin, recombinant 
follicle stimulating, chorionic gonadotropin, and progesterone''. The 
United Kingdom recently announced plans to study 68,000 people born as 
a result of ART (Kaiser, 2002). Will the percentage of birth defects 
from ART continue to climb in the U.K., and the U.S., with further 
study? Do human embryos really need to be grown in human ovarian cancer 
cell lines (see Ben-Chetrit, 1996)? ``Abnormal embryos'' have been 
implanted into women (Munne, 1995)--what kind of consent did that 
experiment entail? One treatment, using intravenous immunoglobulin 
(IVIG), has raised questions about the ``ability to screen for any 
diseases that could crop up 20 or 30 years down the road. Some doctors 
have even gone so far as to denounce [the] practice not as medicine, 
but witchcraft.'' (Arnot, 2000).
    Children have been born from co-culture with animal sera that could 
potentially contain prions, viruses, and/or unknown infectious agents--
and my questions from the mid 1990's about risks from such co-cultures 
to embryos, children, and women went unanswered. In 2002, the FDA sent 
a `Dear Colleague' letter, announcing that the transfer of such co-
cultured embryos ``constitute[d] a clinical investigation involving 
xenotransplantation'' (Letter, 2002), but no enforcement action would 
be based on already existing embryos; and FDA and U.S. Public Health 
Service guidance documents recommend, among others, ``follow patients 
for their lifetimes and counsel them to be alert to any unusual 
symptoms . . . [and] they and their intimate contacts should defer from 
donation of blood and other tissues.'' (CBER, 2002). Vero cells, from 
African green monkey kidney cells, have been used frequently in human 
embryo co-culture (i.e., see Veiga, 1999). In an online 1994 report of 
ART practices, it was stated that ``[a]lthough the firm of Merieux 
refuses to accept any responsibility for the use of these [Vero] cells 
for the culture of human embryos, they are already widely used for this 
purpose by many specialists in medically assisted procreation . . .'' 
(Report, 1994). Who is minding this store?
    The nation's highest volume clinic was one of 10 participating 
clinics in a 1988 national study that attempted to look at the long-
term health consequences of ART and drugs on the women and offspring--
however the study made no mention of GnRHa's--the results were touted 
as `reassuring', yet results were inconclusive (although ``warrant[ing] 
epidemiologic study''), and with too few study subjects (NICHHD, 1992). 
Of note, this writer, who developed multiple health problems, was a 
fertility patient at this clinic during this study--but was never asked 
to participate in this study. More significantly, another patient who 
was asked and did participate in this study (and shared her study 
documents with me) was subsequently dropped from the study following 
her hospitalization for severe ovarian hyperstimulation syndrome during 
her fertility treatment--in which she went into kidney failure and 
nearly died.
    Many follow-up studies I've read of ART children do not identify 
the specific drugs received. My own experiences highlight the lack of 
informed consent that women experience when they ``agree'' to take 
fertility drugs. The best illustration of this is found in the Boston 
Globe's quote of the Director from Boston IVF, the `nation's largest 
volume fertility clinic' (one of the two clinics I attended) who 
proclaimed ``women do not need to know about the lack of FDA approval 
[of Lupron for fertility treatment] . . .'' (Kong, 1996) Years later, 
this clinic would receive ``$180,000 over two years to cover the cost 
of providing the embryos'' ``to Harvard University scientists for stem 
cell research. . . . Harvard researchers plan to offer the new stem 
cells to any interested scientist at no cost, with no commercial 
restrictions. . . .'' (Mishra, 2001)
    The profit within the fertility industry that exists today, as well 
as the hyped potential profit of therapeutic cloning tomorrow, along 
with lack of informed consent, the risks, and inherent exploitation all 
point to this issue having very serious ramifications upon many lives.
    A recent Popular Science article unintentionally highlights the 
issue of consent: in the March 2003 series, the McNamara's were 
featured as they had undergone experimental fertility treatment using 
cow uterus to grow their embryos. This Popular Science piece examined 
the risks of ART, and the McNamara's conclusion at the end of this 
article was ``Yeah, there is [a possibility of long-term effects] . . . 
But . . . we would still have done it.'' (Skloot, 2003). However, 
Popular Science held a Popular Science Infertility Chat on America 
Online, and, in fact, the McNamara's stated in the chat--after they had 
read the article--that ``I think it's important to point out that the 
information in the article wasn't available when we made our decisions. 
. . . Honestly, if it was presented in a way that it would cause trauma 
to our offspring, we probably wouldn't have done it.'' (Chat, 2003)
 2. Dead Women Don't Talk
    Not until long after my fertility treatment did I learn that, 
before my treatment, there were questions raised and warning given 
regarding the fertility industry's use of lack of informed consent, 
deceptive advertising and manipulated statistics. The first survey in 
the world of IVF clinics was done by two journalist/authors, Gena Corea 
and Susan Ince, and this survey revealed that while half of responding 
clinics had claimed high success rates, they had, in fact, produced not 
one baby (Corea, 1987). In 1992 I had begun legal action against my 
fertility treatment providers, and in 1997, Gena Corea (see also Corea, 
1985) provided a statement to me intended for inclusion into the Offer 
of Proof for my medical malpractice tribunal (Millican v. Harvard 
Community Health Plan, Boston IVF, Natalie Schultz M.D., Brian Walsh 
M.D., Mahmood Niaraki M.D., Selwyn Oskowitz M.D., Michael Alper M.D.) 
The following 5 paragraphs are from that statement:
    `` . . . A lack of informed consent to IVF has been a constant and 
continuing problem with IVF from its earliest days when Lesley Brown, 
pregnant with the first IVF baby, Louise, was under the misapprehension 
that hundreds of such babies had already been born. She had no idea 
that she was in such an experimental program. . . .''
    `` . . . The exact number of women who have died in in vitro 
fertilization programs is not known. However I have information on the 
deaths of ten women: in Germany, Brazil, Israel, Spain, and Martinique 
(in all these countries, I have tape-recorded interviews with the 
physicians and/or relatives of the dead women), and in Australia, New 
Zealand and Canada. Women entering IVF programs do not know of these 
deaths. Even physicians practicing IVF do not know of most of the 
deaths or their causes. With the exception of the Israelis, the IVF 
teams involved are not writing reports on the deaths for their 
professional publications nor are they delivering papers on the deaths 
at international meetings . . . No professional or governmental 
organization is recording the deaths in a data bank.''
    ``Some Brazilians know of the first death--of a woman named Zenaide 
Maria Bernardo, whose daughter and physician I interviewed in, 
respectively, Araraquara and Sao Paulo, Brazil. They know of her death 
because it occurred during a course on IVF for physicians and the 
course was a huge media event, covered by Globo, a national television 
station and the fourth largest in the world. The death could hardly be 
covered up when the television cameras were rolling. But aside from 
these Brazilian citizens, few in the public know of any IVF deaths.''
    ``To date, IVF deaths are known to have occurred due to 
hyperstimulation of the ovaries through the administration of hormones; 
anesthesia for laparoscopy; infection following laparoscopy; bleeding 
following laparoscopy; bleeding following ultrasonically-guided 
puncture of egg follicles; and ectopic pregnancy.''
    ``Physicians and the public relations firms hired by the IVF 
industry often give women the impression that IVF is a low-risk 
procedure. How do they know it is low-risk? I have interviewed 
physicians around the world on IVF deaths and without exception, I have 
known of, and had documentation on, more IVF deaths than any of them 
claimed to. Why is that? If scientists doing IVF do not know of the 
deaths their programs are causing, why don't they? What are the 
mechanisms by which this information has been obscured? Through their 
journals and conferences, physicians share information on every slight 
change in drug protocol for inducing artificial ovulation. Shouldn't 
information on deaths, injuries, psychotic breaks, lengthy recoveries 
also be shared? It's not. . . .''
3. On The Count of Eggs and Money
    Early articles describe Lupron's application in ovulation induction 
regimes as ``in special situations'' (Blankstein, 1988), yet Lupron 
``began to be widely used for IVF in 1989'' (Martin, 1994). By 1990 
fertility industry figures, GnRHa's were utilized in 97 percent of 
reported assisted reproductive technology cycles (MRI, 1992), with 
Lupron identified as the ``prevalent choice'' and most frequently 
prescribed GnRHa in this country (Keenan, 1991; Martin, 1994). The 
fertility industry had already achieved the recognition of being more 
than a billion dollar industry by 1990 (Talan, 1990), and sounding like 
a trumpet, a 1991 publication proclaimed ``Chronic indications for GnRH 
agonist therapy among IVF/GIFT patients are likely to increase 
significantly in the immediate future.'' (Gordon, 1991). Early on, 
Lupron's use had been described as increasing the use/purchase of 
Pergonal (manufactured by Serono) by 50 percent (Keenan, 1991), and it 
was known that ``[t]he direct financial cost of cycles incorporating 
adjunctive leuprolide therapy was 40 percent greater than the cost of 
cycles in which no leuprolide therapy was used.'' (Dodson, 1991). At 
this time, the failure rates for IVF were around 80-85 percent: 
``rarely has a technology that has had such dismal success rates been 
so quickly accepted.'' (Raymond, 1993).
    When I complained to my Harvard HMO about their use of this 
experimental drug, their response was an illustration in how 
definitions can easily be changed; they state that institutional review 
board (IRB) review was unnecessary because Lupron was not being used in 
``research'', but rather Lupron was being used in a ``therapeutic'' 
manner. The Office for Protection from Research Risks has received 
reports from major research institutions of ``startling ignorance'' of 
IRB policies regarding informed consent in reproductive research 
(Ellis, 1995).
    Because of my nightmare experiences as a fertility consumer, I 
became involved in drafting a first in the nation bill which would have 
required fertility clinics to have a license to operate, and which 
would have mandated informed consent of ART risks (Millican (2), 1992; 
Lasalandra, 1995). My collaborator in drafting this bill, Linda 
DeBenedictis, had also attended Boston IVF and had also been mandated 
to switch to Lupron--and her story was told over a 3 part series on 
Boston TV news. Doctors from Boston IVF told the DeBenedictis' that 3 
eggs had fertilized and 3 embryos were ready for implantation the next 
morning. Upon arrival at the clinic the next morning, there were not 3 
embryos for implantation--there were no embryos for implantation. The 
clinic maintained there had been an ``error in communication'', and 
that no embryos had fertilized (WHDH, 1989).
    From 1992-1999, I provided verbal and written testimony to the MA. 
Health Care Committee in support of this bill (MA. H. 3308), and these 
documents are a testament to my experiences, my learning curve, and the 
mounting evidence against Lupron. My 1992 written testimony states: `` 
. . . nearly every IVF clinic has mandated that women take Lupron--or 
they will not be allowed to cycle  . . . Women are told that Lupron 
results in better quality and better quantity of eggs.'' In 1995, my 
testimony states I was told that I ``must use Lupron'' if I wanted to 
undergo IVF. Women reported successful IVF births without Lupron, yet 
were made to use Lupron nonetheless, and reported subsequent failure in 
these switched cycles. Other women using Lupron complain of failure to 
suppress and canceled IVF cycles, premature leutinization, and poor 
quality eggs with Lupron (see Chetkowski, 1989; Schoolcraft, 1991). The 
internet posts of women identify the badgering, and coercion, and 
manipulation, and threats used to convince women into taking Lupron for 
a variety of indications--many refer to their doctor as trying to 
``shove it down [their] throat''.
    Later I would learn that the first survey in the world of IVF 
clinics was conducted in 1986 (Raymond, 1993), revealing deceptive 
success rate claims and manipulated figures (Corea, 1987). As a result, 
the 101st Congress held hearings in the Subcommittee on Regulation, 
Business Opportunities, and Energy, House of Representatives, in which 
data from 191 fertility clinics was published. This clinic specific 
information shows a significant number of these reporting fertility 
clinics had recently ``switched'' and/or ``began to use'' Lupron in 
their superovulation regimes--without any IRB review (Hearing, 1989). 
One reporting clinic provided testimony identifying Lupron as ``a 
costly, experimental medicine  . . .'' (Kemmann, 1989).
    One of the fertility clinics that I attended in 1990, Brigham & 
Womens, had as its protocol in its IVF brochure that ``Lupron is only 
used in certain diagnosis'', but in 1991 this clinic changed its 
brochure to read ``Lupron is widely prescribed''. I would later learn 
that the director of this IVF clinic, Dr. Andrew Friedman, had been a 
lead Lupron investigator, had received numerous grants and funds from 
Lupron's manufacturer, Takeda Abbott Pharmaceuticals (TAP), and had 
published extensively on Lupron. Dr. Friedman was ultimately found 
guilty of falsifying and fabricating approximately 80 percent of the 
data in four Lupron studies, two of which had been published and were 
subsequently retracted. Friedman had ``altered and fabricated 
information in patient medical records, falsified research notes by 
changing dates and changing and adding text'', and fabricated notes and 
fabricated patients for clinical visits that had not taken place. 
(Federal Register, 1996; see also Lasalandra, 1998; Millican, 1998; 
Kong, 1999).
    My 1995 written testimony in support of MA. H 3308 identified 
``manipulated figures'' in a fifth Friedman Lupron study (Millican, 
1995). To the best of my knowledge, while confidential Harvard 
documents state further investigation into other Friedman Lupron data 
should be explored, no investigation has been conducted beyond the 
four, identified, fraudulent Friedman Lupron studies. Two years after 
the Federal Register publication of Friedman's fraud, the MA. Board of 
Registration `acted' by temporarily suspending his medical license, 
however the published and cited bogus data is irretrievable. And in 
fact, one fraudulent and retracted Friedman Lupron study was cited as a 
credible reference and data source in an article published on Medscape 
(Women's Health) in August 2001 (Data, 2001). In a similar faux pas, 
FDA Consumer magazine recently had to provide a correction to an 
article in which it erroneously stated GnRHa's would ``shrink 
fibroids''--a statement told repeatedly to women despite the fact 
Lupron has only been approved for ``the anemia associated with 
fibroids, when iron therapy alone has been ineffective''. The 
indication of Lupron's use to ``shrink fibroids'' received the FDA's 
rejection in the past, and no FDA approval has ever been granted for 
this indication. (FDA, 2002)
    NBC Dateline did a story January 2, 2000 about severe side effects 
experienced by women taking Lupron for endometriosis (adverse events 
such as joint pain, numbness, memory loss, irregular heart beat, 
suicidal depression, whole body swelling, grand-mal seizures). Quoting 
from the Dateline story transcript: ``[Dateline] asked TAP about the 
complaints of these women, given TAP's marketing of Lupron as ``perhaps 
making miracles possible.'' While the company declined an on-camera 
interview, [Dateline] met with several top executives, who told 
[Dateline] the preponderance of evidence suggests that Lupron works, 
otherwise women wouldn't continue to use it.'' Dateline's story 
concluded with ``[Lupron] is also widely and routinely used for women 
going through fertility treatments.'' (Dateline, 2000).
    In 2001, the U.S. Attorney's office in Boston would land the 
largest fine in history--$875 million--from TAP for its lucrative, 
unethical, illegal, conspiratorial scheme involving urologists and 
kickbacks, gifts, trips, TV's, computers, VCR's, as well as gifts of 
free samples of Lupron which were then billed to Medicare. Confidential 
documents of Lupron's ``return to practice'' scheme were revealed 
during Chairman Bliley's hearings (Oversight Hearings). This 
prosecution resulted in TAP officially earning the title of ``a 
criminal enterprise'', and a decade earlier TAP had profitably 
tarnished itself with receipt of Notices of Adverse Findings from the 
FDA due to its incessant and ``deliberate campaign to promote this 
product [Lupron] for a wide range of unapproved uses.'' (FDA, FDC; 
1990). ``In addition to offering inducements to hospitals and doctors, 
TAP was encouraging its salespeople to approach patients in support 
groups.'' (Pitchmen, 2002). And I aware of one gynecologist who TAP 
approached and indicated he could clear $98,000 to his income by 
prescribing Lupron.
    Government documents of the TAP prosecution reveal that TAP also 
attempted to make deals involving the costs of gynecological uses of 
Lupron. And, incredulously, these government documents state that 
``Lupron depot 3.75 mg is indicated for treatment of . . . 
infertility''. This statement contradicts the FDA's lack of approval of 
Lupron for the indication of infertility, but the presence of this 
erroneous and promotional language within these government documents 
well illustrates the extent of pervasive influence of the industrial 
mantra that `Lupron is standard in fertility treatment' (U.S.A., 1998). 
The rationale for so many unreasonable heated decrees of ``you must 
take Lupron if you want IVF (to get good quantity and quality eggs)'', 
``you must take Lupron for your endometriosis (if you ever want to get 
pregnant)'', ``you must take Lupron for your fibroids (or you'll bleed 
to death or have to have a hysterectomy)'' was now as clear as a solid 
gold bell struck with a silver spoon.
    Fertility clinics have been generating in the multi-million dollar 
annual surplus range, and years ago claimed a 37.5 percent profit 
margin and physician salaries up to one million (Gabriel, 1996). For 
quite some time, reproductive endocriminology has enjoyed the label of 
a multi-billion dollar industry. In such an area of `obscene 
profiteering', every attempt at regulation has met with stiff 
opposition. The MA. bill (H. #3308) has habitually died and been 
refiled each session, although it has not been refiled this year to 
date. And I understand a recent provision by Senator Frist to study the 
adverse health effects of ART on women and babies was also defeated 
(Skloot, 2003). Patient protections are nowhere to be found, while 
patent and industry protections abound--and market/ing forces rather 
than science dictate the `standard of care'.
    When discussions of the lack of regulation within the fertility 
industry arise, the industry refers to the Federal bill, the `Fertility 
Clinic Success Rate and Certification Act of 1992', as the answer. Yet 
this Act, Public Law 102-493 (signed into law by President George H.W. 
Bush on October 24, 1992), does not contain any language whatsoever to 
address or mandate informed consent to the risks of the drugs and 
procedures. And, in H.R. 4772 (which directs the Secretary of the 
Department of Health and Human Services to develop a model embryo 
laboratory certification program for the states), there are 
``Limitations'' (in `Section 3:i') which declare: ``(1) In developing 
the certification program, the Secretary may not establish any 
regulation, standard, or requirement which has the effect of exercising 
supervision or control over the practice of medicine in assisted 
reproductive technology programs; [and] (2) In adopting the 
certification program, a state may not establish any regulation, 
standard, or requirement which has the effect of exercising supervision 
or control over the practice of medicine in assisted reproductive 
technology programs.
    This language, which was crafted at the behest of the industry 
(Lawrence, 1993), appears from my vantage point to illustrate the 
Lupron loophole well--`you can tell us what to do, as long as you don't 
tell us what we can't do  . . . including patentable, profitable, 
ventures involving injecting hazardous drugs without informed consent.' 
What we have here is unconscionable stealthcare: an entire `profession' 
and industry utilizing hazardous and untested drugs and procedures upon 
vulnerable women attempting to conceive, without informed consent, 
under the guise of ``science'' and ``under the law''. For a preyed upon 
victim to have to try to sort this out without advocacy, and to have to 
learn how and then search applicable law to try to make sense of this 
outrageousness, is patently absurd. Judge Learned Hand precisely 
captured the essence of this matter: `` . . . there are precautions so 
imperative that even their universal disregard will not excuse their 
omission'' (T.J. Hooper, 1932).
    Of critical note is the increasing number of states that have 
passed legislation that mandates insurance coverage for fertility 
treatment--in essence, promoting further use of experimental agents 
such as Lupron (and in the case of MA., it would appear that the state 
has become complicitous in the advancement of human experimentation in 
light of failure to pass informed consent legislation). These states 
have been, and/or are being, lobbied heavily by RESOLVE, Inc., an 
organization that alleges to ``educate, support, and advocate'' for the 
infertile, yet was taking thousands of dollars from TAP Pharmaceuticals 
as early as 1989 (before any female indication had ever been FDA 
approved for Lupron). RESOLVE, Inc. admits to receiving hundreds of 
thousands of dollars from numerous fertility drug manufacturers in its 
itemizations in Annual Report disclosures, however RESOLVE claims in 
published Boston reports that RESOLVE ``does not receive any funding 
from drug companies'' (Seiffert, 2000).
    RESOLVE has a history of opposing regulation of the fertility 
industry, including MA. H #3308 (Millican (1), 1992), and of ``mov[ing] 
quickly to downplay'' information pertaining to risks from fertility 
drugs and treatment (Dezell, 1994). And, in similar fashion, the 
Endometriosis Association (EA), which testified at the FDA on behalf 
of, and claims an active role in the approval of, Synarel, the first 
GnRHa FDA approved for use in women with endometriosis--with the EA 
providing testimony to the FDA on behalf of Lupron as well . . . yet 
the EA has also received thousands upon thousands upon thousands of 
dollars from GnRHa manufacturers, including TAP (see 
www.lupronvictims.com, `Endometriosis', for partial list of specific 
years, companies, and dollar donation amounts). Another younger 
endometriosis association, founded in 1997, the Endometriosis Research 
Center (ERC), like the EA, publicizes clinical drug trials for 
endometriosis. The ``ERC March 2000'' was ``presented by the ERC and 
Amgen Praecis'' (manufacturer of a GnRH antagonist) (ERC, 2001); and an 
ERC Board Member and Director of Operations is also the ``co-ordinator 
of the AstraZeneca [manufacturer of Zoladex] Pharmaceutical Corporation 
website, the Endometriosis Zone'' (Operations, 2003). While the disease 
of endometriosis and the havoc it wreaks needs as much attention as 
possible, the eternal presence of conflicts is quite troubling.
    For years the FDA has been making annual seizures at ports of 
unlabeled and illegal fertility medications, including Lupron. I have 
also seen a publicly posted note on a fertility message board 
advertizing an ultrasound machine, and media reports have been made in 
the past of `black market' Lupron and sales. Just what type of 
underground market exists out there? Just how many people are lining 
their plush pockets while their victims simply line and pile up?
    `Follow the money' is an apt adage for this unregulated billion-
dollar industry and all its associates groups. The value of eggs and 
embryos for research was clearly identified in the transcripts of the 
National Institutes of Health's 1994 Human Embryo Research Panel 
Hearings, wherein the profit from human embryo research in the form of 
vaccines, hormones, proteins, stem cells, gene therapy, cell lines, 
organogenesis, ectogenesis, parthenogenesis, chimeras, patents, etc. 
was amply highlighted. There were a few voices of caution: i.e., Dr. 
Van Blerkom stated ``The [medical] literature is the quality of the 
science in the field, and without offending anybody who might have a 
vested interest, I think the quality of science in this field has been 
awful, in this country at least, from the very beginning, awful because 
there are reports that get into journals based on handfuls of 
patients.'' And C.A. Tauer stated ``I think the fact that the research 
enterprise has gone on out there without peer review and without the 
appropriate safeguards is something very bad that has happened.'' (NIH, 
1994)
    One patent relating to assessing eggs and pre-implantation embryos 
noted that ``[s]ignificant improvements in ovulation induction, oocyte 
retrieval, and in vitro culture techniques have resulted in an 
abundance of embryos per patient or experimental animal.'' (Assignee, 
1996). One gross eggsample of commercialism at its highest level of 
crass was the website auction of the eggs of ``beautiful young models 
for as much as $150,000 a pop'' (Oldenburg, 1999). Hundreds of ``egg 
donor wanted'' ads litter the nation's newspapers and college campuses, 
with financial enticement as high as $50,000 for Ivy league eggs 
(Padawer, 2002) and $100,000 for the preference of `proven college-
level athletic ability' (Enge, 2000)--and the industry proclaims the 
``shortage of egg donors''--yet it would seem that the published 
medical literature tells a different story.
    In curiosity, I added the number of human oocytes and embryos 
identified in a mere, random, 20 pages in just one of the numerous 
relevant medical journal publications available, and arrived at a total 
of 7,845 human oocytes [eggs] and 266 human embryos used in research in 
these few pages. These 20 pages contained roughly 80 abstracts, 
published in just one supplement of this one journal, from just one 
month, in just one year (Journal, 1995). This genetic `research 
material' is described in the published medical literature as ``coming 
from the IVF program'', ``surplus'', ``left-over'', ``discarded'', 
``extra'', ``spare'', ``clinic'', ``donated'', ``research'', 
``abnormal'', ``fertilized'', ``unfertilized'', ``nontransferable'', 
``suboptimal'', ``nonviable'', and ``aspirated''. In Britain's The 
Times, an article entitled `Scientists pillaging foreign embryos' 
qualified that ``the stem cells are derived from an anonymous embryo in 
the United States, left over from an IVF procedure.'' (Hawkes, 2000). 
And, again for curiousity, I tallied the incidence of `egg donor 
wanted' ads published in the Boston Globe for the month of February 
2001; and found `egg donor wanted' ads published on February 4th, 6th, 
7th, 8th, 11th, 14th, 18th, 20th (twice), 21st, 22nd, 25th, and 27th.
    The Washington Post reported in 1998 on `Experimenting with eggs': 
`` . . . No one was paying attention . . . The research required many 
eggs to practice on, said [][one] clinic's director, so doctors there 
turned to women who were donating eggs to infertile women and used some 
of the leftover eggs for their research. `We call it sharing with the 
lab' he said.'' (Weiss, 1998). And there are few embryologists who 
admit to ``hav[ing] played around with embryos after hours.'' (Rogers, 
2001).
    The same researcher who recruited egg donors for Advanced Cell 
Technology's human embryo cloning endeavors has a mobile embryology 
lab--``a conventional-looking recreation vehicle with a connected 
trailer. Inside is nearly all the gear needed for in-vitro 
fertilization.'' (MSNBC, 2002). Currently this mobile embryology lab is 
utilized to serve HIV+ clients who wish IVF, but it is noted that such 
a traveling lab ``could potentially provide location-flexible ART for 
under served populations'' (Foundation, 2002). In the matter presently 
before Congress, there is discussion that if therapeutic cloning were 
allowed, it should be removed from the fertility clinic setting. Are 
traveling embryology vans, pulling trailers and driving throughout the 
streets of the country, the answer? With the value of human eggs as 
research material increasing, imagine the obscene profit that an 
unscrupulous scientist could envision with a mobile IVF unit traveling 
the country, trafficking in underground egg sales.
    The profoundly significant and despicable thefts (``conversion'', 
``sharing'') of women's ova and embryos by Drs. Ricardo Asch, Sergio 
Stone and Jose Balmaceda at the University of California at Irvine 
(Regents; Press; 1995) should be a serious reminder to the utter (and 
anesthetized) ease with which such menacing maneuvers can be executed. 
(And Dr. Asch had co-authored studies of Lupron, ``which was kindly 
provided by Abbott'' [Guerrero, 1993]). The contemptible violations of 
stealing women's eggs and embryos should highlight the profitability of 
schemes to procure women's eggs and embryos for use in research and/or 
covert `re-sale'. Dr. Asch reportedly `left his office daily with 
briefcase stuffed with thousands of dollars'. And attention should be 
directed to the drug protocol(s) used--medications administered 
``deliberately'' ``so there would be a surplus of eggs'' (Challender, 
1995). Who is exerting any oversight over the field of reproductivity? 
Who would exert oversight over therapeutic cloning--this same industry?
    The conflicts within this arena are excessive and have had a 
tremendously negative impact upon care. For one example, I pursued 
initial rheumatology work up for bone pain post-Lupron at the renowned 
hospital which had first prescribed Lupron to me, and during the course 
of my visits I was met with the standard ``(pain) has no connection to 
Lupron''. Years later I would read that the head of this department had 
been a long-term highly paid consultant and scientific advisor for 
Lupron's manufacturer (with compensations rising each of the many years 
displayed)--and I've seen this doctor's signature on the contract where 
the pledge is taken to `defend the company's products at all times in 
all ways'. In retrospect, I'm able to say `no wonder no one there 
wanted to even hear about any connection between Lupron and problems'--
but how many other patients know of conflicts of interest in their 
circumstance(s) . . . and who will tell them?
4. A Brief Overview of the ``Hazardous'', ``Commonly Prescribed'' Agent 
        Lupron
    Lupron, referred to as a GnRHa (gonadotropin releasing hormone 
analog/agonist [and also previously referred to as LHRH]), will be the 
focus of my comments as it is one of the most commonly used agents, but 
it should be recognized that numerous other GnRHa's as well as the 
newer GnRH antagonists are being used in superovulation of women--and 
the risks from all of these agents should be taken into consideration. 
Thousands of women have become seriously ill after taking Lupron (and 
there have also been complaints about other GnRHa's, such as Buserelin, 
Synarel and Zoladex); and the alleged safety and mechanism of action of 
these drugs needs attention. A National Lupron Victims Network (NLVN) 
was founded in 1993, and when I learned of their existence in 1994, 
they were the only entity who was interested in the results of my 
searches into the medical literature; and this information, along with 
many other sources of information, continues to serve as the 
`clearinghouse' of information on the risks of Lupron at their website, 
www.lupronvictims.com. The NLVN began a visit counter on January 1, 
2000: as of 3/25/03 there were 2,119,422 hits made to this site. While 
the NLVN provides detailed information on Lupron, other internet sites 
contain public message boards about problems after Lupron, i.e., Delphi 
message boards such as `Julie's After Lupron Page' (Julie's Page), and 
AOL message boards, among many others.
    The initial patent filed for Lupron involved ovulation induction 
(Patent #4,005,063), and Lupron has been used in drug company funded 
studies to induce ovulation (i.e., Segal, 1992). Lupron has become the 
``standard of care'' for some 15 years, for a variety of reasons, 
including to maximize number of eggs produced. A multitude of many, 
including numerous Internet pharmacy websites, hawk Lupron as a 
``fertility medication'' . . . yet the FDA has never approved Lupron 
for infertility, or fertility treatment, or IVF treatment, or any 
variant of IVF or ART. According to the Physician's Desk Reference, the 
FDA classifies Lupron as a Pregnancy Category X drug, meaning any woman 
who is or who may become pregnant should not use. Lupron is a known 
teratogen (Shephard, 1992), and Lupron is a known developmental and 
reproductive toxicant (Scorecard). NIH and OSHA place Lupron 
(leuprolide) on its list of hazardous drugs (NIH, OSHA). Yet, 
inexplicably, medical literature reports Lupron to be the most commonly 
prescribed and ``prevalent choice'' of GnRHa used in fertility 
treatment (Keenan, 1991; Martin, 1994).
    Medical literature regularly refers to Lupron as an antineoplastic 
and chemotherapy, with some references characterizing Lupron as an 
antineoplastic hormone. Yet, according to deHaen modified American 
Hospital Formulary System, Lupron is not listed in the antineoplastic/
hormone category (Classification No. 10:00.10, as are the drugs 
Tamoxifen, Megestrol, Flutamide)--but rather Lupron is listed in the 
antineoplastic/OTHER category (Classification No. 10:00.12, listed 
along with Interferon) (deHaen, 1995). No one seems to know what the 
``other'' in Lupron is! But it is known that Lupron was originally 
approved out of the FDA's Office of Biologics Research and Review. (NDA 
[New Drug Application] 19-010).
    Clinical studies conducted by the manufacturer to evaluate Lupron's 
efficacy (and `not' safety) in fertility treatment and in IVF occurred 
between 1988 through 1992, according to Abbott Annual Reports (see also 
FDC, 1988). The ``IVF clinical trials'' and ``fertility treatment 
clinical trials'' using Lupron ``were discontinued'', according to the 
manufacturer (Abbott correspondence, 1995), and I've been unable to 
learn whether these Lupron IVF and Lupron fertility trials were 
discontinued because of efficacy reasons, safety reasons, both reasons, 
or other reasons.
    Lupron has never gained FDA approval for any type of fertility 
treatment, however, Lupron did gain FDA approval for use in women for 
pain management of endometriosis in 1990--yet the clinical studies for 
these approvals are a joke--conducted on a handful of women, by paid 
investigators, and with an endpoint of establishing Lupron's efficacy 
in pain management of endometriosis while the women in these studies 
were simultaneously allowed to take narcotics, including Dilaudid and 
parenteral narcotics. These women were also expected to `recall and 
record their adverse events at the end of the study month', yet were 
not informed that Lupron was known to affect memory (NDA 19-010; see 
also Newton, 1996). Problems with this trial alone could fill this 
document--never mind attempting to address the numerous and gross 
problems evident within other Lupron NDA's.
    Lupron is alleged to cause menopausal symptoms such as hot flashes 
and headaches, and Lupron's categorization as a ``hormone'' is an 
allusion that is frequently conveyed to women. Women are often told by 
the physician, and TAP continues to state, that side effects to Lupron 
disappear after the `drug' is stopped. Yet FDA documents for the 
endometriosis NDA identify that the majority of hot flashes occurred 
after stop of study (NDA 20-011). One clinical trial evaluating memory 
loss and cognitive effects of Lupron in young women undergoing IVF 
showed that ``[72 percent] showed difficulty with memory while on 
leuprolide'' and there was ``no correlation between estradiol levels 
and tests results on any test'' (Varney, 1993); and another study 
showed 11 percent continued with memory complaints 6 months after stop 
of study (Newton, 1996). In the March 1984 FDA's toxicological reviews 
of Lupron, it is stated that ``[rat] testes showed various degrees of 
testicular degeneration which were detectable within 2 days. The 
severity of the lesions were greater in the testes of rats sacrificed 7 
days after cessation of treatment indicating that the effects continued 
after drug withdrawal. . . .'' (Jordan, 1984).
    Women are told that Lupron will ``shut down their system'', 
allowing ``control'' over their system, and that the side effects are 
related to menopausal symptoms. But in fact, it was known prior to my 
`treatment' with Lupron (but not disclosed to me) that Lupron causes a 
``hypophysectomy'' (Holmes, 1988)--which, by definition, is 
``destruction or removal of the pituitary''; and it was known (but not 
disclosed to me) that ``sustained treatment with GnRH agonists most 
likely abolishes pituitary function'' (Bischof, 1988). I would also 
later learn that in the original rat studies submitted to the FDA for 
Lupron's initial approval of palliative prostate cancer, all rats at 
all doses developed pituitary adenomas (tumors)--and it was stated that 
``there is no obvious reason to suggest that the same process could not 
occur in humans'' (NDA 19-010).
    Years following these Lupron animal studies, it would be reported 
``[w]e cannot exclude that [GnRHa] may cause not only adenomas in rat 
pituitary glands as reported previously, but also a (nodular) 
hyperplasia of the pituitary gland in man.'' (Radner, 1991) While the 
industry maintains that the hot flashes from Lupron are due to lack of 
estrogen, women complain of hot flashes while on Lupron but not 
achieving `suppression' (termed ``Lupron escape''), and women complain 
of hot flashes while on Lupron plus estrogen, and women complain of hot 
flashes after stopping Lupron that do not go away. Years later, I'd 
read that it is the ``interference with the pulsatile pattern of GnRH 
that causes flushes'' (van Leusden, 1994)--thus, the alteration, 
impairment, destruction, of the pituitary (as never explained to me or 
others). To quote one investigator: ``GnRH analogs are not like any 
other medication currently available for treatment of disease. As we 
continue to learn more about these analogs' mechanisms of action, it is 
increasingly apparent that they do not just affect the gonadal [sex] 
hormones, but are powerful modulators of autonomic neural function.'' 
(Mathias, 1995)
5. Impact Of Lupron Upon Women's Brains, Bodies, and Bones
    By way of understanding the significance of this information, the 
hypothalamus and pituitary are considered the master glands of the 
body, and both are directly connected to each other by neurons and 
blood supply; and are responsible and required for proper functioning 
of the autonomic nervous system (involving hunger, thirst, temperature, 
heart rate, blood pressure), and the production of numerous hormones 
necessary for life. GnRH, gonadotropin releasing hormone, which is made 
by only around 1000 neurons in the hypothalamus (Wierman, 1995), is 
sent to the pituitary and causes the secretion of (among others) the 
hormones necessary for normal ovulation (leutenizing hormone [LH] and 
follicle stimulating hormone [FSH]). Lupron is a synthetic copy of the 
GnRH found in pig and sheep, except that Lupron has an added, unnatural 
amino acid substitution inserted into the structure of the molecule, 
causing it to become an `analog' of GnRH and far more potent than the 
original molecular structure. Which brings me to several pertinent 
comments made by the FDA that sum up some of the problems and concerns 
with the use of such a new molecular entity:
    One year prior to Lupron's initial FDA approval for palliative 
treatment of prostate cancer, members of the FDA's Center for Drugs and 
Biologics wrote an article entitled `Trends in Drug Development with 
Special Reference to the Testing of LHRH [GnRH] Analogues'--stating 
``[c]onceivably, LHRH analogues may be antigenic . . . [and] may even 
cause immune-related disorders. . . . The long-term safety of LHRH 
analogues have not yet been fully investigated, especially when we are 
dealing with structures drifting farther and farther from the original 
molecule.'' (Gueriguian, 1984).
    Lupron's structure indeed differs from the original structure in 
that it contains an UN-natural amino acid, making the `drift' of 
Lupron, in my opinion, far from the original `natural' (pig/sheep) 
structure. Bear in mind that other GnRHa's have modifications of the 
original GnRH molecule with their own unnatural substitutions at 
different and differing places along the structure of the original GnRH 
molecule--and the newest `models', the GnRH antagonists, are even 
further modified. It would seem that there was recognition by these FDA 
members that `tinkering' with this molecule raised long-term safety 
issues for human health.
    Five years following the publication of `Trends in Drug Development 
with Special Reference to the Testing of LHRH Analogues', prior to any 
FDA approval of any GnRH analog use in women, the FDA Medical Review 
Officer of GnRH drugs for gynecology closed her comments at a public 
hearing with her ``experience in observing the course of GnRH analog 
research over the past year.'' These were Dr. Ragavan's comments in 
1989: ``Most of the studies that have been presented for [GnRH] analog 
research are presently being conducted in young women for benign 
indications. . . . The number of studies trying to use these drugs has 
by no means slowed down recently. Industrial sponsors have been quick 
to fund these studies on the drugs seeing a potential market. . . . 
[The Committee] may wish to consider the ethical issues of continued 
intellectual searches for the use of analogs and the possible risks 
associated with such studies in this study population. We have always 
used with extreme caution in our abilities to render men hypogonadal 
albeit for different reasons. And have reserved this treatment for life 
threatening conditions in the male, such as prostate cancer. Should we 
use the same caution in women, especially when we treat benign chronic 
non-life threatening conditions such as endometriosis? In fact, I 
propose for you an even more caution in this population who must live 
with the consequences of treatment for a very long time.'' (Ragavan, 
1989)
    In 1994, the FDA issued recommendations (authored by FDA Medical 
Officer Reviewers of either Lupron's prostate or endometriosis NDA's) 
that ``only pertain to GnRH analogs and should not be considered as 
guidance for the testing of any drug classes''; and with acknowledgment 
of ``unpublished work'' from TAP Pharmaceuticals, these Reviewers 
recommended: ``At necropsy, special attention should be given to the 
anterior pituitary, adrenal, pancreas, testes, and ovaries, since an 
increased incidence of neoplasia in these organs has been associated 
with GnRH agonist treatment. . . . Following restoration of fertility 
after cessation of treatment, the possibility exists that some germ 
cells may have been permanently affected by drug treatment. It is 
therefore important to investigate the effects of fetal morphology 
(teratogenicity) and on postnatal development of the offspring.'' 
(Raheja, 1994).
    An FDA Medical Officer, in reviewing a proposed study for Lupron in 
high risk breast cancer patients stated the ``[d]evelopment of this 
drug as a general contraceptive should meet with substantial 
reservations . . . it is an adventure into the unknown'', and a 
Committee Chairman recommended ``find out what its [Lupron plus oral 
contraceptives] long-term effects were, and then consider it for a 
larger population.'' (FDC, 1994)
    Medical literature reports that the use of GnRHa's in IVF has 
caused neurological symptoms--migraines, numbness and tingling, 
paresthesia and weaknesses and sensory ataxia--``Transient cerebral 
ischemia is one possibility that may explain the symptoms . . . a 
direct effect of potent GnRHa on the central nervous system resulting 
in neurological effects independent of the hypothalamic-pituitary-
gonadal axis is possible . . . [and] it is quite possible that mild 
cases with minor symptoms have escaped notice; thus, the occurrence of 
this type of complication may be far more common that we realize.'' 
(Ashkenazi, 1990). Of note within the latter article's Medline abstract 
on PubMed is the mesh heading: ``Nervous System Diseases/chemically 
induced''.
    Another study using Lupron and Synarel, for endometriosis alone or 
with infertility, was titled ``Memory complaints associated with the 
use of gonadotropin-releasing hormone agonists: a preliminary study'' 
(Newton, 1996). ``Profound luteinizing hormone suppression after 
stopping the gonadotropin-releasing hormone-agonist leuprolide 
acetate'' is another study's title (Sungurtekin, 1995).
    In 1995, the first bone biopsy was done on the bones of young women 
receiving GnRHa therapy for endometriosis, and results showed that 
after 6 months of GnRH use in young women, there was ``severe 
disruption of the cancellous microstructure'' of the bone, and the 
``results suggest that bone loss induced by GnRH analogs may be 
associated with adverse effects on cancellous microstructure which are 
unlikely to be reversed following cessation of therapy.'' (Compston, 
1995; See reprint of bone biopsy results before and after GnRHa at 
www.lupronvictims.com--`Effects on bone').
    Ovarian enlargement and development of ovarian cysts frequently 
occurs during superovulation, with ovarian cyst formation ``occur[ring] 
in up to 35 percent of women receiving leuprolide acetate'' (Serafini, 
1988; Gocze, 1993). And during clinical trials of Lupron's use in 
endometriosis, it is noted that no difference in ovarian enlargement/
decrease was noted compared to control patients (NDA 20-011), yet in a 
separate study (co-authored by a Lupron endometriosis clinical trial 
investigator) it was noted that ``significant changes were noted'' and 
``the identifiability of the ovaries [by MRI] was significantly poorer 
. . . The effects of [Lupron] therapy on the normal uterus and the 
ovaries were statistically significant'', predicting an ``experienced 
radiologist should expect to be able to identify the ovaries on only 70 
percent of the images.'' (Zawin, 1990)
    In the Journal of American Medical Association, a letter reported 
``[p]ossible ocular adverse effects associated with leuprolide 
injections'', and noted ``11 reported cases of pseudotumor cerebri'' 
(Fraunfelder, 1995) Thousands of women (and men as well) have contacted 
the NLVN, filled out surveys detailing their medical complaints after 
Lupron, and continue to report adverse events post-Lupron to the FDA, 
to TAP, to doctors, to lawyers, to legislators, to federal, state, and 
consumer agencies, and to the media). The FDA and TAP continue to 
receive these reports, and women continue to receive Lupron, without 
receiving informed consent.
6. Known Effects Of Lupron On Eggs, Embryos, and Babies
    Ovarian cyst formation ``occurs in up to 35 percent of women 
receiving leuprolide'' (Serafini, 1988). Even though Lupron is 
allegedly prescribed to prevent ovarian hyperstimulation syndrome, the 
use of Lupron (including the sole use of Lupron alone, with no other 
fertility drugs) has caused the life threatening condition of `severe 
ovarian hyperstimulation syndrome' (Yeh, 1989; Barbieri, 1991; Hampton, 
1991; Droesch, 1994; Weissman, 1998). ``[U]nacceptable level[s] and 
variability of stimulation prior to suppression'' was encountered early 
with Lupron's use in ovulation induction regimes (Meldrum, 1988), and 
aberrant estradiol flares and an inability of Lupron to establish ``any 
ovarian response'' were noted elsewhere (i.e., Chetkowski, 1989; 
Penzias, 1992, 1994). Lupron is commonly used during the superovulation 
regime prior to egg aspiration/donation, and one study using Lupron in 
an egg donor program concluded that ``continuous postaspiration GnRHa 
[Lupron] may be beneficial for oocyte donors whose ovaries are 
hyperstimulated''. In this latter egg donor study utilizing Lupron, 1 
of 6 patients required hospitalization. (Ng, 1995). ``Fertility clinics 
will not be informing their patients that in Collingswood N.J. there 
flourishes a National Lupron Victims Network.'' (Millican (3), 1995)
    Published medical reports have noted the occurrence of abnormal 
human pregnancy outcomes associated with the use of Lupron--43.5 
percent in one 1996 study (Karande, 1996). Another report, using the 
`long Lupron protocol', showed a 38 percent abortion rate (Shanis, 
1995), and a study of `low responders' using Lupron showed a 66.6 
percent spontaneous first trimester abortion rate (Droesch, 1989). In 
`healthy women undergoing ovarian stimulation' using Lupron in another 
study, another 66.6 percent abortion rate was noted (Minaretzis, 1995). 
Another study's title states ``Exposure to [Lupron] in Early Pregnancy 
is Associated With High Pregnancy Wastage That Could be Related to the 
Length of Exposure'' (Sasy, 1997).
    What are the known effects of Lupron upon eggs? In a 1994 study of 
chickens using Lupron, 1 out of 25 of the hens died, and at the end of 
the 30-day experiment, all egg shells had thinned (Burke, 1994). A 
study using two GnRHa's (including Lupron) involving rabbit ovaries, 
concluded ``GnRHa act directly in the rabbit ovary . . . increasing 
oocyte [egg] degeneration'' (Yoshimura, 1991). In studies involving 
Lupron in human fertility cycles, it was reported that ``some retrieved 
oocytes exhibit incomplete nuclear and cytoplasmic maturation after the 
use of this agonist [Lupron]'' (Racowsky, 1997) as well as 
``maturational asynchrony between oocyte cumulus-coronal morphology and 
nuclear maturity'' (Hammitt, 1993). In `Designs on Life', by Robert Lee 
Hotz, it was revealed that ``[s]cientists . . . noticed that Lupron 
embryos were different. They grew faster, developed more rapidly. They 
were more fragile when frozen and less likely to survive thawing. 
Nobody knew why or what it meant for the long-term health of the woman 
or any resulting child.'' (Hotz, 1991)
    According to the 1998 text, `Drugs in Pregnancy and Lactation', TAP 
communicated in 1992 that it was ``maintaining a registry of 
inadvertent human exposure during pregnancy to leuprolide and currently 
has over 100 such cases. No cases of congenital defects attributable to 
the drug have been reported . . .'' (Briggs, 1994). And ``[f]etal 
growth retardation was observed with increased frequency among the 
offspring of rats or rabbits treated during pregnancy with subcutaneous 
doses of leuprolide similar to those used in humans.'' (Friedman JM, 
1994). In a study using Lupron and other GnRHa's on rabbit eggs, 
``[t]he rates of normal fertilization and early embryonic development 
were significantly reduced in the oocytes matured by GnRHa'', and it 
was noted that ``one cannot exclude the possibility that GnRHa in 
pharmacological dosages may be cytotoxic against oocytes.'' (Yoshimura, 
1992)
    In a patent for embryo culture composition, it is noted that 
``culture of primate embryos in the presence of a GnRH agonist . . . 
unexpectedly dramatically reduces the rate of embryo attachment and 
cell differentiation.'' (Hearn, 2000). Using Lupron in fertility 
cycles, ``some retrieved oocytes exhibit incomplete nuclear and 
cytoplasmic maturation after the use of this agonist'' (Racowsky, 
1997). Growth retardation has been noted in young monkeys given Lupron 
(Golub, 1997).
    But TAP has maintained a registry from over a decade ago of more 
than 100 Lupron exposed babies in which no ``attributable'' defect has 
allegedly been found Perhaps someone needs to investigate the veracity 
of this data. There have been accounts by women, including on the 
internet, reporting birth defects in babies conceived on or after 
stopping Lupron--including Lupron use for fertility as well as use for 
endometriosis. It is not uncommon to see an internet infertility 
message board note stating ``I have one Lupron 2-week kit for sale. I 
just lost my third baby and can't go through this any more''. Public 
posts have described babies conceived spontaneously within several 
months of stopping Lupron, and born with birth defects such as Total 
Anomalous Pulmonary Venous Return, a heart defect. I personally know 
women who conceived babies from IVF using Lupron whose children have 
anatomic anomalies and developmental delays, and I know women who 
conceived babies after using Lupron for endometriosis who've 
experienced loss of child, developmental delays, esophageal stricture, 
attention deficit, and serious seizure disorders. I personally know 3 
women, with 5 children (conceived on Lupron either through IVF or 
unintentionally during Lupron for endometriosis) who have serious 
seizure disorders, and I have heard of other similar cases. Internet 
message boards about parenting problems with ART children show notes of 
ART children undergoing a variety of tests (i.e., CAT scans) and 
surgeries (i.e., open heart) and being prescribed a variety of drugs 
for a variety of ailments including poor muscle tone, jerkiness, 
choking, esophageal stricture, spinal cord abnormalities, GERD 
(gastroesophageal reflux disease).
    The first published long-term study of babies born after accidental 
exposure to GnRHa's revealed that 4 out of 6 babies have severe 
neurodevelopmental abnormalities, and the conclusion of this study was 
that ``[t]his observation . . . justifies the need for long-term 
follow-up of more children previously exposed to GnRHa'' (Lahat, 1999). 
When Lupron is used in superovulation regimes, upwards of 1 mg/day will 
be injected for several weeks to one month or more, and to within days 
of egg retrieval. Women are given both the daily Lupron and depot 
Lupron (monthly formulation) for superovulation regimes (i.e., 
Ruhlmann, 1993)--yet Lupron depot brochures for endometriosis and 
fibroids state barrier contraception should be used during depot Lupron 
and that pregnancy should not be attempted until 2 months after therapy 
(meaning 3 months from the last injection). Again--TAP Lupron depot 
brochures advise barrier contraception during Lupron and recommend 
pregnancy not be attempted until 3 months after last injection, yet TAP 
has funded studies using Lupron depot and Lupron daily in infertility 
and IVF. Regardless of daily or depot Lupron use, women are told that 
Lupron will be out of their system before any fertilized egg is 
implanted--yet published medical literature by, among others, a TAP 
Medical Director, identified that detectable levels of Lupron remained 
after 11 weeks following the last injection. (Miller, 1990)
    Women are prescribed anywhere from 10-45 days of Lupron during one 
superovulation regime (see, i.e., Nader, 1988), often being put on 
prolonged Lupron--a ``delay''. (Damario, 1997). And women are 
frequently prescribed birth control pills before Lupron to prevent 
Lupron-induced ovarian cysts that are known to develop. One woman from 
the `Surrogates' Corner', having already given birth twice to twins in 
the past as a surrogate, describes how she's working with a new couple: 
`` . . . I have been on Lupron since May 26 . . . I can't take much 
more Lupron!''--the date of her note was July 28th (Surrogate, 2000). A 
woman could receive a range of 5-22.5 mgs in one `fertility' cycle with 
Lupron if using Lupron 0.5 mg per day, or she could receive a range of 
10-45 mgs in one `fertility' cycle if using Lupron 1 mg per day. Some 
women are prescribed more, some less, in a superovulation regime. Women 
receiving Lupron for endometriosis receive 3.75 mg per month in one 
injection--for a total of 22.5 mgs in 6 months of treatment (a limit 
recommended by the FDA due to occurrence of bone loss). The woman who 
undergoes one ``controlled ovarian hyperstimulation'' regimen may be 
very well be exposed to more Lupron than a woman undergoing six months 
of treatment for endometriosis.
    While the endometriosis patient may undergo more than 6 months of 
Lupron `treatment', women who undergo fertility treatment are well 
known to be `frequent fliers' (given the failure rate and need for 
repeated IVF trials to attempt `success'). One published study reported 
a woman undergoing superovulation 18 times (Check, 1988). Women who 
take Lupron for fibroids use 3.75 mgs per month for 3 months--although 
variations in dose and duration are often reported. Consider that men 
in the final stages of prostate cancer are currently prescribed Lupron 
7.5 mg per month (depot), and not the daily Lupron, yet the daily 
Lupron was the initial form of Lupron first approved by the FDA (for 
palliative treatment of prostate cancer). Currently, daily Lupron is 
rarely used in prostate cancer, but it is this daily Lupron that is 
most frequently prescribed in superovulation regimes, despite 
discontinued clinical trials and despite never having gained FDA 
approval for fertility or IVF.
7. Examples of Iatrogenic Illnesses Induced By Exposure
    In 1999, the FDA reported on their review of MedWatch Reports for 
adverse events from Lupron. The FDA reviewed more than 6000 reports, 
concluding ``there were high prevalence rates for serious side 
effects''. The FDA's action was to reexamine the product label, ``to 
ensure that these events are adequately addressed.'' (Lazar, 1999). It 
is my understanding that the FDA was to undertake another review. In 
the meantime, what, if anything, has been done ``to ensure that these 
events are [] addressed''? After FOX 25's 2 part series on the adverse 
effects of Lupron, FOX informed Senator Kennedy of their series and 
quoted the Senator as stating he found their ``report on possible side 
effects of Lupron was troubling. Physicians have an obligation to 
inform patients of the risks of drugs they prescribe, and promotion of 
potentially risky `off-label' uses of products by manufacturers is 
illegal and unethical.'' (Kennedy, 1999)
    The medical literature offers numerous examples of iatrogenic 
illnesses following exposure to GnRHa's. For example, in a 1990 study 
utilizing GnRHa in IVF treatment, one of a group of women who had 
developed severe ovarian hyperstimulation syndrome and liver function 
abnormalities, had a liver biopsy performed (at the end of surgical 
removal of conceptus due to intrauterine death 2 months into the 
pregnancy). This liver biopsy showed ``a striking abnormality 
consisting of macrovesicular fatty infiltration around and linking the 
portal tracts. This appearance could not be classified into any well-
recognized clinical entity.'' (Forman, 1990).
    These, and other, clinical reports are disturbing, especially as 
they pile on top of one another. Case report or study titles often tell 
the story: `Adverse effects of leuprolide acetate depot treatment' 
(Friedman, 1993), `Neuropsychologic Dysfunction in Women Following 
Leuprolide Acetate Induction of Hypoestrogenism' (Varney, 1993), 
`Angina and myocardial infarction with use of leuprolide acetate' 
(McCoy, 1994), `Memory complaints associated with the use of 
gonadotropin-releasing hormone agonists: a preliminary study' (Newton, 
1996), `Leuprolide Causes Pure Red Cell Aplasia' (Maeda, 1998), 
`Transient thyrotoxicosis and hypothyroidism following administration 
of the GnRH agonist leuprolide acetate' (Kasayama, 2000), `A case of 
atypical absence seizures induced by leuprolide acetate' (Akaboshi, 
2000). Case reports of Lupron-treated fibroids having ``striking 
vascular changes and histologic features of vasculitis and 
atherosclerosis'' note that ``[t]he florid and rapid development of 
vascular inflammation, fibrinoid deposits, and thrombosis after 
leuprolide acetate therapy [``rarely seen in non-leuprolide treated 
(fibroids)''] suggest an immune-mediated process. . . . these 
observations are significant and worrisome if such changes affect other 
organs.'' (Mesia, 1997). Lupron has been listed among those medications 
that may cause lupus. (Greenberg, 1999).
    Problems associated with Lupron are also identified in the titles 
of male uses of Lupron as well, i.e. `Leuprolide therapy for prostate 
cancer. An association with scintigraphic ``flare'' on bone scan' 
(Johns, 1990), `Sudden death due to disease flare with luteinizing 
hormone-releasing hormone agonist therapy for carcinoma of the 
prostate' (Thompson, 1990), `Possible Ocular Adverse Effects Associated 
With Leuprolide Injections' (Fraunfelder, 1995), `Pituitary apoplexy 
after leuprolide administration for carcinoma of the prostate' (Morsi, 
1996; multiple other similar case reports have been published), 
`Localized Amyloidosis of the Seminal Vesicle: Possible Association 
With Hormonally Treated Prostatic Adenocarcinoma' (Unger, 1997), 
`Incidence of bone fracture in patients receiving luteinizing hormone-
releasing hormone agonists for prostate cancer' (Hatano, 2000), 
`Altered cognitive function in men treated for prostate cancer with 
luteinizing hormone-releasing analogues and cyproterone acetate: a 
randomized controlled trial' (Green, 2002).
    In the animal testing data submitted for Lupron's initial approval, 
the FDA Review and Evaluation of Pharmacology and Toxicology Data 
states, among others: `` . . . There are other, inconsistent, effects 
of Leuprolide in the various toxicology studies but potentially the 
most serious effect of Leuprolide, in my view, is its effect on spinal 
column bone marrow. This increased fat deposition and subsequent 
hypocellularity was explained as a physiological response to the drug. 
. . .'' (Jordan, 1984). Years later, other animal testing would reveal 
``[a]lterations in thymic and bone marrow lymphocyte subpopulations in 
GnRH agonist [Lupron] treated prepubertal female mice'' (Rao, 1993).
    Many, many relevant studies and case reports are left unmentioned 
here. Many effects of Lupron, such as upon the bone, heart, immune, and 
other systems, have barely, if at all, been touched upon. But it is the 
people with real names, real faces, and real pain that is most 
upsetting. Many women, and sometimes family of these women, have 
contacted me over the years with varied complaints following Lupron--
always looking for help. It is extremely difficult for me to hear these 
horror `stories'.
    As a former full-time career R.N. who has been able to effectively 
advocate for any patient, and did so for many patients in the past, 
after Lupron I suddenly found myself in a land somewhere beyond the 
upper level of nowhere--and all rules had changed. It was an awful 
moment when I realized that I was not alone and there were many other 
Lupron victims--comforted by company, but horrified at the scope 
involved. All other victims were echoing my words that ``after lupron'' 
thus and such started. And all other victims have interesting doctor 
`stories' to tell. My experiences were simply inexplicable at times, 
and I quickly learned (but fiercely resisted) the fact that Lupron was 
not open for substantive discussion. I would self-triage my own various 
symptoms and prioritize before arriving at the doctor's office, 
otherwise s/he would be overwhelmed. One physician replied after I 
reported dizziness, pedal edema (swelling in feet), and gastric pain, 
that ``those are bullshit symptoms''. That atrocious answer and 
behavior is never a correct response to any patient, and after I 
changed doctors a small gastric bleed was diagnosed. These few personal 
details barely convey the level of destruction this drug and the 
subsequent unmerry-go-round has had upon my life and the lives of 
countless others. Here is a glimpse into the experiences of some other 
women who want you to know that they're hurt and they want attention 
paid to this public health issue.
    Candace Hedin, of Marlboro MA., was told seven years ago, at age 
25, that she'd need Lupron prior to undergoing fertility treatment with 
Clomid. Candace was put on Lupron for six monthly shots, and has 
suffered with multiple, unexplained, serious illnesses since. She's 
been hospitalized for unexplained chest pain and inability to breath 
about 15 times, and each time it just ``goes away after 3 or 4 days'' 
until the next time ``it'' returns. Candace also has extensive and 
extreme hives, including inside her mouth and throat, which become open 
sores and she cannot eat or drink anything--resulting in 
hospitalizations for dehydration. She also reports continued vaginal 
bleeding despite having undergone a total hysterectomy and a battery of 
tests (including full body CAT scan) to establish the reason(s) for 
this bleeding, and all tests have been inconclusive. In addition, her 
mammogram is normal, her prolactin level is normal, but she lactates 
daily. ``Nobody's even looking at any of this--I can't get any 
diagnoses! All they tell me is my immune system stinks--I'm allergic to 
my own body is the diagnosis. My toenails are coming out and now my 
fingernails are coming out too!'' Candace's husband says ``How can you 
take a girl, at 25, who'd never had any medical problems, and suddenly 
become so sick and debilitated--we've gone to 5000 medical doctors and 
they say `think of something that might have caused all these things to 
suddenly come about' and I tell them `Ya!--she took lupron and she's 
been sick ever since'--but they say Lupron doesn't have anything to do 
with it. I think I'm watching my wife die in front of my eyes and no 
one wants to do a thing about it.'' (personal communications)
    Wendy Camacho of Cherry Hill NJ took Lupron for IVF years ago, and 
as she puts it ``my IVF baby is now 9 and my health is a mess . . . it 
has been downhill since.'' Wendy writes ``I have seen neurologists, 
rheumatologists and orthopedists, and none of them have any answers for 
me. I have been experiencing severe fatigue (diagnosed as 
fibromyalgia), trouble sleeping, nightmares, gross motor skills are 
disintegrating fast. I am unable to work as a waitress anymore because 
my arms can't balance anything, and my legs give out from under me at 
will. I also have severe osteoarthritis. During a routine eye exam, at 
which I was diagnosed with cataracts (rare at age 38), I was asked by 
the doctor if I ever took fertility drugs. When I said yes, I was told 
I was one of many, but she said she didn't know enough about it to go 
into detail. . . . I now have the corneas of a 6 year old boy. . . . I 
was diagnosed with MS, benign remittent, Thank God. I awoke one morning 
with a very weakened left side. EMG showed I have only 35 percent 
strength on that side. I have spent ages going to doctors. . . . I 
would tell everyone--RUN in the opposite direction from Lupron.'' 
(personal correspondence)
    Linda DeBenedictis, a teacher from MA., mandated to use Lupron 
without rationale, has testified at the MA. Health Care Committee 
regarding the health problems she's experienced. At the 1995 hearings 
for MA. H #3308, at the close of her testimony, Linda stood up, faced 
the crowd, and removed her wig. She is totally bald, and has lost every 
single hair on her entire body (FOX News, 1999). [Unlike other 
chemotherapy/antineoplastics, hair growth had not returned years after 
Lupron.]
    Gilda Radner posthumously is associated with ovarian cancer 
awareness, however little focus has been placed upon her fertility 
treatment. In her book `Its Always Something', Gilda questioned red 
meat and hair dyes, among other potential causes for her ovarian 
cancer--but never questioned her use of fertility drugs.
    And Barbara Mays, and her offspring, are two others whom I believe 
deserve consideration as victims of fertility treatment: Barbara Mays 
was infertile for 10 years, underwent fertility treatment, and 
ultimately gave birth to a baby born with a heart defect. The Mays baby 
was intentionally switched in the hospital nursery, and the Mays went 
home with a healthy baby (named Kimberly `Mays') who had been born to 
the Twiggs. The baby that the Twiggs took home, the biological child of 
the Mays, died at age 9 from congenital heart problems. Several years 
ago, a national news broadcast aired an interview with the dying LPN 
who admitted she was instructed to switch the babies and remained 
silent for fear of losing her job, but no rationale was offered for the 
switch. Based upon historical fact and my observations of the 
machinations of this industry, the field of reproductive 
endocriminology can be characterized as utilizing a multitude of slick 
maneuvers to deny, disinform, mislead, discount, dismiss, diminish, and 
suppress risks. The U.S. investigation of TAP's billing practices 
revealed that a computer program given by TAP to many doctors in the 
country (some 10,000 urologists received gifts from TAP), which 
computated the amount of money per Lupron prescription the doctor could 
earn, also harbored a `secret key'--and in the event the secret 
computer program was in danger of discovery, a secret key was struck 
and !presto! all incriminating information disappeared. Given the 
history of the fertility industry, it appears plausible that !presto! 
any incriminating association between the use of fertility treatment 
and congenital birth defects could disappear if you `remove' the 
association by `simply' switching babies.
    In a 1996 Boston Globe story, available industry figures (for 1993) 
showed that more than 50,000 assisted reproduction procedures were 
performed, and about 8,500 came home with babies--noting that 
``thousands of others bring home only disappointment and a lingering 
anxiety about the aftereffects of treatment.'' Susan McCarthy, 
attending Boston IVF, had 34 eggs ripen at once--which ``led to kidney 
failure, and she developed a massive, life-threatening infection. She 
was hospitalized for days, connected to tubes delivering intravenous 
antibiotics and draining the fluid that was swelling her abdomen, 
making her look four months pregnant. `I felt terrible for the longest 
time . . . And it's not just that. I don't have anything to show for 
it. . . . ' [Susan] recalls ``ovarian hyperstimulation was mentioned by 
the clinic staff. But the risk was dismissed with the comment `it never 
happens' ''(Kong, 1996).
    The story also described an egg donor, Debra Christensen of Divide, 
CO., who took Lupron, and suffered ovarian hyperstimulation, ripening 
30 eggs, and experiencing a lot of pain. Following soon after Debra's 
egg donation, she became pregnant and experienced problems with this, 
her 3rd child, that she hadn't experienced before--``The placenta grew 
into her uterine lining, huge uterine cysts developed and her son had 
to be delivered two months prematurely. Nine months later, when the 
cysts had swollen her uterus to about six times normal size, 
Christensen--at 32--had to have her uterus and ovaries removed.'' 
(Kong, 1996)
    According to Stanford Magazine, Calla Papademas, a 22-year old 
Stanford graduate ``slipped in and out of a coma in the intensive care 
unit at Stanford Hospital'' after responding to an egg donor ad 
``promising $25,000 or more'' and agreeing to donate her eggs for a 
$15,000 fee. . . . A few days after Calla began the drug regimen 
[Lupron], a benign, undetected tumor on her pituitary gland--which 
Calla's doctors believe was stimulated by the Lupron--grew at a furious 
rate and ultimately ruptured, causing a massive stroke. Calla suffered 
brain damage and lasting weakness on her left side. Her academic and 
career plans were derailed, and she and her family incurred $100,000 in 
uninsured medical bills. . . .'' (Hamilton, 2001)
    In my own situation, within months of stopping Lupron I began to 
experience a variety of ailments, was unable to work for 3 years (and 
have yet to be able to return to full-time employment since Lupron), 
lost my job and home, and slowly came to the terrifying realization 
that I was in for the fight of my life at a time in which I had never 
felt sicker or had so many health problems. Six years later, in 1995, 
in preparation for written testimony in support of MA. H #3308, I 
audited my health records and compiled a chronological list. All 
doctors visits, surgeries, labs, tests, procedures, ultrasounds, etc. 
were typed, in single space, on continuous computer paper--and the end 
product was 7\1/2\ feet tall. This sheet of paper represented: adenoma 
(tumor), breast cysts, cardiac arrhythmias, dizziness, edema 
(swelling), fatigue, gastritis, gastro-esophageal reflux disease 
(GERD), hyperlipidemia, immune system abnormalities, joint pain, knee 
pain (exacerbated), lymphadenopathy (swollen glands), myalgia (muscle 
pain), neuralgia (nerve pain), osteopenia, and spasms, to name a few. 
And, most importantly, knowing the many serious health problems of so 
many other very sick women post-Lupron, I consider myself to be one of 
the `luckier' and `healthier' victims--causing me to fight even more.
    All my symptoms/diagnoses/diseases have been acknowledged as 
adverse events reported to the FDA following Lupron, yet none of my 
symptoms or diagnoses or diseases have ever been reported to the FDA as 
adverse events from Lupron. Since 1995 this list has grown: arthritis, 
ascites (abnormal collection of fluid in abdomen), adrenal problems 
(abnormal cortisol and ACTH levels--workup ongoing), degenerative disk 
disease, ``dissolving jaw'' per dentist, enlarged liver (pre-Lupron 
operative reports indicate normal liver), fibromyalgia-like syndrome, 
lesions in nerves in arms, lesions on skin, scoliosis (presently 
``mild'', and childhood screenings and pre-Lupron X-Rays evidence 
normal spinal curvature), the osteopenia has now progressed to severe 
osteoporosis, telemetry monitoring of cardiac status (pulse noted at 
38, blood pressure roughly 60/42) raised the specter of a pacemaker 
should I become symptomatic, and a few other problems I can't recall at 
the moment. In the last seven months, I've been hospitalized twice, and 
officially rang in this spring at the endocrinologists office, 
reviewing recent abnormal cortisol and ACTH levels, and heard orders 
I've never heard in my life: ``[I] need to avoid stress''.
    For `fun' during recent hospitalizations for gastritis, I'd ask the 
nurses to explain the following: at times (not always) when they'd 
check my resting pulse and the machine would register a heart rate of, 
say, 41--I'd ask ``do you know how I can make my pulse go down?'' I'd 
get out of bed and momentarily jog in place and the pulse oximeter 
would go down to 38. When they'd wonder what would make that happen, 
Lupron and autonomic nervous system dysfunction becomes the topic. 
Invariably, I've met nurses, phlebotomists, ultrasonographers, and 
fellow patients who've been prescribed Lupron without informed consent 
of the risks. And I've met a number of doctors who report seeing 
patients in their own practice with similar ``bone, gastric, and 
cardiac problems after Lupron''.
    Nurses are also not informed, despite OSHA recommendations, to use 
two pair of chemotherapy gloves and a chemotherapy gown (among other 
precautions) when handling and administering Lupron. And any healthcare 
worker who is planning on conceiving or fathering a child is advised to 
avoid handling the hazardous drug Lupron at least 3 months prior to 
conception attempts (AHFS, 1999). Three years ago, I conducted a survey 
of random U.S. healthcare institutions, inquiring what policy and 
procedure they had for the administration of Lupron by healthcare 
workers. 100 percent of the respondents stated they had no such policy 
or procedure (unpublished data). I've met, talked to, and read online 
plenty of women complaining about Lupron, and I've never once seen 
anyone say their doctor or nurse was gowned and double-gloved during 
their injection. TAP states in its product literature that there are no 
hazardous components to Lupron. Would you consent to an injection of a 
hazardous agent for a benign condition from a gowned and double-gloved 
health worker?
    Many women undergoing 3 months of treatment for fibroids or 6 
months of treatment for endometriosis with Lupron have been complaining 
about post-Lupron problems for years, and again, sometimes these women 
can receive less Lupron than someone undergoing repeated IVF or egg 
donation. Some women use Lupron for endometriosis and IVF, as in my 
situation. And some women have also been maintained on Lupron for years 
on end. Dr. Mercola states Lupron for endometriosis ``could be the Kiss 
of Death . . . Lupron is a disaster drug that in no way shape or form 
treats the cause of the problem. I have seen it absolutely devastate 
many women's lives. It is one of the few drugs that I actually cringe 
when patients tell me that they have taken it. It is my experience and 
belief that this drug causes permanent neurological damage. This drug 
needs to be avoided at all costs.'' (Mercola, 2002)
    Paula Andrade, an R.N. from Methuen MA., provided a statement of 
her experiences as supportive testimony for my 1997 Offer of Proof for 
my medical malpractice tribunal: ``Four years ago I took a GnRH 
analogue [Lupron and Synarel] for problems with endometriosis. I took 
the medication for 5\3/4\ months. The week before I was due to 
discontinue the medication I became ill. I experienced flu like 
symptoms with severe muscle pain, paresthesias, and bone crushing 
fatigue. Four weeks later I developed a host of neurological problems 
including vertigo, nausea, loss of balance, blurred vision, muscle 
twitching, and fasciculations with difficulty walking and constant 
muscle stiffness. Since then I have been seen by several neurologists 
and rheumatologists who remain baffled by my condition. I haven't been 
able to receive any help within the medical community. Prior to taking 
the medication I was an active and healthy individual who had worked as 
an RN for many years. I took care of my home and family. Since the 
medication I have been unable to work and have difficulty performing 
daily activities. I have spoken with other women from around the United 
States who have taken this medication and are now suffering with 
similar problems and whose lives have been drastically altered. I swear 
under the pains and penalty of law that the above statements are 
true.'' Today Paula says she hasn't seen a doctor in years--``For 
what--they can't find out what's wrong and nothing they did changes the 
way I am, so what good is it to keep going?'' (personal correspondence 
and communications)
    Lisa Plante, Fall River, MA., was a former congressional staffer 
who was prescribed Lupron for presumed endometriosis--and Lisa and I 
traveled to Washington together last year to speak to Senate staff on 
the issue of Lupron and its connection to cloning. Lisa experienced 
extreme and unbearable bone and joint pain from the time of her first 
of three injections, and this pain has gradually worsened. Eight years 
later Lisa says ``I now have arthritic bones, very bad bone loss, 
constant bone pain and joint pain, and basically feel like I have aged 
30 years since Lupron. I have not been able to live a normal life with 
my family because of this bone pain and want others to be fully 
informed of the dangers of Lupron. Women must not be put at risk like 
this and MUST NOT be used as guinea pigs!'' Lisa recently went on a 
long promised overseas vacation with her family, fearing that her 
future might prevent her from ever going--and during this trip Lisa 
spent 50 percent of her time in the hotel bed, in pain. Lisa is not 
able to travel here today. (personal correspondence and communications)
    Paulette Wilson, Newport News, VA, took two monthly injections of 
Lupron for endometriosis, and after the second shot she ``woke up with 
chest pain and needed to go to the emergency room.'' She was told she 
had `reflux disease', a gastrointestinal disorder. ``I never had any 
problem like that before. . . . Tests showed that I had acid burns from 
my esophagus to my rectum.'' Paulette now lives with severe pain, which 
sometimes affects her entire body. Paulette also has been diagnosed 
with fibromyalgia (Regush, 2002) and liver problems (personal 
correspondence).
    Jeanne Wolf, from Orange County, NY, had to have her gallbladder 
removed after Lupron, and was diagnosed with gastritis for years until 
stomach testing showed that she had gastroparesis--her stomach was 
paralyzed and was not emptying food. ``I am waiting for these bastards 
to pay for what they poisoned me with. Funny thing is I was given the 
poison because they said I had endometriosis, well I obtained my 
laparoscopy biopsy results and no endo was ever found! My body and mind 
will never be the same.'' (personal correspondence)
    Melanie Waldman Lloyd, Corvallis, OR, took Synarel to treat her 
endometriosis prior to attempting pregnancy, and subsequently developed 
immune problems, suffered 8 miscarriages due to antibody formation, has 
developed thyroid problems, eye problems affecting eye muscles and 
seeing double, and now takes an IV treatment every 2 months (which runs 
at cost some $600 per dose). Melanie writes ``My health is ruined from 
this drug. . . . No one should take this drug without knowing the 
risks.'' (personal correspondance)
    Melody Hampton, Mt. Victory, OH, more than 7 years after Lupron, 
continues to experience tremendous headaches, rash, joint pain, nausea, 
heart palpitations, high white cell count, bone loss, high blood 
pressure, blood in urine, atrophy of muscles, leg swelling--all 
beginning shortly after her first Lupron injection. (personal 
correspondance; Regush, 2002)
    Kimberly Bradford of FL, also started complaining right after her 
first injection, and continues with complaints a decade later. Kimberly 
suffered a miscarriage following her use of Lupron, experienced intense 
migraines, and has neuropathy and Adie syndrome in her right eye. She 
started to trip over everything and began to notice a smell of 
``burning'' which led to an MRI of her brain. An MRI ``showed lesions 
on my brain. There was a question of ``demyelinating lesions'' or MS, 
and Kimberly has come to call this ``my spot''--``it's in the white 
matter, in the middle, near the pituitary gland, but not in an area 
they can biopsy without causing more injury.'' When Kimberly's doctor 
was filling out her Family Medical Leave Act paperwork, he stated that 
``this all started when [Kimberly] unknowingly got [her]self involved 
with the FDA's phase IV clinical trial of Lupron.'' Kimberly says: ``I 
did not know until my own research that I was part of a clinical trial. 
I never signed a consent for this.'' (Bradford, 2002). [Kimberly is not 
the only patient with a diagnosis of brain lesions following Lupron 
use].
    Diane DeFeo, a teacher from Yonkers, NY, lost two teaching jobs as 
a result of being on Lupron. Diane writes ``This was disabling. I was 
exhausted and still experiencing pain, had migraines, mood swings, bone 
and muscle aches and pains, not to mention that I gained 35 pounds. I 
have lapses of memory I call ``lupron moments.'' I was constantly 
dizzy. And I waited for the symptoms of Lupron poisoning to diminish. 
Seven years later I still experience effects from this drug. And TAP 
Pharmaceuticals, the company that manufacturers this poison, simply--
this is evil at work. The physicians that continue to prescribe this 
drug knowing the possible repercussions are the most evil of all. I 
pray for the day when people will take us seriously and that women do 
not need to suffer permanent illness and damage. (personal 
correspondance).
    Julie Johnson, Chicago, IL., relates how her doctor told her ``its 
lupron or hysterectomy, so I agreed to the lupron. I had my first shot 
at the end of October 1996, and I was fine--for about 20 hours. Then I 
developed a terrible pain at the injection site and I could not move, 
walk, or sit, but my doctor said it was not the Lupron and I probably 
hurt my back and it eventually eased with a dull ache remaining at that 
site.'' She received a second shot and experienced achiness but 
attributed it to the flu and received her third shot, to awake the next 
day with hives. ``And then my knees started to ache, and every morning 
for the next week I woke up with pain in another part of my body. By 
New Years I hurt very badly--even wiggling my toes to slip on shoes was 
excruciating. The pain went on for months and months and I noticed that 
I was losing strength in my legs.'' Julie continues to suffer from 
fibromyalgia, has lost her libido and has dealt with chronic depression 
since Lupron. She tells of her phone calls to TAP, in which ``he 
refused to listen to me--I've often wondered, if they refuse to listen 
or take this type of information from the women who have taken lupron--
how will they know what type of problems lupron causes?'' (personal 
correspondance). Julie is the founder of `Julie's After Lupron Page', 
on Delphi.com, a public internet message board where Lupron victims 
share information and experiences. (Julie's Page).
    Susan Hayward, Lake Havasu City, AZ, says ``I would rather suffer 
with my initial diagnosis, endometriosis, than what this drug has done 
to the rest of my body and life''. Susan relates how, in attempts to 
maintain her career amidst endometriosis, 2 doctors administered a 
total of either 19 or 20 Lupron injections over a five year period. 
``When I first started using the drug I had to purchase it like any 
other prescription. Later, both doctors had me skip going to the 
pharmacy and they obtained the drug for me. I believe I was sold 
prescription samples. The kickback schemes involved with TAP and 
physicians are well documented . . .''. Since Lupron, Susan reports 
experiencing ``vertebrae bone loss diagnosed as degenerative disk 
disease, arthritis, myalgia, bone pain, fatigue, swelling in hands and 
feet, severe allergies, nausea, weight increase, severe memory loss, 
vision changes, sleep changes, rapid heart beat, and abdominal pain.  . 
. . After taking Lupron, I don't go a day without pain and am under 
constant doctor care to control pain and autoimmune problems. I left my 
home and moved to Arizona where I didn't know a soul so I could get 
relief from the arthritis problems. . . . The total lack of support 
from the medical profession is appalling, and all lawyers say `without 
a doctor saying your problems are related to Lupron you don't have a 
case'.  . . . I lost my career and am disabled, but more than that it 
has robbed me of any faith in our system of justice and what is 
right.'' Susan points out that her disability has resulted in 
``approximately $900,000 disability costs being paid by Social Security 
and the Federal Retirement Program, plus factor in the increased 
insurance premiums from hundreds of thousands in medical bills from 
hospitalizations, surgeries and tests.'' (personal correspondence; see 
also Lazar, 1999).
    Judy Norsigian, Co-director of the Boston Women's Health Book 
Collective, also provided a statement for my 1997 Offer of Proof in my 
medical malpractice tribunal: `` . . . No fewer than 15-20 women have 
called our Women's Health Information Center over the past 5-6 years 
about totally debilitating and frightening reactions to this drug  . . 
.''.
    In 1995 Donna Kuha, of MA., entered one of Dr. Andrew Friedman's 
Lupron clinical trials for fibroids--``The doctor told me it would be 
good for me.  . . . He didn't tell me of any possible danger.  . . . I 
sure didn't expect a stroke.'' Donna Kuha, ``who lost the use of a hand 
and most of the use of one leg, is one of a disturbing number of 
patients who have been harmed by clinical trials.'' (Lasalandra (2), 
1998; personal communications, 1998). Publicly available court records 
in Kuha's medical malpractice trial, containing medical records, 
indicate Donna suffered her first stroke while in the Lupron clinical 
trial, and she suffered another stroke subsequent to Lupron 
discontinuation, as well as developing a seizure disorder. In my 
professional opinion, the medical records within these court documents 
compel one to entertain `the magic clot theory' and are deserving of a 
close and critical review. According to the public records, Donna's 
expert medical witness concluded that a drug other than Lupron caused 
her stroke, and twenty-one pages into this plaintiff's medical expert's 
curriculum vitae it is learned that he's been an Abbott consultant 
since ``1987 through present'', and had served on Abbott Young 
Investigator Award Advisory Board in 4 previous years. (Kuha, 1997). 
Donna suffered her first stroke in March, 1995--just prior to Lupron's 
FDA approval for `anemia associated with fibroids when iron therapy 
alone is ineffective'. (NDA 19-943)
    The Boston Herald did a 3-part series on Lupron, the second part 
entitled `Women seek answers on drug's suspected side effects'. A dozen 
women were interviewed for this story, which began ``Hundreds of women 
nationwide, with nowhere else to turn, are forging a campaign against a 
drug they believe has ruined their health and their lives.'' Quoting 
one victim in the series: ``My knees tremble a lot and get very weak, 
and I have to use a cane now to go up and down the stairs,'' says 
Kimberly Savino, 17, of Easton, who was prescribed Lupron last year for 
a gynecological problem. Before taking the drug, Savino said she often 
rode horses and jogged. Today, three months after stopping Lupron, the 
teenager has trouble even walking and has been diagnosed with a 
degenerative arthritis, which usually develops over many years. Her 
mother is worried--and suspects Kimberly's strange bone problems were 
triggered by Lupron. ``It's very hard to see her, all of a sudden, 
moving around like an old lady with a cane,'' said Susan Savino. ``Now 
we don't know if she is going to end up in a wheelchair. This shouldn't 
be happening to someone who is 17.'' (Lazar, 1999)
    This shouldn't happen to anyone at any age. And problems with 
Lupron appear throughout all ages and all indications. For example, a 
public internet post from another mother about her 15 year old daughter 
who at age 5\1/2\ was treated with Lupron for 3\1/2\ years. The mother 
reports her daughter had no problems on Lupron, but writes that ``her 
period has never been real regular  . . . she has been having severe 
pains in her leg joints. Started in the knees and have moved to the 
hips.  . . . Now she is having similar pains in her elbows and 
shoulders. She was always a small girl until about the same time as the 
pain started, she gained almost 50 pounds and can't seem to get it off. 
Does anyone out there know if this could be some long term affects of 
Lupron???? We have had her to 2 different doctors and they can't seem 
to figure out what is going on. . . .''
    Numerous men have reported a multitude of adverse events following 
their use of Lupron for palliative treatment of prostate cancer (Abend, 
personal communication, 1994). Zoladex (goserelin) is another GnRHa 
used in prostate cancer, as well as used in endometriosis and 
infertility. Lupron, Zoladex, and Synarel are all advertised as 
``fertility medications'' (Fertilitext, 2003; Members, 2003), yet no 
GnRH analog has been approved for fertility treatment or IVF or any 
variant of infertility treatment. In an overseas IVF study using 
GnRHa's Zoladex and Buserelin with clomiphene (CC) and hMG, ``[i]f no 
selection against chromosomally abnormal oocytes takes place at the 
time of fertilization, more abnormal oocytes are harvested with GnRHa/
hMG protocols than with CC/hMG.'' (DeSutter, 1992). Studies in pregnant 
baboons using Zoladex resulted in numerous abortions and stillbirths 
and neonatal death (Kang, 1989).
    Debbie Arnason wants you to know about her husband's experience 
with Zoladex treatment: ``Arne Arnason of Naples FL was diagnosed with 
prostate cancer about 18 months ago and was put on Zoladex 3-month 
depots with resulting side effects of debilitating hot flashes, extreme 
weakness, breathing difficulties, irritability, bone mineral density 
loss, hip, back and joint pain as well as muscle pain. He was unable to 
work. With each successive treatment, the symptoms became worse. We 
truly believe the 3rd and last shot was unnecessary--this treatment 
aged him 20 years in 9 months, requiring 2 ER visits, one for 
arrhythmia and one for a retinal tear. Arne continues to have symptoms 
related to the calcium imbalances the Zoladex created--he was referred 
for surgery of the neck to remove his parathyroid gland. It's just been 
one scary thing after another. No one warned us of any of this!! I had 
to do all my own research. We feel for people who don't know the awful 
consequences of the use of this goserelin acetate drug, Zoladex by 
AstraZeneca (similar to Lupron)''. (Arnason, personal communications 
and correspondence) [AstraZeneca ``is in negotiations with U.S. state 
and federal authorities over the potential settlement'' involving 
``improper claims for its prostate cancer treatment Zoladex, in a ruse 
similar to that of TAP  . . .'' (Pharmafocus, 2003; Church, 2002)].
8. Rita Abend, D.D.S.--Her Story & The Inception Of The NLVN
    The following is testimony of Linda Abend, D.D.S., dated December 
5, 1997, and submitted into the public record as expert witness 
testimony within my Offer of Proof in my medical malpractice tribunal 
(Millican v. Harvard Community Health Plan, Boston IVF, Natalie Schultz 
M.D., Brian Walsh M.D., Mahmood Niaraki M.D., Selwyn Oskowitz M.D., 
Michael Alper M.D.; No. 92-2140A). At that time, in 1997, there was no 
medical expert that I could locate who was willing to publicly address 
Lupron's causality to adverse health problems. Linda Abend's testimony 
is reprinted below in its entirety:
    ``Dear Tribunal Members: Many years ago I founded The National 
Lupron Victims Network to inform people about the risks involved in 
taking the drug Lupron. The network does not accept any money from 
either victims or external sources. All of our information is available 
for free on the internet. I hope that the information I have found in 
my years of research will help other people so that they are fully 
informed of the risks involved in taking Lupron.''
    ``Women and men from all over the world have contacted the network. 
Nearly all of the people I have spoken to were not informed of the 
risks involved in taking Lupron. The majority of the people who 
continue to have medical problems after taking Lupron are finding that 
they are having an unusually hard time getting adequate medical care.''
    ``The individual case that I have the greatest knowledge of is that 
of my sister, Dr. Rita Abend. Before Rita took Lupron, difficulty in 
obtaining medical care was something neither Rita nor I could 
comprehend. Once she took Lupron everything changed. While on Lupron 
Rita experienced horrendous side-effects. Doctors had never informed 
Rita of any risks. Ultimately, we realized that she probably would 
never receive the medical care that she so desperately needed.''
    ``Since taking Lupron, Rita has been diagnosed with seizures, 
autonomic nervous system dysfunction and myeloma/plasmacytomas (a rare 
form of bone marrow cancer). All of these diagnoses were given and then 
rescinded at one time or another. Results on her blood laboratory 
reports and numerous pages of medical documents were whited-out, and 
vials of blood lost by a physician before they even left his office. 
Doctor after doctor has refused to treat her including one who plainly 
stated that it would not be in his best interest to do so. Rita went 
all over the country in search of medical care after taking Lupron. 
Rita, like many others who took Lupron, could not get honest medical 
care after taking Lupron. And without honest medical care and doctors 
to testify, due process in the courts is an impossibility.''
    ``In one instance, Rita had to obtain a court order in order to get 
her medical records from one doctor, Orin Devinsky. Devinsky had 
threatened to ``destroy'' the continuous audio-visual video tapes that 
he had made of her electroencephalograms (EEGs) during a 9 day hospital 
stay in a specialized epilepsy unit, approximately two weeks after 
stopping Lupron. (Rita spent three of these days in intensive care). 
Despite the fact that these tapes had over 600 computerized ``events'' 
(alerting the viewer to abnormal brain activity) Devinsky wanted to 
destroy them. During the hospital stay Devinsky learned that Rita's IQ 
had dropped to 97 on an IQ test and her manual dexterity was in the 
bottom 8 percent of the nation. Instead of informing us of this drastic 
decline after taking Lupron, he informed us that the tests came back 
``normal''. Although Devinsky's admitting diagnosis was ``convulsions'' 
(based on an EEG), he claimed that this was all a mistake and in the 
end nothing was wrong with Rita. Even with the court order Devinsky did 
not turn over all of the medical records. He claims to have ``lost'' 
some tapes.''
    ``Instead of offering Rita anti-seizure medication, Devinsky tried 
to coax Rita into taking a derivative of pentamethylenetetrazole (PTZ), 
insisting that it was perfectly safe and that no one had ever been hurt 
by it. Rita refused the PTZ. After researching PTZ I discovered that 
PTZ is no longer given to humans since it is not safe. It has been 
found to cause seizures and effects the autonomic nervous system. It is 
used in the laboratory to make animals epileptic for experimentation 
purposes. When Rita finally found a doctor to monitor her seizure 
condition caused by Lupron, she was offered not one, but four anti-
seizure medications.''
    ``In another instance, Rita was experiencing extreme pain in her 
hip. An x-ray revealed that she had lost 30-50 percent of her bone 
density at the head of her femur. Lupron is known to cause bone loss at 
the head of the femur. Rita was instructed to use a walker because her 
hip could fracture from the loss of bone. Rita was referred to a 
specialist. He refused to treat her. He refused to run a single test, 
not even a blood test. Rita was left in bed suffering with excruciating 
pain for one year, unable to get up without the use of a walker.''
    ``Today, my sister, a once actively employed, vital, energetic and 
intelligent woman who graduated from New York University Dental School, 
is now totally and permanently disabled. It is hard to say which is 
most difficult for Rita; relinquishing her dental license, 
relinquishing her drivers license, accepting the fact that 
comprehensive medical care (no testing, no answers) will always be 
denied because she took Lupron, or that justice will probably not 
prevail if one has been injured by Lupron.''
    ``Doctors who prescribe Lupron are denying people the accurate 
information they need in order to make an informed decision. Once 
people become ill on Lupron, these physicians are denying the temporal 
relationship between Lupron and the onset of symptoms. They even deny 
information in respected peer-reviewed medical journals. For example, 
two studies reported memory loss with Lupron occurring in 72 percent 
and 75 percent of the studied populations. Both studies were published 
in the Journal of Assisted Reproduction and Genetics, and Fertility & 
Sterility, respectively. The percentages reported are quite high. In 
fact, if an individual does not experience memory loss with Lupron that 
individual is in the minority. Yet, doctors who prescribe Lupron are 
continuing to deny that Lupron causes memory loss. Doctors who 
prescribe Lupron are also denying that Lupron can cause other side-
effects that have already been ackowledged in the medical literature 
and printed in the package insert. They deny the correlation of side-
effects while on Lupron. They deny the correlation when one stops 
taking Lupron and the side-effects persist.''
    ``I certainly do not want to leave you with the impression that I 
believe all physicians are bad. There are many good, caring physicians 
out there treating people with all kinds of medical problems. But when 
Lupron victims turn to physicians for help and answers they get a deaf 
ear and the run-around. Lupron victims are not victims of Lupron alone, 
but are also victims of a medical system that has failed them. And 
without medical care and doctors to testify, they are unable to obtain 
justice in the courts. If you have any questions, please feel free to 
contact me. Respectfully, Linda Abend, D.D.S., Founder, The National 
Lupron Victims Network.''
    Although Linda Abend closed this 1997 statement with an invitation 
for contact, attempts to contact the NLVN (by myself, other victims, 
lawyers, and media) have been in vain. Phone calls go unanswered and 
certified mail to their long-held address returned ``unk''. No new 
information has been posted at the NLVN website for years, and the 
private NLVN message group (where there had been postings by hundreds 
of members) has long been inaccessible. Thousands of women contacted 
the NLVN and had filled out the detailed questionnaire that the NLVN 
had mailed out, and was processing, in the 1990's. Now, the question is 
not only what happened to all that information--but what has happened 
to Rita, Linda, and the NLVN?
9. The State Of The ART, And The Art Of Stating
    In February 1995 I noticed a surrogate ad running in a college 
newspaper, offering $17,000 plus expenses to carry the gift of life for 
an infertile couple, and I called the ad. A Dr. Radecki answered the 
phone, and I heard all about the wonders of IVF and ``there were no 
long-lasting risks'' and ``no one ever suffered serious harm from the 
drugs.'' On March 21, 1995, I was surprised to see CBS Evening News 
interviewing this Dr. Radecki--and became even more surprised to learn 
that Dr. Radecki was not a fertility doctor--he was a psychiatrist who 
had lost his license for sexually abusing his patients. By the end of 
March 1995, Dr. Radecki had closed shop--the telephone number for the 
surrogate ads was disconnected, the ads were gone, and he was under 
siege for misrepresentation.
    A TAP advertisement in a fertility journal gives a glimpse into the 
sly canvas upon which the industry paints its picture: This TAP Lupron 
ad read: ``Remote Control: Your patient with endometriosis doesn't have 
to remember her daily therapy--Lupron Depot 3.75 mg remembers it for 
her.  . . . She only needs to remember six monthly visits.'' (Ad, 
1992). Nowhere does the consumer learn that memory loss has been known 
to be ``a commonly observed'' side effect to Lupron, or that patient 
noncompliance with daily Lupron could likely have been related to a 
memory disorder (listed as a known adverse event to Lupron), or that 
clinical trials conducted for Lupron depot approval utilized 
methodologically flawed study design that was conducive to subjects 
forgetting adverse events (surveyed every 30 days).
    In 1990, several Brigham & Womens physicians (including the lead 
author who would later admit to falsifying and fabricating 
approximately 80 percent of 4 Lupron studies) would write ``not since 
the development of oral contraceptives has there been so much 
excitement and enthusiasm among basic scientists, clinical 
investigators, and practitioners of reproductive medicine.'' (Friedman, 
1990). A coauthor in the latter article, Robert Barbieri M.D., has also 
been a lead investigator for Lupron, authoring or co-authoring 
(including with Friedman) many Lupron or GnRHa studies and books, and 
has received TAP funds for numerous studies, and serves also as a 
Medical Advisor on TAP's Lupron endometriosis website.
    In 1997, Dr. Barbieri, representing the industry, testified in 
opposition to the MA. bill which would have mandated state regulation 
and informed consent of the risks of ART. Following the hearing, when I 
asked Dr. Barbieri why memory loss, along with all of the other 
hundreds of reported side effects, was not included in their IVF 
Clinic's consent form, he subsequently forwarded their consent form 
with an attached, handwritten note stating: ``Here is a copy of our 
current Lupron consent form for IVF. I am going to ask Dr. Hornstein to 
add memory loss as a potential side effect. I don't think we can add 
300 side effects. Do you have 3 or 4 others that would be important to 
add?'' That such a lead and allegedly prestigious Lupron investigator 
should query me as to what adverse events are important to include 
within their Lupron informed consent document (presumably approved by 
an IRB) is troubling, disgraceful, and the epitome of the `state of 
this art'.
    ``Inclusion of patients with a poor response to GnRHa therapy has 
not always occurred in outcome analysis in the published medical 
literature.'' (Redwine, 1994). Conflicts of interest are extensive, 
troubling, and have far reaching consequences upon standards of care 
and the state of science. Two cases in point: Another lead Lupron 
investigator alleged in a study that reduced bone mass was associated 
with endometriosis (Comite, 1989), yet another investigator with 
contrasting findings reported that ``One explanation for the difference 
between the results of this study and those of Comite et al. is that 
they included women who previously had been treated with GnRH agonists 
and these agonists are associated with bone loss.'' (Dochi, 1994). (See 
www.lupronvictims.com, `Endometriosis' for further elaboration on these 
studies). Claims of the disease endometriosis being associated with 
bone loss, while deliberately omitting patient's prior use of GnRHa 
(which is known to causes bone loss), is a perilous concept of 
manipulating iatrogenic, adverse, drug effects into a disease-related 
non-tort phenomenon--and deserves attention.
    A 2002 Human Reproduction article, `High rates of autoimmune and 
endocrine disorders, fibromyalgia, chronic fatigue syndrome and atopic 
diseases among women with endometriosis: a survey analysis', co-
authored by the President of the Endometriosis Association, failed to 
mention GnRHa's within the article (Sinaii, 2002). The survey upon 
which the article is based, which was sponsored by Zeneca (1998), does 
contain reference to GnRHa use in survey participants. Despite the 
presence of a National Lupron Victims Network, with many women 
complaining of autoimmune and endocrine disorders, fibromyalgia, 
chronic fatigue syndrome, etc. post-Lupron, this article makes no 
mention of these adverse advents.
    I do not think any of this is funny--but if there were ever a game 
involving Lupron and/or GnRHa titled something like `Patent--Conflict  
. . .Yea or Nay', I'd participate. For example: Issue--Person involved 
with the testing of animals and Lupron and FDA approval submission  . . 
. Yea Patent! Yea Conflict! Issue--Person heading major reproductive 
research unit and member of RESOLVE's Advisory Board  . . . Yea Patent! 
Yea Conflict! Issue--Member of major Institutional Review Board, who 
has performed numerous TAP-sponsored Lupron studies, and published 
numerous articles on Lupron  . . . Yea Patent! Yea Conflict! Issue--
Individuals promoting awareness of risks of Lupron and ART  . . . 
Patently NayNay!
10. The Check Is In The Fe/male
    ``GnRH and its analogs have led to exciting new avenues of therapy 
in virtually every subspecialty of internal medicine as well as in 
gynecology, pediatrics, and urology  . . . virtually every subspecialty 
of medicine will be touched by the GnRH analogues  . . .'' (Conn, 
Crowley; 1994).
    The following is a fairly comprehensive, alphabetical, list of 
clinical uses, case reports, or studies involving Lupron's use in 
unapproved and off-label indications. These uses were mostly found 
within published medical literature, although some were noted within 
patents, or advertisements for clinical trials, and one was a personal 
clinical observation. Citations have been omitted for brevity, but are 
available upon request.
    A:adjuncts for IVF; adjunct to fibroid surgery; anovulation; autism 
[management of sexual behaviors]; acute intermittent porphyria; 
Alzheimer; adenomyosis; severe adenomyosis; adhesions; amenorrhea 
[functional]; angiomyxoma of vulva; autoimmune disease; autonomic 
neuropathies; `add-back' regimen [estrogen/progestin with lupron]; 
advanced breast cancer.
    B:before hysterectomy for leiomyomas; benign prostatic hyperplasia; 
benign prostatic hypertrophy; birth control; breast cancer; breast 
cancer prevention; bioavailability following nasal and inhalation 
delivery to healthy humans.
    C:catamenial insulin reaction; catamenial pneumothorax; chronic 
intestinal pseudo obstruction [in patient with heart-lung transplant]; 
cluster headaches; colorectal cancer, congenital adrenal hyperplasia 
with oligomenorrhea; contraception; cryptorchidism; controlled ovarian 
hyperstimulation in normal, abnormal and poor responders; combination 
therapy with flutamide and castration; colonic endometriosis; 
comparison of suppressive capacity of different GnRHa's in women; 
comparison of hCG versus lupron for releasing oocytes.
    D:dysfunctional uterine bleeding prior to hysterectomy.
    E:egg donation; endometrial ablation; endometrial cancer, 
endometrial glandular hyperplasia; endometrial hyperplasia without 
atypia; endometrial cancer; endometrial stromal sarcoma; epithelial 
ovarian cancer; exhibitionism; effect of very high dose in prostate 
cancer; effects in animal and man; effect on embryos (``accelerated 
development''); endometrial preparation for transfer of frozen-thawed 
pre-embryos in patients with anovulatory or irregular cycles; effects 
on follicular fluid hormone composition at oocyte retrieval for IVF; 
effect on hair growth and hormone levels in hirsute women; effects on 
glucose metabolism in a diabetic patient; equivalency of hMG and FSH 
stimulation following suppression; effect on LH surge; effect on 
adrenocorticotropin and cortisol secretion in premenopausal women; 
effect on seminal vesicles; effects of lupron on luteal-phase 
hyperprolactinemia during ovarian stimulation.
    F:fallopian tube obstruction; functional ovarian hyperandrogenism, 
functional abdominal pain from functional bowel disease; fibrocystic 
breast disease; first cycles of IVF/GIFT; follicular development and 
oocyte maturation.
    G:GIFT.
    H: Headache, Huntington's Disease (for exhibitionism), 
hyperandrogenism, hysteroscopic surgery; hilus cell hyperplasia within 
ovarian cyst wall; hypermenorrhea in premenopausal women with acute 
leukemia; hypermenorrhea with severe thrombocytopenia; 
hypergonadotropic hypogonadism; hypergonadotropic amenorrhea; 
hypothalamic-pituitary axis disease; hypothalamic hamartomas and sexual 
precocity; hirsutism; moderate and severe hirsutism; hysteroscopic 
surgery; benign symptomatic hyperandrogenism in a postmenopausal woman; 
hidradenitis suppurativa.
    I: infertility; IUI; IVF; IVF-ET in insulin-dependent diabetics; 
irritable bowel syndrome; intravenous leiomyomatosis with cardiac 
extension; intranasal lupron for endometriosis; intranasal/sc lupron 
for fibroids.
    K:Kallmann syndrome.
    L: leuprolide flare regime for IVF/GIFT & embryo cryopreservation; 
lupron screening test for IVF; luteal phase lupron flare protocol; 
luteinized unruptured follicle syndrome; leiomyosarcoma; leiomyomatosis 
peritonealis disseminata.
    M:male contraception; `male' factor infertility (female is 
treated--male is not); Meniere's Disease; menstrual migraines; motility 
disorders.
    O:ovarian cysts; ovarian cysts after ovarian transposition; ovarian 
epithelial tumors; ovarian granulosa cell tumor; ovarian hyperthecosis; 
advanced epithelial ovarian carcinoma; ovulation induction; ovarian 
stimulation; ovarian stimulation with lupron and norethindrone in IVF/
GIFT; ovarian hyperstimulation; oocyte release; ovarian 
hyperstimulation syndrome; severe ovarian hyperstimulation; oocyte 
donation, oocyte donation [post-menopausal]; operable breast cancer; 
ovarian carcinoma [refractory]; ovarian remnant syndrome [diagnostic].
    P:pancreatic cancer; paraphilias; Parkinson's Disease symptoms, 
pedophilia, pelvic pain not associated with endometriosis; pituitary 
metastatic mass; polycystic ovarian disease; PMS; protection against 
chemotherapy-induced testicular damage; postpartum depression; 
premenopausal breast cancer; post-menopausal breast cancer [advanced]; 
pre-implantation [embryonic] diagnosis; prevention of hypermenorrhea in 
premenopausal women undergoing bone marrow transplantation; prostate 
cancer (Stage C adenocarcinoma]; endometroid adenocarcinoma of 
prostate; pseudo intestinal blockage, psychosis in PMS, resistant 
paraphilia, pulmonary endometriosis; pulmonary tuberous sclerosis; 
pulmonary delivery of leuprolide in health male volunteers; pre-
myomectomy; poor prognosis patients for IVF/poor responders; 
preservation of fertility in a woman with menorrhagia; pharmacokinetic 
studies in humans [iv and sc]; preoperative treatment of complicated 
myomata; pre-surgical treatment of fibroids.
    R:resectoscopic endometrial ablation; rectal endometriosis; routine 
pituitary suppression before ovarian stimulation.
    S:sexual offenders; sexual precocity; Sickle-cell anemia associated 
priapism; surrogacy, SUZI; steroid-cell tumor (advanced); systemic 
lupron erythematosis; submucous myomas; sexual behavior disorders; 
syndrome of familial virilization, insulin resistance, and acanthosis 
nigricans; stimulation test in Tourette's syndrome; small cell 
carcinoma of prostate.
    T:transgender adjunct, testicular function effects; transdermal vs. 
subcutaneous leuprolide--a comparison; triggering follicular 
maturation.
    U:urinary retention in prostate cancer; ureteral obstruction caused 
by endometriosis; urinary retention due to benign prostatic 
hyperplasia.
    W:with or without medroxyprogesterone in treatment of fibroids.
    Z:ZIFT
    And the following list is simply an odd collection of TAP-funded 
Lupron studies that were jotted down along the way. This list should 
not be construed as any formal, complete, or even partial, audit of the 
numbers of published TAP funded Lupron studies. Even if the total tally 
of TAP funded Lurpron grants and investigators could be counted today, 
that figure would be obsolete with the next publication of TAP funded 
Lupron studies. But here's a few examples, with duplicative years 
indicating separate studies.
    In Alabama, there was one of 13 investigative sites conducting TAP 
funded research; in Arizona, TAP funded a symposium; in California, 
numerous investigators for numerous indications; in Colorado, 5 
physicians received TAP funds; in Connecticut, another one of the 13 
investigative sites conducting TAP funded Lupron research; in Florida, 
another one of the 13 investigative sites conducting TAP funded Lupron 
research, and in Florida, a TAP sponsored educational program at Walt 
Disney for unapproved female uses (FDA memo by David Banks, 1990); in 
Illinois, numerous investigators supported by grants from either Abbott 
or TAP or both, in 1988, 1989, 1991, and another one of the 13 
investigative sites conducting TAP funded Lupron research; in Kansas, 
another one of the 13 investigative sites conducting TAP funded Lupron 
research; in Massachusetts, another one of the 13 investigative sites 
conducting TAP funded Lupron research, and in Massachusetts in 1987 
numerous investigators conducted TAP funded Lupron research, and in 
Massachusetts in 1988 numerous investigators conducted TAP funded 
Lupron research, and in Massachusetts in 1989 numerous investigators 
conducted TAP funded Lupron research, and in Massachusetts in 1989 
numerous investigators conducted TAP funded Lupron research, and in 
Massachusetts in 1990 numerous investigators conducted TAP funded 
Lupron research, and in Massachusetts in 1991 numerous investigators 
conducted TAP funded Lupron research, and in Massachusetts in 1995 
numerous investigators conducted TAP funded Lupron research, and in 
Massachusetts in 1997 Brigham & Women's website identified two grants 
were funded by TAP; in Maryland, another one of the 13 investigative 
sites conducing TAP funded Lupron research; in North Carolina, numerous 
investigators (including an FDA Advisory Committee member) received 
funding from TAP, and had Lupron ``generously provided'' by TAP for a 
study involving ovulation induction; in New York, another one of the 13 
investigative sites conducting TAP funded Lupron research; in 
Pennsylvania, another one of the 13 investigative sites conducting TAP 
funded Lupron research; in Tennessee, one physician was on TAP's 
Speaker's Bureau and is an ``active contributor'' to the EA (personal 
correspondence, 1998); in Texas, another one of the 13 investigative 
sites conducting TAP funded Lupron research; and in Texas an 
educational grant from TAP to numerous investigators; and in 
Washington, another one of the 13 investigative sites conducting TAP 
funded Lupron research.
11. Considering Cloning? Consider The Myths of Hype & The Realities of 
        Scientific Misconduct
    It is outrageous to hype cloning research, which will involve 
superovulation with drugs such as Lupron, as probable cures for 
diabetes, Parkinson disease, Alzheimer, etc.--when women who've 
received Lupron have now iatrogenically DEVELOPED these and other 
diseases. It is appalling that this debate has not centered on the 
adverse health effects of superovulation and Lupron upon the women, and 
especially the reports of adverse pregnancy and birth outcomes 
associated with treatment.
    Without proper long-term follow-up study of the reports of adverse 
health outcomes to the superovulated women and without proper long-term 
follow-up of the adverse pregnancy and adverse birth outcomes in the 
babies conceived and exposed to drugs such as Lupron, how can you 
propel recklessly forward to create a massive demand for more 
superovulation of women for research eggs?
    The message of research and biotech has resulted in the impression 
of hope, promise, cure, and benefit. My personal experience can be 
summed up by the words hype, myth, research fraud, conflicts of 
interest, and injury  . . . and all without any medicolegal advocacy 
for the injured victim. It is a myth that public safety is being 
protected by the FDA, evidenced by the fact that some 20 million people 
have taken drugs that have been recalled--drugs that were initially 
deemed `safe and effective during study', only to later learn that data 
identifying serious problems, including deaths, had been suppressed.
    Somewhere it is written that it was a ``comforting but erroneous 
myth'' that research involving drugs and devices still serves medicine. 
Time magazine's 4/22/02 cover, of a woman crouched within a laboratory 
cage, epitomized the story within, depicting yet another research 
debacle in which data identifying adverse side effects was kept 
secret--and only revealed by a whistleblower (Lemonick, 2002). Time 
also noted that there were more than 60 institutions that ``failed to 
protect human subjects adequately.'' Other recent articles have 
identified the dramatic disparity in research results and reporting, 
depending on who is paying for the research--with contracts allowing 
pharmaceutical companies control over disclosure of bad data. 
Furthermore, large sums of money in the form of grants, stock options, 
company ownership, patents, consulting agreements, scientific 
agreements, speaking engagements, symposiums, trips, gifts, etc. (which 
are disclosed in less than \1/2\ of 1 percent [Stolberg, 2001]), have 
created an environment conducive to suppressing bad data and inducing 
outright fabrication of data. It would be nice to think that ethical 
behavior is the norm, but a review of recent news compels one to notice 
the increasingly rampant unethical machinations of research medicine.
    To date there have been a number of renowned reproductive 
physicians/surgeons who have been found to have fabricated and/or 
falsified data: Dr. Andrew J. Friedman, a lead investigator for Lupron, 
recipient of many TAP grants to study Lupron, and director of Brigham & 
Women's IVF Program (where this writer was mandated to use Lupron), was 
found to have falsified and fabricated approximately 80 percent of the 
data in 2 published, and 2 unpublished Lupron journal articles (Federal 
Register, 1996). Is it any wonder that during the time Dr. Friedman was 
director of Brigham & Women's IVF Program, the criteria for the 
administration of Lupron with IVF changed from ``Lupron is only used in 
certain diagnoses'' to ``Lupron is widely prescribed''? Where is the 
data to justify such widespread application of a hazardous, 
reproductive and developmental toxicant?
    There has also been the brothers Drs. Nezhat (one of whom serves as 
a Scientific Advisor for the EA, according to the EA website) who have 
been found to have fabricated research involving laparoscopic surgery 
for endometriosis, resulting in the retraction of two published journal 
articles (Nezhat; 1991, 1992). An attorney, as a result of litigation 
(on behalf of a client who believed she had signed an informed consent 
form to authorize surgery but had instead signed a waiver of right to 
receive informed consent), doggedly pursued to have this bogus 
published surgical procedure data examined--and only after 6 years was 
the data finally produced, examined, and retracted. In one study, more 
than half of the patients were used for pre-market testing of a new, 
non-FDA approved, circular stapling device. ``The Doctors Nezhats' 
retracted bowel surgery articles are included in Ethicon's coursebook 
for surgeons.  . . . While the Doctors Nezhat reported no ``short or 
long term ill effects'' with this new technique, there were significant 
complications in these subjects, some severe. A portion of one woman's 
bowel died during surgery, another's anastomosis (where bowel is 
rejoined) massively hemorrhaged a few days post-op requiring repair, 
one patient's bowels fell into the toilet post-operatively, several 
patients had bowel leaks in the staple line, several patients were 
incontinent of feces, some could no longer evacuate normally, etc. Yet, 
the operation was promoted for 185,000 women by Johnson and Johnson 
based on the Doctors Nezhats' research'' (Attorney James J. Neal, 2003: 
www.mdjdfraud.com; see also Neal, 2002).
    The father of GIFT, gamete intrafallopian transfer, Dr. Cecil 
Jackobson, rounded off his accomplishments with 52 convictions of 
perjury and fraud. He had been substituting his own sperm for that of 
some 75 women's husbands' sperm resulting in these women (initially) 
unknowingly giving birth to children fathered by this `expert'. To 
quote USA Today, `` . . . His case taught a valuable lesson about the 
fertility industry: Self-regulation is not enough.  . . . Many of his 
most offensive acts were legal--like donating his own sperm. The only 
way Jacobson was stopped was on federal wire, mail fraud and perjury 
charges.  . . .'' (USA Today, 1992).
    The ``Dyno Gyno'', Dr. Niels Lauersen (and a cohort) were convicted 
of billing fraud, ``falsif[ying] bills to get $2.5 million in payments 
from insurers for a variety of fertility procedures'' (Barrett, January 
2001), and Dr. Lauersen was ``jailed as flight risk'' (Barrett, March 
2001). Dyno Gyno loyalists attempted to assign this fraudulent billing 
as nothing but `an attempt to provide otherwise denied procedures', 
causing ``prosecutors [to] fume that the case is not about health-care 
policy, but a thief with a medical degree and a lab coat.'' (Barrett, 
2000). Of note is an aside mentioned in the latter article, which 
relates one loyal Lauersen patient's position that women's health 
issues don't get enough insurance coverage. The aside is a description 
of this patient, ``whose three children all needed special attention 
from the doctor due to different complications at birth.'' (Ibid). No 
further elaboration is made on these ``birth complications'', and the 
implications of such ``complications'' appear to be unrecognized.
    And the story of Dr. Asch, et al. is well known: Dr. Asch, who was 
overdosing women in superovulation to steal their eggs and then sell 
them to researchers and other unsuspecting women, reportedly often left 
his office with a briefcase stuffed with thousands of dollars in cash--
while he was also preaching and publishing on the psychological effect 
of egg donation on women (Lessor, 1993).
    A renowned group of fertility experts published a study, a report 
of ``the first case of human germline genetic modification resulting in 
normal healthy children'' (Barritt, 2001), however the expert group 
``failed to disclose that along with 15 healthy babies it produced two 
fetuses with a rare genetic disorder. Experts are horrified because the 
fault can be passed to future generations'' (Hill, 2001). The fertility 
clinic and fertility experts report published claims of healthy 
children from their procedure  . . . yet the Washington Post reported 
``[i]nternal documents from Saint Barnabas explicitly acknowledge that 
the novel technique may be causing the problem  . . .'' (Weiss, 2001). 
The `Birth Defects Research for Children' points out that ``the two 
cases of Turner's syndrome should have been mentioned in the report so 
that doctors and others would be aware of all the facts'' (Birth 
Defects, 2001). The group would later report that the ``children born 
after IVF with cytoplasmic transfer have been carefully evaluated and 
one 18-month-old child was recently diagnosed with a pervasive 
development disorder  . . . a broad spectrum of disorders with mixed 
prognosis.  . . . . Because the procedure is experimental, protocols 
have been supervised and re-evaluated in 1999 and 2001. . . . However, 
this research has been suspended since early July 2001, pending 
clarification of new requirements suggested by the Federal Food and 
Drug Administration.'' (Institute, 2001). Six years prior, in an 
abstract published by one of this group, 4 abnormal embryos were 
implanted into women--and this act brought little, if any, attention 
from anyone or anywhere. (Munne, 1995). At St. Barnabas' webpage on egg 
donation (in which Lupron is used), the question of ``What are the 
risks of being an egg donor'' is answered  . . . ``Donors may risk 
psychological distress if they are rejected from the program  . . .'' 
(St. Barnabas, 2001).
    Falsified and suppressed data (which can set, alter, and impact 
standards of care), along with conflicts of interest and abuses of 
human subjects in research endeavors are poisoning medicine 
systemically. Shouldn't you begin to address the forces that result in 
profit via dictation of data and spin and to-hell-with `first do no 
harm'? And should you really open the reproductive research doors wider 
to the inevitable abuses in human embryo cloning research? The criminal 
penalties of jail and fines of at least $1 million that President Bush 
has proposed should be applied not just to the use or importation of 
cloning technology, but rather should be applied like a heavy wet 
blanket over every research discipline in medicine in attempts to quash 
this destructive slow burn.
12. The Marginalization of Victims and Lack of Medico-Legal Advocacy
    The consumer who has been victimized by the fertility industry and/
or Lupron has no recourse. Consumer protections are woefully lacking in 
the fertility research enterprises today--and there is no reason to 
assume that adequate `measures' will take place or be enforced in the 
cloning arena. Start cleaning up the mess in today's fertility clinic 
before you create nightmares at the human embryo farms.
    Who or what is in place now to assist the injured egg donor, or the 
harmed fertility patient--and whomever or whatever is offered as an 
answer to that question, please then answer what are they doing now 
about Lupron victims? My complaints to the FDA about Lupron and lack of 
informed consent promulgate the mantra that the FDA has no supervision 
over the practice of medicine, which falls to state Boards of Medicine. 
State Boards of Medicine state a doctor can prescribe any drug they 
want off-label, and drugs are under the purview of the FDA. The 
Department of Public Health has no jurisdiction over fertility clinics, 
so refers one to the Board of Registration in Medicine. The FTC round-
robins the consumer to the FDA. And there you go, round and round  . . 
. no informed consent, no advocacy, no accountability, no protection. 
The consumer is left stranded, while profits and abuses exponentiate, 
and her medical needs, costs, tests, and doctor/hospital visits 
accumulate.
    Fiscal prudence would seem to imply that insurance companies would 
audit their costs of members 5 years prior to and then 5 years post 
Lupron, for expenditure comparison. My medical bills, and the medical 
bills of others, both before and after Lupron, speak for themselves. 
After enjoying a full-time salary for many years, it would be 8 years 
post-Lupron before I had earned a total of my formerly annual years 
salary. Illnesses, medical costs, inability to work, no medical or 
legal advocacy--all are extreme hindrance to the effort, energy and 
time necessary to mobilize for survival. Eggs donors, et al. beware! My 
advice to those considering undergoing superovulation and Lupron is: 
first, establish independent wealth in the event you become disabled; 
second, you will not be able to recognize lack of informed consent or 
be able to rely on the information or advice given to you, therefore 
some type of healthcare degree, preferably M.D., is necessary; third, 
having advanced chemistry will be especially helpful, so bone up there 
also; fourth, you may need to become quite familiar with the legal 
system and you might be on your own--so prepare yourself beforehand to 
save yourself a lot of grief; fifth, make sure you have family and 
friends available who can help you as you may find you are in need; 
sixth, make sure you can type real fast as you may find yourself having 
to write thousands of letters; and seventh, buy a head-phone because 
you will need to talk to as many people as you can.
    It is ``very bad'', indeed, that reproductive experimentation has 
been conducted without informed consent, and with `treatment' using 
hazardous agents propagandized as safe and as science--but is neither. 
``It no longer appears possible to consider the marketing of new drugs 
for stimulating the gonadicpituitary axis unless they have been tested 
within the framework of IVF'' (Buvat-Laborie, 1988). The Health, 
Education, and Welfare Department, in 1979, advised that a global study 
be undertaken to establish the safety of IVF, and although no such 
undertaking was done, it was proclaimed at the 1994 Human Embryo 
Research Panel Hearings that former concerns about IVF's safety had 
been abated. The March 2000 study indicating a 9 percent rate of major 
birth defects from IVF represents a substantial increase from former 
reports. Dolly, the cloned sheep, became lame and was euthenized. And 
there are thousands of Lupron victims who appear to have no voice, and 
are crying out for medical care and legal representation.
    The FDA has had a ``fatal erosion of integrity'' (Horton, 2001), 
and conflicts of interest on 18 FDA Advisory Committees were revealed 
several years ago. (Cauchon, 2000; Mercola(2), 2000). The protections 
allegedly in place for federal research subjects were recently shown to 
have failed--and in private research enterprise the consumer is just 
plain out of luck. Conflicts of interest abound in clinical trials--
``Let's be realistic'' said [the] commissioner of the FDA, ``Profits do 
drive this business'' (Agnew, 2000). Where are the consumer 
protections?
    While there has been some litigation recently, in the early 1990's 
there was little legal recourse available, and I am aware of 2 other 
women who attempted to bring their own lawsuit involving Lupron pro se 
because they couldn't find an attorney. I searched high and low, east 
and west, north and south, individual and firm and agency alike. Never 
having been inside a law library and needing to know everything about a 
foreboding and alien process with requirements and deadlines I'd yet to 
learn creates a most precarious and unfortunate position. Having to 
learn how to draft a complaint, and having to figure out the problem in 
terms of legal issues, identify the law and find other case law, file 
motions to compel, file answers and promulgate interrogatories and 
requests for production of documents, undergo 7 motions for summary 
judgment and a medical malpractice tribunal--without any attorney or 
real guidance beyond cursory advice by attorneys over the phone. I was 
told by numerous attorneys ``you most definitely have a case, but 
without laws and standards--its a legal vacuum'' and then years later, 
``if you can find the expert, I'll take the case''.
    Not until my case approached the MA. Appellate level did I pursue 
obtaining a paralegal certificate, but clearly, without counsel, and 
without laws and regulations, I understood that I had limited abilities 
to do justice to the case or the issue. I tried over and over, again 
and again, to find an attorney, each attempt to no avail--and it was 
very unnerving to try to prepare an appeal to the MA. Supreme Judicial 
Court pro se. Incredibly, a final online internet plea for some legal 
guidance was seen by an appellate attorney with endometriosis, Barbara 
Sosin, from Chicago IL. Barbara's reproductive endocrinologist ``fired 
[her] because [she] refused to take Lupron''. This doctor told her 
``I've been so patient with your irrational refusal to take this 
medication, and there's nothing more that I have to offer you''. 
Therefore, through just a few phone calls of my presenting the legal 
issues, cases, and facts, Attorney Sosin was able to help me assemble 
this information in the most appropriate format, and I was very 
grateful for that last minute support. But, nonetheless, from start to 
almost finish (some 8 years), traveling that road alone is 
unacceptable; and was not the way for such an important matter to have 
had to be handled. Filing a case pro se is something that no victim 
should ever have to do.
    Many product liability cases have been filed against TAP regarding 
adverse events to women following Lupron--and quietly settled. Through 
the grapevine, I became aware of 5 cases in the latter 1990's, and 
obtained court records for Villarreal v. TAP (Sacramento County, CA., 
No 528453; 1993), and Gantner v. TAP (Cook County, Il, No. 96L11379; 
1997)--and have since become aware of a separate, additional settled 
case, and there are many potential-plaintiffs searching for counsel. I 
am aware that cases are being consolidated, and do foresee a class 
action suit looming on the horizon. But it has taken a very long time 
to get to that point, and an awful lot of wonderful, innocent, misled 
people have been hurt. My lawsuit was initially filed in 1992, and was 
terminated at the MA. Supreme Court level in 2000, the day Boston 
papers broke the Lupron urology kickback scam story--but I left nearly 
1000 pages of medical, scientific, pharmaceutical, and governmental 
documents involving Lupron's risks for the next victim/case.
    Since then, and after 11 years of seeing untold numbers of doctors 
and specialists, I finally received documentation that my ``multiple 
medical problems [are] consistent with case reports following Lupron 
exposure  . . . [and have] an extremely complex, multifaceted, 
constellation of medical problems.'' I'd like to quote the final 
paragraph from my MA. Supreme Judicial Court appeal: ``Moreover, 
Defendants claims of lupron's `menopausal' action does not correlate 
with known science. (Appendix p. 290 & 293). And studies for lupron's 
use in IVF were ``discontinued''. (Appendix p. 358). Therefore, her IVF 
treatment with lupron was not grounded in reliable scientific 
methodology. The opinions of the Defendants, as well as the accepted 
`standard of care' regarding the use of lupron, cannot meet the 
threshold requirements of Daubert and is ``junk science'', creating a 
genuine issue of material fact for a jury. (Daubert v. Merrell Dow 
Pharmaceuticals . . .)'' (Millican vs. Harvard Community Health Plan, 
Boston IVF, Natalie Schultz MD, Brian Walsh MD, Mahmood Niaraki MD, 
Selwyn Oskowitz MD, Michael Alper MD. Docket No. 98-P-1472.)
    An online investigation of Lupron (www.redflagsweekly.com), as well 
as the NLVN, myself, other victims, and media such as FOX News and 
Dateline, have challenged TAP to produce data and to answer questions--
but there has been no response from TAP. The FDA was to take another 
look at its damaging 1999 review, but no word has been heard. The NIH 
just conducts more Lupron studies, while shielding consumers from its 
webpages for its Hazardous Drug List and Material Data Safety Sheets 
(MSDS). The MSDS for Lupron, available to all hospitals and healthcare 
institutions, states that leuprolide acetate is ``hazardous per OSHA 
criteria'', and identifies that ``women of childbearing potential must 
be excluded from working directly with product.'' This is information 
necessary for consumers to make an informed decision about `treatment' 
with a hazardous, toxic substance. Questions were posed to several NIH 
Lupron investigators inquiring whether their Lupron trials followed NIH 
and OSHA guidelines in use of protective gear for healthworkers 
administering Lupron, and these questions were responded to by several 
NIH investigators--however, the replies do not answer the question as 
to whether NIH Lupron clinical trials follow NIH guidelines (personal 
communications). More than thirty years after the debacle of DES, the 
CDC (in 2003) began a campaign to inform people about the potential 
health effects of DES (www.cdc.gov/DES). The CDC's annual report of 
fertility clinic data has been questioned in the past, and issues 
regarding its reliability have again been raised, pointing out its 
``lack of reliable information'', citing data that is up to 3 years 
old, and clinic success rates that are ``too easy to fudge'' (Report, 
2002).
    In one aspect of my `fertility treatment nightmare', the dates and 
details of an office visit were deliberately altered in the computer 
through collusion and deliberative machinations by several of the 
defendants in my case--and my HMO had steadfastly denied that I had 
ever received treatment or prescriptions on that date (Millican v. 
Harvard Community Health Plan, Boston IVF, Natalie Schultz M.D., Brian 
Walsh M.D., Mahmood Niaraki M.D., Selwyn Oskowitz M.D., Michael Alper 
M.D.; see also Donahue, 1996). Given the ease with which my computer 
record data was deleted and altered, along with numerous other 
experiences, as well as the known fraudulent Lupron data, and recent 
newsreports on fraudulent research elsewhere, ``data'' coming from 
self-interested parties should always be viewed as potentially 
unreliable, to say the least.
    A few more comments from Gena Corea's supportive statement for my 
lawsuit are pertinent here: ``After discussing the death of a woman in 
the IVF program in a Seville clinic with Dr. Francesca Martinez of the 
IVF program at Instituto Dexeus in Barcelona, Spain, I said to her: If 
it's so difficult for you, who are practicing IVF, to find information 
on women who died of IVF, how can you say what the risks of IVF are? 
She replied that she and her colleagues knew what happened in their own 
center and they had many cases--2,000. So she is telling potential IVF 
candidates what the risks of IVF are based on her own clinic's 
experience. This is a pitiful situation.'' And Gena concludes by saying 
``I don't know what will happen with Ms. Millican's complaint. What 
often occurs in such situations is that women, with only their own 
limited financial resources, without even an attorney, doing the labor 
themselves when they come home tired from their jobs, seek justice. Few 
can do it. Few can break silence on the abuse to which they have been 
subjected. But it is vital to talk back, to insist one's reality into 
the fictional never-never land of miracle babies and ecstatic, unharmed 
mothers. I applaud [those women] for speaking [t]he[i]r truth.''
    The answers do not lie in continued exposure to Lupron, which would 
definitely occur should the Senate pass any bill allowing therapeutic 
cloning research. Does Lupron sound like the kind of drug you want to 
give to young healthy women who are `offering' to donate eggs? Does 
Lupron sound like the kind of drug you would want to take for any 
benign condition, without informed consent? It appears that the 
majority of women whose eggs are harvested used Lupron. How many women 
know Lupron has never been approved for fertility? How many women know 
the facts and the tragedies mentioned in these pages? If millions of 
women are needed to meet the demand for research `material', what will 
these women be told? My advice to them is--instead of asking questions 
to the Industry  . . . read the Congressional Record.
13. A Request To Congress Asking For An Investigation Into Lupron and 
        ART
    In closing, the data in this paper barely scratches the surface of 
problems associated with Lupron and ART, and Committee Members should 
know that there are unknowns and redflags beyond those described in 
this submission. Time limits did not prevent further detail or 
elaboration, and wish to add that any references or further information 
are available upon request.
    For all of the above stated reasons, I would respectfully urge the 
Committee to ban reproductive and therapeutic cloning.
    And I would like to also respectfully urge the Committee and 
Congress to undertake a formal investigation into Lupron and its 
victims, as well as investigating the long and short term safety of ART 
drugs and procedures on women and offspring.
    Respectfully submitted.
                              References:
    Aboulgar H, Aboulghar M, Mansour R, Serour G, Amin Y, Al-Inany H. 
2001. A Prospective Controlled Study of Karyotyping for 430 Consecutive 
Babies Conceived Through Intracytoplasmic Sperm Injection. Fertility 
and Steriliy, 76:249.
    ACT. Duncan Holly Biomedical and Advanced Cell Technology. Consent 
to Participate in a Study Involving Egg Donation for Stem Cell 
Research. Undated.
    Ad: TAP Lupron Depot Advertisement. i.e.; September 1992. Remote 
Control. Fertility and Sterility, 58(3).
    Agnew B. August 25, 2000. Financial Conflicts Get More Scrutiny in 
Clinical Trials. Science.
    AHFS. American Hospital Formulary Service. AHFS Drug Information 
1999. ASHP Technical Assistance Bulletin on Handling Cytotoxic and 
Hazardous Drugs. p.1030/1.
    Akaboshi S, Takeshita K. September 2000. A case of a typical 
absence seizure induced by leuprolide acetate. Pediatric Neurology, 
23(3):266.
    Anteby I, Cohen E, Anteby E, BenEzra D. October 2001. Ocular 
Manifestations in Children Born After In Vitro Fertilization. Archives 
of Ophthalmology, 119:1525.
    Arnot, Bob Dr. December 18, 2000. The miracle of life. MSNBC.COM. 
Accessed 2000; no longer accessible.
    Ashkenazi J, Goldman JA, Dicker D, Feldberg D, Goldman G. April 
1990. Adverse neurological symptoms after gonadotropin-releasing 
hormone analog therapy for in vitro fertilization cycles. Fertility and 
Sterility, 53(4):738.
    ASRM Press Release. October 14, 2002. Highlights from ASRM 2002: 
Studies Show Children of ART Develop Normally, citing Neri Q. et. al--
Abstract P-406. http://www.asrm.org/Media/Press/kidsareallright.html. 
Accessed 10/17/02.
    Assignees: Hardy RI, Golan DE, Biggers JD. Patent 5,541,081. 
Assignee, President and Fellows of Harvard College, Brigham & Women's 
Hospital, Inc. Process for assessing oocyte and embryo quality. Filed 
March 22, 1994, Granted July 30, 1996.
    Barbieri R, Yeh J, Ravnikar VA. August 1991. Letter. GnRH agonists 
and ovarian hyperstimulation. Fertility and Sterility, 56(2):376.
    Barrett D. November 12, 2000. `Dyno Gyno' Retrial Set In Med-Bill 
`Doctoring'. New York Post.
    Barrett D. January 10, 2001. `Dyno Gyno' Convicted of Billing 
Fraud. New York Post.
    Barret D. March 24, 2001. Dyno Gyno' Jailed As Flight Risk. New 
York Post.
    Barritt JA, Brenner CA, Malter HE, Cohen J. March 2001. 
Mitochondria in human offspring derived from ooplasmic transplantation: 
Brief communication. Human Reproduction, 16(3):513.
    BBC News Online. March 7, 2002. http://news.bbc.co.uk/2/low/health/
1860492.stm. Accessed 11/23/02.
    Ben-Chetrit A, Jurisicova A, Casper RF. March 1996. Coculture with 
ovarian cancer cell enhances human blastocyst formation in vitro. 
Fertility and Sterility, 65(3):664.
    Birth Defects: Birth Defects Research for Children. July 2001. 
Milestone Fertility Therapy May Have Fatal Flaw. http://
www.birthdefects.org/archives/News_jul01.htm. Accessed 4/13/03.
    Bischof P, Herrmann WL. 1988. Absence of Immunoreactive Luteinizing 
Hormone following Gonadotropin--Releasing Hormone Agonist Therapy in 
Women with Endometriosis. Gynecologic Obstetric Investigation,25:130.
    Blankstein J, Quigley MM. April 1988. The anovulatory patient. An 
orderly approach to evaluation and treatment. Postgraduate Medicine, 
83(5):97.
    Bradford, Kimberly: http://www.geocities.com/lupronfacts/
lupronstories.html
    Briggs GG, Freeman RK, Yaffee SS. Drugs in Pregnancy and Lactation, 
4th Ed. Williams and Wilkins, Baltimore. 1994. p. 481/1.
    Burke WH, Attia YA. 1994. Molting single comb white leghorns with 
the use of the Lupron depot formulation of leuprolide acetate. Poultry 
Science, 73:1226.
    Buvat-Laborie: In Buvat J and Bringer J (eds), 1986, Induction et 
Stimulation de L'Ovulation: Progres en gynecologie I, Paris. ``The 
sentence[] quoted here [is] in Chapter 4, by B. Hedon et al. As cited 
by Laborie F. 1988. New Reproductive Technologies: News from France and 
Elsewhere. Reproductive and Genetic Engineering, 1(1):77.
    Cauchon D. September 25, 2000. FDA Advisers Tied to Industry/Number 
of drug experts available is limited. USA Today.
    CBER, FDA: Information and Recommendations for Physicians Involved 
in the Co-Culture of Human Embryos with NonHuman Animal Cells. March 8, 
2002. http://www.fda.gov/cber/infosheets/humembclin.htm.
    Challender D, Littwin S. December 1995. Fertility Fraud: Why One 
Mother May Never Know Her Babies. Redbook. p.84.
    Chat. February 11, 2002. Popular Science Infertility Chat on 
America Online. Transcript: http://www.popsci.com/popsci/medicine/
article/0,12543,429819,00.html. Accessed 3/11/03.
    Check JH, Wu CH, Check ML. March 1988. The effect of leuprolide 
acetate in aiding induction of ovulation in hypergonadotropic 
hypogonadism: a case report. Fertility and Sterility, 49(3):542.
    Chetkowski RJ, Kruse LR, Nass TE. August 1989. Improvized pregnancy 
outcome with the addition of leuprolide acetate to gonadotropins for in 
vitro fertilization. Fertility and Sterility, 52(2):250.
    Church S. September 18, 2002. Doctor pleads guilty in scam 
involving AstraZeneca drug. Local News from TheNewsJournal. Accessed 
10/11/02. http://www.delawareonline.com/newsjournal/local/2002/02/18pm-
astra.html.
    Comite F, Delman M, Hutchinson-Williams K, DeCherney AH, Jensen P. 
1989. Reduced Bone Mass in Reproductive-Aged Women With Endometriosis. 
Journal of Clinical Endocrinology and Metabolism, 69(4):837.
    Compston JE, Yamaguchi K, Croucher PI, Garrahan NJ, Lindsay PC, 
Shaw RW. February 1995. The Effects of Gonadotropin-Releasing Hormone 
Agonists on Iliac Crest Cancellous Bone Structure in Women With 
Endometriosis. Bone, 16(2):261.
    Conn PM, Crowley WF Jr. 1994. Gonadotropin-releasing hormone and 
its analogs. Annual Review of Medicine, 45:391.
    Corea G. The Mother Machine: Reproductive Technologies from 
Artificial Insemination to Artificial Wombs. Harper and Row. 1985.
    Corea G, Ince S. 1987. Report of a survey of IVF clinics in the 
U.S. In Patricia Spallone and Deborah Lynn Steinberg (eds). Made To 
Order: The Myth of Reproductive and Genetic Progress. Pergamon Press. 
Oxford.
    Data, 2001: Medscape, Women's Health. Managing Uterine Fibroids, by 
M. Davidson. http://womenshealth.medscape.com/41240.rhtml?srcmp=wh-
080301. Clinician Reviews, 11(6):79-85. http://www.medscape.com/CPG/
ClinReviews/2001/v11.n06/c1106.04.davi/c1106.04.davi-01.html. Accessed 
8/4/01. Both sites no longer accessible.
    Dateline. January 2, 2000. ``The Painful Truth?''. NBC News 
Dateline. Transcript by Burrelle's, Box 7, Livingston, N.J. 07039. 
Number 1048.
    deHaen International Inc. Drug Information Systems & Services. 
1985. deHaen's Drug Product Index USA--Section III. New Drug Analysis. 
Europe and Japan. p.16.
    Demario MA, Moomjy M, Tortoriello D, Moy F, Davis OK, Rosenwaks Z. 
December 1997. Delay of gonadotropin stimulation in patients receiving 
gonadotropin-releasing hormone agonist (GnRH-a) therapy permits 
increase clinic efficiency and may enhance in vitro fertilization (IVF) 
pregnancy rates. Fertility and Sterility, 68(6):1004.
    DeSutter P, Dhont M, Vandekerckhove D. 1992. Hormonal Stimulation 
for in Vitro Fertilization: A Comparison of Fertilization Rates and 
Cytogenetic Findings in Unfertilized Oocytes. Journal of Assisted 
Reproduction and Genetics, 9(3):254.
    Dezell, M. April 15, 1994. Uncertain miracle. Boston Phoenix. p.20.
    Dochi T, Lees B, Sidhu M, Stevenson JC. 1994. Bone density and 
endometriosis. Fertility and Sterility, 61(1):175.
    Dodson WC, Walmer DK, Hughes CL, Yancy SE, Haney AF. 1991. 
Adjunctive leuprolide therapy does not improve cycle fecundity in 
controlled ovarian hyperstimulation and intrauterine insemination of 
subfertile women. Obstetrical Gynecology, 78(2):187.
    Donahue: The Phil Donahue Show. ``Watch Out! Private Information 
May Not Be Private''. Air date August 8, 1996. Panelists: Senator 
Patrick Leahy (via satellite), Lynne Millican, Ram Avrahami, Stephen 
Shaw, Evan Hendricks, Connie Hetling, Daniel (a Skip Tracer). Record 
date December 12, 1995.
    Droesch K, Barbieri RL. July 1994. Ovarian hyperstimulation 
syndrome associated with the use of the gonadotropin-releasing hormone 
agonist leuprolide acetate. Fertility and Sterility, 62(1):189.
    Droesch K, Muasher SJ, Brzyski RG, Jones GS, Simonetti S, Liu HC, 
Rosenwaks Z. February 1989. Value of suppression with a gonadotropin-
releasing hormone agonist prior to gonadotropin stimulation for in 
vitro fertilization. Fertility and Sterility, 51(2):292.
    Ellis, GB. 1995. Fertility and Sterility, 64(6):1063.
    Enge, M. February 10, 2000. Couple offers $100,000 for egg donor: 
Infertile pair's solicitation may be the highest price yet. The Denver 
Post. http://platforum.tripod.com/eggmoney.htm. Accessed 3/25/03.
    ERC. March 2000. ``ERC and Amgen Praecis Present `ERC MARCH 2000 
Petition For A Cure'''.
    Ericson A, Kallen B. March 2001. Congenital malformations in 
infants born after IVF: a population-based study. Human Reproduction, 
16(3):504.
    FDA Notice of Adverse Findings sent to TAP President by Acting 
Director of the FDA on March 21, 1990 (5 pages).
    FDA, 2002: March-April 2002. FDA Consumer Magazine. Letters: 
Correction to November-December 2001 FDA Consumer. See http://
www.fda.gov/fdac/features/2001/601_tech.html; and: www.fda.gov/fdac/
departs/2002/202--ltrs.html. Both accessed 9/8/02.
    FDC Reports. December 5, 1988. TAP Lupron: U.S. Sales Expected to 
Double in 1988; Gynecological Indications Planned for Future Expand 
LHRH Analog's Market Potential to $100 Million Level. p.4.
    FDC Reports. April 2, 1990. Takeda-Abbott Lupron Promotions Will 
Have To Be Precleared By FDA Under Letter Of Adverse Finding; Agency 
Chides Firm For Promoting Unapproved Uses. The Pink Sheet, 52(14):11.
    FDC Reports. July 4, 1994. Gonadotropin Releasing Hormone Low Dose 
Steroids Not Appropriate for Study in Breast Cancer High Risks. The 
Pink Sheet; 56(27):13.
    Fertilitext: Understanding Fertility Medication. http://
www.fertilitext.org/p3_pharmacy/medication.html. Accessed 4/7/03.
    Federal Register, May 1, 1996. Findings of Scientific Misconduct. 
Vol 61(85):19295-6.
    Fischel, Jackson. September 1989. Follicular stimulation and 
ovarian cancer. British Medical Journal.
    Forman RG, Frydman R, Egan D, Ross C, Barlow DH. March 1990. Severe 
ovarian hyperstimulation syndrome using agonists of gonadotropin-
releasing hormone for in vitro fertilization: a European series and a 
proposal for prevention. Fertility and Sterility, 53(3):502.
    Foundation. http://www.reproduction.org/foundation/
development.html. Accessed 2002.
    FOX News: FOX 25 TV News. May 24, 1999. Risk or Remedy. Dedham, MA. 
Reporter, Tory Ryden. See also Risk or Remedy, Part 2; November 29, 
1999.
    Fraunfelder FT, Edwards R. March 8, 1995. Letters. Possible Ocular 
Adverse Effects Associated With Leuprolide Injections. Journal of 
American Medical Association, 273(10):773.
    Friedman AJ, Lobel SM, Rein MS, Barbieri RL. October 190. Efficacy 
and safety considerations in women with uterine leiomyomas treated with 
gonadotropin-releasing hormone agonists: The estrogen threshhold 
hypothesis. American Journal of Obstetrics and Gynecology, 163:1114.
    Friedman AJ, Juneau-Norcross M, Rein MS. February 1993. Adverse 
effects of leuprolide acetate depot treatment. Fertility and Sterility, 
59(2):448.
    Friedman JM, Polifka JE (Eds). Teratogenic Effects of drugs: A 
Resource for Clinicians. Johns Hopkins University Press, Baltimore, 
1994. p.333.
    FTC. (1) In the Matter of IVF Australia, Ltd, IVF Australia, NY, 
and IVF Australia, MA (Docket No. C-3319) [IVF Australia subsequently 
changed names to `IVF America'], (2) In the Matter of NME Hospitals, 
dba West Boca Medical Center (Docket no. C-3317), (3) In the Matter of 
Fertility Institute of Western Massachusetts and Ronald K. Burke 
(Docket No. C-3318), (4) In the Matter of Reproductive Genetics In 
Vitro and George P. Henry (Docket No. C-3357).
    Gabriel T. January 7, 1996. Eggs and Egos: Cornell Staff Clashed 
Over Issue of Safety. The New York Times.
    Gocze PM, Freeman DA, Arany A, Garadnay B. May 22, 1993. Letter. 
Lancet, 341:1346.
    Golub MS, Styne DM, Wheeler MD, Keen CL, Hendrick AG, Moran F, 
Gershwin ME. October 1997. Growth retardation in premenarchial female 
rhesus monkeys during chronic administration of GnRH agonist 
(leuprolide acetate). Journal Med Primatology, 26(5):248.
    Gordon K, Hodgen GD. 1991. GnRH Analogues in Ovarian Stimulation. 
In Frontiers in Human Reproduction, Eds Seppala M, Hamberger L. Annals 
of New York Academy of Sciences, 626;238.
    Green HJ, Pakenham KI, Headley BC, Yaxley J, Nicol DL, Mactaggart 
PN, Swanson C, Watson RB, Gardiner RA. September 2002. Altered 
cognitive function in men treated for prostate cancer with luteinizing-
releasing hormone analogues and cyproterone acetate: a randomized 
controlled trial. BJU International, 90(4):427.
    Greenberg B, Michalska M. November 1999. Systemic lupron 
erythematosus. Postgraduate Medicine, 106(6):213.
    Gueriguian JL, Schaffenburg CA, Chiu, Berliner. 1984. Trends in 
Drug Development with Special Reference to the Testing of LHRH 
Analogues: LHRH and its Analogues. Elsevier Science Publishers. p.507-
16.
    Guerrero HE, Stein P, Asch RH, de Fried EP, Tesone M. April 1993. 
Effect of a gonadotropin-releasing hormone agonist on luteinizing 
hormone receptors and steroidogenesis in ovarian cells. Fertility and 
Sterility, 59(4):803.
    Hamilton, JO'C. November/December 2001. Egg Donors. What are the 
Costs? http://www.stanfordalumni.org/news/magazine/2000/novdec/
articles/eggdonor.html. Accessed 2/14/03.
    Hammitt DG, Syrop CH, Van Voorhis BJ, Walker DL, Miller TM, Barud 
KM. February 1993. Maturational asynchrony between oocyte cumulus-
coronal morphology and nuclear maturity in gonadotropin-releasing 
hormone agonist stimulations. Fertility and Sterility, 59(2):375.
    Hampton HL, Whitworth NS, Cowan BD. 1991. Gonadotropin-releasing 
hormone agonist (leuprolide acetate) induced ovarian hyperstimulation 
syndrome in a woman undergoing intermittent hemodialysis. Fertility and 
Sterility, 55:429.
    Hatano T, Oishi Y, Furuta A, Iwamuro S, Tashiro K. 2000. BJU 
Internation, 86:449.
    Hawkes N. July 8, 2000. Scientists `pillaging foreign embryos'. The 
Times, Britain. http://www.the-times.co.uk/news/pages/tim/2000/07/08/
timnwsnws01005.html. Accessed 2000.
    Health: Anonymous. February 8, 2002. Brain Worry Over IVF Children. 
BBC News. http://news.bbc.co.uk/hi/english/health/newsid--1807000/
1807351.stm. Accessed 7/1/02.
    Hearing before the Subcommittee on Regulation, Business 
Opportunities, and Energy of the Committee on Small Business, House of 
Representatives, 101st Congress, First Session, March 9, 1980. 
Publication Serial No. 101-5.
    Hearn, JP. Patent #6,110,741. Gonadotropin releasor hormone-
containing composition for embryo culture and method for in vitro 
fertilization. August 29, 2000.
    Hill A. May 20, 2001. Horror at `three parent foetus' gene 
disorders. The Observer, United Kingdom. http://www.observer.co.uk/
international/story/0,6903,493303,00.html. Accessed 5/01.
    Holmes, HB. September 1988. In Vitro Fertilization: Reflections on 
the State of the Art. Birth,15(3):134.
    Horton R. May 19, 2001. Commentary: Lotronex and the FDA: a fatal 
erosion of integrity. The Lancet, 357:1544.
    Hotz, RL. Designs on Life. Pocket Books, New York. 1991. p.67.
    Hotz, RL. October 27, 1991. A Risky Fertility Revolution: Drugs may 
bear long-term danger for moms, babies. Atlanta Constitution, p.1.
    Institute: The Institute for Reproductive Medicine and Science of 
Saint Barnabas. http://www.sbivf.com/science/art_serv_cyto.htm. 
Accessed 4/13/03.
    Johns WD, Garnick MB, Kaplan WD. July 1990. Leuprolide therapy for 
prostate cancer. An association with scintigraphic ``flare'' on bone 
scan. Clinical Nuclear Medicine, 15(7):485.
    Jordan, A. March 1, 1984. FDA Review and Evaluation of Pharmacology 
and Toxicology Data. NDA 19-010.
    Journal, 1995. Supplement. Journal of Assisted Reproduction and 
Genetics, 12(3):123S-143S.
    Julie's After Lupron Page. Delphi Forums.
    http://forums.delphiforums.com/afterlupron/
    Kaiser Network Daily Reproductive Health Report. October 23, 2002. 
United Kingdom to Study Health, Birth Defects Among People Born as a 
Result of Fertility Treatment. http://www.kaisernetwork.org/daily--
rep--index.cfm?DR=14197. Accessed 11/23/02.
    Kang IS, Kuehl TJ, Siler-Khodr TM. November 1989. Effect of 
treatment with gonadotropin-releasing hormone analogues on pregnancy 
outcome in the baboon. Fertility and Sterility, 52(5):846.
    Karande VC, Rinehart JS, Pratt DE, Gleicher N. 1996. Abstract P-34. 
Is the inadvertent administration of leuprolide acetate in early human 
pregnancy truly associated with normal outcomes? Fertility and 
Sterility, Supplement, p. A27.
    Kasayama S, Miyake S, Samejima Y. December 2000. Transient 
thyrotoxicosis and hypothyroidism following administration of the GnRH 
agonist leuprolide acetate. Endocr J, 47(6):783.
    Keenan D, Cohen J, Suzman M, Wright G, Kort H, Massey J. April 
1991. Stimulation cycles suppressed with gonadotropin-releasing hormone 
analog yield accelerated embryos. Fertility and Sterility, 55(4):792.
    Kemmann E. March 21, 1989. Letter from Department of Obstetrics & 
Gynecology to Rep. Ron Wyden. Hearing before the Subcommittee on 
Regulation, Business Opportunities, and Energy of the Committee on 
Small Business, House of Representatives, 101st Congress, First 
Session, March 9, 1980. Publication Serial No. 101-5, p. 850-2.
    Kennedy, Senator Edward: FOX 25 News Interview. November 24, 1999. 
Dedham, MA. Reporter Tory Ryden.
    Kola I. September 1988. Commentary: Embryo and Fetal Abnormalities 
in IVF. Birth, 15(3):145.
    Kong D. August 4, 1996. The painful quest for fertility. Costs, 
Effects of Treatment Questioned. Boston Globe, p. 1. (Part two 
published 8/5/96).
    Kong D. August 4, 1996. The painful quest for fertility. What Price 
Pregnancy? Consumer Advocates Question Donations. Boston Sunday Globe, 
p. 35.
    Kong D. April 7, 1999. Convictions Missing From Doctor Profiles: 
Medical Board Calls Omissions `A Glitch'. Boston Globe. p. B1.
    Kuha v. Andrew J. Friedman M.D., Brigham and Women's Hospital. 
Superior Court, Suffolk County, MA. Docket No. 97-3725.
    Lahat E, Raziel A, Friedler S, Schieber-Kazir M, Ron-El R. October 
1999. Long-term follow-up of children born after inadvertent 
administration of a gonadotrophin-releasing hormone agonist in early 
pregnancy. Human Reproduction, 14(10):2656. See also Human 
Reproduction, 15(6):1412.
    Lasalandra M. March 18, 1995. Bill proposed to regulate fertility 
clinics. Boston Herald. p.11.
    Lasalandra M. June 2, 1998. Noted doc loses license for falsifying 
med data. Boston Herald.
    Lasalandra M (2). June 9, 1998. Feds to better monitor human tests. 
Boston Herald.
    Lawrence LD, Rosenwaks Z. February 1993. Implications of the 
Fertility Clinic Success Rate and Certification Act of 1992. Fertility 
and Sterility, 59(2):288.
    Lazar, K. August 22, 1999. Wonder Drug For Men Alleged To Cause 
Harm In Women. Boston Herald. http://www.bostonherald.com/bostonherald/
nat/drug08221999.htm. Accessed 4/4/00.
    Lazar, K. August 23, 1999. Women Seek Answers On Drug's Suspected 
Side Effects. Boston Herald. http://www.bostonherald.com/bostonherald/
nat/drug08231999.htm. Accessed 4/4/00.
    Lazar, K. August 24, 1999. Women Outraged Over Drug's Ill Effects. 
Boston Herald. See: http://www.bostonherald.com/bostonherald/nat/
drug08231999.htm. Accessed 4/4/00.
    Lemonick MD, Goldstein A. April 22, 2002. Human Guinea Pigs: At 
Your Own Risk. Time.
    Lessor R, Cervantes N, O'Connor N, Balmaceda J, Asch RH. January 
1993. An analysis of social and psychological characteristics of women 
volunteering to become oocyte donors. Fertility and Sterility, 
59(1):65.
    Letter. March 8, 2002. From Director, Office of Therapeutics 
Research and Review, Center for Biologics Evaluation and Research, FDA, 
to `Dear Colleague'. 
http://www.fda.gov/cber/ltr/humemb.pdf. Accessed 3/11/02.
    Lewit N, Manor D, Itskovitz-Eldor. 1995. Supplement, Abstract OC-
55: Prevention of ovarian hyperstimulation syndrome in high risk 
patients by using GnRH agonist for the induction of LH surge. Journal 
of Assisted Reproduction and Genetics, 12(3):40S.
    Lim LH, Lee WD, Lee HK, Kim SK, Yoon SH, Yoon HG. 1995. A program 
of IVF-ET without hormone monitoring: simple, effective and economic. 
Abstract PP-115. Journal of Assisted Reproduction and Genetics, 12(3); 
Supplement.
    Maeda H, Arai Y, Aoki Y, Okubo K, Okada T, Ueda Y. August 1998. 
Leuprolide Causes Pure Red Cell Aplasia. The Journal of Urology, 
160:501.
    Martin MC, Givens CR, Schriock ED, Glass RH, Dandekar PV. June 
1994. The choice of a gonadotropin-releasing hormone analog influences 
outcome of an in vitro fertilization treatment. American Journal of 
Obstetrics and Gynecology, 170(6):1629.
    Mathias JR, Clench MH. June 1995. Placebo Controlled Study 
Randomizing Leuprolide Acetate. Digestive Diseases and Sciences, 
40(6):1405.
    McCoy MJ. 1994. Angina and myocardial infarction with use of 
leuprolide acetate. American Journal of Obstetrics and Gynecology, 
171:275.
    Meldrum DR, Wisot A, Hamilton F, Gutlay AL, Huynh D, Kempton W. 
September 1988. Timing of initiation and dose schedule of leuprolide 
influence the time course of ovarian suppression. Fertility and 
Sterility, 50(2):400.
    Members. Fertility Drugs. Webmaster: Seth G. Derman, M.D. 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="52143720263b3e1f1612131d1e7c111d1f7c">[email&#160;protected]</a> http://members.aol.com/fertilmd/drugs.html. Accessed 
4/7/03.
    Mercola. http://www.mercola.com/2002/feb/9/lupron.htm. Accessed 2/
10/02.
    Mercola. Mercola.com. February 20, 2002. Most Doctors Who Set 
Guidelines Have Industry Ties, citing Journal of American Medical 
Association, 287:612. http://www.mercola.com/2002/feb/20/
doctor_guidelines.htm. Accessed 5/25/02.
    Mesia AF, Gahr D, Wild M, Mittal K, Demopoulos RI. May 1997. 
Immunohistochemistry of vascular changes in leuprolide acetate-treated 
leiomyomas. American Journal of Obstetrics and Gynecology, 176:1026.
    Mestel, R. January 24, 2003. Some Studies See Ills for In Vitro 
Children. Los Angeles Times. http://www.ourstolenfuture.org/Commentary/
News/2003/2003-0124LAT-invitrorisks.htm. Accessed 3/11/03.
    Miller JD. 1990. Leuprolide Acetate for the Treatment of 
Endometriosis. Current Concepts in Endometriosis: 337.
    Millican (1), L; Judy Norsigian; Representative Gregory Sullivan. 
August 31, 1992. Letters to Editor. Supporters of infertility treatment 
regulation speak out. The Patriot Ledger.
    Millican, L. Testimony in Support of An Act Relative to the 
Treatment of Infertility, MA. Health Care Committee, MA. House of 
Representatives. Presented March 9, 1992.
    Millican (2), L. November 6, 1992. Letters. Fertility regulation 
long overdue. Boston Herald. p. 26.
    Millican, L. Testimony in Support of An Act Relative to the 
Treatment of Infertility, MA. House #1833. Health Care Committee, MA. 
House of Representatives. Presented March 28, 1995.
    Millican (2), L. February 21, 1995. Letters. Fertility drugs can 
cause harm. Boston Herald, p. 26.
    Millican, L. June 15, 1998. Letters. Taking doc's license only the 
first step. Boston Herald, p. 22.
    Minaretzis D, Alper MM, Oskowitz SP, Lobel SM, Mortola JF, Pavlou 
SN. May 1995. Gonadotropin-releasing hormone antagonist versus agonist 
administration in women undergoing controlled ovarian hyperstimulation: 
cycle performance and in vitro steroidogenesis of granulosa-lutein 
cells. American Journal of Obstetrics and Gynecology, 172(5):1518.
    Mishra R. August 24, 2001. Clinic To Give Embryos To Harvard For 
Stem Cell Research. Boston Globe. p.1.
    Mitchell AA. March 7, 2002. Editorial: Infertility Treatment--More 
Risks and Challenges. The New England Journal of Medicine, 346(10):769.
    Moll AC, Imhof SM, Cruysberg JRM, Schouten-Van Meeteren AYN, Boers 
M, Van Leeuwen FL. January 25, 2003. Incidence of retinoblastoma in 
children born after in-vitro fertilisation. The Lancet, 361(9354):309.
    Morsi A, Jamal S, Silverberg JDH. 1996. Case Report: Pituitary 
apoplexy after leuprolide administration for carcinoma of the prostate. 
Clinical Endocrinology, 44:121.
    MRI. Medical Research International, Society for Assisted 
Reproductive Technology, The American Fertility Society. January 1992. 
In vitro fertilization-embryo transfer (IVF-ET) in the United States: 
1990 results from the IVF-ET Registry. Fertility and Sterility, 
57(1):15.
    MSNBC News website. http://www.msnbc.com/news/161044.asp. Accessed 
2002.
    Munne S, Cohen J, Alikani M, Rosenwaks Z, Grifo J. 1995. 
Supplement. Abstract OC-248. First healthy delivery after 
preimplantation genetic diagnosis of aneuploidy. Journal of Assisted 
Reproduction and Genetics, 12(3):88S.
    Nader S, Berkowitz AS, Winkel CA. February 1988. Ovarian response 
to human menopausal gonadotropin after therapy with the gonadotropin-
releasing horomone agonist leuprolide. American Journal of Obstetrics 
and Gynecology, 158:403.
    NDA 19-010. New Drug Application 19-010: Summary Basis of Approval. 
Lupron 1 mg daily SC for palliative treatment of advanced prostate 
cancer. Approved 1985.
    NDA 20-011. New Drug Application 20-011: Summary Basis of Approval. 
Lupron Depot 3.5 mg IM per month for pain management in endometriosis. 
Approved October 1990.
    Neal, J. June 8, 2002. Fraudulent Conduct That Takes Lives: Why 
Criminal Prosecution Of Medical Researchers With Financial Conflicts, 
Who Fabricate Safety Data, Has Become An Essential Component Of 
Regaining The Integrity Of Device And Drug Research In The United 
States. Part One. Redflagsweekly. http://www.redflagsweekly.com/
new_frontiers/2002_june08P.html. Accessed 6/8/02
    Newton C, Slota D, Yuzpe AA, Tummon IS. June 1996. Memory 
complaints associated with the use of gonadotropin-releasing hormone 
agonists: a preliminary study. Fertility and Sterility, 65(6):1253.
    Nezhat C, Pennington E, Nezhat F, Silfen S. 1991. Laparoscopically 
Assisted Anterior Rectal Wall Resection and Reanastemosis for deeply 
infiltrating endometriosis. Surgical Laparoscopy and Endocscopy, 
1(2):106.
    Nezhat F, Nezhat C, Pennington E, Ambroze W. 1992. Laparoscopic 
Segmental Resection for infiltrating endometriosis of the rectosigmoid 
colon: a preliminary report. Surgical Laparoscopy and Endoscopy, 
2(3):212.
    Ng ST, Wu TC. Jan-Feb 1995. Use of gonadotropin-releasing hormone 
agonist following follicular aspiration in donor ooctye program--impact 
on subsequent menstruations. Int J Fertil Menopausal Stud, 40(1):29.
    NICHHD. Reports submitted by Medical Research International, in 
performance of the Contract ``Health Surveillance of Women Treated for 
Infertility by In Vitro Fertilizaiton'' (N01-HD-8-2910): Ovarian Cancer 
and Ovulatory Stimulants: Issues in Study Design, December 30, 1992; 
Adverse Effects of Ovulatory Stimulants, January 4, 1993; Reproductive 
Health Study: Characteristics of the Study Population, February 26, 
1993; Reproductive Health Study: Short-Term Adverse Events, April 16, 
1993; Final Report, August 3, 1993.
    NIH/OSHA: NIH page for hazardous drugs was available to the public 
in the past, but currently is available only to NIH employees. OSHA 
provides the same list: http://www.osha.gov/dts/osta/otm/otm_vi/
otm_vi_2.html#app_vi:2_1
    NIH Human Embryo Research Panel Hearings. February 2, 1994, April 
12, 1994. Bethesda, MD.
    Oldenburg, D. November 18, 1999. Sperm Banks Online: Going Too Far? 
The Washington Post. 
http://platform.tripod.com/eggmoney.htm. Accessed 3/25/03.
    Olshan, AF, Smith J, Cook MN, Grufferman S, Pollock BH, Stram DO, 
Seeger RC, Look AT, Cohn SL, Castleberry RP, Bondy ML. 1999. Hormone 
and Fertility Drug Use and the Risk of Neuroblastoma: A Report from the 
Children's Cancer Group and the Pediatric Oncology Group. American 
Journal of Epidemiology, 150(9):930.
    Operations. ERC Staff: http://www.endocenter.org. ERC Staff/
AstraZeneca: http://www.va4hire.com/g/guidone.html. Accessed 1/03.
    Oversight Hearings (A & B)--
    A: Chairman Bliley's letter to TAP:
    http://com-notes.house.gov/cchear/hearings106.nsf/
8eaabcee30ee07ee852566f900700f0d/
6f5b04a11873189e852568db0056da45?OpenDocument
    B: TAP--The Total Package:
    http://com.notes.house.gov/oversight/7.pdf
    http://com.notes.house.gov/oversight/8.pdf
    Padawer, R. 2002. Soaring egg donation prices causing ethical 
concerns. www.bergen.com/cgi-bin/page.pl?id=5105001. Accessed 10/8/02.
    Penzias AS, Lee G, DeCherney AH, Jones EE. 1992. Supplement. 
Abstract P-214. Aberrant Estradiol Flare Despite GnRH-Agonist Induced 
Suppression is Associated With Impaired Implantations. Fertility and 
Sterility:S170.
    Penzias AS, Lee G, Seifer DB, Shamma FN, DeCherney AH, Reindollar 
RH, Jones EE. March 1994. Aberrant estradiol flare despite 
gonadotropin-releasing hormone-agonist-induced suppression is 
associated with impaired implantation. Fertility and Sterility, 
61(3):558.
    Pharmafocus. February 3, 2002. AstraZeneca sets aside $350m in 
fraud case. Pharmafocus; InPharm.com. Accessed 4/11/03.http://
www.inpharm.com/External/InpH/1,,1-4-5675-0-inp_intelligence_news_0-
36647,00.html.
    Pitchmen. Boston Globe Editorial. November 11, 17, 2002. Pitchmen 
for drugs. Boston Globe, p. D10.
    Press Release, University of CA. Board of Regents' Meeting, 
November 16, 1995. Remarks of the Chancellor. http://www.uci.edu/fc/
regents/1116.html.
    Racowsky C, Prather AL, Johnson MK, Olvera SP, Gelety TJ. May 1997. 
Prematurely condensed chromosomes and meiotic abnormalities in 
unfertilized human oocytes after ovarian stimulation with and without 
gonadotropin-releasing hormone agonist. Fertility and Sterility, 
67(5):932.
    Radner H, Pummer K, Lax S, Wandschneider G, Gofler H. 1991. 
Pituitary hyperplasia after goserelin (LHRH-analogue) therapy. 
Neuropathology and Applied Neuropathology, 17:75.
    Ragavan, Vanaja, M.D., F.D.A. Review of the new drug application 
for nafarelin acetate. Fertility and Maternal Health Committee. Hearing 
4/28/89. Transcript, p.47.
    Raheja KL, Jordan A. 1994. FDA Recommendations for Preclinical 
Testing of Gonadotropin Releasing Hormone (GnRH) Analgoues. Regulatory 
Toxicology and Pharmacology, 19:168.
    Rao LV, Cleveland RP, Ataya KM. 1993. Alterations in thymic and 
bone marrow lymphocte subpopulations in GnRH agonist treated 
prepubertal female mice. Journal of Reproductive Immunology, 25:167.
    Rao LV, Cleveland RP, Ataya KM. 1993. GnRH Agonist Induces 
Suppression of Lymphocyte Subpopulations in Secondary Lymphoid Tissues 
of Prepubertal Female Mice. American Journal of Reproductive 
Immunology, 30:15.
    Raymond JG. Women as Wombs. Reproductive Technologies And The 
Battle Over Women's Freedom. 1993. Harper, San Francisco; p.9.
    Redwine D. 1994. Letters. Pros and Cons of ``Add-Back'' Therapy. 
Fertility and Sterility, 61:2:404.
    Regents of the University of California v. Ricardo Asch, Sergio 
Stone, Jose Balmaceda. Case No. 747155. http://www.ocregister.com/
clinic/external/0525suit.htm. Accessed 4/18/01.
    Regush, Nicholas. Redflagsdaily.com: Online Lupron Investigation. 
http://www.redflagsweekly.com/lupron.html.
    Report, 1994. Anonymous. March 30, 1994. Report No. 42: Opinion on 
the evolution of practices concerning medically assisted procreation. 
Current research in reproductive technologies. http://www.ccne-
ethique.org/english/avis/a_042p02.htm. Accessed 9/9/01.
    Report, 2002. Kaisernetwork, citing Dockser Marcus, Wall Street 
Journal, December 11, 2002. Kaiser Daily Reproductive Health Report: 
CDC Fertility Facility Report Criticized As Inaccurate, Unreliable. 
December 11, 2002. http://www.kaisernetwork.org/daily_reports/
rep_index.cfm?DR--ID=15038. Accessed 12/11/02.
    Rogers L, Lauria J. August 19, 2001. Lawyer in fresh fight to clone 
dead baby son. The Sunday Times. World News: United States. http://
wwwsunday-times.co.uk/news/pages/sti/2001/08/19/stifgnusa03002.html. 
Accessed 4/18/01.
    Ruhlmann C, Chillik CF, Brugo Olmedo S, Nicholson RE, Rolla E, 
Kuperman MN, Nicholson RF. 1993. Abstract P-021. Leuprolide Acetate in 
a Long Protocol of Ovarian Hyperstimulation for ART: Depot Preparation 
Versus Daily Administration. Fertility and Sterility. Supplement, S90.
    Saunders DM, Lancaster P. April 1989. The Wider Perinatal 
Significance of the Australian In Vitro Fertilization Data Collection 
Program. American Journal of Perinatology, 6(2):252.
    Sasy M, Abuzeid M, Rizk B. 1997. Abstract. Exposure to 
Gonadotrophin Releasing Hormone Agonist in Early Pregnancy is 
Associated With High Pregnancy Wastage That Could be Related to the 
Length of Exposure. Fertility and Sterility, Supplement. Accessed 
online 1998, (abstract 19970188.htm).
    Schenker JG, Ezra Y. March 1994. Complications of assisted 
reproductive techniques. Fertility and Sterility, 61(3):411.
    Schieve LA, Meikle SF, Ferre C, Peterson HB, Jeng G, Wilcox LS. 
March 7, 2002. Low and very low birth weight in infants conceived with 
use of assisted reproductive technology. New England Journal of 
Medicine, 346(10):731.
    Schoolcraft W, Sinton E, Schlenker T, Huynh D, Hamilton F, Medlrum 
DR. March 1991. Lower pregnancy rate with premature luteinization 
during pituitary suppression with leuprolide acetate. Fertility and 
Sterility, 56(3):563.
    Scorecard: http://www.scorecard.org/chemical-profiles/
summary.tcl?edf_substance_id=74381%2d53-2d6
    Segal S, Casper RF. June 1992. Gonadotropin-releasing hormone 
agonist versus human chorionic gonadotropin for triggering follicular 
maturatio in vitro fertilization. Fertility and Sterility, 57(6):1254.
    Seiffert, D. March 3, 2000. Are Fertility Drugs Safe? Boston TAB. 
p. 8.
    Serafini P, Batzofin J, Kerin J, Marrs R. August 1988. Pregnancy: a 
risk to initiation of leuprolide acetate during the luteal phase before 
controlled ovarian hyperstimulation. Fertility and Sterility, 
50(2):371.
    Shanis B, Summers D, Check JH, O'Shaughnesy A, Nazari A. 1995. 
Supplement. Abstract PP-126. An Ultra-Short Use of Leuprolide Acetate 
Works As Well As Longer Use To Prevent Premature Luteinization 
Following controlled Ovarian Hyperstimulation. Journal of Assisted 
Reproduction and Genetics, 12(3):154S.
    Shephard TH. Ed. Catalogue of Teratogenic Agents, 7th Edition. 
Johns Hopkins University Press, Baltimore. 1992. p. 233.
    Silver RI, Rodriguez R, Chang TSK, Gearhart JP. June 1999. In vitro 
fertilization is associated with an increased risk of hypospadias. The 
Journal of Urology, 161(6):1954.
    Sinaii N, Cleary SD, Ballweg ML, Nieman LK, Stratton P. October 
2002. High rates of autoimmune and endocrine disorders, fibromyalgia, 
chronic fatigue syndrome and atopic diseases among women with 
endometriosis: a survey analysis. Human Reproduction, 17(10):2715.
    Skloot RL. February 22, 2003. The Other Baby Experiment. New York 
Times.
http://www.ourstolenfuture.org/Commentary/News/2003/2003-0222-NYT-
fertilityrisks.htm. Accessed 3/11/03.
    Skloot R, March 2003. Sally has 2 Mommies and 1 Daddy. Popular 
Science.
http://www.popsci.com/popsci/medicine/article/0,12543,411770,00.html. 
Accessed 3/11/03.
    Source. The citation for this source is unavailable--from memory, I 
believe that the published figure of 91 eggs per one woman was the 
maximum range given within an abstract published in a fertility 
journal, and found approximately prior to the year 1996.
    St. Barnabas IVF. Egg Donation: A Step By Step Guide for the 
Donor'.http://www.eggdonation.org/Donor/EggDonationInformation.htm. 
Accessed 2002, 4/15/03.
    St. Clair Stephenson PA. The risks associated with ovulation 
induction. Iatrogenics, 1:7.
    Stolberg SG. April 25, 2001. Scientists Often Mum About Ties To 
Industry. New York Times. p.17.
    Sungurtekin U, Jansen RPS. March 1995. Profound luteinizing hormone 
suppression after stopping the gonadotropin-releasing hormone-agonist 
leuprolide acetate. Fertility and Sterility, 63(3):663.
    Surrogate: Surrogates' Corner. Darlene. July 28, 2000. Lupron 
crazy! http://www.surrogacy.com/boards/surrogates.html. Accessed 4/9/
03.
    Sutcliffe A, Bonduelle M, Taylor BW. October 31, 2002. Letter. 
Major birth defects after assisted reproduction. New England Journal of 
Medicine, 347(18):1449.
    Talan J. September 25, 1990. The `Test-Tube' Option; In-Vitro 
Fertilization has given the world 10,000 babies, but it works for only 
1 in 10 couples. Newsday. p.11.
    Tanbo T, Dale PO, Lunde O, Moe N, Abyholm T. August 1995. Obstetric 
Outcome in Singleton Pregnancies After Assisted Reproduction. 
Obstetrics & Gynecology, 86(2):188.
    Thompson IM, Zeidman EJ, Rodriguez FR. December 1990. Sudden death 
due to disease flare with luteinizing hormone-releasing hormone agonist 
therapy for carcinoma of the prostate. Journal of Urology, 144(6):1479.
    T.J. Hooper, 60 F.(2d)737 (1932).
    Trock BJ, Wood HM. March 18, 2003. In Vitro Fertilization May Be 
Linked To Bladder Defects. Press Release, Johns Hopkins Medical 
Institutions. http://www.hopkinsmedicine.org/press/2003/March/
030318A.htm. Accessed 4/3/03.
    Unger PD, Wang Q, Gordon RE, Stock R, Stone N. December 1997. 
Localized amyloidosis of the Seminal Vesicle: Possible Association With 
Hormonally Treated Prostatic Adenocarcinoma. Archives of Pathology and 
Laboratory Medicine, 121:1265.
    United States of America, ex rel. Joseph Gerstein and Tufts 
Associated Health Maintenance Organization, Inc., Plaintiffs v. TAP 
Holdings, Inc. And TAP Pharmaceuticals, Inc., Defendants. Civil Action 
No. 98 CV10547GAO. U.S. District Court for the Eastern District of MA. 
March 26, 1998.
    USA Today. May 8, 1992. Today's Debate--Infertility Clinics. See: 
http://www.mit.edu/afs/net.mit.edu/user/tytso/usenet/usa-today/issues/
72. Accessed 4/10/03.
    Van Leusdan HA. December 1994. The flush revisited. European 
Journal of Obstetrical Gynecology and Reproductive Biology, 57(3):137.
    Varney NR, Syrop C, Kubu CS, Struchen M, Hahn S, Franzen K. 1993. 
Neuropsychologic Dysfunction in Women Following Leuprolide Acetate 
Induction of Hypoestrogenism. Journal of Assisted Reproduction and 
Genetics, 10(1):53.
    Veiga A, Torello MJ, Menezo Y, Busquets A, Sarrias O, Coroleu B, 
Barri PN. December 1999. Use of co-culture of human embryos on Vero 
cells to improve clinical implantation rate. Human Reproduction, 14. 
Supplement; 2:112.
    Weiss R. February 9, 1998. Fertility Innovation or Exploitation? 
Washington Post, p. A1.
    Weiss R. May 18, 2001. Pioneering Fertility Technique Resulted in 
Abnormal Fetuses. Washington Post. p. A3. Accessed 4/3/03:http://
www.washingtonpost.com/ac2/wp-dyn/A42037-2001May17?language=printer.
    Weissman A, Barash A, Shapiro H, Casper RF. 1998. Ovarian 
hyperstimulation following the sole administration of agonistic 
analogues of gonadotrophin releasing hormone. Human Reproduction, 
13(12):3421.
    WHDH. July 1989: ``Expecting a Miracle'', WHDH News, Channel 7, 
Boston, MA. Reporter, Hank Phillipi Ryan.
    Wierman ME, Bruder JM, Kepa JK. February 1995. Regulation of 
gonadotropin-releasing hormone (GnRH) gene expression in hypothalamic 
neuronal cells. Cellular Molecular Neurobiology, 15(1):79.
    Winston RM, Hardy K. 2002. Are we ignoring potential dangers of in 
vitro fertilization and related treatments? Nat Cell Biol, Supplement: 
s14.
    Wood HM, Trock BJ, Gearhart JP. April 2003. In Vitro Fertilization 
and the Cloacal-Bladder Exstrophy-Epispadias Complex: Is there an 
Association? The Journal of Urology, 169(4):1512.
    Yeh J, Barbieri RL, Ravnikar VA, 1989. Ovarian hyperstimulation 
associated with the sole use of leuprolide for ovarian suppression. 
Journal of In Vitro Fertilization and Embryo Transfer, 6:261.
    Yoshimura Y, Nakamura Y, Yamada H, Nanno T, Ubukata Y, Ando M, 
Suzuki M. January 1991. Gonadotropin-releasing hormone agonists induce 
meitic maturation and degeneration of oocytes in the in vitro perfused 
rabbit ovary. Fertility and Sterility, 55(1):177.
    Yoshimura Y, Nakamura Y, Ando M, Shiokawa S, Koyama N, Nanno T. May 
1992. Direct effect of gonadotropin-releasing hormoone agonists on the 
rabbit ovarian follicle. Fertility and Sterility, 57(5):1091.
    Zawin M, McCarthy S, Scoutt L, Lange R, Lavy G, Vulte J, Comite F. 
May 1990. Monitoring Therapy with a Gonadotropin-releasing Hormone 
Analog: Utility of MR Imaging. Radiology, 175(2):503.
    For further reading on pharmaceutical puppet groups, see New York 
Times `Drug Industry Has Ties to Groups With Many Different Voices', 
10/5/00.

    Senator Brownback. Well, thank you for making it in and for 
coming here to give your personal testimony and also the 
statements of other people who have contacted you.
    You mentioned the National Lupron Victims Network on the 
Internet----
    Ms. Millican. Yes.
    Senator Brownback.--and that a number of suits have been 
filed against Lupron.
    Ms. Millican. Yes, they have.
    Senator Brownback. And those are being settled? Have any of 
them been tried yet? Do you know?
    Ms. Millican. To my knowledge, none have been tried, no.
    Senator Brownback. Okay.
    Ms. Millican. They are all settled.
    Senator Brownback. Mr. Kimbrell, this hearing is primarily 
about the issue of egg donation and an egg market and its 
impact on women. And as I have heard you speak over the years 
on this topic, that has been an area that your group has been 
as focused on as anybody in the starting of a new bio-
industrialization. Have you done any studies, do you know of 
any economists who have looked at any studies, as to what price 
would need to be paid to get a million qualified women to be 
able to donate eggs? Do you know of anybody who has looked at 
that and the numbers associated with it?
    Mr. Kimbrell. You know, it is hard to say. And let me 
just--I have this in the record, but I will show it here. We 
talked about this earlier. I thought it might be good to have 
an example right in front of us. We got this last month from 
the Stanford Daily. This is an ad that was put in the 
newspaper, the Stanford Daily. It says, ``Special egg donor 
needed''--let's see here--``height approximately 5'9'' or 
taller, Caucasian, SAT score around 1250 or high ACT, college 
student or graduate, under 30, athletic, no genetic medical 
issues, compensation $80,000.''
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Brownback. Wow.
    Mr. Kimbrell. ``Extra compensation available for someone 
who might be especially gifted in athletics, science, 
mathematics, or music.''
    So it is pretty hard, Senator, to really see what, you 
know, the price will be or will not be, but I will tell you, 
for whoever is tempted by these ads, and we know they are 
always targeted, as was surrogate motherhood, always targeted 
to poor women. You know, wealthy women do not sell their 
reproductive heritage. They do not sell their bodies. They do 
not sell their eggs. These are poor women. These are basically 
turning the poor women of this country and around the world 
into ``mother machines.''
    So what amount would actually be required, perhaps in an 
economy that is not that good, to encourage these women? I do 
not know. But I do wish that a part of the informed consent of 
these women will be to listen to Ms. Millican and what has 
happened to her. I think we should make that legislatively part 
of consent, because I think a great many women have come into 
this--and we interviewed numbers of them, both in the surrogate 
motherhood when we wrote our book and in reports on this and 
the egg donation, and they had no idea. They thought they were 
trying to do a good thing for somebody else, they desperately 
needed the money, and the screening that was talked about 
before is minimal, at best, and the real reason they are there, 
quite often, is because they are in desperate need of money, 
and so informed consent virtually never happens. And so I think 
that, again, a requirement that they hear the kind of health 
effects that they could suffer would be key.
    Senator Brownback. When you were doing the Organ Donor 
Bill, I was taken by your statement about no payments for the 
donations allowed, and it strikes me that that has worked just 
fine--I mean, that people continue to donate organs and they do 
not seek the compensation for it.
    Mr. Kimbrell. That is right. And then, of course, any of us 
who--and I hope all of us do--give blood know that that works 
just fine, too. It is an extraordinarily important thing we can 
all do.
    Yes, when we first passed that bill, Senator, there was a 
lot of discussion about black market organs in this country and 
that it would not work, and it has worked very, very well, 
indeed.
    And I think that, again, the important point here when 
we're looking at 303 is that second provision that says ``time 
and inconvenience.'' A number of States have that same 
provision, and they do not prevent ads like this. It is a 
loophole. ``Inconvenience,'' as George Annas, in the quote that 
I cited before, means virtually nothing. It means that you can 
pay anything you want for, ``inconvenience.''
    I certainly second Mr. Doerflinger's point that it is also 
hard to calculate, when you hear what Ms. Millican was saying 
and you know the cancer risks involved, exactly how far you 
take that term, ``inconvenience.''
    But, yes, I think it is very instructive to compare this 
with NOTA, the Organ Transplant Act, and note how this bill has 
been purposely changed to allow for this loophole.
    Senator Brownback. Ms. Charo, you have served on the 
National Bioethics Board previously, is that correct?
    Ms. Charo. That is correct.
    Senator Brownback. I am sure this has to be troubling to 
you about bidding for women's eggs. Was that issue handled by 
the National Bioethics Board when you were serving on it, and 
did it take a position against the compensation of women for 
the donation of eggs?
    Ms. Charo. First, before I answer, if I may, I would like 
to also indicate I did have a longer statement and ask that it 
be put in the record, if I may.
    Senator Brownback. Without objection.
    Ms. Charo. And one other quick clarification. With respect, 
I think Mr. Doerflinger lacks the anatomy that every woman in 
the room has to know that it is really not possible to transfer 
embryos into yourself.
    [Laughter.]
    Ms. Charo. But putting that aside--and I say that with 
respect and affection, because Richard and I have dealt with 
each other.
    With response to your question about egg donation, 
specifically, the National Bioethics Advisory Commission, which 
did do a report on stem cell policy--a report from which I 
recused myself due to the possible appearance of a conflict of 
interest, as I was at the University of Wisconsin--did not 
touch directly on the question of sale of human eggs. However, 
I would note that in many cases what we have been hearing today 
are descriptions of a market that takes place in the context of 
eggs being sought for reproductive purposes. That is, 
somebody--we do not know who--has the misguided belief that SAT 
scores are inheritable and, therefore, is offering a high price 
to somebody who they think could transmit that SAT score to an 
offspring. That is not the kind of incentive structure that 
would exist if you are looking for people to donate or provide 
eggs in other ways for a research context in which the eggs are 
not going to be used for reproductive purposes and there is no 
expectation of a long-term outcome, only be used for stem 
cells.
    Second, the American Society for Reproductive Medicine has 
set a $5,000 limit on what is expected to be a notion of 
``reasonable compensation,'' a notion that is also reflected--
--
    Senator Brownback. Is that----
    Ms. Charo.--in the National----
    Senator Brownback. Excuse me. Is that a hard limit? And 
that does not carry the weight of law, does it?
    Ms. Charo. It does not carry the weight of law. This is a 
professional society guideline----
    Senator Brownback. Just a recommendation.
    Ms. Charo.--as I understand it. And I will happily stand 
corrected by those who know it more precisely. But these 
guidelines have----
    Senator Brownback. I am sorry. If I could, I want to be----
    Ms. Charo. Sure.
    Senator Brownback.--clear on this. That is a recommendation 
of that group that the compensation not be above $5,000?
    Ms. Charo. That is correct. That is----
    Senator Brownback. Okay.
    Ms. Charo.--correct. And----
    Senator Brownback. Can I get to the very specific point? 
Because I really want to get--and then I will give you time----
    Ms. Charo. Sure.
    Senator Brownback.--to answer the rest of this. But have 
you seen any studies, anybody calibrate, saying if we want to 
get simply a million women to donate eggs--say, we are three, 
five years down the road, this has come along great, we want to 
do this for diabetes, for ALS or something, but we want to get 
a million women to donate eggs--what is the market? What are we 
going to have to pay to get--as I understand from the testimony 
earlier, you are going to probably have to go through 10 
million women to find 1 million who would be qualified if you 
have got this ten to one ratio.
    Ms. Charo. Well, actually----
    Senator Brownback. And you are going to have to----
    Ms. Charo. Right.
    Senator Brownback. I mean, there is going to have to be a 
pretty heavy recruitment, I think, if--the experience under 
anybody's scenario is a pretty difficult one to go through 
this, for a woman to go through it. Have you seen any numbers 
on this?
    Ms. Charo. There are no numbers, because the scenario is 
not realistic. I think the premise is the problem, Senator 
Brownback. I do not share the premise. And I think this is what 
Dr. Bustillo was trying to get at, as well.
    The way this research will proceed, first on the 
therapeutic arm and on the purely research laboratory study 
arm, is that it starts very small, with very small numbers of 
people under close control by the Food and Drug Administration, 
in which they are looking at the animal data, whether it's 
ready for laboratory work with human materials, and you start 
with very small numbers of people. And as you continue to do 
the work and slowly scale up as you perfect your techniques, 
you are simultaneously developing methods by which you no 
longer need as many eggs for the next stage, per procedure, as 
you did in the first stages of research.
    So the scenario of using millions of women----
    Senator Brownback. Then you paint----
    Ms. Charo.--at an early stage for all diseases, I do not 
think is realistic vision.
    Senator Brownback. Then you paint for me--we have got a 
hundred million people with these diseases we are going to cure 
with the cloning----
    Ms. Charo. No, I do not think a hundred million people are 
going to be the patient population for therapeutic cloning, 
either.
    Senator Brownback. What is the----
    Ms. Charo. This would be one----
    Senator Brownback. What is the patient population going to 
be?
    Ms. Charo. No, it is the patient population people with the 
diseases, but for each----
    Senator Brownback. Okay, well, what is it----
    Ms. Charo.--person, there are----
    Senator Brownback.--going to be? Please----
    Ms. Charo. There are many----
    Senator Brownback.--come up with the number, if you can, or 
a round figure for me, if you can. What is the patient 
population going to be?
    Ms. Charo. We do not know that yet, because the research is 
just beginning. The point is, for every disease, whether it is 
heart disease or Parkinson's, there are multiple therapies. It 
is not one therapy that is used for every person. Different 
things work in different people, and therapeutic cloning may 
work for some subset of that patient population.
    I do not think I have ever heard any responsible doctor or 
scientist suggest that this therapy will be used for every 
patient----
    Senator Brownback. Well, why----
    Ms. Charo.--with every one of these diseases, and that's 
another reason why the numbers----
    Senator Brownback.--do they keep saying, then----
    Ms. Charo.--can become misleadingly large.
    Senator Brownback.--we are going to--we have got all these 
cures for--and then they list a litany of diseases that are 
going to be cured by therapeutic cloning, the same list that 
was put forward in the fetal tissue debate that we are going to 
cure with that, the same list that was put forward in embryonic 
stem cell. I mean, at some point in time there has to be some 
coming up with, ''Here is the product of what we have done.''
    Ms. Charo. Oh, but I think it is unfair, with research 
aspects of human cloning, to ask for an actual approved, FDA-
reviewed and -approved, therapy to emerge within five years.
    When Jamie Thompson said what he did about Parkinson's at 
that hearing, what he was talking about was, ``When would we be 
able to move into clinical trials for Parkinson's disease?'' 
And he predicted five to ten years out. It is now five years 
out, as you correctly note.
    Senator Brownback. And there is no----
    Ms. Charo. And we are now at----
    Senator Brownback.--limitation on therapeutic cloning to 
date, is there?
    Ms. Charo. We are now at the stage at which we have 
successfully seen human embryonic stem cells--and, remember, he 
was not talking about cloning them; he was talking about stem 
cells from extra IVF embryos--so we have now seen those stem 
cells successfully differentiated into neurological tissue. And 
the next step is to see whether or not that tissue can be 
developed to the appropriate stage for transplant into a 
patient. That requires lab work, animal work, and, eventually, 
human trials. We still have another five years on his 
prediction to see if we can get that next stage of the work 
done to the point where the FDA would permit that work to go 
on.
    The FDA, remember, keeps a very tight lid on all of this. 
It requires licensing of establishments that do this kind of 
research. It has an extremely tight tracking and monitoring 
system so it can track viral transmissions as well as 
everything else in its comprehensive tissue action plan, and it 
has comprehensive donor suitability requirements. That is, it 
has already issued Federal regulations--proposed, interim, and 
finalized--that cover every aspect of this but keep it moving 
slowly and responsibly.
    Senator Brownback. I want to ask Mr. Doerflinger or Mr. 
Kimbrell about this issue. I think both of you were around 
Washington when the fetal tissue debate started going, and I 
believe fetal tissue was stated that it was going to cure a 
myriad of diseases at that time. And these are actually even 
cells that were further developed; they are less primitive than 
the embryonic, the therapeutic embryonic.
    These are a couple of quotes from New York Times of some 
extensive studies on fetal tissue impact in Parkinson's 
patients, which were, ``Disastrous side effects. Absolutely 
devastating. It was tragic. Catastrophic. It's a real 
nightmare, and we can't selectively turn it off,'' because the 
cells were, as I understand, uncontrollable. Instead of making 
brain cells, they make various different tissues or tumors.
    Were people saying, at this same time, we were going to do 
with fetal tissue what is being proposed with therapeutic 
cloning?
    Mr. Kimbrell. Yes, Senator. I was working with then-Senator 
Humphrey and Senator Kennedy to try and get adequate regulation 
at that time on fetal tissue research.
    To step back just a second, though, just so we can get some 
clarity on a prior issue, I would note that 18 months ago, 
Michael West, of Advanced Cell Technology, at a Senate hearing, 
predicted that within six months, his company would be ready to 
create stem cells from cloned human embryos that would save 
3,000 lives a day. And he warned that for those--and, Senator, 
you may be one of these that was suggesting a six month 
moratorium on this--that that would cause the loss of perhaps 
as many as a half million lives.
    So I did want to just clear the record that these claims 
have been made, and, at that time, Senator Harkin said, ``Thank 
you. Now at least we have some--I am quoting--real numbers.'' 
So these claims have been made, and I just wanted to clear that 
piece of it up.
    And yes, indeed, I think one of the things we have to be 
very careful with here that I have seen in 15 years of working 
on these issues, and this includes fetal tissue research and 
somatic gene therapy research, is hype over healing. Quite 
often, what we have seen is, with a lot of hype, some early 
investment capital, and some sometimes overly ambitious 
researchers, the real victims have been those who are suffering 
from these diseases.
    And this happened with fetal tissue. The claims were 
extraordinary. We were talking about claims, at that time, or 
the researchers were, of a hundred million lives being saved by 
fetal tissue research. They pushed it through, despite the best 
efforts of many in this body. We were not able to get adequate 
regulation. We were not able to impose a moratorium. And you 
see what has happened. Approximately 15 to 20 percent of all 
patients that have been given these fetal tissue for 
Parkinson's have uncontrolled motion 24 hours a day. They 
cannot feed. They cannot speak properly. And that has led to 
this front page New York Times story saying, ``My God, what 
have we done?'' Many of these researchers are now saying we 
should never have done it.
    So, again, before we jump into these predictions such as 
the one that Dr. West made at a prior Senate hearing, we need 
to realize that the real victims, quite often, of this hype 
over healing turn out to be those who are suffering from those 
diseases, themselves, and I think that it is the responsibility 
of this body and every legislative body to look out after their 
interests and realize that those interests are not always being 
served by those who are pushing these technologies.
    Senator Brownback. Good. I want to thank--Mr. Doerflinger, 
yes, do you have a statement?
    Mr. Doerflinger. I wanted to say something about that 
issue, too. The fetal tissue did have very mixed and often 
devastating effects. I think what the federally funded research 
showed was that there seemed to be some benefits only in 
younger patients with Parkinson's. None of the patients over 60 
years old were really helped. And I think about 15 percent had 
these devastating side effects that made them worse.
    There was one study in the Journal of Neurology, May of 
1996, that may be an even more disturbing sign of what we may 
face with embryonic cells. That was the story of a man who went 
to China for his fetal tissue transplant for Parkinson's. He 
was dissatisfied with the slow pace of progress in this 
country. They seem to have implanted in him some cells that 
were somewhat earlier in gestational age than the usual eight 
weeks. What happened to him was that he seemed to get some 
benefit from it, but within a year he had mysteriously died. 
And on autopsy, what they found was that bone and skin and hair 
tissue had proliferated in the middle of his brain and filled 
up the ventricles of his brain and killed him, cut off his 
breathing reflex among other things.
    So having failed with fetal tissue, it does not seem 
logical to me to say, ``What we need is earlier cells, 
embryonic stem cells,'' that now, in animal trials, are proving 
to have a very disturbing tendency, when tried for Parkinson's, 
when tried for spinal cord injury in rats, for example, when 
tried in knee repair in mice--one of the studies quoted in my 
testimony--have the very disturbing tendency to form tumors, 
and even, in one of the rat experiments, to simply kill 20 
percent of the rats in the study.
    We are finding, at this point, almost an obsession with 
this as the Holy Grail for medical cures. And it is really 
tending to divert people away from things that are far less 
morally controversial that are far, far closer to actually 
helping human patients.
    There was almost no news in most news sources about the 
first clinical trial of a patient with Parkinson's disease 
using his own adult neural stem cells. But that man, three 
years later, has 83 percent reversal of his symptoms in a study 
by Dr. Michel Levesque, and they are trying for broader 
clinical trials and approval from the FDA for that.
    There are so many things moving forward that do not require 
having to worry about lethal tumor formation, having to worry 
about harvesting women's eggs, having to worry about 
overproliferation and uncontrolled growth in patients' bodies, 
that it is becoming increasingly clear this whole agenda of 
therapeutic cloning--in which as Mr. Kimbrell noted, they still 
have not managed to make a single cloned human embryo that 
survived long enough to get any embryonic stem cell--is 
becoming an enormous digression away from medical progress that 
we could otherwise have.
    Mr. Kimbrell. Mr. Chairman, just one quick note on that. 
Since I am here representing Friends of the Earth and 
Greenpeace and other environmental groups, let me note that as 
of this morning's E-mail, I saw a peer-reviewed study that 
associates Parkinson's with early exposure to pesticides. I 
would suggest that it might be reducing our exposure to 
pesticides might be a far better place to start than trying to 
harvest fetal tissue.
    Senator Brownback. Well, you are all very kind to come 
forward and to testify. Ms. Millican, in particular, I am 
appreciative of you fighting through your difficulties to be 
here today. We do all want to find cures, and we want to do it 
as best we possibly can for everybody who is involved.
    The record will stay open for the requisite number of days. 
I do appreciate all the witnesses for coming here.
    The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

     Prepared Statement of Hon. Ron Wyden, U.S. Senator from Oregon
    Chairman Brownback, in any new field of research, it is important 
to oversee closely the clinical practices of researchers to assure that 
abuses do not occur. We have done this in the past with in vitro 
fertilization, and I think we can do it in the future to produce 
vitally important therapeutic nuclear transfer treatments safely.
    In 1992, when in vitro fertilization was a relatively new 
technology, I authored the Fertility Clinic Success Rate and 
Certification Act. This remains the only federal legislation regulating 
these clinics. My legislation provided women and their families the 
information that they needed to make educated choices about embryo 
clinics by requiring the publication of clinic success rates. In 
addition, individuals can now also learn who accredits the clinic they 
are considering. All this information is available on the U.S. Centers 
for Disease and Control website and the information is updated 
annually. My legislation also called for the creation of a state model 
regulatory program for certification of embryo laboratories. This was 
accomplished in 1999, when the U.S. Department of Health and Human 
Services published a state model regulatory program. Combining consumer 
information, the state model regulatory program and the guidelines that 
this medical field had developed for itself, I think IVF has been a 
clear success story for the treatment of women.
    We can continue this kind of successful oversight in therapeutic 
nuclear transfer research and its applications to the treatment of 
disease and injuries. As I stated clearly in this Subcommittee's 
January 29th hearing, I support the strong ethics requirements--which 
would be enforced by the Department of Health and Human Services--
contained in the bipartisan legislation ``The Human Cloning Ban and 
Stem Cell Research Protection Act of 2003,'' S. 303. These provisions 
require informed consent, prohibit the purchase or sale of an egg cell, 
and apply all of the existing federal ethical research standards to 
nuclear transfer treatments. Tough penalties give this law teeth, but 
do not stand in the way of the many medical advances that can be made 
through nuclear transfer.
    It is important to remember that this research will help women. 
Nuclear transfer technology is crucial to treating diseases which 
affect women disproportionately or exclusively. By increasing our 
understanding of how cells predisposed toward diseases like ovarian 
cancer develop, we can learn how to fight these diseases. Promising 
treatments for osteoporosis, arthritis, and autoimmune diseases could 
be supplied by replacing damaged tissues with cells grown through 
nuclear transfer. Women would directly benefit from such advances, and 
would be helped as well as the primary care givers for those who suffer 
from chronic diseases.
    I hope we can work together to protect women's health at the same 
time that we allow for careful progress in nuclear transfer research.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Frank Lautenberg to 
                         Richard M. Doerflinger
    Question. If the egg could be manipulated so that it could not 
implant and therefore would not have the potential to become a child, 
would you still oppose any research or therapeutic cloning?
    Answer. First, a clarification: No mere egg can implant in a womb. 
If we are discussing the new embryo created by human cloning, which is 
no longer simply an egg, then in our view that embryo deserves respect 
as a new developing member of the human species--a human life with 
potential, not only a potential life. The cloned human deserves that 
respect because he or she is already a human life here and now, not 
only because of what he or she may become in the future.

    An embryo with no ability to implant in the mother's womb will not 
survive very long. Nor will a newborn infant who has no ability to 
ingest his or her mother's milk or other nutrients. But we would not 
say of the infant that he or she is less than human due to the lack of 
potential to become an adult, and we should not say of the embryo that 
he or she is less than human due to the lack of potential to survive 
long enough to be born. In either case, deliberately manipulating these 
humans in order to deprive them of these abilities needed for survival 
would be gravely immoral in itself. So my answer to the question is in 
the affirmative.
    There may, in fact, be ways to modify the nuclear transfer 
procedure so that it produces stem cells without ever producing a 
living human organism (that is, an embryo) in the first place. The 
Brownback/Landrieu cloning ban (S. 245), which we support, explicitly 
allows for this, and bans only the use of the somatic cell nuclear 
transfer procedure to create a human embryo. But an embryo that has 
been unethically manipulated to be short-lived is still a human embryo.
                                 ______
                                 
       Prepared Statement of Kimberly Bradford, Orlando, Florida
    My name is Kimberly Bradford, I'm 34, the mother of one 7 year old 
son and have been very ill for the past 10 years due to the use of 
Lupron for Endometriosis. When we are younger, in our late teens, in 
high school and college we start thinking, dreaming about what our life 
is going to be like. We start setting goals. All of mine were cut 
short. Lupron robbed me of the good health I once had. It stole my 
ability to participate in most physical activities. It took my ability 
to think clearly and make rational decisions. At times it took my 
ability to move at all and left me paralyzed.
    I am very grateful for the one child I was able to have . . .I had 
some VERY good surgeons who made that possible. I had several 
operations that led to my ability to bear my one and only child.
    I lost my first child. I got pregnant four months after my last 
Lupron shot. I thought enough time had passed, I was wrong. The toxin 
was not gone, considering how sick I was I should have known but all I 
could see what the need to have a child. This is the same need that 
MANY women have when they undergo infertility treatment and agree to 
use Lupron, even though it is NOT approve for such use. How Lupron 
became used for this I can't imagine. It's toxin is so sickening. I 
know they use Lupron for superovulation, a procedure that Puts women's 
lives in jeopardy. The use of Lupron to gain eggs for stem cell 
research is wrong! The same diseases that they are trying to cure, 
Lupron is causing!
    It is risking the health of the women who innocently volunteer for 
this, not to mention possible passing on a toxin contained in the egg 
itself.
My Whole Story:
    My diagnosis of Endo came in October of 92, but my ordeal started 
when I was 11. Like most of us I had the usual, painful period then 
painful ovulation. My period kept getting longer and longer despite 
being on birth control pills at age 16. I complained to my GYN for 
years about the pain, but it was not until I had a class II pap 
(Dyplasia) that she finally listened. She wanted to do a biopsy and 
laser my cervix so she agreed to do a Lap at the same time. I was 24 at 
the time of my lap. I worked in the same hospital as my doctor so she 
knew me by name. She was also my mothers doctor. Needless to say I 
trusted her. I think she agreed to do the lap to try and prove me 
wrong. I had been doing research on my pain and knew I had Endo. Well, 
I had it. It was covering my bladder. This explained why I always 
thought I had a bladder infection or UTI only to have the tests come 
back negative. It also explained why Sex hurt so much. She told my 
parents afterwards that she didn't remove any, she told us it was 
inoperable and wanted to put me on a drug called Lupron. I had to watch 
a video prior to getting an injection. It was made by TAP holdings, the 
pharmaceutical CO that makes Lupron. In the video was this very perky 
women spewing the benefits of Lupron and how you can find relief for up 
to a WHOLE YEAR. A year sounded like a long time then. . . . Little did 
I know. The only info I could find on Lupron was mostly for men with 
Prostate cancer. It was listed in the PDR but that doesn't really give 
you an idea on how ``real'' people react. I gave up my search and took 
the drug. I mean after all I trusted my doctor. I was told about the 
pseudo-menopause symptoms, hot flashes and such. She also told me to 
drink milk, but not to worry about it too much because of my age.
    I started complaining right after my first injection. The hot 
flashes were horrible. My poor mother felt so sorry for me she stopped 
taking her hormones so we could ``flash'' together. It was winter so at 
least we could just go outside and melt snow. But this was fun compared 
to the rest. . . . I started bruising really bad, like just from 
wearing shoes. No one could even touch me without an imprint of their 
finger or hand showing up on my skin. I called the doctor, the one I 
trusted, and was told ``don't go horseback riding'' She said it as if 
it was part of my daily routine.
    I felt like I was in a ``fog.'' I couldn't think. Decision's like 
what color sweater to wear became a major ordeal. When I looked in the 
mirror I always expected to see someone else. I felt 80. Everything 
hurt, like someone drained my blood and replaced it with acid.
    The shots were given by one of the nurses in her office. When I 
received my records in the mail a few months ago the notes were filled 
with stuff like ``Kim is very excited planning her wedding,'' NO 
complaints, nothing medical! Nothing I said was documented. I did 
complain!! About headaches, insomnia, joint pain, pain at the injection 
site for days, I was told that none of these things could be caused by 
Lupron and not to worry about them. I was left believing that I just 
had an overactive imagination. My doctor did only one exam during those 
6 months and it was really bad! I wanted to kick her in the face. I 
told her it hurt and she said ``what about sex?'' Was she kidding? I 
couldn't stand the Q-tip never mind actually having sex. She said 
``everything looks great, you're going to be just fine.'' I was so 
naive. I wanted so badly to believe her. I tried to put it out of my 
mind, after all I had a wedding to plan. All my energy went to that and 
just trying to get thorough a week of work without missing too much 
time. I got married on June 5, 1993, one month after my last injection. 
400 invited guests, family, friends, members of his family I had not 
met yet . . .they all witnessed my total emotional breakdown. It was 
REALLY awful! I can't even bear to watch the video as all you see is my 
head bobbing as I cried, I should have bought stock in Kleenex. I must 
have gone through 4 boxes during the service. I could not even say my 
vows because I was crying so hard. My husband thought I wanted out. I 
did but only to put an end to the embarrassment. We could not kiss 
because I had to blow my nose, as if no one would notice. Somehow we 
got through the night. Next came the honeymoon and a week of 
unbelievable pain. I kept quiet, I was supposed to be OK, this was just 
in my head. . . .
    When we got back we moved from Maryland to Virginia, about 3 hrs 
away. By August I couldn't stand the pain anymore. I finally broke down 
and told my husband everything. I told him he could leave me if he 
wanted. I was not the same person he thought he had married and I was 
not sure if I would ever be the same. The pain was getting worse, not 
better as the doctor had promised. I called her, desperate for answers. 
Her reply ``there is nothing more I can do for you, find another 
doctor.'' I was devastated, but I needed help so I searched for a new 
doctor. I finally found one who specialized in high risk pregnancy and 
GYN disorders.
    She met with my husband and I for over an hour. She had lots of 
questions. The biggest being ``why was the Endo not removed''? Good 
Question!!! I was told it was inoperable. This was the beginning of an 
eye opening experience. I finally realized that my doctor of nine years 
had deceived me. Anyway, the new doctor wanted to do another lap. I had 
it in October 93. Almost exactly a year from the first one. Despite my 
old doctors promises of Lupron helping me, it actually made it worse!!! 
It had gone from just my bladder to my bladder, cul de sac, ovaries, 
and tubes. Basically there was a little bit everywhere and I would not 
have been able to have children without her intervention. She removed 
all she could and did a LUNA as well but could not get to as much of 
the nerve as she would have liked. We had no time to waste planning a 
pregnancy. My husband knew when we got married that our window of 
opportunity for children would be small. We got the green light and I 
was pregnant by January 94. Sadly, Our happiness did not last long. I 
miscarried in March.
    I shut myself off from the rest of the world for a while. That 
summer I drank . . . a lot . . . Looking back it wasn't fully out of 
depression it was also to hide my other problems. It was easier to hide 
my dizziness and stumbling and visual problems if I had a few drinks 
than to admit there was something else wrong with me. Somehow we got 
through it and by September I was pregnant again. This time I told no 
one until I was past the point of my last miscarriage. I was so fearful 
of losing this one I would wake up thinking I was in labor, pushing and 
everything. The pain was pretty intense the first couple of months, but 
it did give me an excuse again for my klutziness. Then around 3\1/2\ 
months an amazing thing happened, I felt great!!!! For about 5 months I 
was almost pain free, symptom free, headache free. WOW! My son was born 
on May 11, 1995. I nursed for about 3 months then tried to go back on 
birth control pills. But surprise, I could not remember to take them 
everyday. I talked to my doctor and finally decided that Depo Provera 
may be the best choice. It offered me a chance to ``save'' my uterus 
until I was ready to have another one. I wouldn't get a period so the 
pain I had with them and ovulation would be gone. At the time it made 
sense. But with it I also lost my excuses for not facing the other 
problems my body was having. And just to prove it they started knocking 
me on my butt. I started to get sinus infections. I should say again, 
my VERY first sinus infection ever came after my second injection. I 
never had allergy problems before. After months of trying different 
antibiotics my doctor finally sent me to an allergy specialist. That's 
when I found out I now had an IGA deficiency. Which had been checked by 
the doctor I saw for the infections I got while on Lupron? My IGA at 
that time was low, but still in normal range. Basically your body has 
five different Ig's for different systems in your body. They are the 
``brains'' behind your white blood cells and tell your white blood 
cells what to attack when you have an infection. I don't have enough to 
fight infections in my respiratory system. I also learned that when I 
get a sinus infection I am more susceptible to other infections like 
strep throat and bacterial laryngitis. They put me on Prednisone and a 
long course of Biaxin. Still it took months to get well. I was 
miserable and thought for sure I was going to lose my mind!!! When the 
infections finally settled down I went back to work for the Orthopedic 
practice I was with before I had my son. He was almost two and I 
thought he needed to be with children his age, rather than a mother who 
was sick all the time. It didn't take long for myself and others to 
realize something was wrong. I mean you can only walk into so many 
walls before someone asks if you're alright. My right foot has a 
tendency to ``disappear'' on me at times. I hardly noticed my tripping 
over it anymore, but others noticed. I started getting these intense 
migraines with an Olfactory aura. Everything smelled like it was 
burning. My PCP thought I should have an MRI of my brain. I had it on a 
Thursday. That evening I got a call from my doctor. They wanted to do 
more. I needed to go back to the hospital in the morning for more MRIs. 
Then when we got home I got another call. They still wanted more, so 
back we went. Since it was a Friday and I was scarred to death at this 
point my PCP gave me her home number to call if I needed anything. She 
also wanted to see me Monday morning. She didn't have the results but 
thought I should see a Neurologist. The one she had called in to read 
my MRI was not in my insurance plan, so she went through the book and 
found one that could see me right away. I can tell you this was the 
single most humiliating experience in my entire life!!!!! He came into 
the exam room abruptly, he did not even introduce himself. He picked up 
my chart and looked at me and said ``So you're feeling dizzy, what does 
that mean? Look at the wall, is the wall spinning or are you spinning'' 
I was speechless!!! I was also very scared, I still didn't have the 
results of my MRI, but I had brought the films with me and he proceeded 
to read them by holding them up to the light above his head, no light 
board. The whole time he is looking at them he's saying ``Well you get 
headaches because, unfortunately, you are a women.'' I kid you not he 
really said this!!!! Then he looks at my eyes and asks if I had been 
checked for syphilis. I had enough and left. What a jerk!!!!!!!
    I took my MRI films back to the hospital and called my PCP to tell 
them what happened. That doctors name is no longer in their book!! They 
still had not received a report on my MRI. In the mean time I went to 
an ENT to rule out Menergies disease. The doctor was very nice and said 
I had classic vertigo but did not know why. He said maybe it was just a 
virus and would go away. At this point all I could do was hope and 
pray. I made an appointment to see him back in three weeks. He said he 
would run more tests if nothing had improved. About one week before my 
follow-up with him I got a call from my PCP. She said she really wanted 
me to see another Neurologist. I got nervous and told her I was willing 
to go out of my Insurance network if she could get me in. The best the 
Neuro's office could do was 2 months away. I took it and kept my 
appointment with the ENT. This is when I learned what everyone already 
knew. My MRI showed lesions on my brain. There was a question of 
``demylinating lesions'' or M.S. I don't remember the drive back to my 
office that day. Only my supervisor driving me home. And the look on my 
husbands face when he came home and found me curled up on the kitchen 
floor. We had tried to convince ourselves that no news was good news. I 
kept thinking ``this is not real, this is not happening to me, to us.'' 
I kept calling the Neurologists office in hopes of a cancellation or 
something. I was very angry, how could everyone just expect me to put 
my brain on hold?
    When I finally saw him he showed me the area everyone was fussing 
about. I have come to call it ``my spot.'' It is an area about the size 
of a quarter on the left side of my brain. It's in the white matter, in 
the middle, near the pituitary gland, but not in an area they can 
biopsy without causing more injury. He wanted to do a battery of tests, 
lab work, visual evoke potentials and a spinal tap. So far so good, 
then about four days after my spinal tap on a Saturday morning my 
husband tried to hand me the phone. It was my parents. I could hardly 
move the right side. I couldn't grip the phone with my right hand. I 
couldn't talk, just slur. My husband was scarred, I was worse. I tried 
to get up, the right side of my body felt like it weighed 300 lbs. We 
called the neurologist and he met us in the ER. He did some tests and 
seemed worried. He decided that I should stay in the hospital for a few 
days and take IV steroids, salumedrol. He also thought that I may still 
be leaking spinal fluid and should have a blood patch, and more MRIs. 
While I was in the hospital he got the results of my Spinal tap, No 
M.S. But that did not help tell us what was going on. They took me to 
the O.R. and did the blood patch, YUCK!!!! And then off to MRI to do 
more MRIs and a MRA to check for stroke. Lesions still there but 
nothing else. After four days I still did not have the use of my right 
hand. Two days after I got home I started to swell. I though I was 
having a reaction to something, but did not know to what. As I swelled 
it felt like every cell in my body was exploding. I called the Neuro 
just to have him refer me back to my PCP. They wanted to see me first 
thing in the morning, but that meant still getting through the night. I 
should have gone to the ER but instead just sat up all night. I felt 
like I had been hit by a Mac truck. When I woke in the morning I looked 
like I had the chicken pox, but I could finally move my hand. My 
stomach hurt pretty bad but I thought it was just from the swelling as 
everything else hurt as well. When I got to my PCP's office she did an 
exam, made an appointment for me with a dermatologist for the rash and 
to top it all off she explained that the stomach pain could possibly be 
from the steroids. I have stomach problems anyway and she was afraid it 
ripped a hole in my stomach. So back to the hospital for an Upper GI. 
That turned out OK, no holes. She gave me darvocet for pain. That to go 
along with the bag of Meds I already had from the Neurologist: 
Fiorocet, imitrex, erogot, Noratryptoline, Inderol, and midrin. I am a 
walking pharmacy. Now I add Zantac back to my list.
    My Neurologist thought it would be a good idea for me to get 
another opinion since he was still not sure what to pinpoint everything 
to. So I took my MRIs and records to The Medical College of Virginia 
(MCV), to the Neurology department. There I was examined by three 
students, one resident and one fully certified physician. After two 
hours of questions and following pen lights they finally looked at my 
MRIs. The doctor turned to everyone in the room and said ``Do you see 
it?'' I felt like a lab rat!! ``WELL'' he finally gets back to me ``The 
good news is you don't have M.S., the bad news is I think you have 
Lupus''? When will this nightmare ever end??????? It took a while to 
let this ``new'' diagnosis set in. Then to organize it in my mind as to 
how they could go from one end of the spectrum to another. I started to 
do some research and it seems that Lupus and M.S. have a lot of the 
same symptoms. Even the treatment is the same. Change your diet, get 
more exercise, take steroids when you have a ``flare.'' Someone at work 
recommended a Rheumotologist and I made an appointment. He is known for 
having the longest living Scleroderma patient and very well respected 
in our community. Unfortunately it made his ego quite large. He, like 
ALL the other doctors spent a great deal of time with me during the 
initial evaluation. He ordered his own round of blood work and checked 
all my joints and muscles. He told me to bring my husband with me for 
the follow-up because he wanted him to understand EVERYTHING that was 
happening. A month later we found ourselves in the exam room with the 
doctor telling us that as far as the question of Lupus goes my SED RATE 
was OK so we should talk about something else for now . . . 
Fibromyalgia. I sat there for a half hour and only heard about 3 words 
he said. Rub here, Rub there, get more exercise, see me in a month . . 
. Now this time I am sure I was losing my mind!! I have to be, that is 
the only explanation for what has been happening to me the past few 
years. I went back for the follow up and with a list of questions. None 
of which were answered. He seemed uninterested in the Neurological 
things that were happening. I was worried about this happening in 
public or while I was alone with my son, what would happen to him??? 
Then it happened. I picked him up from pre-school and wanted to buy him 
a new pair of shoes. I was carrying him because it was a busy parking 
lot and he is very active. We had to walk up about 5 concrete steps to 
get into the shopping center. On the second step my right foot just 
``disappeared'' and down we went. His back slammed into the concrete as 
did my right knee. He's screaming, I'm dazed and hurt and people are 
running at us, out from the stores. This has to be a nightmare. I shut 
my eyes and tried to wish it all away. It didn't work. We finally got 
up. His back was OK, just a little scrape and a lot of scared. I looked 
around and could not remember where I parked the car. Then I saw it but 
it kept getting farther and farther away. My heart raced and I felt 
cold sweat just pouring out of me. An anxiety attack on top of it all. 
The doctor heard none of this. He said ``perhaps you're not getting 
enough sleep . . . he handed me a prescription for Flexeril and Ambien 
. . . ``see me back in a month or two''. I wanted to scream! I finally 
sought out a counselor and saw her for about 6 months, once a week. It 
felt so good to be told that I wasn't crazy, I really needed to hear 
that. It also felt good to be treated like my problems were important. 
She never once said the old ``it could be worse, you could have X, Y or 
Z.'' She was just as appalled at the way I had been treated and 
shuffled around from doctor to doctor, none of them taking into account 
the other's findings. She helped me come to terms with things I already 
knew, but could not except. There is no going back, I can't turn back 
the clock and not take Lupron, it's already done. There most likely is 
no cure for what is wrong with me, but there can be peace. It's just 
finding a way to obtain it. She gave me the courage to do my own 
research and ways of reaching out to others who this has happened to. 
She helped me find my voice. Now I am able to share my story, this 
story, with others and possibly prevent this from happening to someone 
else. This is my path to peace. Through this search I have found that 
My illness is probably not M.S. or Lupus . . . but something else, 
something somewhere in-between. I have begun seeking out other doctors. 
Ones to help me deal with the pain I have daily. Most of my physical 
pain is on the right side. There are signs of Arthritis in my neck, 
right hand and elbow and right knee. I also still see the Neurologist 
to keep an eye on the lesions and help with headaches. I see a Neuro-
opt, one of my Neuro's partners to keep track of the Neuropathy and 
Adie syndrome in my right eye. My husband has been VERY supportive. He 
bought me this computer to help me research. He has gone to the library 
with me and tries to find contacts who may be able to help us. He kept 
me grounded when I found the information on the NLVN. He was with me 
when we brought all this to the attention of my PCP and was told by 
them that ``the only way for the medical community to know these things 
is when a group of people search each other out and find that they have 
the same problems and the only common denominator is a certain drug . . 
. in this case LUPRON.'' He filled out my FMLA stating that this all 
started when I unknowingly got myself involved with the FDA's phase IV 
clinical trial of LUPRON. I did not know until my own research that I 
was part of a clinical trial. I never signed a consent for this. I am 
just a sure that the doctor who gave it to me NEVER filled out the 
MEDWATCH forms or reported any of my problems with this drug. I called 
TAP in the beginning just to see what they would say. I asked if they 
were going to do any long term studies on Lupron. They told me ``Maybe 
in another 20-25 years, look how long it took them to find out about 
DES.'' I can't wait that long. For now I will continue to spread this 
story to as many people as I can. I will continue to have a battery of 
tests done every couple of months. I will continue to try to find 
doctors who have some answers. I will continue to take various 
combinations of medications to try to keep my illness as stable as 
possible. I will try to continue to be the best mother and wife as I 
can be. I will continue my search for peace. . .
    To those of you who made it this far in this story and are facing 
problems from taking Lupron, please know that you are not alone in your 
fears or concerns about what this drug has done to you. There is a lot 
of information out there and a few very good sources of support. If 
there is anything I can do to help you, just ask!
    There is info available on Medscape and from the National Library 
of Medicine at pubmed. Dateline aired a show on Lupron on January 2, 
2000. They interviewed 9 women who all have permanent damage from 
taking Lupron. One of those women, started a website to offer support: 
Julie's After Lupron Forum I believe 8 of the 9 women post there as 
well as many, many others. There is also a petition: Lupron Petition. 
Kay Lazar, a reporter for the Boston Herald, wrote a 2 part article on 
our Lupron Damage in August 1999. If anyone would like the links or the 
articles, just ask. Until we find a lawyer who will take our case our 
own stories are the most powerful tool we have.
    If you have not taken Lupron yet and are trying to decide please do 
your research before you do anything that could alter your life 
forever. I know that Endometriosis is VERY painful. I still have it. I 
know that pain can cloud our judgment. The promises of a Painfree 
period of time. The HOPE it brings to be Painfree is a very persuasive 
reason for taking it. Please do not take what I have said lightly. I am 
not the only one. This is only one story, I am only one person. All I 
ask is that you search. Search your heart, your mind and weigh the 
price of your soul . . . .
    Good luck to all!
Adendum
    It is now July of 1999 and some things have changed for me since I 
ended this story. But of course, there really is no end . . . My 
husband was offered a promotion that could not be turned down. We moved 
to Orlando, FL in February of this year. We are now settled in our new 
house and my son has started in Montessori school. Before we moved I 
asked for recommendations for a GYN and have found a really good one. I 
had stopped taking Depo Provera in January of 1998, in hopes of having 
another baby. It took 14 months for my period to return. And it came 
with vengeance!! My Endo pain has been increasing every month. I told 
my GYN at the first visit my problems from Lupron. He had me start 
taking Prenatal vitamins to boost my immune system. He also referred me 
to a Reproductive Endocrinologist. We have met with him once and his 
acknowledgment of my Lupron trouble has been the best I have received. 
He added more B-6 and evening primrose oil to my list of meds. The bad 
news is he has diagnosed me with secondary infertility. He does not 
think I am ovulating at all and when he did an internal sonogram he did 
not like the looks of my ovaries. I will have an HSG next month and 
possibly start fertility drugs. His biggest concern with these meds is 
that they DO make Endo worse. They are all high in estrogen, which most 
of you know feeds the endo. He is also concerned about what other 
antibodies Lupron may have caused me to develop, so I will be tested 
for those soon. My pregnancy, if it happens, must also be followed by a 
Neurologist. I have an appointment with one soon. Basically I am 
starting from ground 0. Being a ``new'' patient, filling out endless 
forms, explaining my condition(s) and it's cause, hoping they believe 
me or at least understand. Not to mention waiting MONTHS for that new 
patient slot to open up.
    It's now the end of August. I've had the HSG, it wasn't good and it 
hurt like Hell! He was able to force the Dye through. I emphasize 
``force.'' Rob and I have talked and all this pressure to try and get 
pregnant has been wearing me down. It's felt like something I have to 
do, like having to do the laundry or dishes. The reality is we don't 
know if I am even healthy enough to have another child. My Endo pain is 
controlling me right now. I can feel it building up on my bladder. It 
hurts to pee and I feel like I have to go all the time. I went and had 
a check for a UTI, almost hoping that is all it was . . . no such luck. 
I am going to go with Lap #3 and see how I feel afterwards.
November 10, 1999
    I am now almost 2 weeks post Laperoscopy. DR found more Endo and 
adhesions. Also said my uterus was VERY red and not the color of salmon 
it should be. He also said my right ovary spasms when he touched it. I 
know that sounds kinda gross . . . Well, I don't know what any of this 
means just yet. My follow up with him is on the 15th. I am not 
recovering as quickly as I should. I can't seem to shake the ``flu'' 
like symptoms and fatigue. I had a few complications after surgery. My 
blood pressure dropped and heart rate dropped very low. They had to 
keep waking me up. Plus I had trouble peeing. Don't understand why it 
never occurred to them that I might have a UTI since I had a low grade 
fever and pain. The pain meds they were giving me came by the way of 
hip injection. Well, one struck a nerve and now my leg feels like I 
have a HUGE gaping wound in it. It hurts to shave. Supposedly this will 
slowly go away. I hope so!!! I am not feeling well today! I am nauseous 
and my stomach hurts, right around my uterus.
    I have received more published articles on Lupron. Two from the 
Boston globe from 1996. It details two women taking Lupron for 
infertility and it caused hyperstimulation of the ovaries. They both 
almost died. The others are from the HERS foundation from back in 1989-
1990. The founder of this group had all the research info on Lupron 
prior to it's approval. She has proof to show that they knew of the 
dangers of this drug before it got approved. She also gives her strong 
opinion that Lupron will turn out to be worse than Thalidomide or DES 
ever was. For my son's sake (he is a post Lupron baby) I pray to GOD 
every night that he is spared! It is bad enough that he got me for a 
Mom.
November 20, 1999
    Had my Post op on Monday. It didn't go so well. Since he was unsure 
about my uterus he took biopsies of it in different places. Turns out 
it is ALL Endo with the added probability that I now also have 
Adenomyosis. This is when Endometriosis is found embedded in the 
uterine muscle and the ligaments that attach it. He feels bad for 
second guessing and not removing what he could. I am still kinda numb 
and don't really know how to react to all this. He also showed me a 
cyst he ruptured and the ``redness'' where all the nerves are 
hyperstimulated from the endo and told me I have some PCS (pelvic 
congestion syndrome). This he explained is from an injury to the 
uterus. Most likely from delivering my son. I will start continuous BC 
Pills for now, try to buy some time while I sort through all this.
June 2000
    Had another appointment with the GYN. I wanted to see the pictures 
again. UGH! All that endo still there. So far the Continuous Loestrin 
Fe has been helping. At least as far as no added ovulation or period 
pain. He brought up the ``H'' word. He wanted to tell me what his 
thoughts on it are. Wanted to tell me that he has turned women away 
because he did not feel a hyst was the right choice for them. He says 
he does NOT believe in just yanking out a women's organs. Then he said 
whenever I was ready, so was he. . .
November 2000
    Here I am one year post op and all was going relatively well until 
I got home from a long summer vacation. Apparently at some point during 
my long trip up the east coast I got bit by a deer tick and developed 
Lymes disease. I have spent 5 of the last 8 weeks on antibiotics. I 
still have Lupron to thank for my poor immune system. It makes 
everything so much harder to fight. The lymes got into my joints and I 
have a stress fracture in my rt foot. That pain started 3 weeks ago. 
Then to top it all off the antibiotics weekend the pill enough to cause 
some severe pain. After being in bed for 2 days with a migraine my 
neurologist called in some vicodin. Rob picked it up for me and my plan 
was to take 2 and hop in the tub for a good long soak. Except that as 
soon as I actually go up the pain began. By the time I knelt to start 
the water I knew I was not going to get back up. The pain took my 
breathe away and I could not even yell to Rob for help. Zak found me on 
the bathroom floor whimpering. I HATE that he saw me like this. I hate 
even more that he had to come with us to the ER. Odd but in all my 
years with endo this was my first trip to the ER because of it. It took 
2 shots of demerol to calm me down and be able to tell them what was 
wrong. When someone came in to check my uterus, I think I could have 
kicked him into the next room! The pain was incredible. They gave me 
another shot before sending me on my way. Nothing they can do for me 
there. I went to see the GYN the next day and the word Hysterectomy was 
tossed around again. He gave me more pain med and told me to return in 
3 weeks. WELL I'm not going to make it to 3 weeks. Zak came into my 
room 2 nights ago looking for the dog and when I got up to help him the 
pain started again. This time the pain was alone. I made it to the 
bathroom in time to pass a few large clots and am still bleeding today. 
I have an appointment Friday morning. . . . If I can just make it 
through the holidays. . . .
    Jan 2001--Another Laperoscopy only reinforces Pelvic Congestion and 
Adenomyosis is worse. A hyst is unavoidable and Dr. doubts I will get 
much relief.
    November--Have Ovarian Vein Embolization. DO NOT Recommend!!!! 
AWFUL procedure! 7 hours, through Jugular, AWAKE no less. . . filling 
left ovarian veins with Coils, Balloons and glue. . .
    This procedure caused MAJOR pain and problems. Large Endometromas 
grew in left ovary. At scheduled Ultrasound in January they have 
ruptured. Talk about pain!!! Dr. does not know what to do. For the 
first time he is at a loss for a plan. My endo is beyond his 
capabilities. There is more to it but I'm running out of room.
    March 2002--Fly to California to see Dr. Andrew Cook. . . I 
honestly believe this man saved my life. I had a hysterectomy and Bowel 
resection. He FULLY understands all problems from Lupron and did a LOT 
of testing for problems he is aware of. Specifically Allergy related. . 
. I am allergic to ALL my hormones and 6 of 9 foods tested for.
    This Doctor was amazing! WWW.PELVICPAIN.COM. . . now if I can get 
the rest of my pain under control. . .If my hands could stop hurting 
for just one day. . . Or my head . . . That would be really nice! I am 
actually not sure what I would do with no pain in my life. I have lived 
with it for so long now . . .I do NOT remember what it is like to live 
without pain. Maybe someday. . .
                                 ______
                                 
                  Prepared Statement of Melody Hampton
    My name is Melody Hampton. My testamony is part of the testimony 
Lynne Millican gave to the Senate Subcommittee. I would like to add a 
few things. I am now 44 years old and I feel 94. I am sick all the time 
and a lot of days I just hardly can move due to the stiffness and pain 
in my body. I ask you to please do what ever you can to stop Lupron 
from being put into anyones body. I do not know what can be done for us 
who have the drug in our bodies already, but please don't let others be 
hurt like this. I will die knowing Lupron ruined my body and my life as 
I knew it. For me not to plead for others would be a sin. Thank you in 
advance for your efforts.
                                 ______
                                 
     Prepared Statement of Susan Hayward, Lake Havasu City, Arizona
    My name is Susan Hayward and I moved to Lake Havasu City, AZ two 
years ago from Massachusetts where I was born. In 1997 at the age of 
42, I became disabled from the U.S. Postal Service. I have been 
receiving Social Security Disability Payments and Disability from the 
Office of Personnel Management under the FERS program. I worked my 
entire life up until the point where I became disabled, 28 years 
straight, with the last 10 with the Federal Government. I had a great 
job with a private office making good wages. It was a career and I 
planned to work there until retirement in my 60s.
    The reason I am writing to you is because I want to offer my 
experience with the drug Lupron to bring awareness of the harmful side 
effects of this prescription drug. In my situation, I was administered 
19-20 injections of Lupron as treatment for endometriosis. The 
recommended dosage is 6. When you examine marketing techniques of the 
manufacturer, Abbott Laboratories and Takeda Pharmaceuticals, TAP, then 
you can understand why doctors continued to prescribe the drug. Samples 
were offered to physicians who were able to bill patients and insurance 
companies for hundreds of dollars. The total for my prescriptions is 
approximately $7,000 alone. Two doctors gave me my injections and they 
had something in common; both had me skip going to the pharmacy and 
they obtained the drug for me. When I first started using the drug I 
had to purchase it like any other prescription. Later, I believe I was 
sold prescription samples. The kickback schemes involved with TAP and 
physicians are well documented in the litigation resulting in the 
largest fine in U.S. History against a drug company. We are all paying 
the price for this so TAP and doctors could profit.
    Please think for a moment about the costs of lost productivity from 
my being disabled: approximately $900,000 disability costs being paid 
by Social Security and the Federal Retirement Program. Factor in the 
increased insurance premiums from hundreds of thousands in medical 
bills from hospitalizations, surgeries and tests. None of this 
considers the personal loss of my Thrift Savings Plan, the loss of 
contributions to the economy in commuting costs from using an 
automobile to buying lunches, or what this has done to me physically 
and emotionally.
    My motives are not monetary. I simply want to warn other 
individuals how dangerous Lupron is so they too don't become ill or 
disabled. I feel that my life has already been ruined, but perhaps I 
can help another person from having their life destroyed. Against the 
advice of lawyers I went public with my story in the Boston Herald in 
1999. By publishing my story I could compromise any future legal case, 
but it was too important for me to warn others.
    I have written to Hillary Clinton when she was in the White House, 
Senator Ted Kennedy, and my local State Representative in the past. My 
understanding of such abuses TAP makes is that individuals hide behind 
the guise of a corporation and are not accountable, all in the 
promotion of capitalism and profit. If one of those people at TAP 
thought they'd go to jail for selling poison to the public, they 
wouldn't be marketing this drug. There is a history in this country of 
exposing the public to dangerous drugs, pharmaceutical giants making 
huge profits with full knowledge of the harm they are causing, and by 
the time litigation catches up with the profiteers they have bailed out 
and reorganized. The paltry settlements offered through class actions 
are eaten up by lawyers and never truly compensate the victims for the 
amount of damage. The pharmaceutical lobby in Washington, DC is quite 
powerful and has strong influence over political voting. Understandable 
when you consider how much money they've made from all the profits. Who 
is watching out for the citizens when you have this dragon to slay? The 
FDA has done little to help claiming there is no other drug available 
that will do what Lupron does. My firsthand experience is that I would 
rather suffer with my initial diagnosis, endometriosis, than what this 
drug has done to the rest of my body and life. What I believe is that 
TAP will not stop selling Lupron until it no longer is profitable. The 
only way to make it unprofitable is through a barrage of litigation or 
a huge class action suit. But TAP has even found a way around that. All 
the successful lawsuits against TAP brought on behalf of victims for 
the damage it causes are SEALED with secrecy agreements. This makes it 
that much more difficult for victims to argue a new case and delaying a 
class action. If we can't find out what constitutes successful 
litigation then we get stalled, the statute of limitations runs out, 
lawyers don't have the resources to start a class action, and all these 
victims linger in silence. Unlike other pharmaceutical lawsuits where 
there is a direct cause and effect, i.e., Fen-Fen and heart disease, 
Lupron causes a syndrome with a host of symptoms that are very easy to 
blame on something else and difficult to prove. The ailments often 
don't show up in tests until much later if at all, so we get grouped 
into garbage diagnoses such as chronic fatigue, fibromyalgia, and 
degenerative disk disease. TAP continues to create more profits and 
victims with few obstacles.
    Please consider who the people are that are using Lupron and how 
TAP has consistently tried to find new ways to market it. Originally it 
was developed for men with late stage prostrate cancer. Any cry of foul 
play would be discounted by this group because ``they are dying 
anyway.'' Who knows how many of these men suffered more problems than 
they already had and nobody listened. Women desperate to have a baby 
were given Lupron for invitro fertilization. Many were so happy to 
finally have a child that they overlooked the health problems these 
children face. TAP decided they could use it for treatment of 
endometriosis. It doesn't cure it and causes a rapid regrowth once it's 
stopped. Like myself, most of these women are suffering with incredible 
pain and having to fight to receive the proper treatment, painkillers 
and surgical excision requiring a skilled surgeon. Fibroids temporarily 
shrink in some cases but still need to be removed. If they aren't there 
is rapid regrowth. Lupron only postpones the inevitable so why are they 
giving it to us? The FDA claims there is nothing else doctors can 
offer. TAP says we need it so they can profit. It doesn't make sense if 
it doesn't help, and it actually causes us harm. Precoscious puberty is 
being treated with Lupron with younger victims without the opportunity 
to gain an education before their memories are compromised. The memory 
problems can best be described as Swiss Cheese, neither long or short 
term, more like holes with total blanks. It is my understanding this is 
some form of seizure where thought processes are interrupted mid 
sentence and you draw a complete blank. Sex offenders are given 
probation if they take the drug as a form of chemical castration. The 
majority of the public hold sex offenders with disdain, so who is going 
to be looking out for their interests? Are there other markets for TAP 
to sell Lupron? I assume they are lobbying for cloning so they can sell 
more in IVF to harvest doner eggs. With each new group of users it 
lends credibility to the use of Lupron i.e., they've been using it for 
years to treat prostate cancer so it's safe for treatement of 
endometriosis. In reality, it should not be prescribed for anyone who 
isn't terminal, and then only as a last resort. That's what it was 
developed for and that's the only way it should be used.
    As a way to offer greater understanding of what Lupron can do to 
someone's life, I'd like to offer background on my situation and 
illustrate the difficulties this drug has caused.
    Like many people in this country, I was born into a lower middle 
class family. There were difficulties in my parents' marriage and I 
ended up being raised by my grandparents with 3 siblings with help from 
public assistance, or welfare. This humbled me a great deal and I 
learned a good work ethic early. We were raised with strong morals and 
religious background.
    My whole life I aspired to be a success and have a normal 
lifestyle. I knew education was important and had planned to attend 
college after high school, but the year I qualified for a free college 
education was in 1973 when Richard Nixon cut the welfare bill. A lot of 
hope went away when that happened but I started working and eventually 
went through college attaining my Bachelor's in Business 10 years later 
and even took a post graduate course at Harvard. I worked full time 
during those years with the exception of one when I was writing my 
thesis, and worked part time instead.
    Upon completion of college I decided on a career in the U.S. Postal 
Service. I was very proud to work in the largest mail processing 
facility in my area. We were voted #1 in the country for customer 
satisfaction and I met the Postmaster General. There was a tremendous 
sense of pride for all the employees but with me, it was even more so 
because I tied a lot of my sense of self esteem and worth in with my 
job and accomplishments.
    A few years into my career I applied for a managerial promotion and 
wasn't awarded it. The person who received the promotion had a high 
school diploma and military background as a prison guard in the Coast 
Guard. The next several years I endured extreme stress at the hands of 
this professionally jealous supervisor. I sought assistance from the 
American Postal Workers' Union, higher level management including the 
Plant Manager, EEO, and the Employee Assistance Program. By the time I 
was allowed to report to a different supervisor, I had developed 
endometriosis.
    What followed was years of pain and surgeries. I needed my job in 
order to support myself and lived in fear that I would not be able to 
maintain the schedule from illness. I sought treatment in Boston at 
University Hospital, now a part of Boston Medical Center. I assumed I 
would receive the best care with the newest techniques. The doctor who 
treated me was well known for his research and after a few months and 
diagnosis, placed me on Lupron. Between October 1992 and October 1997 I 
received 19-20 injections of the drug from my doctor in Boston and my 
local gynecologist. Both doctors knew of each other and the number of 
shots I was receiving. Instead of finding a solution for the pain the 
doctors would put me right back on Lupron until the bone loss was too 
great.
    People ask me how I could allow the doctors to give me so much 
Lupron. It's a multifaceted issue. From my background you can see that 
my sense of self worth directly correlated to my accomplishments at 
work. I struggled to get myself educated and gain a career. It took 
many years for me to attain the level I was at and I was in the career 
I chose to be. This was my lifelong plan and goals. How could I 
maintain that if I was always sick? I had to do everything I could in 
order to keep working for the financial and emotional benefits. 
Eventually it got to the point where I could no longer do it. Later on 
I was diagnosed with post traumatic stress disorder.
    The main symptoms that I attribute to my using Lupron are the 
vertibrae bone loss diagnosed as degenerative disk disease, arthritus, 
myalgia, bone pain, fatigue, swelling in hands and feet, severe 
allergies, nausea, weight increase, severe memory loss, vision changes, 
sleep changes, rapid heart beat, and abdominal pain. During the first 
doses of Lupron I developed panic attacks which I never had. The first 
few years after using Lupron I had horrendous migraines. Before I took 
Lupron I had none of these conditions; I was a normal woman in her 30s 
with endometriosis. After taking Lupron, I don't go a day without pain 
and am under constant doctor care to control pain and autoimmune 
problems. I left my home and moved to Arizona where I didn't know a 
sole so I could get relief from the arthritus problems. It was worth 
the chance that maybe I could gain my health back and be able to work 
again. That is all I've ever wanted when you consider where I came 
from.
    I'd like to outline the frustration we Lupron patients suffer at 
the hands of the medical establishment. The symptoms and diagnostic 
tests don't always show what we experience and often we have to be 
tactful in how we approach doctors. If you mention Lupron sometimes 
they brush us off because they know it's a bad situation and fear being 
dragged in a lawsuit. What's the alternative, not tell them? Others 
dismiss you like you are making the whole thing up in your head like a 
hypocondriac. In 6 years of dealing with my health problems post 
Lupron, I have yet to find an MD who believes my problems are caused by 
it. You don't take a healthy woman in her 30s to a woman with a host of 
medical issues in her 40s by endometriosis alone. Stress didn't cause 
my back to become herniated in 3 places. I didn't move to Arizona for 
arthritus relief because I don't have it, but that's what my tests say. 
The total lack of support from the medical profession is appauling, and 
there are thousands of people who need this documented. We need to know 
which tests to have, the proper pain relief medications, what we can do 
to help ourselves. Right now all we are doing is muddling along trying 
to help each other and most of us have no medical background. I attempt 
reading studies and biology reports that I struggle to understand 
because I know there are answers. Isn't that what we pay doctors to do? 
We don't all become doctors because we get sick, but that's what we are 
expected to do when it comes to Lupron.
    The other side of the equation is the legal establishment. I've 
contacted half a dozen lawyers and they all say the same thing; without 
a doctor saying your problems are directly related to the use of 
Lupron, you don't have a case. This is a need for an expert witness. It 
costs thousands to hire one. Most of us don't have the resources and 
law firms won't proceed without the guarantee of a positive outcome in 
the case. Another issue is the recommendation of only 6 doses of Lupron 
during the course of a lifetime. I had two doctors who ignored that and 
when presented to a lawyer they said it's a matter of opinion 
regardless of it being in the Physicians Desk Reference. That attitude 
has resulted in people like me with multiple injections over the course 
of years. Patients have no recourse and doctors don't face any 
consequences. With all the sealed verdicts and secrecy agreements, it 
makes it very difficult to obtain legal representation within the 
window of opportunity the statute of limitations allows. Once a class 
action does finally open up the lawyers will be looking for a 
percentage of ALL claims, probably a third of any settlement. Class 
actions are historically lower awards than a regular court case because 
there are so many litigants and often they drive the company into 
bankruptcy. As one lawyer put it, you are likely to receive a dime on a 
dollar. Class actions have administators too and they also take a 
portion. The true victims in these cases rarely get compensated for 
what they endure, while the tag-a-longs get rewarded handsomely. My 
feelings are to forget the money, let's stop poisoning new people, but 
that won't happen without TAP feeling the financial pinch.
    I have mentioned what this whole experience with Lupron has done to 
me physically and the frustrations I continue to endure with the legal 
and medical professionals, but I want to stress what this has done to 
me personally. Yes, I lost my career and am disabled, but more than 
that it has robbed me of any faith in our system of justice and what is 
right. How disheartening do you think it is for me knowing they are 
poisoning innocent teens because their bodies are developing too 
quickly? I worry so much about other people and what will happen to 
them knowing what this has done to me. How can everyone turn a blind 
eye to what is going on here? Do the lobbyists hold that much influence 
that people toss their morals out the window? Isn't that why people go 
into politics to begin with, to make a difference for the good of all? 
I know in my heart there are caring people in this world who just don't 
understand this situation with Lupron. I want as many people to know 
about it as possible so they can warn people not to take it, and 
hopefully someone will become motivated enough to do something to help 
the ones like myself who are just too sick to do anything about it.
    Also on a personal level, I enjoy travel more than any other 
passtime. Now I can no longer carry a bag or wheel a suitcase because 
my back can't sustain it. I was lucky enough to visit Europe before I 
stopped working and at the time, I kept thinking I better go now while 
I can. Thank goodness I had the insight to know to go when I did 
because I could never travel long distance again. This is the most 
enjoyable aspect of my life and now it's gone caused by the bone damage 
Lupron gave me.
    The most frustrating aspect of this whole situation is the fact 
that people have known about this for a very long time. I uncovered 
data published in 1990 warning about Lupron and feel it is important to 
incorporate it into this letter. It is obvious to me that the FDA is 
not protecting the public. TAP continues to find new ways to market 
this dangerous prescription drug and the doctors don't delve into it 
deeply enough to understand exactly what it does to our pituitary 
gland, hypothalmus, and adrenal systems that make us have problematic 
autoimmune responses. The economic costs will be catastrophic with 
millions of victims should this continue unbridled. It will make my 
loosing my Thrift Savings Plan look like a drop in the bucket.
    In closing I'd like to express my appreciation for you taking the 
time to listen and showing interest. We need caring individuals to take 
a stand against this multi-national corporation harming us so more 
people won't suffer. I am sincerely grateful for anything you can do to 
help.
                                 ______
                                 
                 Prepared Statement of Melanie Waldman
    I am one of the women named in the testimony about Lupron. I am not 
looking for a lawsuit, reparations, etc., I just beg that someone does 
something to stop this drug from being used without more information to 
all parties.
    Before taking the spray version of Lupron (synarel) I was an 
architect and able to work full time. Since my health was destroyed by 
this drug I have not been able to work. I am fortunate that I am 
married and that my husband is able to support us on his salary. I am 
also fortunate that his health insurance coverage allows no more than 
1,000 dollars out of pocket expenses because without that we would 
never be able to afford the IV treatments for the resulting joint pain 
that keep me functioning at all. I also know the drug is commonly used 
off label for people like me who suffer from endometriosis. (the ironic 
piece is that I'm used to it hoping to increase my chances to get 
pregnant and it destroyed my ability to carry a pregnancy, I am also 
lucky that we were able to afford to adopt a child) yet Doctors are not 
aware that so many of us have horrible permanent side effects. It seems 
like this issue falls throughout the regulatory cracks. The FDA has not 
approved it for this use, the manufacturer promotes it but is not 
responsible for its off label repercussions and the Doctors. have no 
way to find out the facts.
    In a time with more important issues like war and the economy, I am 
sure this issue doesn't seem pressing, but I ask that you do your best 
to see that something is done to prevent more woman from being 
needlessly harmed.
                                 ______
                                 
 Prepared Statement of Lisa A. Plante, former U.S. Congressional staff 
                                 person
    My problems with Lupron started when I was wrongly diagnosed with 
endometriosis (all I had was adhesions) I was suffering from years of 
pain with adhesions attached to many internal organs. After many 
surgeries due to cysts I still experienced much pain.
    I asked a young doctor (OBGYN) to please make me better so I could 
live normally, enjoy my family and 2 children. This particular doctor 
said I would have to try Lupron before he did anything invasive. I was 
never properly diagnosed with endo before my injections of Lupron but 
was absolutely desperate to get better and decided to trust this 
doctor's advice.
    Immediately after having the first injection of Lupron I 
experienced terrible bone & joint pain, chest pain, depression, 
insomnia, foggy brain. . . etc., the doctor said it would be temporary 
and to stick with more monthly injections..
    I questioned doctor prior to Lupron injections on a pamphlet an 
organization (NLVN) was leaving in libraries that a friend had given 
me. The doctor asked to keep the pamphlet and told me not to worry that 
it was probably a competing drug company. I spoke with people who 
warned me of Lupron but thought they were spewing lies for one reason 
or another. I decided to trust my doctor in thinking he would never 
give me something that would harm me. I desperately wanted to work with 
him in getting me better and took 3 more injections of Lupron.
    I was encouraged to take more injections of Lupron but abdominal 
pain was unbearable plus the side effects . . . this was a nightmarish 
time. . .
    The doctor and his partner decided to take out my only remaining 
ovary plus the adhesions. After adhesion removal, I felt better in the 
abdomen but continued to have bad side effects from Lupron. After 8 
years, I still have bone and joint pain, foggy brain, chest pain, 
bloating . . . My teeth have thinned out tremendously, hips hurt, arms 
& joints are weak and sore. I do excercise a little, which helps some 
but feel like a very old lady at age 46.
    I don't think the doctor meant to cause me any harm and realize the 
constraints of many doctors these days but to give this drug out to 
just anybody is not a good idea. I especially don't think it's good to 
use in helping women's fertility! My gosh, where is the common sense?
    dates took Lupron:

        Lupron Depot 3.75 kit TAP--1/20/1995
        Lupron Depot 3.75 kit TAP--2/27/1995
        Lupron Depot 3.75 kit TAP--3/29/1995
        Lupron Depot 3.75 kit TAP--4/28/1995
                                 ______
                                 
                     Prepared Statement of J. Wolf
    Dear Senator,
    I was given your name by someone who is aggressively trying to help 
those of us who were poisoned by Lupron, I appreciate you reading this, 
my experience with this drug. I went to my doctor complaining of 
cramps, I was told to have an exploratory laparoscopy, when this was 
completed, I went back to the doctor and was told I had endometriosis. 
I was a little mystified since that is related to infertility and other 
symptoms that I did not have but he was my doctor and I had no reason 
to doubt his findings. He prescribed Lupron injections and told me it 
was a safe drug and I would only experience mild menopause symptoms 
with the loss of my menstrual cycle but all would return to normal as 
soon as the injections were stopped so I began them Sept. 1996. I 
returned to his office for monthly injections until Nov. 1996, when I 
began to complain of worsening pain, the injections were stopped and I 
became worse. I repeatedly went back to the doctor sometimes doubled 
over in pain (which was not there before Lupron). He did another 
laparoscopy with no findings and I was then sent to a gastroentologist 
for which he referred me also with no findings from the endoscopy and 
colonoscopy he performed, I kept going back in major pain (not present 
before Lupron) He then started to patronize me insinuating this was a 
women's problem and maybe in my head and suggested I go get the nerve 
in my gut cut, in other words, let's stop the pain without finding the 
cause, I began to doubt this doctor, I requested all my medical records 
from his office and to my shock found that the laparoscopy he performed 
before Lupron showed NO endometriosis and neither did the biopsy! By 
now it's the end of 1997 and I'm suffering to no end. I realized I may 
have been used for this experimental drug on women and I believe it was 
because of my insurance that I was placed on this drug, had I not been 
able to afford it I don't think I would be suffering right now. I took 
matters into my own hands and started all over again seeing a different 
set of doctors, I went through a series of tests all over again when a 
doctor suggested I get a nuclear stomach emptying test. This test 
showed an extremely delayed emptying (normal stomach is less then 60 
minutes and mine was 500 minutes!!). I finally had a diagnosis to go 
with the pain, I saw several doctors that took several more tests and I 
was told I had gastroparisis (a paralyzed stomach). With research and 
many questions I learned that this does not go away and I'd have it for 
the rest of my life, I knew Lupron did this to me because I never had 
stomach problems before Lupron so I requested the test again a few 
months later, my theory was since Lupron did this to me perhaps as it 
leaves my system I will improve, I was right 4 months later it was 
better, I repeated it a total of 4 times in two years each getting a 
little better as the Lupron was further from my system, I began to 
research Lupron and to my horror found it was used for prostate cancer 
and on sex offenders to castrate them, I was not told this by my doctor 
nor was I allowed to see the paper work accompanying this drug because 
it was giving to me at the doctors office. Given these facts I would 
have chose NOT to take this drug, I was deceived in the worse way 
possible first by a doctor who gave me a drug with no known medical 
diagnosis and then by the drug company for not disclosing the facts, 
side effects, uses, ect. . . , I am left with a stomach that will never 
be the same, my personality has changed, I have weight issues that I 
never had before, with a paralyzed stomach the food just sat there for 
days causing my gallbladder to become so infected I had to have it 
removed, I had doctors tell me I needed a hysterectomy and almost 
removed all my women parts for no reason, I had a doctor tell me to get 
the nerve in my stomach cut to ``shut me up'', my hair has fallen out, 
my menstrual cycle is now painful, I have fits of rage from my hormones 
being sent into overdrive and suffer from major depression, I was 
basically castrated myself because Lupron has murdered my sex drive. I 
am not the same person and know I will never get back the person I was 
before this poison, I want help, I need help, This drug is a danger and 
it shouldn't be given, The drug company needs to be held accountable 
for the pain it caused and will cause in the future. I only hope you 
can do something because as I understand a new generation of Lupron 
babies will be popping up soon as the gynecological field is pushing 
this drug to desperate infertile women without knowing the 
ramifications of it's use!
    Thank You,

        PS: Please be advised I have my test results and all records 
        proving everything said in above statement.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
